<html>
<title> - TO AUTHORIZE APPROPRIATIONS FOR THE DEPARTMENT OF STATE FOR FISCAL YEAR 2012, AND FOR OTHER PURPOSES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
                  TO AUTHORIZE APPROPRIATIONS FOR THE
    DEPARTMENT OF STATE FOR FISCAL YEAR 2012, AND FOR OTHER PURPOSES

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2583

                               ----------                              

                       JULY 20 AND JULY 21, 2011

                               ----------                              

                           Serial No. 112-119

                               ----------                              

        Printed for the use of the Committee on Foreign Affairs

TO AUTHORIZE APPROPRIATIONS FOR THE DEPARTMENT OF STATE FOR FISCAL YEAR 
   2012, AND FOR OTHER PURPOSESthe following is for the title page 
                               (inside)





                  TO AUTHORIZE APPROPRIATIONS FOR THE
    DEPARTMENT OF STATE FOR FISCAL YEAR 2012, AND FOR OTHER PURPOSES

=======================================================================

                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 2583

                               __________

                       JULY 20 AND JULY 21, 2011

                               __________

                           Serial No. 112-119

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
67-499                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4522352a05263036312d2029356b262a286b">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman

CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California         Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT

                   Yleem D.S. Poblete, Staff Director

             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                                 DATES

July 20, 2012....................................................     1
July 21, 2012....................................................   515

                               MARKUP OF

H.R. 2583, To authorize appropriations for the Department of 
  State for fiscal year 2012, and for other purposes.............     2

  Amendments to Title I, Authorization of Appropriations, offered 
    by:
      The Honorable Connie Mack, a Representative in Congress 
        from the State of Florida................................   169
      The Honorable Donald M. Payne, a Representative in Congress 
        from the State of New Jersey.............................   189
      The Honorable Ted Poe, a Representative in Congress from 
        the State of Texas.......................................   197
          Second degree amendment to the Honorable Ted Poe's 
            amendment offered by the Honorable Russ Carnahan, a 
            Representative in Congress from the State of Missouri   199
      The Honorable Russ Carnahan................................   209
      The Honorable Donald M. Payne..............................   216
      The Honorable Karen Bass, a Representative in Congress from 
        the State of California..................................   229
      The Honorable Frederica Wilson, a Representative in 
        Congress from the State of Florida.......................   233
      The Honorable Brian Higgins, a Representative in Congress 
        from the State of New York...............................   240
      The Honorable Brian Higgins................................   243

  Amendments to Title II, Department of State Authorities and 
    Activities, offered by:
      The Honorable Frederica Wilson.............................   246
      The Honorable Connie Mack..................................   249
      The Honorable Brian Higgins................................   256
      The Honorable Theodore E. Deutch, a Representative in 
        Congress from the State of Florida, offered by the 
        Honorable Howard L. Berman, a Representative in Congress 
        from the State of California.............................   259
      The Honorable Howard L. Berman.............................   262
      The Honorable Theodore E. Deutch...........................   292
      The Honorable Theodore E. Deutch...........................   301

  Amendment to Title III, Organization and Personnel Authorities, 
    offered by the Honorable Jeff Fortenberry, a Representative 
    in Congress from the State of Nebraska.......................   305

  Amendments to Title IV, Foreign Assistance, offered by:
      The Honorable Ted Poe and the Honorable Jeff Duncan, a 
        Representative in Congress from the State of South 
        Carolina.................................................   308
      The Honorable Howard L. Berman.............................   313
      The Honorable Donald A. Manzullo, a Representative in 
        Congress from the State of Illinois......................   319
      The Honorable Allyson Schwartz, a Representative in 
        Congress from the Commonwealth of Pennsylvania...........   328
      The Honorable Jeff Duncan..................................   333
      The Honorable Allyson Schwartz.............................   337
      The Honorable Michael T. McCaul, a Representative in 
        Congress from the State of Texas.........................   348
      The Honorable Russ Carnahan................................   354
      The Honorable Connie Mack..................................   360
      The Honorable David Cicilline, a Representative in Congress 
        from the State of Rhode Island, and the Honorable William 
        Keating, a Representative in Congress from the 
        Commonwealth of Massachusetts............................   371
      The Honorable Ted Poe......................................   376
      The Honorable Theodore E. Deutch...........................   383
      The Honorable Tim Griffin, a Representative in Congress 
        from the State of Arkansas...............................   394
      The Honorable Donald M. Payne..............................   417
      The Honorable Jeff Duncan..................................   426
      The Honorable Howard L. Berman.............................   461
      The Honorable Howard L. Berman.............................   481
      The Honorable Dana Rohrabacher, a Representative in 
        Congress from the State of California....................   489
      The Honorable Theodore E. Deutch...........................   498
      The Honorable Dana Rohrabacher.............................   500
      The Honorable Jeff Fortenberry and the Honorable Donald M. 
        Payne....................................................   505
      The Honorable Jeff Fortenberry.............................   511

  Amendments to Title V, United States International 
    Broadcasting, offered by:
      The Honorable Dana Rohrabacher.............................   530
      The Honorable Brad Sherman, a Representative in Congress 
        from the State of California.............................   545

  Amendments to Title VI, Reporting Requirements, offered by:
      The Honorable Jeff Fortenberry.............................   547
      The Honorable Allyson Schwartz.............................   549

  No amendments offered to Title VII, Proliferation Security 
    Initative

  Amendments to Title VIII, Miscellaneous Provisions, offered by:
      The Honorable Christopher H. Smith, a Representative in 
        Congress from the State of New Jersey....................   551
      The Honorable Eni F.H. Faleomavaega, a Representative in 
        Congress from American Samoa.............................   553
      The Honorable Connie Mack..................................   555
          Second degree amendment to the Honorable Connie Mack's 
            amendment offered by the Honorable Gary L. Ackerman, 
            a Representative in Congress from the State of New 
            York.................................................   560
      The Honorable Allyson Schwartz.............................   564
      The Honorable Ted Poe......................................   567
      The Honorable Christopher S. Murphy, a Representative in 
        Congress from the State of Connecticut...................   571
      The Honorable Jeff Fortenberry en bloc amendment...........   575
      The Honorable Donald M. Payne..............................   588
      The Honorable Howard L. Berman.............................   594
      The Honorable Christopher H. Smith.........................   608
      The Honorable Eni F.H. Faleomavaega........................   613
      The Honorable Eni F.H. Faleomavaega........................   617
      The Honorable Christopher H. Smith.........................   623
      The Honorable Gerald E. Connolly, a Representative in 
        Congress from the Commonwealth of Virginia and the 
        Honorable Howard L. Berman...............................   638
      The Honorable Dana Rohrabacher.............................   650
      The Honorable David Cicilline and the Honorable William 
        Keating..................................................   653
      The Honorable Christopher H. Smith.........................   657
      The Honorable Eliot L. Engel, a Representative in Congress 
        from the State of New York, and the Honorable Connie Mack   664
      The Honorable Howard L. Berman.............................   669
      The Honorable Tim Griffin..................................   673
      The Honorable William Keating..............................   686
      The Honorable Dana Rohrabacher.............................   697
      The Honorable Eliot L. Engel...............................   701
      The Honorable Christopher H. Smith.........................   705
      The Honorable Howard L. Berman.............................   709
      The Honorable Christopher S. Murphy........................   713
      The Honorable Christopher H. Smith.........................   721
      The Honorable Gregory W. Meeks, a Representative in 
        Congress from the State of New York, and the Honorable 
        Dan Burton, a Representative in Congress from the State 
        of Indiana...............................................   724
      The Honorable Jeff Duncan..................................   727
      The Honorable Jeff Duncan..................................   733
      The Honorable Howard L. Berman en bloc amendment...........   736

  Amendments to Title IX, Security Assistance, offered by:
      The Honorable Howard L. Berman.............................   785
      The Honorable Allyson Schwartz.............................   803
      The Honorable Gerald E. Connolly...........................   805
      The Honorable Howard L. Berman.............................   807

  No amendments offered to Title X, Peace Corp Volunteer Service 
    Protection

  End of bill amendments to H.R. 2583 offered by:
      The Honorable Howard L. Berman.............................   815
      The Honorable Howard L. Berman.............................   834
      The Honorable David Cicilline..............................   841
          Second degree amendment to the Honorable David 
            Cicilline's amendment offered by the Honorable 
            Christopher H. Smith.................................   845
      En bloc amendment offered by various members...............   867
      The Honorable David Cicilline..............................   909
          Second degree amendment to the Honorable David 
            Cicilline's amendment offered by the Honorable Howard 
            L. Berman............................................   918
      The Honorable Eliot L. Engel...............................   924
      The Honorable Gregory W. Meeks.............................   929
          Second degree amendment to the Honorable Gregory W. 
            Meeks' amendment offered by the Honorable David 
            Rivera, a Representative in Congress from the State 
            of Florida...........................................   936

                                APPENDIX

Markup notice....................................................   962
Markup minutes...................................................   963
The Honorable Howard L. Berman: Prepared statement...............   965
The Honorable Karen Bass: Prepared statement.....................   972
The Honorable Russ Carnahan: Prepared statements.................   975
The Honorable Theodore E. Deutch: Prepared statements............   978
The Honorable Eni F.H. Faleomavaega: Prepared statement..........   989
The Honorable Allyson Schwartz: Prepared statement...............   995


TO AUTHORIZE APPROPRIATIONS FOR THE DEPARTMENT OF STATE FOR FISCAL YEAR 
                      2012, AND FOR OTHER PURPOSES

                              ----------                              


                        WEDNESDAY, JULY 20, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m., in 
room 2172, Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order.
    I am pleased to welcome my colleagues to our markup this 
morning.
    Pursuant to notice, I call up the bill, H.R. 2583, the 
Foreign Relations Authorization Act for Fiscal Year 2012, the 
text of which was provided previously to your offices. As 
members were notified yesterday, this bill is considered as 
read and open for amendments by title.
    [H.R. 2583 follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. And after the ranking member and I 
deliver our opening remarks, I would be pleased to recognize 
other members who wish to speak for 5-minute opening 
statements.
    All members are given leave to insert remarks into the 
record, should they choose to do so.
    We will then proceed to consider each title of the bill in 
order, which the clerk will designate by number and descriptive 
title.
    I want to give folks a heads-up that, given the large 
number of recent and unknown amendments, I may be routinely 
reserving a point of order as each one is called up, and this 
does not necessarily reflect opposition to the amendment. It is 
just intended to give us a chance to look at the amendment, to 
make sure that it is within the committee's jurisdiction and 
doesn't expose the bill to unintended problems down the line. 
We have enough intended problems.
    I also want to give everyone a heads-up that it is 
presently my intention to recess temporarily only for floor 
votes so that we can get through the bill as expeditiously as 
possible. And there may be points in the day when I decide to 
postpone and roll recorded votes, but, in that case, I intend 
to postpone those votes to a time certain, giving members at 
least \1/2\-hour notice before 7 o'clock p.m. and a full hour's 
notice after 7 o'clock p.m. so that there are no surprises. We 
don't want folks to miss votes inadvertently.
    Before turning to the ranking member, I now recognize 
myself to speak on this measure.
    In my capacity as chairman, my priority has been to ensure 
that this committee is fully responsive to the interests and 
concerns of the American people. To that end, I have sought to 
significantly increase our oversight efforts and promote 
greater accountability, efficiency, and transparency in the 
agencies, programs, and operations under this committee's 
jurisdiction. I have been committed to expanding the 
committee's role in shaping U.S. foreign policy and have opened 
many committee-hosted meetings to the entire House.
    Fiscally, this legislation is based on the bipartisan, 
carefully negotiated agreement for the Fiscal Year 2011 budget 
that was signed in to law earlier this year. The funding levels 
in this bill represent no increase from the Fiscal Year 2011 
continuing resolution and will result in billions of dollars in 
savings in comparison with the proposed Fiscal Year 2012 
budget.
    The bill contains a long list of important measures, many 
of them resulting from the committee's enhanced oversight and 
investigations, and I will mention only a few.
    In foreign assistance, a key objective is to move countries 
from perpetual dependence on foreign donors to sustained 
economic growth that will lift their population out of poverty 
using innovative, efficient methods and public-private 
partnerships. In this regard, the goals of the Millennium 
Challenge Corporation serve as a guide, especially the emphasis 
on ending corruption and ensuring that U.S. taxpayer dollars do 
not fill the coffers of corrupt governments.
    Microfinance and microenterprise are vital to achieving 
economic growth, which is why the bill urges support for these 
efforts and also includes language on micro-credit in sub-
Saharan Africa. An example of what can be accomplished through 
bipartisan cooperation are the very important initiatives on 
Sudan and micro-credit offered by Mr. Payne, the ranking member 
on the Subcommittee on Africa, Global Health, and Human Rights. 
I want to thank Mr. Payne for his leadership on these issues 
and for his commitment to working closely with me and other 
members to ensure their inclusion in the base text.
    In the area of nonproliferation, by strengthening the 
Proliferation Security Initiative, we are enhancing the tools 
available to the President by preventing Iran from acquiring 
nuclear weapons, ballistic missiles, and other means of 
assaulting the U.S. and or our allies. I appreciate Ranking 
Member Berman's input in improving this provision in the bill. 
The related change in the reporting requirement in the Iran, 
North Korea, and Syria Nonproliferation Act, from 6 months to 
120 days, reflects our determination to address years of delay 
by the State Department in meeting its mandated schedule for 
reports on nonproliferation.
    The bill continues this committee's long support for human 
rights and democracy programs, including provisions offered by 
members on both sides of the aisle concerning Vietnam's ongoing 
restrictions on religious freedoms, the rights of religious 
minorities in Egypt, and strong support for the reunification 
of Cyprus.
    Among the most important provisions in the sections 
regarding U.S. security assistance are the reaffirmation of our 
unwavering support for our ally Israel, especially by ensuring 
that its qualitative military edge will remain robust and that 
our close relationship and cooperation on missile defense will 
continue.
    The bill also conditions U.S. assistance to Egypt, Lebanon, 
Yemen, and the Palestinian Authority. Basically, if Hamas, 
Hezbollah, and other foreign terrorist organizations or violent 
extremist groups hold policy positions in their respective 
governments, they are not to receive U.S. assistance unless the 
President determines that it is vital to the national security 
interest to allow it to go forward. Our goal is to promote 
democratic governments in these countries and ensure that U.S. 
taxpayers are not subsidizing groups that seek to undermine 
U.S. policies, interests, and allies.
    Turning to Pakistan, the language in this bill puts that 
government on notice that it is no longer business as usual and 
that they will be held to account if they continue to refuse to 
cooperate with our efforts to eliminate the nuclear black 
market, destroy the remaining elements of Osama bin Laden's 
network, and vigorously pursue our counterterrorism objectives. 
I think the prospect of a cutoff of assistance will get their 
attention and that the games being played with our security 
will finally stop.
    There are a number of provisions that stem from this 
committee's oversight and investigations, such as the reforms 
of the State Department Inspector General and the Peace Corps. 
A priority in the Peace Corps section has been to address the 
sexual assault and abuse that Peace Corps volunteers have been 
subjected to and that have been ignored or covered up by 
officials for decades. This is based on bipartisan legislation 
introduced by Mr. Poe that I was proud to cosponsor and work on 
with him.
    There are many other reforms and provisions aimed at 
improving our foreign relations agencies and programs, but I do 
not have time to go in to them here.
    From the first, my goal has been to have a foreign 
relations authorization bill enacted into law after many years 
of failed attempts or simply not trying at all. To ensure that 
we do not relapse, the authorization in this bill is limited to 
1 year, which will necessitate our addressing it again in order 
to ensure that we thoroughly review how State has implemented 
the policies and reforms. It is my hope that this bill will 
emerge from the committee with the support of a large majority 
and then quickly go to the floor. Hope springs eternal.
    With that, let's get to work. I now turn to my good friend, 
the ranking member, Mr. Berman, for the remarks that he might 
care to make. Mr. Berman is recognized.
    Mr. Berman. Well, thank you very much, Madam Chairman.
    Passing a State Department authorization bill is one of the 
most important responsibilities of this committee, and I am 
actually glad that you are making it one of your priorities.
    It is also encouraging to hear that your leadership is 
insisting that we pass our authorization bill before the 
appropriators mark up the State-Foreign Operations bill. That 
is an important first step in making this committee relevant 
again.
    Having said that, the process that got us to this point 
leaves much to be desired and, in the end, severely undermines 
the credibility of this legislation. As you know, we received a 
first draft of this on July 6th. We appreciate the fact that 
you agreed to delay the markup by a week, but, frankly, 2 weeks 
is simply not enough to thoroughly review and vet a bill of 
this complexity. That is especially the case when the text 
keeps changing and changing. The most egregious example is the 
title on foreign assistance, which was not added until this 
past Saturday night. This is no way to run a railroad.
    I can't help pointing out--well, I could help pointing out, 
but I choose not to--I choose to point out that when this 
committee last did a State bill 2 years ago, you, as the 
ranking member, had a draft text 2 full months before the 
markup, and the bill was introduced 2 weeks before committee 
consideration.
    I wish that my concerns about the bill were limited to 
process, but they are far deeper than that. I appreciate the 
fact that the authorization levels for the State Department and 
certain foreign assistance are more or less the same as in the 
Fiscal Year 2011 budget deal. But I thought the numbers were 
too low when the deal was passed, and I continue to believe 
that today.
    As our Nation's top military leaders have said repeatedly, 
diplomacy and development, along with defense, are the key 
pillars of our national security strategy. By shortchanging two 
of the three legs of that national security stool, we undermine 
our ability to respond to crises, promote stability, and pursue 
a wide range of U.S. interests around the world. This will 
inevitably result in greater reliance on the military and end 
up costing us much more in the long run.
    Beyond the authorization levels, I have serious concerns 
about some of the policy provisions in this bill. On Pakistan, 
you tie all economic assistance to the certification in Kerry-
Lugar that applied to security assistance, toughen the 
certification, and eliminate the waiver. I agree we need to get 
tough with Pakistan on security assistance, but I fundamentally 
disagree with your approach on economic aid. The key to long-
term stability in Pakistan and the only way we will ever get 
Pakistan to change its behavior, is by strengthening its 
civilian institutions--not weakening them, as this bill will 
do.
    I have serious concerns about a number of provisions in the 
foreign assistance title, and I strongly object to the 
conclusion of the global gag rule, which we just learned about 
on Sunday night. I am also troubled by the authorization level 
for the peacekeeping account, which will put us back into 
arrears with the U.N., and oppose the cap on funding for the 
OAS, which I believe will only strengthen the hand of Hugo 
Chavez. I could go on and on about the other problematic 
provisions in the bill--and, unfortunately for the rest of you, 
I probably will during the course of the markup--but you get 
the point.
    Regrettably, I get the sense that what I already consider 
to be a bad bill is going to get much worse in this markup and 
on the floor. That will simply ensure that this is a one-House 
bill.
    Madam Chairman, I appreciate your willingness to make some 
sensible changes in the bill: Tough but workable waiver 
standards for the Middle East security assistance, and making 
technical changes to a number of other provisions. But, in the 
end, I remain strongly opposed to numerous provisions in the 
legislation, and I urge my colleagues to vote no.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Berman.
    Mr. Smith?
    If members choose to make an opening statement, I will 
recognize them. You are not forced to do so.
    Thank you.
    Mr. Burton?
    Mr. Burton. Madam Speaker, you said everything so well, I 
will pass.
    Chairman Ros-Lehtinen. Mr. Rohrabacher?
    Mr. Rohrabacher. Well, everything we do here is in context 
of what is going on in our country right now. And let's just 
note, any money that we approve of spending today, what we are 
doing is asking for a policy of borrowing that money from China 
in order to give to someone else, so that our children can be 
in debt and pay back what we are giving to somebody else right 
now. If it is worth it, it is worth it. Well, sometimes you 
have to do things like that. But I think we should make sure we 
keep that in mind as we start spending our children's money.
    Chairman Ros-Lehtinen. Mr. Ackerman?
    Mr. Ackerman. This is a bloody mess. Let's just get to 
work.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Chabot?
    Mr. Mack?
    Mr. Fortenberry?
    Mr. Fortenberry. I will pass.
    Chairman Ros-Lehtinen. Thank you.
    Ms. Schmidt?
    Mrs. Schmidt. I will pass.
    Chairman Ros-Lehtinen. Mr. Rivera?
    Mr. Marino?
    Mr. Kelly?
    Mr. Griffin?
    Ms. Ellmers?
    Did I skip Poe? Judge Poe, I apologize.
    Ms. Buerkle, do you have any opening statement?
    Ms. Buerkle. No, thank you.
    Chairman Ros-Lehtinen. Bless you, my child.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Madam Chair, for the record, I associate 
myself with the opening statement of our ranking member. And I 
look forward to the markup. Thank you.
    Chairman Ros-Lehtinen. And the bloody one by Mr. Ackerman.
    Mr. Meeks?
    Mr. Meeks. Thank you, Madam Chair.
    And I just want to say that my reaction from reading it 
reminded me of some epic opening remarks before reviewing the 
Bush administration's international affairs budget request for 
Fiscal Year 2007. In a speech by one of our esteemed former 
colleagues, Chairman Henry Hyde, known as ``The Perils of the 
Golden Theory,'' Mr. Hyde told us about a paradox lying at the 
heart of America's relationship with the world:

        ``Massively engaging the world while living on an 
        autonomous island in the global sea . . . breeds 
        arrogance . . . self-delusion . . . and inevitably 
        distorts perceptions of the world by insulating them in 
        a soothing cocoon.''

    And I find that this legislation before us is a perfect 
example of what Chairman Hyde was warning us about, because, as 
our ranking member has indicated, the proposal consists of 
sweeping cuts to programs aimed at improving the security 
situation in global hotspots, including Lebanon, Pakistan, 
Yemen, and the Palestinian Authority. And it also proposes--the 
proposal instructs the administration to disengage from, or 
remove funding for international organizations, including the 
United Nations and the Organization of American States, in some 
cases bringing the United States into financial arrears.
    To me, that is not wise. And we need to make sure that we 
are working in a way that brings this world closer together so 
that we can have a better tomorrow than our today and 
yesterday.
    And I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Sires?
    Mr. Sires. I have no comment. Thank you very much.
    Chairman Ros-Lehtinen. Mr. Connolly?
    Mr. Connolly. Thank you, Madam Chairman.
    Just briefly, you know, we are a great power, and a great 
power cannot retreat from its responsibilities. It is a false 
choice to say we simply cannot afford to invest in our 
diplomacy. The cuts being presented today I think will be 
seriously injurious to the interests of our country and to the 
ability of the United States as a great power to execute its 
diplomatic responsibilities. I believe that that is, as I said, 
a false choice, and it is one that I hope my colleagues will 
ponder carefully as we undertake this markup today.
    And I thank you, Madam Chairman.
    Chairman Ros-Lehtinen. Ms. Schwartz?
    Ms. Schwartz. I also just pass just to say that I do have a 
few amendments I hope to offer later to see if we can't reach 
some bipartisan agreement on a few different points. I think 
there will be broader questions, obviously, that will come up 
during the course of the day, but I, too, agree that it is a 
question of priorities and the degree to which we are a world 
power and engage and act as such.
    Thank you.
    Chairman Ros-Lehtinen. Ms. Bass?
    Mr. Cicilline?
    Mr. Cicilline. Thank you, Madam Chairman.
    I also have several amendments which I intend to offer, and 
I would associate myself with the remarks of our ranking 
member.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Higgins?
    Mr. Keating?
    And Ms. Wilson.
    Ms. Wilson of Florida. Thank you, Madam Chair.
    I am extremely concerned about the general course of this 
legislation before us today. Of course, I am concerned about 
the cap on funding for the U.N. peacekeepers, the decision of 
the Mexico City language restricting choice for women, the 
Millennium Challenge Corporation's lessened ability to help 
people in poor countries, including Haiti. I am really 
concerned about Haiti and the U.N. peacekeepers.
    My concern with the legislation is that it will not allow 
the State Department to play a key role in national security. 
Two years ago, then-Chairman Berman said,

        ``The State Department and our other civilian foreign 
        affairs agencies have a critical role to play in 
        protecting U.S. national security. Diplomacy, 
        development, and defense are the three key pillars of 
        our U.S. national security policy. By wisely investing 
        resources to strengthen our diplomatic capabilities, we 
        can help prevent conflicts before they start and head 
        off conditions that lead to failed states.''

    Former Defense Secretary Robert Gates said,

        ``It has become clear that American civilian 
        institutions of diplomacy and development have been 
        chronically undermanned and under funded for far too 
        long.''

    Let's support our troops, let's fight for the poor, let's 
get a bill that provides the Department of State with the 
resources it needs to succeed.
    Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you very much.
    We will now proceed to consider title I of the bill.
    The clerk will designate the title.
    Ms. Carroll. H.R. 2583, To authorize appropriations for the 
Department of State for Fiscal Year 2012, and for other 
purposes. In the House of Representatives, Ms. Ros-Lehtinen 
introduced the following bill; which was referred to the 
Committee on Foreign Affairs. A bill to authorize----
    Chairman Ros-Lehtinen. Without objection, we will consider 
that the title is read.
    Are there any amendments to the title?
    Mr. Mack is recognized.
    Mr. Mack. Thank you, Madam Chair. And I first want to say, 
congratulations for bringing this bill forward and all of your 
hard work and dedication to the committee's work.
    Chairman Ros-Lehtinen. Thank you. Does the member have an 
amendment?
    Mr. Mack. I have an amendment at the desk.
    Chairman Ros-Lehtinen. The clerk will read the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Mack of 
Florida. In section 102 of the bill (relating to----
    Chairman Ros-Lehtinen. Thank you. We will consider the 
amendment as read.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Does everyone have a copy of the 
Mack amendment at their desk?
    Mr. Berman. Reserving a point of order.
    Chairman Ros-Lehtinen. Yes, yes.
    I will recognize the author for 5 minutes to explain the 
amendment.
    Mr. Mack. Thank you, Madam Chair.
    And as my position as the chair of the Western Hemisphere, 
it has become clear to me that the OAS is an organization in 
Latin America that has failed. It is failing not only in the 
tradition and the values of America, but it has failed in its 
charter to defend freedom and democracy in the Western 
Hemisphere. It appears that, every time we turn around, the 
OAS, instead of supporting democracies, is supporting and 
coddling, if you will, the likes of Hugo Chavez.
    So what my amendment does is very simple. It restricts all 
funds to the OAS. And for the members on the committee who are 
concerned about saving money, this would save about $48.5 
million out of this authorization.
    Again, Madam Chair, it would be one thing if the OAS was a 
value-added partner in Latin America that actually stood for 
its charter and that took the hard stands to make sure that 
those that want to destroy freedom and democracy don't have an 
organization to use in that attempt. And I think that the OAS 
has been complicit in the continued down spiral of some of the 
countries in Latin America, disappointed that the OAS continues 
to turn its back on its own charter.
    And, with that, Madam Chair, I yield my time back to you.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Mack.
    Do any other members seek recognition on the Mack 
amendment?
    Mr. Berman is recognized.
    Mr. Berman. Yes, Madam Chairman, I rise in opposition--I 
don't rise--I sit in opposition to the amendment. I speak in 
opposition to the amendment.
    This amendment wipes out all funding for the OAS. I was 
upset with the cut of $5 million in the base bill. This wipes 
it all out. There will be amendments to address that issue 
later on. I will be real quick on this.
    We have a treaty obligation to pay our assessed dues to the 
OAS. This is a unilateral act by this committee, were this 
amendment to be adopted, to abrogate that treaty obligation. 
This is the only regional organization that brings together the 
34 democratically-elected governments of the region, including 
the United States and Canada.
    The notion that we are going to defund the OAS, undermine 
the organization's ability to maintain rank-and-file staff 
critical to advancing its important work in key areas, the 
Inter-American Commission on Human Rights, decrease our moral 
and political standing in the organization, avoid all this--I 
can't think of anything that Hugo Chavez would want more.
    I urge a no vote on this amendment.
    Chairman Ros-Lehtinen. Thank you.
    Do other members wish to be recognized?
    Mr. Rohrabacher?
    Mr. Rohrabacher. Thank you very much.
    Mr. Mack, of course, has enveloped himself in understanding 
what is going on in Central and South America. He has obviously 
had some experiences with the Organization of American States 
which would suggest that the $48 million that we are borrowing 
from China in order to give to the Organization of American 
States may not be a good investment and may be working contrary 
to our interests, not only our interests in terms of 
responsible spending but also, perhaps, other interests.
    And I would ask Mr. Mack if he could--I would yield to him 
the balance of my time so he could explain to us exactly some 
of the things the OAS may be doing that make them not worthy of 
us borrowing money in order to give to that organization.
    Chairman Ros-Lehtinen. Mr. Mack is recognized.
    Mr. Mack. I thank the gentleman.
    And to the point of the ranking member, if you have an 
organization that everyone is committed to that continues to 
fly in the face of the values of the United States and of its 
own charter, it is irresponsible of us to continue to fund such 
an organization that gets in the way of democracy, that gets in 
the way of the goals of the United States. I think a 
continuation of funding of the OAS sends the wrong message to 
Latin America. It sends a message that if you want to be a part 
of the ALBA nations, the OAS is a perfect place for you to come 
and move your agenda.
    So I would say to my side of the aisle that there hasn't 
been an example of the OAS supporting freedom and democracy. 
And I will give you an example. When the former President of 
Honduras tried to circumvent its own Constitution, it was the 
OAS and Hugo Chavez that attempted to help the President of 
Honduras to take over the country in a style only Hugo Chavez 
could support. So Chavez was flying on the plane, on the OAS 
plane, delivering ballots in Honduras against the Constitution 
of Honduras, and the ultimate removal of the President of 
Honduras.
    This organization is not supporting the ideals of America 
or freedom and democracy, and we cannot continue to support 
such an organization. I would suggest to the gentleman, the 
ranking member, that--why would we continue to fund an 
organization that is intent on destroying the exact things that 
this committee is working hard for in Latin America?
    And I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Rohrabacher. Madam Chair?
    Chairman Ros-Lehtinen. Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. Yeah, let me just note, $48.5 million, 
well, let's let Mr. Chavez pay for it. I mean, he is spending 
$48 million here and there to undermine our interests, putting 
money into revolutionary movements. Why should we finance all 
of this? And let's let Mr. Chavez pick up that----
    Mr. Berman. Would the gentleman yield?
    Mr. Rohrabacher. Well, yes, I would.
    Chairman Ros-Lehtinen. Mr. Berman is recognized.
    Mr. Berman. The fact is that there is--I thought there was 
only one, but if we pass this amendment maybe there are two 
governments that are actively and systematically trying to 
weaken the OAS. That one government was Venezuela. Why? Because 
it is the only regional organization that has called Chavez on 
the carpet repeatedly on democracy, on human rights, on free 
expression.
    We are joining his side of this debate. He keeps trying to 
set up alternative organizations to the OAS. We are doing his 
work for him.
    I yield back.
    Chairman Ros-Lehtinen. Mr. Rohrabacher?
    Mr. Rohrabacher. Well, thank you very much for that 
insight.
    And I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Ackerman, I know that you would like to be recognized, 
but Mr. Connolly was quicker on the draw.
    Mr. Connolly is recognized, and then we will go----
    Mr. Connolly. Madam Chairman, I certainly would yield to 
Mr. Ackerman and then reclaim my time.
    Chairman Ros-Lehtinen. Be glad to.
    Mr. Ackerman is recognized.
    Mr. Ackerman. Thank you, Madam Chairman.
    Very kind of you.
    I am sorry, Howard, I don't like Chavez. I've got to agree 
with Mr. Rohrabacher. These people are just not worthy of us. I 
mean, the whole world is not worthy of us. I mean, none of them 
are really worthy of us. I mean, we know what freedom is. They 
don't like freedom.
    I think I--you know, at the proper time I might just offer 
an amendment to just pull out of the world and put all this 
money into digging a moat around the United States and putting 
a big dome over the thing and----
    Chairman Ros-Lehtinen. Does the gentleman have an 
amendment?
    Mr. Ackerman [continuing]. Keep us--I will see if I can 
have staff draft that.
    I mean, this thing is getting awful ridiculous. I mean, we 
have to borrow from the Chinese to help people in our own 
hemisphere? I mean, what are we degenerating in to? What are we 
becoming?
    Complaining that, you know, we are borrowing from the 
Chinese? Well, let me tell you something, the Chinese are 
investing more than $48.5 million in each and every one of 
those countries and all over the world. That is our real 
competition. We are competing on this planet for the hearts and 
minds of people who should be looking toward us because of the 
value that you claim we represent, and indeed we do, but we are 
not representing it to others.
    We should be extending our hand and trying to cooperate and 
bring them to a better place, the place that we see and the 
place that we know is a good place. They look to us for 
leadership and inspiration. And here we are, for a lousy $48.5 
million, willing to symbolically turn our back on our own 
hemisphere.
    And the people who look to us as brothers for a little bit 
of understanding and sympathy--and if we turn our backs on the 
people in our hemisphere, there is no hope. There is no hope 
for us winning the hearts and minds of people anywhere in 
places that are in trouble, where people are in distress, where 
they feel there is no hope for the future generations, and they 
will look to others who do help them and do want to extend that 
hand.
    This is folly. It is more than folly, it is dangerous. We 
are approaching the precipice of leaving this planet. And if 
that is what you want, that is what you are going to get. And 
you have the votes to do it; that is the frightening thing. But 
what you should be looking at is opportunities to be helpful, 
to make this world a better place. And what better place to 
start but in our own hemisphere?
    Forty-eight-point-five million dollars. If you want to do 
away with it, you have the power. Let's see what you do with 
it.
    Chairman Ros-Lehtinen. Mr. Burton is recognized.
    I thought he was going to claim his own time. Would you 
like to have the full 5 minutes? I think he just ceded his 
spot.
    Mr. Connolly. I was just going to claim my own time, that 
is right, Madam Chairman.
    Chairman Ros-Lehtinen. Okay. Thank you.
    Mr. Burton is recognized.
    Mr. Burton. Thank you, Madam Chairman. I yield my time to 
Mr. Mack.
    Chairman Ros-Lehtinen. Mr. Mack is recognized.
    Mr. Mack. I thank the gentleman.
    To my colleagues, this is no joke. We continue to fund an 
organization that does not support the ideals of America. We 
continue to fund an organization that is bent on being a 
roadblock to democracy in our hemisphere. This isn't a joke. 
This isn't putting a moat around the United States. And it is 
offensive that someone would make that analogy.
    Why would you continue to fund an organization that has no 
intentions on even ensuring its own charter? So, in effect, 
what you are doing is you are hurting the people of Latin 
America by supporting the OAS. You can't give an example of 
when the OAS has fought for democracy. It has done everything 
it can to be a roadblock for democracy. There have been more 
opportunities for the OAS to stand up for its own charter, and 
it has failed to do so.
    So I would suggest to other members, this is not a joke. If 
you want to continue to fund an organization that you can't 
defend other than saying, ``Well, we should put a moat around 
the United States,'' is laughable.
    I would suggest to the members that there is a better way, 
moving forward, in Latin America than the OAS. And that is the 
United States will stand with our friends and our allies, to 
support free-trade agreements, to pass free-trade agreements. 
If you really want to care--if you really care about the people 
of Latin America, then let our allies know that if you are a 
friend of the United States, that we will be a friend of yours. 
Stop blocking the free-trade agreements.
    That is the way to move forward in Latin America, not to 
continue to fund an organization that is destroying the 
opportunity for democracy. And that is what you will be doing 
if you do not support this amendment. You will support an 
organization that is destroying the hopes and dreams of Latin 
America. If this committee and if this Congress is serious 
about supporting our friends, we will pass the free-trade 
agreements, and we will defund the OAS.
    I yield back.
    Chairman Ros-Lehtinen. Mr. Burton, would you like to----
    Mr. Burton. Yes, I will yield the balance of my time to Mr. 
Rohrabacher.
    Chairman Ros-Lehtinen. Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. Well, just a note, that when $48 million 
that we will borrow from China in order to give and finance the 
Organization of American States is referred to as a lousy $48 
billion--or million--pardon me for mixing the M's and the B's 
there--a lousy $48 million, let me tell you what $48 million 
can do in my district.
    Forty-eight million dollars can take care of the needs of 
our veterans in my district who are coming back from the war 
and need help. And now we are in such a bad financial situation 
that we are struggling to come up with that money. Forty-eight 
million dollars could provide all of the schools in my district 
the--how do you say--taking care of their own--the maintenance 
of their facilities that they now are in desperate need of. 
That is what a lousy $48 million can do.
    Now, why are we borrowing money from China in order to put 
our children in debt when we have needs like that at home? And 
I take it that Mr. Mack is an expert. He is the chairman of the 
subcommittee, and so I am taking his concerns very seriously, 
rather than just looking at $48 million as just a lousy $48 
million. No, it is really an important $48 million.
    Thank you.
    Chairman Ros-Lehtinen. Mr. Burton?
    Mr. Burton. Madam Chairman, I will yield back the balance 
of my time.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman. And I speak in 
opposition to this amendment.
    You know, we have just been presented with a lot of false 
choices. Somehow, support for an organization this country 
created and founded, an organization than stood with President 
Kennedy during the Cuban missile crisis unanimously against the 
emplacement of nuclear-tipped missiles 90 miles from our 
border, an organization that has been useful on a multilateral 
basis to U.S. foreign policy and to our relationships in 
building democracy in this hemisphere is somehow tantamount to 
actually doing the opposite of all of those things. And, oh, by 
the way, it is a deficit-reduction measure.
    That is a false choice. This is a great country. The fact 
that any multilateral organization doesn't bend to our will 100 
percent is to be expected. That is why we roll up our sleeves 
and participate in the arena, in the international arena. This 
amendment is nothing but a retreat from our international 
responsibilities as a great power, with false arguments to back 
it up.
    This committee needs to stand tall. We are the Foreign 
Affairs Committee of the United States Congress. We are not 
going to tolerate any retreat by the United States in terms of 
its responsibilities, especially in our own backyard.
    I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Rivera is recognized.
    Mr. Rivera. Thank you, Madam Chair.
    I think it has been made pretty clear by the sponsor of the 
amendment and by others that the OAS is simply an enemy to the 
interests of the United States and an enemy to the interests of 
hemispheric security. Not only that, they have been an ally to 
the enemies of freedom, the enemies of freedom and democracy in 
the hemisphere.
    A lot has changed since that unanimous vote in 1962, where, 
yes, the OAS did stand with the United States. But in 
contemporary events, we can see that there is a huge difference 
in the OAS. We see what happened in their treatment of the 
forces of democracy in Honduras. And we see what has happened 
with their treatment toward the forces and enemies of democracy 
and freedom in Cuba.
    Just in recent years, in recent times, the OAS has voted to 
allow Cuba, a nation that has been designated a sponsor of 
terrorism by the United States, voted to allow them back into 
the OAS. In fact, the person leading that charge, Mr. Insulza, 
Secretary of the OAS, was quoted as saying, ``One of the 
greatest sources of legitimacy of the Cuba system is Fidel 
Castro. And I say this with very much respect and an admiration 
for this individual.''
    Well, maybe Mr. Insulza didn't understand the reality of 
what is going on in Cuba: That there are no human rights, no 
civil liberties, no free elections. Maybe he didn't understand 
that the Castro dictatorship murdered four Americans in 
international airspace in 1996, unarmed civilians, murdered 
Americans, murdered in international airspace.
    Maybe he didn't understand the fact that Cuba is harboring 
fugitives from U.S. justice, including cop killers. And I know 
we have my distinguished colleague from New Jersey, Mr. Sires, 
here, who could probably speak to that better than I can 
because it happened in his State--cop killers being harbored in 
Cuba by the Castro dictatorship. Fugitives from justice in the 
United States, dozens and dozens of them wanted by the FBI.
    Maybe Mr. Insulza and others in the OAS didn't realize that 
right now, as we speak, there is an American being held hostage 
in Cuba--an American citizen, Alan Gross, being held hostage by 
the Castro dictatorship.
    Or maybe Mr. Insulza didn't understand what is going on 
with the opposition movement, the human rights activists in 
Cuba, people like Orlando Zapata Tamayo, who was killed by the 
regime after being on a hunger strike. And just in recent days, 
in the last few weeks, his mother came here to Congress and 
demonstrated the blood-soaked shirt that her son was wearing 
when he was murdered by the Castro dictatorship.
    So when we talk about the treatment of the United States 
toward international organizations, really what we need to talk 
about is the treatment of these international organizations 
toward the interests of democracy and security in our 
hemisphere.
    It kind of reminds me of that scene in ``Animal House'' 
where the college pledge is pledging the fraternity, and as 
part of the ceremony to become a member of the fraternity he 
has to get paddled, and every time he gets paddled, he says, 
``Please, sir, may I have another?'' How much longer are we 
going to say to the OAS, ``Please, sir, may I have another?''
    I understand a little bit about Stockholm Syndrome, where 
the hostage becomes enamored with their persecutor. And I don't 
know if that is going on with this administration or with some 
who support involvement in the OAS, but maybe it is. But the 
time for the abuse is over.
    Mr. Ackerman. Would the gentleman yield for a question?
    Mr. Rivera. I will in just a moment.
    The time for the abuse is over. What we need to do is 
engage. This is not isolationism. This is engaging our allies--
with free trade, with supporting democratic reform, with 
supporting civil liberties in the hemisphere.
    When someone gives me the answer to exactly how the OAS is 
supporting our interests, supporting the interests of 
democracy, freedom, human rights, in the hemisphere, then 
perhaps we can consider funding the OAS.
    And I will yield my time for that answer.
    Mr. Ackerman. Thank you.
    Chairman Ros-Lehtinen. The gentleman is recognized for 15 
seconds.
    Mr. Ackerman. Thank you.
    The gentleman does know that Cuba is not a member of the 
OAS and gets none of its money, does he not?
    Mr. Rivera. They voted to allow the OAS--to allow Cuba into 
the OAS, and Cuba can become a member----
    Chairman Ros-Lehtinen. The time has expired. Thank you very 
much.
    Mr. Payne?
    Mr. Ackerman. Madam Chair?
    Chairman Ros-Lehtinen. No. No.
    Mr. Payne. Mr. Ackerman, I will yield to you.
    Chairman Ros-Lehtinen. Mr. Payne, you can yield the time to 
Mr. Ackerman. But Mr. Payne is recognized for 5 minutes. Each 
member is recognized for 5 minutes.
    Mr. Ackerman. Madam Chair, we are each entitled to our 
opinion, and I do respect yours. And----
    Chairman Ros-Lehtinen. Wait.
    Mr. Payne, you had already given him the time?
    Mr. Payne. Yes, I yield a portion, a small portion.
    Mr. Ackerman [continuing]. And I appreciate your usual 
fairness, but I was making a point, and there were 10 seconds 
left, at least on my clock. I assume they are all synchronized. 
But I was just making the point that Cuba is not a member and 
does not become a member, cannot become a member, unless they 
become a democracy, which is what I think we all hope.
    Thank you.
    Chairman Ros-Lehtinen. Mr. Payne?
    Mr. Payne. Reclaiming my time. And I will yield some time 
to Mr. Berman.
    Mr. Berman. The OAS is our enemy? I don't know--we are 
really living in two different worlds.
    There has been no area of the world where the transition 
from military dictatorships and authoritarian rulers to 
democracy has been greater than in Latin America. Since 1962, 
Cuba has not been a member of OAS. Cuba can only come back in 
to the OAS if they accept the democratic principles of the OAS.
    The OAS has existed and worked during the entire time of 
this incredible transition. Remember what was going on in Chile 
and Argentina and Brazil and throughout--and Central America? A 
lot of us were here in the 1980s.
    This has not been a failure of American foreign policy; 
this has been a triumph of American foreign policy. Yes, we've 
still got a few bad actors there and we have to stay vigilant 
about them. But this is not a basis for leaving the OAS.
    I yield back.
    Chairman Ros-Lehtinen. Mr. Payne?
    Mr. Payne. Thank you very much.
    I certainly oppose this amendment. I think it is very 
shortsighted.
    You know, we keep talking about Honduras and how this 
government went and took this--wrestled democracy back from 
this President. Yeah, they wrestled it back with the army with 
fixed bayonets taking him to the border and throwing him out of 
the country, which is usually a coup d'etat.
    However, we can forget that. That is past as prologue, so 
we are not going to deal with this tremendous democratic and 
judicial way that Hondurans dealt with the President. They sent 
him out of the country, with the army dropping him off at the 
border. So, so much for democracy in Honduras.
    Let me just say that I think that we are totally 
shortsighted. I agree, maybe it won't be a moat, but maybe it 
will be the great wall--China tried it--and we will be safe 
because we will keep everybody out.
    Our country has more people coming from OAS countries than 
any country in the world. We are going to turn our back on 
countries where our new Americans are coming to the U.S., where 
they will continue to have relationships. We are going to say, 
we don't really believe in being involved in this organization 
where your parents live because we are better than that, and 
therefore we are going to withdraw.
    I hope someone in Quebec doesn't say anything bad about the 
United States because I guess we will cut Canada off, you know, 
just build a wall around them too.
    We are about as fickle as--I could see anything being 
happened. Someone says something and we say, let's take our 
ball, because I own it, and let's run home and lock the door. 
It doesn't even make sense.
    You got Brazil now dealing with the new--we are talking 
about, open up free trade. Brazil is dealing with the South 
Africa-India deal, which Turkey is starting to get in, and we 
are going to be shut out. You know what? They are going to tell 
us, take our free-trade agreements, they don't need us when we 
continue to treat people in a paternalistic way, that we don't 
want to deal with you, you are right on our borders, but we 
don't like one or two persons in your group of states.
    So I think that we are going in the wrong direction. I 
always hear about it and I see all those great things that they 
could do in Mr. Rohrabacher's district, but those things have 
come up in the regular budget and they have been voted down. 
So, all of a sudden, we love fixing up schools and helping old 
women and feeding little children because we want to take the 
money that China is lending us away from those evil South 
American countries. You know, this may become very hilarious. 
It is better drama than you see on Broadway.
    I think my time has expired.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Chabot is recognized.
    Mr. Chabot. Thank you, Madam Chair.
    I would like to yield my time to the gentleman from 
Florida, Mr. Rivera.
    Mr. Rivera. Thank you. Actually, I will just take a few 
seconds. I want to be clear about the facts, because we are all 
entitled to our opinion but not to different facts.
    The fact is that, in 2009, the OAS voted to provide for the 
Castro dictatorship's reintegration into the OAS system. And 
leading the charge for that was Secretary Insulza, who stated, 
``I want to be clear: I want Cuba back in the inter-American 
system. I think it was a bad idea to remove Cuba in the first 
place.''
    This is unprecedented, never happened before. Of course, 
before that, since 1962, the Castro brothers were spreading 
revolution throughout Africa and Asia and Latin America. The 
Castro brothers were allowing Cuba to be used as a surrogate 
enemy stronghold of the Soviet Union--different times.
    In modern times, this is unprecedented, that the OAS would 
make these unilateral concessions to the Castro dictatorship--
unilateral because there has been absolutely no movement 
whatsoever toward democratic reform, as outlined in the OAS 
charter, toward promoting human rights and civil liberties in 
Cuba, none whatsoever. And yet, unilaterally, the OAS Secretary 
and the Organization voted to give this concession to Cuba--a 
vote by the OAS, a unilateral concession to the terrorist 
dictatorship of the Castro brothers in Cuba.
    So, again, I would like someone on this panel to please 
address the question I posed earlier. What has the OAS done to 
promote freedom and democracy and to promote the interests of 
not only the United States but of freedom-loving people all 
over the hemisphere?
    And I will yield back to Mr. Chabot.
    Mr. Chabot. Reclaiming my time----
    Chairman Ros-Lehtinen. Mr. Chabot?
    Mr. Chabot [continuing]. I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Meeks is recognized.
    Mr. Meeks. Thank you, Madam Chair.
    This would be funny if it wasn't so serious.
    Number one, everything that I am hearing on the other side 
strikes of isolationism. That is what it is. You know, you can 
go and say that it is not, but everything that you are saying 
is saying that the United States wants to be isolated from 
everyone else, especially in our hemisphere.
    You make it sound as though the OAS is some organization 
that is just flying in the air. The OAS has members. It has a 
democratic process, also. And those members include our allies. 
I have not heard Colombia say, ``We don't want the OAS.'' I 
have not heard Mexico say, ``We don't want the OAS.'' I have 
not heard Peru say, ``We don't want the OAS.'' I have not heard 
Brazil say, ``We don't want the OAS.'' I have not heard 
Argentina say, ``We don't want the OAS.'' All of these are 
allies of ours. They are all part of the OAS. They, each and 
every one of them, have a vote in the OAS. It is not some 
individual, by him or herself, that is a dictator that tells 
the OAS. It is our allies, the same ones you say you want to 
trade with, the same ones that we have agreements with. Those 
are our friends. And by saying that we don't want to support 
the OAS, we are, in fact, slapping them in the face. Those who 
support us the most, we are slapping them in the face.
    We say we want trade agreements? Well, the President said 
he wants a trade agreement. Pass TAA, and we will have those 
trade agreements done. We are ready to move.
    But to say that we are going to just turn our backs on all 
of our friends in this hemisphere after all that they have gone 
through. And when you look at the OAS, for example, the 
elections in Haiti, and when you look at how they helped with 
reference to these trade agreements, to formulate some of these 
trade agreements, to implement some of these trade agreements, 
these are the kinds of things that we need.
    It reminds me of what I said in my opening statement with 
reference to the words of the former chair, Henry Hyde, when he 
said, ``massively engaging the world while living on an 
autonomous island.'' That is what we are trying to do, live on 
an autonomous island in the global sea. What does it breed? It 
breeds arrogance and self-delusion. And if we cut off payment, 
our dues, or paying our dues, or forcing ourselves to go into 
arrears, what we are doing is we are becoming arrogant and 
self-delusional, which is not the way that we should be moving 
in this time on our own hemisphere, when we are talking about 
getting past the post-Cold War period and working closer 
together.
    You don't just throw away the whole barrel of apples 
because maybe there is one or two you don't like. We figure out 
how we fix it, how we work together. We work with our allies. 
There are votes that take place. That is what we should be 
talking about.
    Mr. Rohrabacher. Will the gentleman yield for a question?
    Mr. Meeks. When I finish, I will yield.
    What we need to be focused on is, how do we continue to 
work with our allies in this hemisphere? And without the OAS, 
we are saying to them, ``We don't want to work with you.''
    And I yield to the gentleman.
    Chairman Ros-Lehtinen. Mr. Rohrabacher?
    Mr. Rohrabacher. Obviously, there is a difference as to the 
value of the OAS. Let me just note that bilateral approaches 
are not isolationist approaches. What we are talking about is a 
multilateral approach versus a bilateral approach.
    But if you do support a multilateral approach, which you 
currently do, and the OAS is an example of that, perhaps you 
could give us three examples of what the OAS has accomplished 
in the last 5 years that you think would be worthy of this $50-
million-a-year investment in OAS.
    Chairman Ros-Lehtinen. Mr. Meeks?
    Mr. Meeks. Well, I will tell you one: The elections in 
Haiti, first of all. I think that was a good thing.
    I also believe when you had the craziness in the Honduras, 
you know, with what was going on back and forth, working with 
those nations and how we were putting that together, that is 
number two, you know, just right quickly off the top of my 
head.
    Number three, when we talked about--even when we were 
working with Peru, and their helping with the implementation of 
that trade agreement. The OAS was part of that also.
    I further would say that, despite what was said earlier, 
you know, when you talk about the nations coming together, even 
with regards to Cuba, they didn't say, let Cuba in. They said 
that Cuba had to adhere to the democratic charter. In other 
words, that puts pressure on Cuba to say that, ``You have to 
become a democracy. You want to be part of us? Then you have to 
have a democratic organization. If you don't have a democratic 
organization, you can't be a part of us at the OAS.''
    Those are three quick things that I can tell you right off 
the top of my head.
    Chairman Ros-Lehtinen. The gentleman's time has expired.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Thank you, Madam Chair.
    I have been listening very carefully with these statements 
that have been made on this very important issue. I do want to 
say that I do have the utmost respect for the gentleman who 
offered the amendment. He is the chairman of our Subcommittee 
on the Western Hemisphere, for which I respect his opinions.
    As I was listening to the comments made, why we should not 
authorize $48.5 million to the funding of the OAS, I just have 
to respectfully disagree with my good friend, the chairman of 
our Subcommittee on the Western Hemisphere, for this one 
reason: I think it has been clearly recognized that our 
relationship with Latin America or the Western Hemisphere has 
been one of indifference. We have never really committed 
ourselves to the point where we really look at the Western 
Hemisphere not only as a very important ally in this part of 
the region of the world, but we never really seem to be serious 
enough in taking up the issues affecting hundreds of millions 
of people living in this part of the world.
    One thing that I want to share with my good friend, the 
chairman of our subcommittee, if we look at OAS as a regional 
organization the same way that we look at the United Nations, I 
cannot--OAS has an excellent report card saying that we have 
done everything in terms of our own expectations. Our 
membership in the United Nations is a classic example where 
members are not necessarily democracies. We have countries that 
are not democracies at all that are members, and we are members 
of this global organization, the United Nations.
    We talk about--treat this issue clearly and in a way that 
is of an equal basis, if I want to put it in those terms. And I 
have to agree with my good friend from New York that we ought 
to take Chairman Hyde's statement and observation very 
seriously about what exactly is the position or what role the 
United States has to play with our global community.
    I say we ought to continue the engagement process. We may 
not necessarily agree with some of the policies or positions 
taken by some of our friends who are members of the OAS, but 
that is part of the deliberative process as a member of a 
regional organization like the OAS, the same way that we are 
members of the United Nations but we don't necessarily agree 
with some of the positions taken by some of the countries that 
are members of the United Nations.
    So I suggest to my good friend, this proposed amendment 
really is almost like, ``It is either my way or the highway, 
buddy.'' And I don't think that is really the approach that we 
should take in terms of how we should be treating other members 
of a regional organization like the OAS. And for that matter, I 
respectfully have to object to my good friend's proposed 
amendment.
    I yield back.
    Mr. Burton. Madam Chairman? Madam Chairman?
    Chairman Ros-Lehtinen. Are you yielding back, Mr. 
Faleomavaega?
    Mr. Faleomavaega. I gladly yield to my good friend from 
Indiana.
    Chairman Ros-Lehtinen. Mr. Burton is recognized.
    Mr. Burton. I was just wondering if it would be in order to 
move the previous question. We have a lot of amendments, and we 
have been on this one for well over an hour.
    Chairman Ros-Lehtinen. I think that--thank you, Mr. 
Faleomavaega. We will----
    Mr. Burton. I will withdraw that, but I just think moving 
on the previous question is not a bad idea.
    Chairman Ros-Lehtinen. Please withdraw that.
    Mr. Faleomavaega, would you yield back your time?
    Mr. Faleomavaega. Madam Chair, I yield back.
    Chairman Ros-Lehtinen. Thank you.
    And I do apologize to Mr. McCaul. It was our turn at bat, 
and I had not seen you.
    Mr. McCaul. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. So I apologize. And you are 
recognized.
    Mr. McCaul. Thank you. And no apology necessary.
    I yield to the gentleman from Florida, Mr. Mack.
    Chairman Ros-Lehtinen. Mr. Mack?
    Mr. Mack. And I thank the gentleman.
    A few observations.
    No one is suggesting isolation. And that is just a fantasy 
that some are putting up on the other side. In fact, what we 
are saying is, let's engage with our allies and our friends, 
but let's not continue to support an organization that is 
perpetuating some countries' ability to destroy democracy.
    So we can have relations with Colombia and Panama. We could 
pass free-trade agreements right now. One of my friends on the 
other side said, ``Well, if we would just do the TAA.'' Every 
time we get close on the free-trade agreements, the President 
or somebody comes up with another hurdle that has to be 
crossed.
    My friends on the other side really, I think, are confused 
about what is happening here. We are not saying, let's not 
engage in our hemisphere. What we are saying is, let's not 
continue to support an organization that doesn't want to help 
us in engagement in our hemisphere.
    I continue to say to my friends that you can't point to an 
example of when the OAS, in recent times, has supported the 
ideals of democracy in our hemisphere. My good friend used the 
example of Honduras. Let me remind you, it was Insulza who was 
helping distribute ballots to Honduras. It was the OAS that was 
helping Zelaya to try to take over the Constitution and the 
country. Their Constitution clearly said that you cannot do a 
referendum, yet the OAS was helping to do just that. So the 
example that my friend used is an exact example of the 
opposite, of why we shouldn't be continuing to support the OAS.
    Mr. Berman. Would the gentleman----
    Mr. Mack. Let's strengthen our relationships with our 
allies. Let's pass the free-trade agreements. Let's support our 
allies in their missions for their democracy and their freedom. 
But let's not continue to fund an organization that is bent on 
destroying any hope for democracy in Latin America.
    Mr. Berman. Would the gentleman from Texas yield?
    Mr. Mack. And, with that, I would----
    Mr. Berman. Would the gentleman from Texas yield?
    Chairman Ros-Lehtinen. Mr. McCaul?
    Mr. McCaul. I yield.
    Mr. Berman. I appreciate the gentleman yielding.
    And I was wondering if--the gentleman from Florida could 
correct me if I am wrong, but my understanding is the OAS is 
the only regional organization that has ever, and frequently, 
criticized Venezuela under Hugo Chavez for their human rights 
treatment.
    I was wondering if the gentleman could tell me if I am 
wrong in believing that the Truth Commission of Honduras just 
declared what the Honduran military did a coup, as was 
described by the gentleman from New Jersey.
    And I am wondering if the gentleman from Florida could tell 
me whether I am wrong in believing that the OAS is the one 
that, through its own mediation and intervention, stopped the 
outbreak of a war between Costa Rica and Nicaragua and got the 
dispute referred to the International Court of Justice for 
resolution there--as three specific examples, the kind that Mr. 
Rohrabacher asked about, of positive work.
    Chairman Ros-Lehtinen. So it is Mr. McCaul's time.
    Mr. Berman. Yes.
    Chairman Ros-Lehtinen. And if Mr. McCaul will allow Mr. 
Mack to answer.
    Mr. McCaul. And I yield to the gentleman from Florida.
    Chairman Ros-Lehtinen. Mr. Mack, 1 minute.
    Mr. Mack. I thank you.
    Again, I think it is kind of funny. Just because a 
commission is called the Truth Commission doesn't mean that 
there is any truth with it. Just because you call it the Truth 
Commission doesn't make it true.
    What is interesting about the Truth Commission, there was 
one big lie in the Truth Commission, and that was calling it a 
coup. And I remind my friends, it was Insulza and it was the 
OAS who was helping Zelaya, who, by the way, was attempting the 
real coup in Honduras by trying to take over that country and 
take away the right of its citizens to elect a President. It 
was----
    Mr. Berman. A preemptive coup.
    Mr. Mack [continuing]. It was the OAS who was helping in 
that. You can't point to an example of when the OAS is standing 
up for democracy in our hemisphere.
    Chairman Ros-Lehtinen. Thank you, Mr. Mack. You yielded 
your second to Mr. McCaul.
    And, Mr. McCaul, your time is up.
    Mr. McCaul. My time has expired.
    Chairman Ros-Lehtinen. And we are ready to vote. But, 
first, does the ranking member withdraw his reservation?
    Mr. Engel. Madam Chair?
    Mr. Berman. I withdraw my reservation.
    Mr. Engel. Yeah, I move to strike the last word, Madam 
Chair.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Engel is recognized.
    Mr. Engel. Okay. Thank you. Thank you very much.
    I think it is incumbent upon me, as the ranking member of 
the Subcommittee on the Western Hemisphere and the former 
chairman of the subcommittee, to comment.
    Mr. Mack and I have worked very well together, both when I 
was chair and now that he is chair. And, in fact, we share a 
lot of the same principles, and we see the region the same way, 
I would say, 95 percent of the time. But I don't agree with 
this amendment, and let me just say why.
    If you take the countries together, if you say that we are 
going to do this, you know, you take Venezuela--countries like 
Venezuela, Cuba, Nicaragua, and now the United States, that is 
a strange-sounding list. Because if this passes, that is the 
list of countries in the region that want to weaken the OAS, 
the Organization of American States. And I think that is a 
mistake.
    I think that this elimination of funds for the OAS does 
more than just weaken the OAS; it plays into the hands of those 
countries in the region that wish to strengthen opposite-minded 
organizations, that wants to be against the United States.
    The OAS, with all its flaws--and I share some of the 
frustrations of Mr. Mack; he and I have talked about it a great 
deal--but it is still the only organization in the region that 
brings together all 34 democratically elected governments in 
the region. And let's see what would happen if funding were cut 
and the OAS were to collapse. As the strength of the OAS wanes, 
alternative regional organizations, such as UNASUR and ALBA, 
which are the Chavez-inspired leftist alliances and the Castro-
inspired leftist alliances, they stand to gain. As the OAS goes 
down, those other organizations stand to gain.
    And these are organizations, by the way, which were 
deliberately formed to exclude the United States and Canada as 
members. That is the way they formed it. But it has Venezuela, 
Bolivia, and other less friendly nations.
    So I think this is a mistake, because I think what this 
will do, it will strengthen the hands of Hugo Chavez. It will 
collapse the OAS, over which the United States has much 
influence, and will make these other organizations, UNASUR and 
ALBA, the preeminent organizations, which we have no--virtually 
no influence, and make Chavez's organization the preeminent 
organization.
    So I just think that, while I share the frustrations and I 
think there are many, many ways we can let the OAS know that we 
think that it is not a perfect organization and we want to push 
it in the direction, I think that this is not the way to do it. 
Although my friend, Mr. Mack, knows that I respect him greatly. 
And, again, we work together on so many things.
    But I just think the OAS is the best game in town, as 
flawed as it may be. We have influence. Yes, we have spent 
money there, but that we have influence. Unfortunately or 
fortunately, money buys influence. We would have much less, in 
my opinion, if the OAS were weakened.
    And I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Smith is recognized.
    Mr. Smith. Thank you very much, Madam Chair.
    And let me just say to my friend and colleague, Mr. Mack, 
Chairman Mack, nobody has more respect for him. He has done 
yeoman's work not only on Cuba, but also on Honduras. His 
hearings, I think, have been extraordinary in shining a light 
on the misdeeds of the OAS vis-a-vis Honduras.
    I do rise, or will in speaking today, with a conditional 
no. I will vote no on his amendment, but it is a conditional 
no. I think he is sending a very serious shot across the bow of 
the Organization of American States. He is bringing light and 
scrutiny as never before to the OAS. And I think many of us are 
taking that second and long look at the OAS to try to determine 
whether or not it has truly lost its way irreparably.
    It also puts the OAS on notice that it needs to seriously 
reclaim its promotion of fundamental human rights and democracy 
and to cease its drift toward the socialist side of issues.
    Otherwise, I do believe, you know, if Mr. Mack, or Chairman 
Mack, brings his amendment back in the future, there would be 
much more support for it. But at this point, I will be a 
conditional ``no.''
    Chairman Ros-Lehtinen. Mr. Carnahan is recognized.
    Mr. Carnahan. Thank you, Madam Chairman.
    I want to thank the gentleman from Florida for making the 
strong and legitimate points about the OAS. He has legitimate 
concerns. And as the gentleman from New Jersey says, he has 
really shined a light on some of the problems there. But I 
think this is not the way to go with regard to this amendment, 
I would submit.
    And I am concerned about the trend with regard to 
international organizations, that when they are not doing 
exactly what we want, when they have their flaws, which are 
many, that we, instead of engaging and being there at the table 
like a great country with the power our ideas, with the 
strength of the partnership of our allies to make them better--
that is, I think, when our country is at its best.
    And if we do go forward with this, I think we will see a 
weakened OAS, it will be worse, and I think alternative 
regional organizations could also be worse. Problems could also 
be more complex and more expensive.
    So I would respectfully submit that this is not the way to 
go. I appreciate the work the gentleman has done, but I would 
urge folks to vote no on this amendment.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Sires is recognized.
    Mr. Sires. Thank you, Madam Chairman.
    First of all, let me thank you for including rights of 
religious minorities in Egypt and the recognition that we need 
to recognize minorities, religious minorities in Egypt.
    And in terms of my friend, Connie Mack, we share a great 
deal of ideas regarding the OAS. My biggest complaint with the 
OAS is the same thing with the U.N. commission. They do not 
speak up enough about the people that are being hurt in all 
these countries.
    The best part about this argument today, as I sat here and 
listened to everybody, is I think we articulated all the 
problems that are going on in Cuba better than we have done in 
the long time--the abuses that are going on, the beatings, the 
beatings of the Ladies in White that die and the people in 
prison. We have articulated those issues, and yet the OAS does 
not speak strongly enough about this or the abuses in any other 
country.
    I don't think that taking the money away from the OAS is 
the answer. I think they have to be revamped. I think they have 
to be more up front with all the other countries and talk about 
the abuses and the lack of democracy and the lack of respect 
for human rights in some of these countries. They don't do that 
strongly enough. They haven't done it for many, many years.
    That is the frustration that I share with my colleagues who 
don't want to vote for this money. It is in your charter, just 
like it is that we have to comply with our agreement, our 
contract to give them the $48 million. So if they don't comply 
with the charter on human rights, on abuses in all these 
countries, they have to change.
    And I thank you, Madam Chair.
    Chairman Ros-Lehtinen. I am just looking around to see if 
anyone would like to be recognized.
    And, if not, Mr. Mack has requested a roll call vote.
    The clerk will call the roll.
    Ms. Carroll. Madam Chairman?
    Chairman Ros-Lehtinen. Yes.
    Ms. Carroll. The chairman votes aye.
    Mr. Smith?
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no.
    Mr. Burton?
    Mr. Burton. Aye.
    Ms. Carroll. Mr. Burton votes aye.
    Mr. Gallegly?
    Mr. Gallegly. Aye.
    Ms. Carroll. Mr. Gallegly votes aye.
    Mr. Rohrabacher?
    Mr. Rohrabacher. Yes.
    Ms. Carroll. Mr. Rohrabacher votes aye.
    Mr. Manzullo?
    Mr. Manzullo. Aye.
    Ms. Carroll. Mr. Manzullo votes aye.
    Mr. Royce?
    Mr. Royce. Aye.
    Ms. Carroll. Mr. Royce votes aye.
    Mr. Chabot?
    Mr. Chabot. Aye.
    Ms. Carroll. Mr. Chabot votes aye.
    Mr. Paul?
    [No response.]
    Ms. Carroll. Mr. Pence?
    Mr. Pence. Aye.
    Ms. Carroll. Mr. Pence votes aye.
    Mr. Wilson?
    Mr. Wilson of South Carolina. Aye.
    Ms. Carroll. Mr. Wilson votes aye.
    Mr. Mack?
    Mr. Mack. Aye.
    Ms. Carroll. Mr. Mack votes aye.
    Mr. Fortenberry?
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul?
    Mr. McCaul. Aye.
    Ms. Carroll. Mr. McCaul votes aye.
    Mr. Poe?
    Mr. Poe. Aye.
    Ms. Carroll. Mr. Poe votes aye.
    Mr. Bilirakis?
    Mr. Bilirakis. Aye.
    Ms. Carroll. Mr. Bilirakis votes aye.
    Ms. Schmidt?
    Mrs. Schmidt. Aye.
    Ms. Carroll. Ms. Schmidt votes aye.
    Mr. Johnson?
    Mr. Johnson. Aye.
    Ms. Carroll. Mr. Johnson votes aye.
    Mr. Rivera?
    Mr. Rivera. Aye.
    Ms. Carroll. Mr. Rivera votes aye.
    Mr. Kelly?
    Mr. Kelly. Aye.
    Ms. Carroll. Mr. Kelly votes aye.
    Mr. Griffin?
    Mr. Griffin. Aye.
    Ms. Carroll. Mr. Griffin votes aye.
    Mr. Marino?
    Mr. Marino. Aye.
    Ms. Carroll. Mr. Marino votes aye.
    Mr. Duncan?
    Mr. Duncan. Aye.
    Ms. Carroll. Mr. Duncan votes aye.
    Ms. Buerkle?
    Ms. Buerkle. Aye.
    Ms. Carroll. Ms. Buerkle votes aye.
    Ms. Ellmers?
    Mrs. Ellmers. Aye.
    Ms. Carroll. Ms. Ellmers votes aye.
    Mr. Berman?
    Mr. Berman. No.
    Ms. Carroll. Mr. Berman votes no.
    Mr. Ackerman?
    [No response.]
    Ms. Carroll. Mr. Faleomavaega?
    Mr. Faleomavaega. No.
    Ms. Carroll. Mr. Faleomavaega votes no.
    Mr. Payne?
    Mr. Payne. No.
    Ms. Carroll. Mr. Payne votes no.
    Mr. Sherman?
    [No response.]
    Ms. Carroll. Mr. Engel?
    Mr. Engel. No.
    Ms. Carroll. Mr. Engel votes no.
    Mr. Meeks?
    Mr. Meeks. No.
    Ms. Carroll. Mr. Meeks votes no.
    Mr. Carnahan?
    Mr. Carnahan. No.
    Ms. Carroll. Mr. Carnahan votes no.
    Mr. Sires?
    Mr. Sires. No.
    Ms. Carroll. Mr. Sires votes no.
    Mr. Connolly?
    Mr. Connolly. No.
    Ms. Carroll. Mr. Connolly votes no.
    Mr. Deutch?
    Mr. Deutch. No.
    Ms. Carroll. Mr. Deutch votes no.
    Mr. Cardoza?
    Mr. Cardoza. No.
    Ms. Carroll. Mr. Cardoza votes no.
    Mr. Chandler?
    Mr. Chandler. No.
    Ms. Carroll. Mr. Chandler votes no.
    Mr. Higgins?
    Mr. Higgins. No.
    Ms. Carroll. Mr. Higgins votes no.
    Ms. Schwartz?
    Ms. Schwartz. No.
    Ms. Carroll. Ms. Schwartz votes no.
    Mr. Murphy?
    [No response.]
    Ms. Carroll. Ms. Wilson?
    Ms. Wilson of Florida. No.
    Ms. Carroll. Ms. Wilson votes no.
    Ms. Bass?
    Ms. Bass. No.
    Ms. Carroll. Ms. Bass votes no.
    Mr. Keating?
    Mr. Keating. No.
    Ms. Carroll. Mr. Keating votes no.
    Mr. Cicilline?
    Mr. Cicilline. No.
    Ms. Carroll. Mr. Cicilline votes no.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Mr. Connolly. Mr. Sherman is here.
    Ms. Carroll. Mr. Sherman, you are not recorded.
    Mr. Sherman. I record a no vote.
    Ms. Carroll. Mr. Sherman votes no.
    Chairman Ros-Lehtinen. Have all members been recorded?
    The clerk will report the vote.
    Ms. Carroll. Madam Chairman, there are 22 ayes and 20 noes.
    Chairman Ros-Lehtinen. The ayes have it, and the question 
is agreed to.
    Are there any other amendments on the desk?
    Mr. Berman. On title I?
    Chairman Ros-Lehtinen. Yes, sir. We are going title by 
title.
    Mr. Payne is recognized.
    The clerk will report the amendment.
    Ms. Carroll. Which amendment, Mr. Payne?
    Mr. Payne. The amendment on the contributions for 
international peacekeeping activities, 28.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Payne of 
New Jersey. In section 103, strike ``$1,735,382,277'' and 
insert ``$1,920,000,000''. In section 103, add at the end of 
the following:----
    Chairman Ros-Lehtinen. Unanimous consent to dispense with 
the reading.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. The Chair reserves a point of order 
and recognizes the author for 5 minutes to explain his 
amendment.
    Mr. Payne. Thank you very much, Madam Chair.
    And let me say that I have listened over the years about 
criticisms and praises for international organizations, as we 
have just gone through on the OAS. However, I think that if it 
were not for international organizations, the world would be in 
a much worse place.
    And I would have to say that I think that one of the very 
strong aspects of the United Nations, an idea conceived by the 
USA first with the old League of Nations and then with the 
U.N., is that they have been able to minimize outright wars, 
have been able to negotiate in places where combatants might 
have gone to war. And I think that one of the strong 
contributions has been their use of peacekeeping around the 
world. And so, the resolution that I have here asks to restore 
the initial amount to $1,920,000,000 and strike the 
$1,735,000,000, which reduces the peacekeeping operation.
    When we were interviewing new Secretary-Generals for the 
United Nations, one of Ban Ki-Moon's only requests as he was 
being considered was that we continue to support peacekeeping, 
because he felt that peacekeeping was really the hallmark of 
the U.N., it was necessary, and it saved so many lives around 
the world.
    And with us reducing the peacekeeping amount, I think that 
we have--and we, at that time, agreed that we would continue to 
support peacekeeping since it was so vital. Other parts we had 
questions with--the political part, et cetera, et cetera--but 
peacekeeping was something that we did make an agreement with. 
I think that it would be unfair for us now to turn our back on 
our, really, sort of, the candidate that we supported because 
we thought he would do the best to reform the United Nations.
    So, over the past few years, the United States has returned 
to good financial standing at the U.N. by honoring its 
financial obligations and fully funding its peacekeeping dues. 
A full funding for the U.N. peacekeeping budget ensures that 
the world body can carry out its vital work, stabilizing 
conflict zones and promoting democratic governance.
    Peacekeeping missions have played an important role in 
international conflicts and bringing about international peace. 
Peacekeeping missions have continued to keep American soldiers 
out of numerous international conflicts, as well as save 
American taxpayer dollars in the long run, while maintaining 
focus on the United States' long-term foreign policy goals. As 
we know, peacekeepers are throughout the world--in Iraq and 
Afghanistan, places that we have a very strong interest. And 
because peacekeepers are there, it saves the United States our 
manpower and dollars.
    Recent negotiations have changed the amount necessary for 
the United States to provide for peacekeeping missions. One-
point-nine-two billion is necessary for the United States to 
appropriate in order to fulfill its requirements to the United 
Nations peacekeeping missions.
    The measure also authorizes an additional $60 million for 
peacekeeping missions in Sudan. Current conflicts in Abyei, 
South Kordofan, and Blue Nile states have created an immediate 
need of attention from the international community and the U.N. 
peacekeeping. And had it not been for the U.S.'s interest in 
South Sudan with President Clinton and then with President Bush 
appointing Senator Danforth and so many of the supporters from 
the Republican side of the aisle, in particular in our U.S. 
Senate, with Democrats, perhaps South Sudan would not be a new 
nation. And I credit, you know, President Bush for continuing 
to push that forward, as President Obama.
    The United States has invested significant time and 
resources in that struggle. The U.S. votes for each and every 
U.N. peacekeeping mission on the Security Council; it should 
also pay them. As a permanent member of the U.N. Security 
Council, the U.S. plays a leading rule----
    Chairman Ros-Lehtinen. Thank you, Mr. Payne.
    Mr. Payne [continuing]. In authorizing the peacekeeping.
    And if one of my colleagues, when our time comes, would 
yield me about 1 minute----
    Chairman Ros-Lehtinen. I am sure they will.
    Mr. Payne [continuing]. I will be able to complete----
    Chairman Ros-Lehtinen. First Henry Hyde is quoted, now Bush 
is being thanked.
    Mr. Payne. I am throwing you--you know, I am name-dropping.
    Chairman Ros-Lehtinen. Ms. Schmidt is recognized for 5 
minutes.
    Mrs. Schmidt. Thank you, Madam Chair.
    And first off, I would like to point out that this would 
increase the level of authorized appropriations for U.S. 
assessed contributions to the U.N. peacekeeping to nearly $2 
billion.
    My good friend, the ranking member, Mr. Payne, on Africa, 
Global Health, and Human Rights, has made an impassioned plea 
to increase the amount authorized, not just to meet the 
request, which assumed a rate of assessment at 27.14 percent, 
but to increase it by an additional $60 million, so that we can 
pay for a peacekeeping mission that does not yet exist.
    While I am sympathetic to the need to secure the border 
regions between Sudan and the Republic of South Sudan--and the 
violence there has been deplorable--but I would like to point 
out to the author of this amendment that the administration's 
request for the Sudan mission that recently was terminated was 
well-padded.
    There is more than enough left over from the UNMIS request 
to cover the new mission in South Sudan and the mission in 
Abyei. We know that the United Nations currently is holding 
some $436 million in credits or overpayments for U.N. 
peacekeeping; $13.9 million of those credits are for Sudan. 
These credits can be used to offset any shortfalls that may 
arise due to the new needs in Sudan.
    Further, the administration's request included funding for 
the Somalia mission that has been moved to another account. The 
adjusted request factoring out of the Somalian mission is 
another $1.82 billion. Yet the amendment goes beyond and above 
the request by $160 million.
    I would like to point out that, in this budgetary 
environment, we simply cannot justify authorizing 
appropriations at levels above and beyond which even the U.N. 
is asking at levels which are beyond the statutory cap and at 
levels that assume needs that are not yet known.
    And so I would urge my colleagues to oppose this amendment.
    Chairman Ros-Lehtinen. Thank you.
    The gentlelady yields back.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Madam Chair, I would like to yield my 
time to the gentleman from New Jersey.
    Chairman Ros-Lehtinen. Mr. Payne is recognized.
    Mr. Payne. Thank you very much.
    As I was getting ready to conclude, I do think that, first 
of all, the $60 million is a contingency fund. We are saying 
that we should it set aside; that if, indeed, it is necessary, 
that we would therefore move into that fund.
    And I certainly appreciate the interest and the accuracy of 
which the previous speaker spoke and her interest in trying to 
be just. And I do agree that we certainly have budgetary 
problems. I think this, though--U.N. peacekeeping--first of 
all, the U.S. votes for each and every U.N. peacekeeping 
mission on the Security Council since we have--that is one of 
the things the Security Council has, and we have the privilege 
of being one of the five countries on it. And so we have a 
special responsibility. Other members of the Security Council 
are paying their fair share.
    And as a permanent member of the Security Council, the U.S. 
plays a leading role in authorizing and renewing peacekeeping 
missions. In fact, it was during, once again, the Bush 
administration that there was the largest growth in 
peacekeeping because of that administration's recognition that 
these missions serve our national interest and are cost-
effective.
    No U.N. peacekeeping mission can be deployed if it is 
vetoed by the U.S. on the Security Council. Therefore, the U.S. 
authorizes every peacekeeping mission. And failure to pay our 
dues in full sends a negative message to countries who 
contribute troops to the U.N. peacekeeping mission. And, as you 
know, we do not contribute troops to peacekeeping 
organizations. They are all from other countries that put their 
persons into harm's way.
    When we fail to pay our peacekeeping dues, when we don't 
pay them in full, U.S. allies, such as India, Bangladesh, and 
Jordan, who each provide thousands of military and police 
personnel to the U.N. peacekeeping operations, do not receive 
adequate payment for their contributions.
    And so, I think that it is very important. I do know that 
we are under tough times, and I would hope that we would 
consider.
    I yield back my time to Mr. Faleomavaega.
    Chairman Ros-Lehtinen. Mr. Faleomavaega?
    Mr. Faleomavaega. Yes, reclaiming my time.
    I thank the gentleman for sharing with us some of the 
concerns as it relates to his proposal for the increase in our 
peacekeeping program with the United Nations.
    I would like to ask the gentleman, though, what would be 
the consequences if we don't provide this critically needed 
additional funding for the peacekeeping operations of the 
United Nations?
    Chairman Ros-Lehtinen. Mr. Payne?
    Mr. Payne. Well, right now, in Abyei, which is still a 
disputed region, South Kordofan, the Nuba Mountain region are 
still in dispute. The Government of Sudan has sent planes in. 
They are bombing, they are killing people. And the U.N. is 
willing to go there to be the buffer.
    I happened to have the privilege to attend the celebration 
in South Sudan. And Presidents of dozens and dozens and dozens 
of countries were there, all of them praising the United States 
of America, even some that are not our great friends, saying 
what we have done in such a humanitarian way, and the pride 
that the South Sudanese had on their independence, becoming the 
193rd country in the world, the 53rd country in Africa.
    So I yield back to the gentleman.
    Mr. Faleomavaega. I would also like to say to the 
gentleman, it is not so much the money but it is the principle.
    Mr. Payne. That is correct.
    Mr. Faleomavaega. The fact that our country has got to 
continue the engagement process, especially with countries like 
South Sudan, who has just been liberated and brand-new. And 
with all the serious problems facing the continent of Africa, I 
ask the gentleman how serious we are at this point in juncture 
in our relationship, not just on a bilateral basis with a 
country like South Sudan but throughout all of Africa. And I 
would like to ask the gentleman--I have 29 seconds--the 
consequence, again, if we don't increase the funding.
    Mr. Payne. Well, the consequence could be that the 
Government of Sudan's indicted war criminal, al-Bashir, will 
then have rein to go back in and destroy much of what we have 
put our energy in. Like I said, this has been a bipartisan 
method from President Bush to President Clinton to President 
Obama, and I think it would be disastrous if we turned our back 
at this time.
    Mr. Faleomavaega. I thank the gentleman.
    I yield back, Madam.
    Chairman Ros-Lehtinen. Thank you so much.
    I am looking for frantic hand signals.
    And Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. Well, I just would like to remind everyone 
that, again, we are talking about borrowing money from China in 
order to provide services or benefits to people overseas. 
Hopefully, it provides benefit to our own people, as well.
    But let me just disagree with what we have just heard. This 
isn't just about the principle of the matter. This is about 
money. And we are borrowing money from China to expend it 
overseas, leaving our children in debt. And we better darn well 
think that this money is being well-spent and is important for 
the young people of our country.
    Now, $60 million is a lot of money in order for us to 
provide to the people of Sudan. And increasing our expenditures 
here for the United Nations from 173.5 to 192, well, that is an 
important--increasing that level.
    But, Mr. Payne, let me just note, when you said that, 
``Well, as you know, the United States doesn't participate in 
peacekeeping, we don't put our people in harm's way,'' all of 
the things we do overseas are part of peacekeeping operations. 
We just don't have them under United Nations' command, as we 
shouldn't. We have thousands of people who have lost their 
lives trying to bring some type of acceptable government in 
Iraq. Six thousand people gave them their lives.
    No, we put our people in harm's way a lot. And we have 
nothing to be ashamed of, in terms of saying, ``No, we are not 
going to put them under United Nations' command.'' But I think 
that that is no less a sacrifice. Our people in Afghanistan who 
are losing their lives are no less sacrificing their lives for 
a general better world than are those people who are in 
Afghanistan under United Nations' command.
    Mr. Payne. Would the gentleman yield?
    Mr. Rohrabacher. Sure.
    Mr. Payne. No, I certainly couldn't agree with you more. We 
have people that have been in places around the world since the 
end of World War II. We are still in Germany and Japan and 
Okinawa. There is no question about it.
    And, secondly, I know that we have had many of our troops 
in harm's way. We lost 18 Rangers in Somalia. I was there a 
week or so before that happened and went back and, as a matter 
of fact, at that time even had my plane shot at, as it happened 
just a year or 2 ago. So I know that we do have people in 
harm's way, and I am not--in no way minimizing that.
    Mr. Rohrabacher. Okay.
    Mr. Payne. And so I think we are on the same accord. I am 
talking about the issues, that the world agrees, that we need 
to have some sort of peacekeeping apparatus.
    And so I appreciate giving me the opportunity to clarify my 
position.
    Mr. Rohrabacher. Thank you very much.
    I yield back.
    Chairman Ros-Lehtinen. Mr. Rohrabacher yields back.
    And Mr. Payne has asked for a recorded vote, so the clerk 
will call the roll.
    Ms. Carroll. Madam Chairman?
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no.
    Mr. Smith?
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no.
    Mr. Burton?
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no.
    Mr. Gallegly?
    [No response.]
    Ms. Carroll. Mr. Rohrabacher?
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo?
    [No response.]
    Ms. Carroll. Mr. Royce?
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no.
    Mr. Paul?
    [No response.]
    Ms. Carroll. Mr. Pence?
    [No response.]
    Ms. Carroll. Mr. Wilson?
    [No response.]
    Ms. Carroll. Mr. Mack?
    Mr. Wilson of South Carolina. No.
    Ms. Carroll. Mr. Mack--Mr. Wilson votes no.
    Mr. Mack?
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Fortenberry?
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul?
    Mr. McCaul. No.
    Ms. Carroll. Mr. McCaul votes no.
    Mr. Poe?
    Mr. Poe. No.
    Ms. Carroll. Mr. Poe votes no.
    Mr. Bilirakis?
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no.
    Ms. Schmidt?
    Mrs. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no.
    Mr. Johnson?
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera?
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no.
    Mr. Kelly?
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin?
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Mr. Marino?
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan?
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle?
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Ms. Ellmers?
    Mrs. Ellmers. No.
    Ms. Carroll. Ms. Ellmers votes no.
    Mr. Berman?
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman?
    [No response.]
    Ms. Carroll. Mr. Faleomavaega?
    Mr. Faleomavaega. Yes.
    Ms. Carroll. Mr. Faleomavaega votes aye.
    Mr. Payne?
    Mr. Payne. Yes.
    Ms. Carroll. Mr. Payne votes aye.
    Mr. Sherman?
    [No response.]
    Ms. Carroll. Mr. Engel?
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks?
    Mr. Meeks. Aye.
    Ms. Carroll. Mr. Meeks votes aye.
    Mr. Carnahan?
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires?
    [No response.]
    Ms. Carroll. Mr. Connolly?
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Mr. Cardoza?
    [No response.]
    Ms. Carroll. Mr. Chandler?
    Mr. Chandler. Aye.
    Ms. Carroll. Mr. Chandler votes aye.
    Mr. Higgins?
    Mr. Higgins. Aye.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz?
    Ms. Schwartz. Aye.
    Ms. Carroll. Ms. Schwartz votes aye.
    Mr. Murphy?
    [No response.]
    Ms. Carroll. Ms. Wilson?
    Ms. Wilson of Florida. Aye.
    Ms. Carroll. Ms. Wilson votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Mr. Keating?
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Mr. Sherman?
    Mr. Sherman. Please record me as an aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Chairman Ros-Lehtinen. Mr. Sires?
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded?
    The clerk will report the vote.
    Ms. Carroll. Madam Chairman, on that vote there are 21 noes 
and 17 ayes.
    Chairman Ros-Lehtinen. The amendment has not been adopted.
    And we will continue to our next amendment on this section.
    And I do note that Mr. Pence had walked in, but I will be 
starting the vote and we will end the vote once the clerk 
starts tallying. So I apologize for any members who come late, 
but otherwise we will never end. Thank you.
    Any other amendments on this?
    Mr. Poe. Madam Chair?
    Chairman Ros-Lehtinen. Mr. Poe is recognized.
    Mr. Poe. I have an amendment at the desk.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. What number, Mr. Poe?
    Mr. Poe. 164.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Poe of 
Texas. In section 102 of the bill, after the first dollar 
amount, insert ``(reduced by $395,453,750)''.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. The Chair reserves a point of order 
and recognizes the author for 5 minutes to explain the 
amendment.
    Mr. Poe. Thank you, Madam Chair.
    The United States donates, contributes approximately $5 
billion to $6 billion annually to the United Nations. Most of 
that money goes to peacekeeping activities; $1.5 billion of 
that is the U.N. regular budget. This amendment cuts 25 percent 
of that regular U.N. budget which the United States 
participates in, which is 22 percent--of all of the money that 
goes into that fund, the United States is responsible for 22 
percent of that. So it cuts 25 percent of that fund does not 
deal with peacekeeping funds at all.
    There are many reasons for this amendment. One of them is 
the problem with corruption in the United Nations and the tenor 
of the United Nations in its relationship with not just the 
United States but with Israel. There are examples of this: The 
United Nations pays for anti-Semitic textbooks to be given to 
Palestinian children. Even the former United Nations Secretary-
General Boutros Boutros-Ghali once made this comment: ``Perhaps 
half of the U.N. workforce does nothing useful.'' That is from 
the U.N. former Secretary-General. I couldn't agree with him 
more on that assessment of the United Nations.
    It is time for the United States to promote getting rid of 
corruption in the United Nations. Also, the money that goes to 
the organizations in the United Nations like the Human Rights 
Council, made up of such stellar and stoic human rights 
advocates such as China and Libya, Saudi Arabia, Cuba, Syria. 
The United States and the Human Rights Council have been at 
odds over the years of their treatment of, especially, Israel.
    There are other examples. The United Nations in 2006 
created a task force to investigate fraud in its own 
organization, which was a great idea. The organization that did 
so found over $1 billion in tainted contracts. And so the 
United Nations, in honor of this organization they formed, 
disbanded it because it was finding corruption in the U.N. So 
they shut down an organization that was finding corruption in 
its own organization.
    So, after years of inaction and waste and fraud and abuse 
and scandal, the United States' unconditional funding has to 
stop. This is one way to get the attention of the U.N. This is 
limiting 25 percent of the regular fund. Once again, it does 
not affect, in any way, the peacekeeping contributions, which 
is the vast majority of the funds that the United States 
contributes to the U.N.
    And I will yield back.
    Chairman Ros-Lehtinen. Thank you. Thank you, Judge Poe.
    The Chair withdraws the point of order and recognizes Mr. 
Berman for 5 minutes.
    Mr. Berman. Well, thank you very much, Madam Chairman.
    This, in effect, is a 25 percent cut in our treaty-
obligated dues assessment from the United Nations--25 percent. 
I admire the author for his restraint. We have unilaterally 
pulled out of the OAS, but here we are only going to 
shortchange them by what we owe by 25 percent.
    But the underlying point that my friend from Texas makes 
regarding waste and corruption and a bureaucracy that is 
bloated and inefficient, there have been--we could spend hours 
talking about efforts to deal with that issue. The only thing I 
would point out is nothing in this amendment seeks to deal with 
that issue. This is not an amendment that withdraws funds 
unless certain kinds of reforms take place. It is a unilateral 
cut in our treaty-obligated assessment.
    Now, I know we don't want the Supreme Court to consider 
international law, but I did think that Members of Congress 
considered treaties ratified by the Congress and the U.S. 
Senate to be obligations as much as any of the laws that we 
pass.
    And I just have to, once again, point out that whatever 
changes we would like to make in the U.N.--and heaven knows 
there are many--this is both an improper way to go about it and 
a way that will not achieve the goals that the gentleman has 
articulated.
    And I yield back.
    Chairman Ros-Lehtinen. Ms. Buerkle is recognized.
    Ms. Buerkle. Thank you, Madam Chairman.
    I just want to lend my support to this amendment. I think 
that this is the responsible thing to do. We have heard the 
gentleman from California talking about American taxpayers' 
dollars and us being good stewards of them. I think this is a 
good opportunity for us to make sure the money we are 
contributing to the U.N. is not used in a useless manner and we 
are good stewards of the American taxpayers' money.
    So I want to lend my support to this amendment. I think it 
is the right thing to do.
    I yield back.
    Chairman Ros-Lehtinen. Thank you.
    And Mr. Carnahan has an amendment that he would like to 
offer at this time. Mr. Carnahan is recognized----
    Mr. Carnahan. Thank you, Madam Chairman. I have an 
amendment to Mr. Poe's amendment.
    Chairman Ros-Lehtinen. The clerk will read the amendment.
    Ms. Carroll. Amendment offered by Mr. Carnahan to the 
amendment offered by Mr. Poe. Insert new subsection (b) and 
redesignate previous subsection(s) accordingly. Waiver. The 
Secretary may waive the above provision if the Secretary 
determines that any such reduction would harm any of the 
following activities funded through the United Nations Regular 
Budget in Iraq and Afghanistan: 1. Demining programs. 2. Police 
training program. 3. Narco-trafficking, poppy eradication, or 
other efforts to counteract illicit drugs.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Thank you.
    Do all members have a copy of Mr. Carnahan's amendment?
    While that is being distributed, Mr. Carnahan is recognized 
to explain his amendment.
    Mr. Carnahan. Thank you, Madam Chairman.
    This is an amendment to Mr. Poe's amendment cutting the 
U.N. assessed dues.
    I appreciate the work of my friend from Texas to push the 
U.N. to reform, and I hope he will accept this amendment in the 
spirit in which it is offered, to, again, be part of that push 
for reform, but at the same time continuing to look out for our 
national interest.
    I think the underlying amendment, by itself, in just having 
a dramatic reduction in our funding obligations, would 
jeopardize our national security interest and violate our 
treaty obligations, as was mentioned by the ranking member.
    While it is absolutely true there has been an increase in 
the U.N. regular budget over the last 10 years, the primary 
driver of the increase is the special political missions, or 
the SPMs. The two largest U.N. political missions which 
comprise most of the funding are in Iraq and Afghanistan. 
Political missions such as these focus on democracy assistance 
and institution-building and are funded out of the U.N. regular 
budget.
    It is these kinds of missions that are the kind of civilian 
surge that our military and intelligence experts advise us are 
needed as military operations are winding down. It also means 
that the U.S. pays only 22 percent of their cost and other 
nations pay 78 percent.
    My amendment would allow this provision to be waived if--
and I want to emphasize ``if''--the Secretary determines that 
any such reduction would harm any of the following activities 
funded through the U.N. regular budget in Iraq and Afghanistan: 
Specifically, demining programs; police training programs; 
narcotrafficking, poppy eradication, or other efforts to 
counteract illicit drugs.
    This amendment I think will ensure our national security 
interests are protected, will also be sure that we honor our 
treaty obligations. And I hope my friend from Texas will, 
again, accept this in the spirit in which it is offered, to be 
sure we can continue those interests.
    I yield back.
    Chairman Ros-Lehtinen. Thank you, Mr. Carnahan.
    Does any member wish to be heard on the amendment to the 
amendment?
    Judge Poe?
    Mr. Poe. Madam Speaker, I have a question for Mr. Carnahan.
    Chairman Ros-Lehtinen. Mr. Carnahan, will you yield the 
time to Mr. Poe?
    Mr. Carnahan. Yes, I yield.
    Mr. Poe. It is my understanding that these three activities 
do not come out of this specific fund but they come out of the 
peacekeeping fund. Am I correct or incorrect about that?
    Mr. Carnahan. That is my understanding, as well.
    Mr. Poe. Reclaiming my time, the----
    Mr. Carnahan. I am sorry, I am being corrected. That is not 
the case.
    Mr. Poe. All right.
    Mr. Berman. Would the gentleman yield?
    Mr. Poe. I will yield to the ranking member.
    Chairman Ros-Lehtinen. Mr. Berman?
    Mr. Berman. I am quite sure that these specific programs 
come out of the regular budget of the U.N., not the 
peacekeeping budget. And I think that that is the purpose of 
putting this amendment to your amendment.
    Chairman Ros-Lehtinen. Mr. Poe?
    Mr. Poe. I yield back my time.
    Chairman Ros-Lehtinen. Thank you, sir.
    Does anyone wish--Mr. Connolly, to be heard on the 
amendment to the amendment.
    Mr. Connolly. Thank you, Madam Chairman.
    Certainly, I think that the amendment offered by our 
colleague from Missouri improves the underlying amendment, but 
it doesn't really address that underlying set of issues.
    The idea that the United States could, even with this 
waiver, cut 25 percent of its contribution to the multilateral 
body that we helped create would represent yet another 
strategic retreat by this committee and, if adopted as policy 
of the United States, by the United States of America from our 
multilateral obligations and from our willingness to engage 
with the rest of the world as a great power.
    And so I certainly will support my colleague's perfecting 
amendment, but I will not, sadly, be able to support Judge 
Poe's underlying amendment, because I think it is yet another 
example in this brief markup already of a stunning retreat from 
America's obligations and responsibilities as a world power.
    I yield back.
    Chairman Ros-Lehtinen. Thank you, sir.
    Ms. Schmidt is recognized to speak on the amendment to the 
amendment.
    Mrs. Schmidt. Thank you.
    Will the gentleman answer a question for me? Because I am a 
little confused.
    Chairman Ros-Lehtinen. Which gentleman are you referring 
to?
    Mrs. Schmidt. The gentleman that offered the amendment.
    Chairman Ros-Lehtinen. Mr. Carnahan?
    Mrs. Schmidt. Mr. Carnahan, yes.
    Can't the President waive this already? Isn't it in his 
power to do so, so this would be unnecessary?
    Mr. Carnahan. Not to my understanding. This amendment would 
just specifically allow this to be waived by the Secretary if 
the Secretary determines it would do harm to these activities 
that are being funded through the regular budget for Iraq and 
Afghanistan.
    Mrs. Schmidt. Madam Chair, my confusion with this amendment 
is that we really don't know which account it really comes out 
of. We are assuming it comes out of a certain account. We don't 
know who has the authority to waive this. We are assuming that 
certain folks do and certain folks don't.
    And I think that maybe we should hold off on the amendment 
until we get better clarification, or I would just urge my 
colleagues to vote no.
    I yield back.
    Mr. Rohrabacher. Will the gentlelady yield?
    Chairman Ros-Lehtinen. Mr. Rohrabacher is asking for time, 
Ms. Schmidt.
    Mr. Rohrabacher. Would you yield?
    Mrs. Schmidt. Yes.
    Mr. Rohrabacher. Mr. Carnahan, let me see if we are reading 
this correctly. The way your amendment is written, if, indeed, 
the 25 percent reduction that Mr. Poe is suggesting in any way 
affects demining, police training, narcotrafficking, 
eradication, then the entire 25 percent is knocked out? Or just 
the 25--just the effect on those specific issues?
    Chairman Ros-Lehtinen. Ms. Schmidt, would you like to yield 
to Mr. Carnahan to answer Mr. Rohrabacher's question?
    Mr. Carnahan?
    Mr. Carnahan. Yes, I yield.
    Mr. Rohrabacher. No, I----
    Chairman Ros-Lehtinen. Could you rephrase the question?
    Mr. Rohrabacher. Mr. Carnahan, your proposed amendment, 
would it--let's put it this way. You are talking about--Mr. Poe 
is talking about a 25 percent reduction, and you are saying 
that only the demining programs, police training programs, and 
narcotrafficking or other illicit drug programs, only if those 
are affected, the entire 25 percent reduction for everything 
else is not applicable? Or you are just saying that they may 
waive--the effect of this may be waived just on those specific 
programs?
    Mr. Carnahan. Yes, that is what the amendment does. And, 
again, we have identified those specific programs because they 
have been the primary driver of the increase in those special 
political missions.
    Mr. Rohrabacher. When you said ``yes,'' I am not quite sure 
what ``yes'' was. ``Yes'' means that the entire 25 percent 
reduction is eliminated if it affects these programs? Or is the 
only part that is eliminated is those parts of the 25 percent 
of these three programs?
    Mr. Carnahan. The former, that the 25 percent would be 
waived.
    Mr. Rohrabacher. So the whole 25 percent. So, in other 
words, Mr. Poe's amendment is neutered totally, not just for 
these programs, if these programs are affected at all?
    Mr. Berman. Would the gentleman yield?
    Mr. Rohrabacher. I am just asking for information.
    Chairman Ros-Lehtinen. Let me see. That is Ms. Schmidt's 
time that has been handed over. And, Mr. Berman, she will yield 
to you.
    Mr. Berman. I appreciate it.
    Through the gentlelady from Ohio, I would like to ask the 
gentleman from California, would he be willing to borrow from 
China to protect the demining programs, the police training 
programs, and the narcotrafficking programs in Iraq and 
Afghanistan?
    Mr. Rohrabacher. May I answer?
    Mrs. Schmidt. Yes, you may.
    Chairman Ros-Lehtinen. Mr. Rohrabacher.
    Mr. Rohrabacher. The answer is no.
    Chairman Ros-Lehtinen. Thank you.
    Ms. Schmidt, do you yield back?
    Mrs. Schmidt. I yield back unless anyone else wants a 
portion of my time.
    Mr. Rohrabacher. If I could just clarify what we just----
    Chairman Ros-Lehtinen. Would you like Ms. Schmidt's time?
    Mr. Rohrabacher. Would you yield?
    Chairman Ros-Lehtinen. She has 1 minute left.
    Mrs. Schmidt. Yes.
    Mr. Rohrabacher. Yes.
    Chairman Ros-Lehtinen. Mr. Rohrabacher. 
    Mr. Rohrabacher. So, let me clarify what we have just 
determined by this exchange, that your amendment, Mr. Carnahan, 
actually would just say eliminate all of what Mr. Poe is trying 
to do if, indeed, it has any impact on demining and police 
training, et cetera, rather than just it exempts those from the 
25 percent cut.
    Chairman Ros-Lehtinen. Mr. Carnahan?
    Mr. Carnahan. Again, I would direct the gentleman to the 
language of the amendment, that the Secretary may waive the 
above provision if the Secretary determines that such reduction 
would harm----
    Mr. Rohrabacher. So, yes.
    Mr. Carnahan [continuing]. These listed activities.
    Mr. Rohrabacher. So the answer--my reading of that is yes.
    Mr. Carnahan. Yes.
    Chairman Ros-Lehtinen. Reclaiming her time, Ms. Schmidt is 
recognized, 15 seconds.
    Mrs. Schmidt. I think I got it. What you really want to do 
is kill Mr. Poe's amendment. Got it.
    Chairman Ros-Lehtinen. Ms. Schmidt, do you yield your time?
    Mrs. Schmidt. I yield back.
    Chairman Ros-Lehtinen. She does.
    And seeing no further requests for time, we will now vote 
on the amendment offered by Mr. Carnahan, which is the 
amendment to Mr. Poe.
    So the clerk will call the roll on Mr. Carnahan's amendment 
to Mr. Poe's amendment.
    Ms. Carroll. Madam Chairman?
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no.
    Mr. Smith?
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no.
    Mr. Burton?
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no.
    Mr. Gallegly?
    [No response.]
    Ms. Carroll. Mr. Rohrabacher?
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo?
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no.
    Mr. Royce?
    [No response.]
    Ms. Carroll. Mr. Chabot?
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no.
    Mr. Paul?
    [No response.]
    Ms. Carroll. Mr. Pence?
    Mr. Pence. No.
    Ms. Carroll. Mr. Pence votes no.
    Mr. Wilson?
    Mr. Wilson of South Carolina. No.
    Ms. Carroll. Mr. Wilson votes no.
    Mr. Mack?
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Fortenberry?
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul?
    Mr. McCaul. No.
    Ms. Carroll. Mr. McCaul votes no.
    Mr. Poe?
    Mr. Poe. No.
    Ms. Carroll. Mr. Poe votes no.
    Mr. Bilirakis?
    [No response.]
    Ms. Carroll. Ms. Schmidt?
    Mrs. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no.
    Mr. Johnson?
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera?
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no.
    Mr. Kelly?
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin?
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Mr. Marino?
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan?
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle?
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Ms. Ellmers?
    Mrs. Ellmers. No.
    Ms. Carroll. Ms. Ellmers votes no.
    Mr. Berman?
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman?
    [No response.]
    Ms. Carroll. Mr. Faleomavaega?
    Mr. Faleomavaega. Yes.
    Ms. Carroll. Mr. Faleomavaega votes aye.
    Mr. Payne?
    Mr. Payne. Aye.
    Ms. Carroll. Mr. Payne votes aye.
    Mr. Sherman?
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel?
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks?
    Mr. Meeks. Aye.
    Ms. Carroll. Mr. Meeks votes aye.
    Mr. Carnahan?
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires?
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Mr. Connolly?
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch?
    [No response.]
    Ms. Carroll. Mr. Cardoza?
    [No response.]
    Ms. Carroll. Mr. Chandler?
    Mr. Chandler. Aye.
    Ms. Carroll. Mr. Chandler votes aye.
    Mr. Higgins?
    Mr. Higgins. Aye.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz?
    Ms. Schwartz. Aye.
    Ms. Carroll. Ms. Schwartz votes aye.
    Mr. Murphy?
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye.
    Ms. Wilson?
    Ms. Wilson of Florida. Aye.
    Ms. Carroll. Ms. Wilson votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Mr. Keating?
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline?
    [No response.]
    Ms. Carroll. Mr. Royce?
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Ms. Carroll. Mr. Bilirakis.
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no.
    Chairman Ros-Lehtinen. Have all members been recorded?
    The clerk will report the vote.
    Ms. Carroll. Madam Chairman, on that vote there are 16 ayes 
and 23 noes.
    Chairman Ros-Lehtinen. The noes have it, and the question 
is not agreed to.
    Now we go back to Mr. Poe's underlying amendment. Does 
anyone seek recognition to speak on the amendment, or shall we 
go for a vote?
    Thank you.
    A recorded vote has been requested on the Poe amendment. 
The clerk will call the roll.
    Ms. Carroll. Madam Chairman.
    Chairman Ros-Lehtinen. Yes.
    Ms. Carroll. The chairman votes aye.
    Mr. Smith?
    Mr. Smith. Yes.
    Ms. Carroll. Mr. Smith votes aye.
    Mr. Burton?
    Mr. Burton. Aye.
    Ms. Carroll. Mr. Burton votes aye.
    Mr. Gallegly?
    [No response.]
    Ms. Carroll. Mr. Rohrabacher?
    Mr. Rohrabacher. Yes.
    Ms. Carroll. Mr. Rohrabacher votes aye.
    Mr. Manzullo?
    Mr. Manzullo. Aye.
    Ms. Carroll. Mr. Manzullo votes aye.
    Mr. Royce?
    Mr. Royce. Aye.
    Ms. Carroll. Mr. Royce votes aye.
    Mr. Chabot?
    Mr. Chabot. Aye.
    Ms. Carroll. Mr. Chabot votes aye.
    Mr. Paul?
    [No response.]
    Ms. Carroll. Mr. Pence?
    Mr. Pence. Aye.
    Ms. Carroll. Mr. Pence votes aye.
    Mr. Wilson?
    Mr. Wilson of South Carolina. Aye.
    Ms. Carroll. Mr. Wilson votes aye.
    Mr. Mack?
    Mr. Mack. Aye.
    Ms. Carroll. Mr. Mack votes aye.
    Mr. Fortenberry?
    Mr. Fortenberry. Yes.
    Ms. Carroll. Mr. Fortenberry votes aye.
    Mr. McCaul?
    Mr. McCaul. Aye.
    Ms. Carroll. Mr. McCaul votes aye.
    Mr. Poe?
    Mr. Poe. Yes.
    Ms. Carroll. Mr. Poe votes aye.
    Mr. Bilirakis?
    Mr. Bilirakis. Yes.
    Ms. Carroll. Mr. Bilirakis votes aye.
    Ms. Schmidt?
    Mrs. Schmidt. Aye.
    Ms. Carroll. Ms. Schmidt votes aye.
    Mr. Johnson?
    Mr. Johnson. Aye.
    Ms. Carroll. Mr. Johnson votes aye.
    Mr. Rivera?
    Mr. Rivera. Aye.
    Ms. Carroll. Mr. Rivera votes aye.
    Mr. Kelly?
    Mr. Kelly. Aye.
    Ms. Carroll. Mr. Kelly votes aye.
    Mr. Griffin?
    Mr. Griffin. Aye.
    Ms. Carroll. Mr. Griffin votes aye.
    Mr. Marino?
    Mr. Marino. Yes.
    Ms. Carroll. Mr. Marino votes aye.
    Mr. Duncan?
    Mr. Duncan. Aye.
    Ms. Carroll. Mr. Duncan votes aye.
    Ms. Buerkle?
    Ms. Buerkle. Aye.
    Ms. Carroll. Ms. Buerkle votes aye.
    Ms. Ellmers?
    Mrs. Ellmers. Aye.
    Ms. Carroll. Ms. Ellmers votes aye.
    Mr. Berman?
    Mr. Berman. No.
    Ms. Carroll. Mr. Berman votes no.
    Mr. Ackerman?
    Mr. Ackerman. No.
    Ms. Carroll. Mr. Ackerman votes no.
    Mr. Faleomavaega?
    Mr. Faleomavaega. No.
    Ms. Carroll. Mr. Faleomavaega votes no.
    Mr. Payne?
    Mr. Payne. No.
    Ms. Carroll. Mr. Payne votes no.
    Mr. Sherman?
    Mr. Sherman. No.
    Ms. Carroll. Mr. Sherman votes no.
    Mr. Engel?
    Mr. Engel. No.
    Ms. Carroll. Mr. Engel votes no.
    Mr. Meeks?
    Mr. Meeks. No.
    Ms. Carroll. Mr. Meeks votes no.
    Mr. Carnahan?
    Mr. Carnahan. No.
    Ms. Carroll. Mr. Carnahan votes no.
    Mr. Sires?
    Mr. Sires. No.
    Ms. Carroll. Mr. Sires votes no.
    Mr. Connolly?
    Mr. Connolly. No.
    Ms. Carroll. Mr. Connolly votes no.
    Mr. Deutch?
    [No response.]
    Ms. Carroll. Mr. Cardoza?
    [No response.]
    Ms. Carroll. Mr. Chandler?
    Mr. Chandler. No.
    Ms. Carroll. Mr. Chandler votes no.
    Mr. Higgins?
    Mr. Higgins. No.
    Ms. Carroll. Mr. Higgins votes no.
    Ms. Schwartz?
    Ms. Schwartz. No.
    Ms. Carroll. Ms. Schwartz votes no.
    Mr. Murphy?
    Mr. Murphy. No.
    Ms. Carroll. Mr. Murphy votes no.
    Ms. Wilson?
    Ms. Wilson of Florida. No.
    Ms. Carroll. Ms. Wilson votes no.
    Ms. Bass?
    Ms. Bass. No.
    Ms. Carroll. Ms. Bass votes no.
    Mr. Keating?
    Mr. Keating. No.
    Ms. Carroll. Mr. Keating votes no.
    Mr. Cicilline?
    [No response.]
    Chairman Ros-Lehtinen. Have all members have been recorded?
    The clerk will report the vote.
    Ms. Carroll. Madam Chairman, on that vote there are 23 ayes 
and 17 noes.
    Chairman Ros-Lehtinen. The ayes have it, and the question 
is agreed to.
    Are there any other amendments to this section/title?
    Mr. Carnahan is recognized.
    Mr. Carnahan. Thank you, Madam Chairman. I have an 
amendment. It should be labeled 560 at the desk.
    Chairman Ros-Lehtinen. We are going to hold a while the 
clerk will read the whole amendment while we get it passed out.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Carnahan 
of Missouri. Strike section 103(a).
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Thank you. We are going to wait 1 
second while the amendment gets passed out.
    The Chair reserves a point of order and recognizes the 
author for 5 minutes to explain the amendment.
    Mr. Carnahan is recognized.
    Mr. Carnahan. Thank you, Madam Chairman. This amendment 
would strike the statement of policy in section 103(a) in the 
bill that limits the U.S.'s contribution for U.N. peacekeeping 
operations to no more than 25 percent of the total of all 
assessed contributions for U.N. peacekeeping operations. The 
U.S. is currently assessed approximately 27 percent by 
negotiated amount.
    Paying our dues on time and in full is in our Nation's best 
interest. U.N. peacekeeping operations are cost effective. For 
example, a 2005 GAO study found that funding the U.S. 
peacekeeping force in Haiti was eight times less expensive than 
fielding a comparable U.S. force. These operations allow the 
U.S. to not send our military into conflict zones. They provide 
increased political influence at the U.N., and this cap is 
arbitrary.
    It has been waived nearly every year since it was 
instituted in 1994. From 1994 to 2011, bipartisan majorities 
have waived this cap in all but 3 years. From 2005 to 2007, the 
cap was not lifted, and the U.S. went into arrears. The 
practical effect was that countries who provided troops did 
receive payment for missions that the U.S. advocated for and 
authorized. It undermined our credibility, and it undermined 
the viability of peacekeeping missions and their ability to 
protect civilians.
    It is important to remember that an arbitrary cap is not 
necessary because no U.N. peacekeeping mission can be 
authorized and deployed and thus paid for if it is vetoed by 
the U.S. at the Security Council. And it is important to know 
that the U.S. renegotiates assessed rates with the U.N. every 3 
years, and the U.S. peacekeeping rate has dropped from 31 
percent down to 27 percent in the last 10 years.
    While this amendment only strikes the statement of policy 
in the underlying bill, it does not do anything to affect the 
underlying law. I urge support for this amendment and urge the 
committee to really review this underlying cap in the future.
    Chairman Ros-Lehtinen. Do you yield back?
    Mr. Carnahan. Yes.
    Chairman Ros-Lehtinen. Thank you, sir.
    The Chair withdraws the point of order.
    Do any other members seek recognition to speak on the 
Carnahan amendment?
    Mr. Connolly. Madam Chair.
    Chairman Ros-Lehtinen. Yes, Mr. Connolly.
    Mr. Connolly. Thank you.
    Just briefly, Madam Chairman, I speak in favor of the 
amendment.
    I think again we have to avoid the false choice being 
presented to us that we cannot afford our own diplomacy. 
Peacekeeping saves billions of dollars for the United States. 
It allows us on a multilateral basis to do things we otherwise, 
frankly, could not do and could not afford on a bilateral 
basis.
    Henry Kissinger certainly didn't think about, well, I can 
only afford 25 percent and no more when he successful got the 
parties in the 1973 war, after the 1973 war, to disengage and 
to help persuade the United Nations to put peacekeeping forces 
in place in the Golan Heights, where they remain today keeping 
the peace, or the Sinai disengagement that ultimately led to 
the Camp David--successful Camp David Accord with Egypt 
recognizing Israel and the disengagement there.
    We must preserve flexibility, and we shouldn't have rigid 
strictures that limit the ability of our diplomats to 
successfully accomplish diplomacy in our Nation's interests on 
a multilateral basis. I yield back.
    Mr. Berman. Will the gentleman yield?
    Mr. Connolly. I yield to the distinguished ranking member.
    Mr. Berman. I thank the distinguished gentleman for 
yielding. And I just agree with every point he made. But the 
one thing I would like to say to my friends on the other side, 
all right, you want to unilaterally--you want to lower the cap 
from 27 to 25 percent; you cut about $185 million from the 
peacekeeping budget. Mr. Connolly has laid out I think very 
clearly why from a fiscal point of view that is not a smart 
thing to do.
    But don't you at least then have some obligation to say 
which of these peacekeeping missions--we are helping to fund 
about 15 of them--which of these peacekeeping missions do you 
want to chop off, do we want to stop doing what we are doing in 
Haiti? Do we want to end the Sudan operation? In other words, 
you like to talk about 40 cents on the dollar, and you are 
right about the issue of the deficit, but then you have to make 
choices. So why don't you make the choices about which ones you 
don't think are necessary. Which are the priority peacekeeping 
missions? Which are the ones that aren't a priority? Some 
responsibility--when you are talking about unilaterally 
changing the formula for funding these operations, it seems to 
me obligates you to at least tell us whether it is the Sudan, 
whether it is the Congo, whether it is Haiti, which--whether it 
is the groups on the Lebanon-Israel border, which are the ones 
should we wipe out as a result of this change in the lay?
    And I yield back to my friend.
    Mr. Payne. Would the gentleman yield?
    Mr. Connolly. Who seeks--yes, I would yield to my 
distinguished colleague.
    Mr. Payne. Let me just continue on with Ranking Member 
Berman.
    I think that if indeed we are going to say that there has 
to be a reduction, just as we would do in any other kind of 
reduction, whether it is even in your household, you would 
decide whether you are going to fix the roof or just remodel 
the kitchen, I think that we ought to, since there is this 
drive to stop China from lending us money all of a sudden--I 
didn't know the only place we borrow money from is China, but 
China is the topic today--why don't we try then to prioritize, 
and then we could at least make some semblance of sense out of 
this, rather than just nonsensical where we just cut and let 
the chips sort of fall where they may. So I certainly support 
the amendment by the gentleman from Missouri.
    Chairman Ros-Lehtinen. Mr. Connolly.
    Mr. Connolly. Reclaiming my time.
    Thank you, Madam Chairman.
    Just to summarize all of these points, of course, very on 
point, I think it is also important, frankly, to say that 
without this multilateral peacekeeping operation, U.S. 
taxpayers would be footing the bill for more unilateral 
preemptive actions or even reactive actions all over the world, 
and we have already seen the folly of that model in Iraq and in 
other places as well. So, frankly, this is a bargain for the 
United States. It saves taxpayer dollars and allows us to do 
something we otherwise, frankly, could not could on a bilateral 
basis.
    With that, I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Ms. Buerkle is recognized for 5 minutes.
    Ms. Buerkle. Thank you, Madam Chair.
    I would just like to remind my colleagues on the other side 
of the aisle that section 103 of this bill does not create a 
peacekeeping cap, but instead, it simply reiterates what is 
already in public law. I think we in this United States are in 
an economic crisis, and the American people can no longer bear 
to really--really to bear a disproportionate share of 
peacekeeping.
    So I think it is time for the United States Congress, as 
well as the United Nations, to abide by a law and commitments 
that have been made a decade ago. I am opposed to this 
amendment.
    I yield back my time.
    Chairman Ros-Lehtinen. The gentlelady yields back.
    Does any member seek--Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    I would just note that this cap was first established by--
in a partnership. One of the co-authors was Vice President 
Biden, I believe. In 1999 and maybe his judgment then was 
better than it is now, I don't know. I would have to ask. But 
in terms of answering Mr. Berman's specific point that we 
should be willing to be specific, I will wait until he can hear 
me answer him.
    Chairman Ros-Lehtinen. He can hear.
    Mr. Rohrabacher. Mr. Berman, to answer your specific 
point--and I think it was a very justified point--that we 
should not be here talking in generalities, that we should be 
willing to be very specific. And the answer to your specific 
question is, yes, there are many places of the list that I 
would be very happy to and I believe my fellow Republicans 
would be very happy not to have intervention if it costs the 
American people money for that U.N. intervention. Yes, we would 
rather spend it at home doing those things that I reiterated 
that are important for our own people. That is the answer.
    Mr. Berman. Would the gentleman yield?
    Mr. Rohrabacher. Not until I make the last point. That is 
that this cap, by eliminating it, would cost over an extra $100 
million. Maybe you would like to be specific as to where--what 
you are going to eliminate in order to come up with that $100 
million.
    Chairman Ros-Lehtinen. Mr. Berman.
    Mr. Berman. Well, let us start with that deduction for the 
jets----
    Chairman Ros-Lehtinen. This is a United Nations budget.
    Mr. Berman. No, no. This is our budget.
    Mr. Rohrabacher. Okay.
    Mr. Berman. This is our cap. This is not a United Nations 
cap. I mean, I have got a whole list I would be happy to give 
you.
    Mr. Rohrabacher. I happen to agree with getting rid of as 
many loopholes----
    Mr. Berman. I appreciate the gentleman's appreciation of my 
point. And the only thing I would say is I look forward to his 
amendment. We have got a list of 15 peacekeeping missions. I 
believe some are more important than the others. Let us--I look 
forward to the amendment which tells us which ones to fund and 
which ones not to fund. And if none of them should be funded, 
then 25 percent is a ridiculous cap. It should be zero.
    Mr. Rohrabacher. Reclaiming my time.
    I said I would be very happy to work with the gentleman to 
come up with a list of areas not to intervene in order to save 
the taxpayers' money. Thank you very much.
    Chairman Ros-Lehtinen A recorded vote has been requested by 
Mr. Carnahan and the clerk will call the roll.
    This is on the Carnahan amendment.
    Ms. Carroll. Madam Chairman?
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no.
    Mr. Smith?
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no.
    Mr. Burton?
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no.
    Mr. Gallegly?
    [No response.]
    Ms. Carroll. Mr. Rohrabacher?
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo?
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no.
    Mr. Royce?
    [No response.]
    Ms. Carroll. Mr. Chabot?
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no.
    Mr. Paul?
    [No response.]
    Ms. Carroll. Mr. Pence?
    Mr. Pence. No.
    Ms. Carroll. Mr. Pence votes no.
    Mr. Wilson?
    Mr. Wilson of South Carolina. No.
    Ms. Carroll. Mr. Wilson votes no.
    Mr. Mack?
    [No response.]
    Ms. Carroll. Mr. Fortenberry?
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul?
    Mr. McCaul. No.
    Ms. Carroll. Mr. McCaul votes no.
    Mr. Poe?
    Mr. Poe. No.
    Ms. Carroll. Mr. Poe votes no.
    Mr. Bilirakis?
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no.
    Ms. Schmidt?
    Mrs. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no.
    Mr. Johnson?
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera?
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no.
    Mr. Kelly?
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin?
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Mr. Marino?
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan?
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle?
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Ms. Ellmers?
    Mrs. Ellmers. No.
    Ms. Carroll. Ms. Ellmers votes no.
    Mr. Berman?
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman?
    Mr. Ackerman. Yes.
    Ms. Carroll. Mr. Ackerman votes aye.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Aye.
    Ms. Carroll. Mr. Faleomavaega votes aye.
    Mr. Payne?
    Mr. Payne. Aye.
    Ms. Carroll. Mr. Payne votes aye.
    Mr. Sherman?
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel?
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks?
    Mr. Meeks. Aye.
    Ms. Carroll. Mr. Meeks votes aye.
    Mr. Carnahan?
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires?
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Mr. Connolly?
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch?
    [No response.]
    Ms. Carroll. Mr. Cardoza?
    [No response.]
    Ms. Carroll. Mr. Chandler?
    Mr. Chandler. Yes.
    Ms. Carroll. Mr. Chandler votes yes.
    Mr. Higgins?
    Mr. Higgins. Yes.
    Ms. Carroll. Mr. Higgins votes yes.
    Ms. Schwartz?
    Ms. Schwartz. Aye.
    Ms. Carroll. Ms. Schwartz votes aye.
    Mr. Murphy?
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye.
    Ms. Wilson?
    Ms. Wilson of Florida. Aye.
    Ms. Carroll. Ms. Wilson votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Mr. Keating?
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Mr. Mack?
    Ms. Carroll. You are not recorded, sir.
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Royce? 
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no.
    Chairman Ros-Lehtinen. The clerk will report the vote.
    Ms. Carroll. Madam Chairman, on that vote, there are 18 
ayes and 23 noes.
    Chairman Ros-Lehtinen. The noes have it, and the question 
is not agreed to.
    Are there any other amendments to this title?
    Mr. Payne is recognized.
    Mr. Payne. I have an amendment----
    Chairman Ros-Lehtinen. The clerk will read the amendment.
    Ms. Carroll. Which one, Mr. Payne?
    Mr. Payne. Let us try 561, and then we will do all the 20 
others after that.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Payne of 
New Jersey. Amend section 103 to read as follows: Section 103. 
Statement of policy regarding peacekeeping operations 
contributions. (a) In General. Except as provided in subsection 
(b), it remains the policy of the United States pursuant to 
section 404(b)(2)(A) of the Foreign Relations Authorization 
Act, Fiscal Years 1994 and 1995 (Public Law 103-236; 22 U.S. 
Code 287e note) that United States assessed contributions for a 
United Nations peacekeeping operation shall not exceed 25 
percent of the total of all assessed contributions for such 
operation. (b) Exception. Notwithstanding any other provision 
of law, United States assessed contributions for United Nations 
peacekeeping operations in the Republic of Sudan and the 
Republic of South Sudan are exempt from the percentage 
limitation referred to in subsection (a).----
    Chairman Ros-Lehtinen. Dispense with the reading.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. All members have the amendment on 
their desk.
    So, without objection, the Chair reserves a point of order 
and recognizes the author of amendment, Mr. Payne, for 5 
minutes to explain the amendment.
    Mr. Payne. Thank you very much, Madam Chair.
    And as I indicated previously, I do believe that if indeed 
and since the amendment to reduce our contributions to the 
United Nations peacekeeping by several hundred million we, I 
believe, then should move forward in a way that we tend to at 
least hold several harmless--hold harmless some very important 
peacekeeping operations. It certainly does not alter the cap 
that has been passed by this committee. It simply says that 
there are some areas that currently need to have more support, 
that they need to be protected.
    There are different levels of peacekeeping and their 
importance. It is almost like in Dante's ``Inferno,'' there are 
seven levels of purgatory. So I would simply say that we ought 
to hold several of the peacekeeping operations harmless.
    And therefore, Madam Chairman, I offer this amendment, 
which would exempt U.N. peacekeeping operations in South Sudan 
and Abyei from proposed percentage limitations as referred to 
in subsection (a). The U.N. Mission in South Sudan (UNMISS) and 
the U.N. Interim Security Forces for Abyei (UNISFA) protects 
the U.S.-backed Comprehensive Peace Agreement, the CPA, that we 
saw signed by--there and we celebrated with President Bush in 
2001 on the lawn of the White House and, as we all mentioned, 
the birth of a new nation, the 53rd in sub-Saharan Africa and 
193rd in the world. We think it is very important that at the 
inception--it is just like a new baby being born; there has to 
be intensive care. There needs to be a special kind of 
nurturing. There needs to be the support.
    And for us to allow a cap of peacekeeping to interfere with 
the many years, as you know, in the South Sudan situation, 4 
million people were displaced, 2 million people died back in 
1993 when I met Salva Kiir and the founder of the movement John 
Garang, I came back and offered a resolution to the Congress 
saying that the people of South Sudan should have the right of 
self-determination, which really was the first beginning to a 
new nation in South Sudan. I was on the battlefield with the 
South Sudanese Liberation Army, and they had just captured some 
vehicles from the north in Bashir's Army.
    So this amendment would ensure that the U.N. peacekeeping 
mission in Sudan are fully funded so they can continue to 
advance our interests. On July 9, 2011, dignitaries from around 
the world stood and watched South Sudan be born after 20 years 
of civil war, resulting in countless lives be lost to the 
conflict and starvation. The Bush administration played an 
active role in getting both sides to agree to the CPA. Peace 
isn't easy, so peacekeeping forces of UNMISS and UNICEF are on 
the ground to ensure that peace is kept.
    They are working to prevent border skirmishes and to disarm 
and demobilize ex-combatants. They are there to facilitate 
humanitarian aid and help to build a new nation's police and 
security forces. The World Health Organization and UNICEF are 
ensuring that the medical supplies are getting there to those 
who need it, and the U.N.--and I would certainly urge someone 
on my side to give me another minute as my time has expired.
    Chairman Ros-Lehtinen. Thank you very much.
    Mrs. Schmidt is recognized for 5 minutes to speak on the 
Payne amendment.
    Mrs. Schmidt. Thank you.
    First off, I fully understand the importance of supporting 
security and stability in the Sudan. However, once we start 
making an exception for one mission, we have to start making an 
exception for all of them.
    The issue at stake is adhering to U.S. law, and U.S. law, 
as reflected in the historic Helms-Biden agreement, states that 
the maximum U.S. rate of assessment is 25 percent.
    Further, the U.S. certainly maintains over $13.8 million in 
unspent peacekeeping credits for the U.N. mission in Sudan, 
UNMISS. This means that the U.S. has overpaid our commitment by 
$13.8 million, and those assets would be readily available to 
fill any gaps if they occur.
    So while I appreciate the sensitivity and the importance of 
the issue raised with this amendment, we must remain mindful of 
our current economic crisis, and as such, I respectfully urge a 
no vote on this amendment.
    Chairman Ros-Lehtinen. The gentlelady yields back.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chair.
    I just want to commend the gentleman from New Jersey in 
offering this amendment.
    And in my humble opinion, Madam Chair, no one as a member 
of this committee has probably had more experience and a sense 
of expertise in dealing with issues affecting the people and 
the countries in Africa.
    At this time, I would like to turn my time over to the 
gentleman from New Jersey to elaborate further the importance 
of this amendment.
    Mr. Payne. Thank you very much.
    And in all due respect, I am not sure that this amendment 
violates U.S. law. You have made a vote, which says that needs 
to be the 25 percent limit. And that is what the funding will 
be.
    All we are saying is that we should have a priority of 
keeping certain countries harmless, even with the amendment on 
the OAS. Many of the countries have been very, very fair and 
very supportive of the USA. However when we throw them all out 
together, we throw the baby out with the bath water. And I 
don't think that that is wise in personal life and certainly as 
we deal with the world.
    So what I am simply saying is that it would certainly be 
important that we ensure that the two peacekeeping operations 
in South Sudan, which does not alter, does not impact on the 
amount of funds that we are going to contribute to 
peacekeeping--that is what has been voted on, and as it leaves 
the House, that is what it is. And I just cannot understand why 
there would be so much opposition to a commonsense amendment 
that would simply say there definitely tends to be higher 
priority, even as we deal with communicable diseases.
    There are certain diseases that need more intensive care 
and attention than others. A common cold we don't deal with as 
we do perhaps the HIV virus.
    We ought to be able to prioritize without making it a sin 
that we are doing something when we are not altering the bottom 
line, so to speak. So I would even further mention that 
Secretary of State Condoleezza Rice said that U.N. peacekeeping 
is much more cost-effective than using American force, as we 
know.
    We are not even talking about that. We are simply saying 
that America doesn't have the forces to do these things. And so 
we are simply saying, let's just prioritize the countries. 
There are one or two others that I think fall into this 
category. So I would urge the other side to rethink your 
position.
    I yield back.
    Chairman Ros-Lehtinen. Mr. Berman would like----
    Mr. Faleomavaega. I would gladly yield 30 seconds----
    Mr. Berman. I thank the gentleman for yielding.
    Mrs. Schmidt raised, and I think it was raised before, the 
issue of the law. And it is a very fair point.
    As a result of that deal, the cap statutorily was moved to 
25 percent. And then, of course, what happened, that was all 
part of a deal that had other previous arrearages being paid. 
It was a deal in the finest and ugliest sense of the word.
    And to show you how that deal was kept, in almost every 
year since that time, the appropriators waive the provision of 
that law and fund 27 percent. And that happened while George 
Bush was President and the Republican Party controlled both 
Houses of Congress because of the fact that we never managed to 
reduce our percent share through the international negotiations 
like we did do with our regular peacekeeping--with our regular 
dues obligation at the U.N., where we did negotiate a lower 
percentage.
    And so the consequence was in a couple of years where they 
didn't do that, later on, we just paid the arrearages for it, 
which will happen again.
    Here is the one--I understand your position and I think it 
is a legitimate position. We should pay a lower percentage. I 
think the right way to do it is negotiate it. But you are doing 
it this way.
    But what Mr. Payne is saying is really, let's prioritize. 
And here is a case where what is happening in the Sudan and 
given the story in Darfur and the story in South Sudan and the 
work under the Bush administration to deal with these issues, 
this is one place where let's fully fund our share, 27 percent.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Faleomavaega's time has expired.
    Does any other member--Mr. Connolly and then Mr. Meeks.
    Mr. Connolly. Thank you, Madam Chairman.
    I find myself in the odd position in the sense of agreeing 
with my colleague, Mrs. Schmidt, from Ohio. I supported the 
gentleman's amendment to restore $60 million for peacekeeping 
in Sudan. I oppose an artificial rigid cap of peacekeeping 
operations at 25 percent.
    But as the gentleman from New Jersey has phrased it, he is 
asking us in this vote to actually express on the part of this 
committee a priority. I have trouble with that. I have trouble 
saying that the Sudan trumps everything, including UNIFIL, 
including U.N. troops on the Golan Heights, for example. I 
think they are all important. I think--and I made that case.
    And so I certainly will yield to the gentleman from New 
Jersey if he wish, but I have to say to him, I am not reassured 
by his explanation because I think he actually gave voice to 
exactly what bothers me about this amendment, that we are 
saying the Sudan is different, even though I support it, but it 
is so different that it is actually more important than some 
other, I think, very vital U.N. operations we support and to 
keep the peace, especially in the Middle East.
    So, with that, I would yield to my friend.
    Chairman Ros-Lehtinen. Mr. Payne.
    Mr. Payne. Thank you very much to the gentleman, who is a 
very thoughtful, professor type.
    But let me just get back to reality. There are some 
missions that are more important, unfortunately, than others. 
That is why they have votes, and everyone that wants 
peacekeeping, that doesn't happen. Let me assure you one thing: 
I doubt very seriously if supporting South Sudan is going to 
impact on the Golan Heights. I don't think we have to worry 
about that. And so to use that as an example I think is less 
than--it is kind of not genuine.
    What I do say, and everyone is entitled to their opinion, 
that it is almost nonsensical to say there are not priorities. 
There are simply every--everyone is created equal, but 
everybody doesn't behave equally. So priorities are a way of 
life.
    I mean--and if we have unique situations--and I would just 
say unique situations, the birth of a new country, a country 
that has gone through some very horrific situation where 
democracy may have been restored when a tyrant has been in, I 
do think that a limited time for a country to be able to get on 
its feet is not in my opinion a very unusual request.
    I would yield back.
    Chairman Ros-Lehtinen. Mr. Connolly.
    Mr. Connolly. Thank you, Madam Chairman.
    And I appreciate the remarks of my colleague, but I would 
remind him he is the one who actually just articulated, that, 
yes, I want to rank things; I want to express a hierarchy of 
priorities, and Sudan should be number one. That is what this 
amendment does. And I would remind my friend I already voted 
with his amendment for $60 million restoration for the Sudan. 
And I voted against an artificial 25 percent cap.
    But if we have to live within such a cap, I am troubled by 
saying this one uber alles. And I do think it does raise 
questions about other U.N. peacekeeping missions that are also 
of critical importance to U.S. interests and to world peace. So 
while I completely support the mission in the Sudan, I have 
trouble voting for an amendment that is tantamount to saying, 
but the Sudan is the most important.
    With that, I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Johnson is recognized.
    Mr. Johnson. Thank you, Madam Chairman.
    And I will yield some time to my colleague from Ohio.
    Chairman Ros-Lehtinen. Mrs. Schmidt.
    Mrs. Schmidt. Thank you, Madam Chairman.
    I agree with my good colleague from the other side of the 
aisle on continued--making priorities of how the U.N. should 
spend its money. If we carve out the Sudan, then we are going 
to have to carve out the Congo and then Haiti and so on and so 
on. And at the end of the day, my good friend Mr. Connolly is 
absolutely right; when you get to issues that have legitimate 
concerns as well as these, there may not be anything left for 
them. And so I think we have to say no to this, because it is 
not in our best interest to carve out a niche for one case over 
another, especially in a fluid environment where tomorrow the 
whole game may be a different play.
    Mr. Berman. Will the gentlelady yield?
    Chairman Ros-Lehtinen. Mrs. Schmidt?
    Mrs. Schmidt. No. It would be Mr. Johnson.
    Mr. Johnson. I yield back, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Meeks is recognized.
    Mr. Meeks. I yield Mr. Payne 1 minute or so.
    Mr. Payne. Thank you.
    I will yield to Mr. Berman for 1 minute.
    Mr. Berman. I accept.
    Chairman Ros-Lehtinen. Mr. Berman.
    Mr. Berman. Thank you.
    The issue is joined. When it is tough to make--I disagree 
with Mr. Connolly on this one. I wish that the peacekeeping 
forces on the border between Syria and Israel were the glue 
that was ensuring that there would be peace; I don't think they 
are. There are differences in priorities.
    And Mrs. Schmidt, I believe your response is essentially, 
we have got to cut; it is tough to prioritize, so let us just 
cut across the board, not decide which peacekeeping mission is 
working better, which is more efficient; let's abdicate our 
responsibility as a Foreign Affairs Committee to make those 
kinds of miserable, tough decisions and let's just cut across 
the board.
    There is no doubt I am against the lowering of the cap, but 
if that is the way we are going and that is the way we are 
going, then I think what Mr. Payne is doing is an appropriate 
thing. It is asking the committee to make its judgment. If 
someone disagrees and thinks there are other ones, they can 
offer amendments to it, and we can have that debate. That is a 
fair debate to have. But across the board, without any 
judgments about the individual peacekeeping operations doesn't 
sound like a committee exercising its discretion to do the 
most--the smartest thing it could do with the reduced resources 
that we are giving to this.
    Chairman Ros-Lehtinen. Mr. Meeks.
    Mr. Payne. Reclaiming my time.
    Okay. I give you 1 minute. And like I said, once again, I 
am a little puzzled by Mr. Connolly, who I am--surprisingly 
supports across-the-board cuts. I guess we then should put that 
into our domestic policies. I am shocked that someone would say 
that everyone should be cut the same or increased the same.
    I have always argued that across-the-board cuts were 
something that made no sense at all, primarily in the domestic 
arena. But everyone certainly is entitled and I have a lot of 
respect for Mr. Connolly, but I am sort of shocked at the 
simplistic across the board, just cut everybody equal, because 
we have to make a cut and that is the simplistic way to do it, 
to me seems asinine to me.
    We have had a special envoy. We don't do special envoys 
everywhere. But we had one for Northern Ireland. We had Mr. 
Mitchell, who was a special envoy. We made a special 
arrangement for him and gave him special powers, and guess 
what? As a result, we have a peace that has unfolded in the 
north of Ireland because we made it a priority. We put a 
special envoy there who worked with groups who had never talked 
to each other before.
    We have had special envoys in Israel to deal with the 
Palestinian-Israeli situation.
    To say you should just cut everything equally, that there 
are no priorities, that everything is equal to me--like I said, 
it is--I certainly respect everybody's opinion----
    Mr. Connolly. Would my colleague yield?
    Chairman Ros-Lehtinen. It is Mr. Meeks' time.
    Mr. Connolly. My question was addressed to Mr. Meeks.
    Mr. Meeks. Let me just say something first. If I have any 
time left, I will yield.
    Cuts affect people or places or things differently. That is 
why I don't think that you can cut across the board. Cuts to 
some folks won't hurt them; some cuts to others can be 
devastating. And we must take that into consideration when--
especially if you are talking about limiting--putting a cap on 
funds. So we have got to do the best we can with what we have.
    And when you have a scenario that we have had in the Sudan, 
which really had not been prioritized for I don't know how long 
with all of the lives that have been lost, then it would just 
seem to me that the time has come just to simply say, well, 
even to correct the wrong of our past, that we are going to 
look at this and prioritize it. And if there are other items 
that we need to prioritize, let's do that.
    But this--and to cut Sudan at such a critical time--I mean, 
the camera of history is on Sudan right now as a new nation is 
born. And to turn our back on it now, historically when folks 
look back on us, they will say, what kind of decision did you 
make? So we have got to make the kind of decision when we do 
cuts to make sure that it doesn't hurt the least fortunate.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Smith is recognized.
    Mr. Smith. Thank you very much, Madam Chair.
    First of all, I think it should be underscored that 
peacekeeping caps are an attempt to promote burden sharing. It 
is not to cut off peacekeepers. It is to try to get countries, 
especially the European Union, to pick up a greater share of 
their--of the cost associated with peacekeeping.
    Peacekeeping--the peacekeeping burden in Africa, and I say 
this with great pride for the people of Africa, has 
increasingly been borne by the African Union and African Union 
troops. They are actually putting people in the field and doing 
a stellar performance in country after country, and they are in 
Congo--the largest peacekeeping force is in that nation, where 
things continue to be incredibly unstable and could quickly 
erode into even more bloodshed than there currently is today.
    With regards to this amendment, and I do support the 
amendment, I think with the emerging challenges of the newest 
nation on earth in Southern Sudan, the Republic of South Sudan, 
we are dealing with a situation where there is incredible 
volatility, especially in Abyei and in other places, and the 
ability to deploy immediately and without any kind of 
hesitation sufficient troops is paramount.
    So I would say that we need to have the capability--you 
know, caps are great. They have been waived in the past. I 
congratulate the gentlelady for putting a cap again to extend 
burden sharing to other countries that have the ability and the 
capacity to do so.
    But I think when you are talking about Sudan, which remains 
a tinder box of potential conflict, this I think is a prudent 
exception.
    Chairman Ros-Lehtinen. The gentleman yields back.
    Mr. Connolly. Would the gentleman before he yields back 
yield me some time?
    Mr. Smith. I would be happy to.
    Chairman Ros-Lehtinen. Mr. Connolly is recognized.
    Mr. Connolly. I thank you because I wanted an opportunity 
to respond to my friend from New Jersey, the other friend from 
New Jersey. I think it is unfair to say to a colleague who 
raises a question about whether we want to make one country's 
peacekeeping operations more important than all others, 
irrespective of the circumstances, that that is tantamount to 
support for an across-the-board cut because I just voted for 
your amendment to restore $60 million to the Sudan. I opposed 
the 25 percent cap and supported the amendment in fact to lift 
it. So they are not the same. But if we, having failed in those 
votes and being asked then, okay, in picking 15 missions, let 
us make this one number one, respectfully, I raise questions 
about that.
    And I would say to my friend, Mr. Berman, you know I would 
agree that the U.N. missions in the Middle East have had 
different records. But I would argue that overall they have 
served a purpose, and I sure wouldn't want to defund them or 
have them withdraw in a volatile part of the world. So that is 
the nature of my concern, and I would hope that that nuance 
could be appreciated without being characterized in a way that 
does not in fact reflect my views.
    With that, I yield back.
    Chairman Ros-Lehtinen. The gentleman yields back. Hearing 
no----
    Mrs. Schmidt. Will the gentleman yield?
    Mr. Connolly. I would be happy to yield.
    Mrs. Schmidt. Again, my concern is carving this out because 
what--because I understand we are going to have more carve-outs 
offered. Why would we ask for an increase in the contributions 
to U.S. peacekeeping to support one over the other? And the 
fact is that we are talking about $436 million in overpayments 
that are already on the table that can be used if they believe 
that they need to be used for the Sudan or for Haiti or for any 
other thing. So I guess my question is to Mr. Payne and to 
anyone else, are we going to ask for any more carve-outs?
    Chairman Ros-Lehtinen. It is Mr. Smith's time.
    Mrs. Schmidt. Why Sudan over anyone else?
    Chairman Ros-Lehtinen. Mr. Smith yields to Mr. Payne.
    Mr. Payne. Well, I--yes, have some other carve-outs, too, 
and I assume they will be treated the same way. But I do think 
there is a priority. I would think that if the arguments made 
for South Sudan cannot be compelling enough to have 
consideration, I certainly question where the others will fall. 
And actually I do, to the gentleman, Mr. Connolly, appreciate 
the support for the other amendment, but I still contend and I 
am not criticizing him, he is--he has the 700,000 people to 
answer to like I do, and it is his opinion, and I respect it. 
The thing that disturbs me is that it seems that there should 
not be priorities and that things should be across the board, I 
still--however he says it, it is kind of an across-the-board 
cut support.
    Chairman Ros-Lehtinen. Mr. Smith's time has expired.
    Mr. Payne. And I yield back.
    Chairman Ros-Lehtinen. And hearing no further requests for 
recognition, the question occurs on the amendment, a recorded 
vote has been requested. The clerk will call the roll.
    Ms. Carroll. Madam Chairman.
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no.
    Mr. Smith?
    Mr. Smith. Yes.
    Ms. Carroll. Mr. Smith votes aye.
    Mr. Burton?
    [No response.]
    Ms. Carroll. Mr. Gallegly?
    [No response.]
    Ms. Carroll. Mr. Rohrabacher?
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo?
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no.
    Mr. Royce?
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no.
    Mr. Paul?
    [No response.]
    Ms. Carroll. Mr. Pence?
    Mr. Pence. No.
    Ms. Carroll. Mr. Pence votes no.
    Mr. Wilson?
    Mr. Wilson of South Carolina. No.
    Ms. Carroll. Mr. Wilson votes no.
    Mr. Mack?
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Fortenberry?
    [No response.]
    Ms. Carroll. Mr. McCaul?
    Mr. McCaul. No.
    Ms. Carroll. Mr. McCaul votes no.
    Mr. Poe?
    [No response.]
    Ms. Carroll. Mr. Bilirakis?
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no.
    Ms. Schmidt?
    Mrs. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no.
    Mr. Johnson?
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera?
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no.
    Mr. Kelly?
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin?
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Mr. Marino?
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan?
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle?
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Ms. Ellmers?
    Mrs. Ellmers. No.
    Ms. Carroll. Ms. Ellmers votes no.
    Mr. Berman?
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman?
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Aye.
    Ms. Carroll. Mr. Faleomavaega votes aye.
    Mr. Payne?
    Mr. Payne. Aye.
    Ms. Carroll. Mr. Payne votes aye.
    Mr. Sherman?
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel?
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks?
    Mr. Meeks. Aye.
    Ms. Carroll. Mr. Meeks votes aye.
    Mr. Carnahan?
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires?
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Mr. Connolly?
    Mr. Connolly. No.
    Ms. Carroll. Mr. Connolly votes no.
    Mr. Deutch?
    [No response.]
    Ms. Carroll. Mr. Cardoza?
    Mr. Cardoza. Aye.
    Ms. Carroll. Mr. Cardoza votes aye.
    Mr. Chandler?
    Mr. Chandler. No.
    Ms. Carroll. Mr. Chandler votes no.
    Mr. Higgins?
    Mr. Higgins. Aye.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz?
    [No response.]
    Ms. Carroll. Mr. Murphy?
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye.
    Ms. Wilson?
    Ms. Wilson of Florida. Aye.
    Ms. Carroll. Ms. Wilson votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Mr. Keating?
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Ms. Carroll. Mr. Fortenberry?
    Mr. Fortenberry. Yes.
    Ms. Carroll. Mr. Fortenberry votes aye.
    Chairman Ros-Lehtinen. The clerk will report the vote.
    Ms. Carroll. Madam Chairman, on that vote there are 18 ayes 
and 21 noes.
    Chairman Ros-Lehtinen. The noes have it, and the question 
is not agreed to.
    Before I call on the next amendment, the Chair would like 
to say that we will be having a floor vote soon, two votes. And 
we will break for those votes and come back. We won't have the 
second series of votes until 3 o'clock. And so our intent is 
to--if we don't have enough for a vote, we will roll the votes 
to a time certain when we come back after the second series of 
votes, so that people do not miss votes.
    Mr. Berman. Ma'am----
    Chairman Ros-Lehtinen. There will be no votes between the 
first series and the second series, but the intent of the Chair 
is to continue with the debate on the amendments.
    Mr. Berman.
    Mr. Berman. I don't know why I am--it sounds like what you 
are saying is very simple, and I am not--we are going to 
continue now until the first series of votes?
    Chairman Ros-Lehtinen. Correct.
    Mr. Berman. And then after the first series of votes, we 
are coming back?
    Chairman Ros-Lehtinen. Correct.
    Mr. Berman. And then----
    Chairman Ros-Lehtinen. We hope to have some amendments 
debated. No votes.
    Mr. Berman. No votes now. No votes between the first series 
of votes and the second series of votes?
    Chairman Ros-Lehtinen. Right. And we will be done around 4 
o'clock in the second series of votes, and we will be back.
    Mr. Berman. It was very simple. I was just very----
    Chairman Ros-Lehtinen. No. Thank you for clarifying. I 
appreciate it.
    Are there any further amendments on this item?
    Ms. Bass. Madam Chair, I have an amendment at the desk.
    Chairman Ros-Lehtinen. Ms. Bass will--the clerk will 
designate--will read the amendment, please.
    Ms. Carroll. Amendment to H.R. 2583 offered by Ms. Bass of 
California. Amend section 103 to read as follows: Section 103. 
Statement of policy regarding peacekeeping operations 
contributions. (a) In General. Except as provided in subsection 
(b), it remains the policy of the United States, pursuant to 
section 404(b)(2)(A) of the Foreign Relations Authorization 
Act, Fiscal Years 1994 and 1995 (Public Law 103-236; 22 U.S. 
Code 287e note) that United States assessed contributions for a 
United Nations peacekeeping operation shall not exceed 25 
percent of the total of all assessed contributions for such 
operation. (b) Exception. Notwithstanding any other provision 
of law, the United States assessed contributions for United 
Nations peacekeeping operations in the Democratic Republic of 
Congo are exempt from the percentage limitation referred to in 
subsection (a).----
    Chairman Ros-Lehtinen. With unanimous consent, we will 
dispense with the reading.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. I believe that all members have the 
copy of the Bass amendment.
    The Chair reserves a point of order and recognizes the 
authority of the amendment, Ms. Bass, for 5 minutes to explain 
her amendment.
    Ms. Bass. Thank you, Madam Chair.
    This amendment really continues our conversation on 
priorities. It provides necessary funds for the U.N. 
peacekeeping mission in the Democratic Republic of Congo. It is 
the largest U.N. mission in a very dangerous part of the world. 
It is currently being lead by former U.N. Ambassador to the 
DRC, Roger Meece. This amendment will ensure that the U.S. 
peacekeeping mission in the DRC is fully funded so the mission 
can continue to advance U.S. interests.
    The mission has been mandated to patrol an area the size of 
the United States from the Mississippi to the Atlantic with 
very poor infrastructure. The U.N. is improving its ability to 
protect civilians, especially those crimes against women. These 
efforts have been led by Special Representative Atul Khare of 
the U.N. peacekeeping operations and Margot Wallstrom, Special 
Representative for Sexual Violence and Conflict, a position 
that was spearheaded by the United States. This includes 
finding cost-effective ways to increase radio and telephone 
communications in remote areas, sending military and civilian 
protection teams to remote areas, and providing medical and 
psychosocial support to victims.
    The mission partnered with the DRC Government in February 
2010 to build five mineral trading centers in North and South 
Kivu. These centers will facilitate the tracing, control and 
regulation of mineral trading. The establishment of these 
centers will not only help curb the financing of conflict but 
also will help reduce smuggling, which often saps the national 
wealth.
    The U.S. and U.N. peacekeeping mission are working together 
to stimulate economic growth through agricultural and 
vocational programs. So far, six youth vocational schools have 
been built for students whose educations were interrupted due 
to the ongoing conflict.
    I also want to express my overall support of the United 
Nations peacekeeping operations around the world. Today's world 
conflicts are transnational, freely crossing borders to 
threaten entire regions and dragging people of many national 
allegiances into war. These types of complicated problems need 
multinational solutions to promote peace and security and help 
countries transition to stability. The U.N. peacekeepers play a 
critical role in these transitions by being the first line of 
defense to ensure the--to ensure the safety of civilians and 
promoting diplomacy.
    Despite peacekeeping operations' broad reach throughout the 
world, the international security provided by the peacekeepers 
is given at a relatively low cost to the United States. 
Peacekeeping missions deploy 100,000 international troops in 14 
countries on 5 continents, but the United States provides few 
troops, and other countries pick up about 75 percent of the 
cost. Because of the U.S.'s significant role and good standing 
within the U.N., the U.S. is able to have influential impact on 
the development, leadership and execution of peacekeeping 
operations without investing American lives on the ground.
    The United States needs to uphold its commitment to the 
U.N. and the rest of the world and continue to invest in global 
peace and security through U.N. peacekeeping operations. I ask 
you to continue our global leadership and continue to fund the 
peacekeeping operations and urge you to support this amendment 
to fund peacekeeping in the Democratic Republic of the Congo. I 
yield----
    Chairman Ros-Lehtinen. Thank you very much, Ms. Bass.
    And because we have been called to vote, the committee will 
temporarily recess and suspend until we come back from these 
two votes, and it would be great if the members would come 
back. Thank you.
    [Recess.]
    Chairman Ros-Lehtinen. The committee is now back in order 
and we are resuming proceedings on the amendment by Ms. Bass. 
And before I recognize other members for their statements, I 
would like to ask unanimous consent that we make a technical 
correction--it is a different amendment, sorry, different 
amendment.
    Thank you, Ms. Bass.
    And which other member would like to be recognized?
    Mrs. Schmidt is recognized for 5 minutes.
    Mrs. Schmidt. Madam Chairman, I won't keep this very long, 
but, again, we are carving out another section of this for 
another reason. And we can't continue down this path, because 
we will have made choices that in a year from now may be the 
wrong choices. And so I urge my colleagues to vote no on this 
amendment.
    Chairman Ros-Lehtinen. The gentlelady yields back. Mr. 
Payne is recognized for 5 minutes.
    Mr. Payne. Let me say that I support the amendment by the 
gentlelady from California. Once again, the general premise is 
that all situations are not equal; that in light of the fact 
that we are going to have a limitation, then that pushes us to 
therefore make more informed decisions.
    I won't belabor the point either, but it is very important 
that the DRC, a country that has had tremendous problems, has 
been assisted tremendously by the U.N., the sexual violence 
against women is just unbelievable, where our statistics make 
it perhaps one out of every three women has been sexually 
abused one way or the other. The U.N. has really moved in and 
has started to turn the trend around.
    It is a country that has tremendous resources that by the 
U.N. being there and putting some semblance of order so that 
the central government in Kinshasa can benefit from the 
tremendous mineral resources that are available in the DRC. As 
we all know, coltan, which is a mineral found practically 
solely in the DRC, is the mineral that goes into the cell 
phones. I am sure that there have been some financial gains by 
U.S. corporations with the invention of the cell phone. So 
there are definitely reasons why if that valuable resource 
could be channeled into the Government of Sudan by virtue of 
peacekeepers making order, then the standard of living could 
increase, the health care can improve, education can start, and 
that these resources can be used for the benefit of the 
residents of the DRC.
    And so I think it is an overall goal of trying to upgrade 
the standard of living throughout parts of sub-Saharan Africa, 
and so I support the gentlelady's amendment, and I will yield 
back the balance of my time.
    Chairman Ros-Lehtinen. Thank you.
    Do other members wish to be heard on the Bass amendment? If 
not, then we will postpone this vote. Based on the previous 
agreement that we had made, we will have a recorded vote when 
we come back.
    Are there any other amendments to this title?
    Ms. Wilson of Florida. I have an amendment at the desk.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Ms. Wilson 
of Florida. Amend section 103 to read as follows: Section 103. 
Statement of policy regarding peacekeeping operations 
contributions. (a) In General. Except as provided in subsection 
(b), it remains the policy of United States, pursuant to 
section 404(b)(2)(A) of the Foreign Relations Authorization 
Act, Fiscal Years 1994 and 1995 (Public Law 103-236; 22 U.S. 
Code 287e note) that the United States assessed contributions 
for a United Nations peacekeeping operation shall not exceed 25 
percent of the total of all assessed contributions for such 
operation. (b) Exception. Notwithstanding any other provision 
of law, United States assessed contributions for United Nations 
peacekeeping operations in Haiti are exempt from the percentage 
limitation referred to in subsection (a).----
    Chairman Ros-Lehtinen. I ask unanimous consent we will 
consider the amendment as having been read, because I believe 
all of the members have a copy of the amendment.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. And I would now like to recognize 
Ms. Wilson of Florida to explain her amendment.
    Ms. Wilson of Florida. Thank you, Madam Chair.
    I have been to Haiti in the past 3 months. I have seen the 
entire country. I have seen the tent cities, 1,400 tent cities. 
I have seen women and children in desperate situations; sexual 
assaults on women and children are a daily occurrence. The 
national penitentiary collapsed during the recent earthquake, 
so murderers, rapists and thieves all escaped and wreak havoc 
in Haiti. I shudder to think what would happen if Haiti did not 
have any U.N. peacekeepers there.
    The U.N. peacekeepers' mission in Haiti has played a vital 
role in helping this country get back on its feet after the 
devastating earthquake that killed 200,000 people and displaced 
nearly 1.5 million.
    Peacekeepers have been in Haiti since June 2004. There are 
8,702 troops, 3,550 police officers, 542 international 
civilians who are working there, 1,210 Haitians and 231 
volunteers from the United Nations. Since 2004, there have been 
160 fatalities among these peacekeepers.
    This amendment will ensure that the U.N. peacekeeping 
mission in Haiti is fully funded so the mission can continue to 
advance U.S. interests. The U.N. mission played a critical, 
important role in supporting the Haitian Government during the 
country's 2010, 2011 election process. It helped Haiti's 
Provisional Electoral Council administer the elections, 
providing logistical support, getting displaced voters to 
polling stations, and creating security plans to minimize 
violence.
    This election marks the first time in Haitian history that 
power had been transferred from one democratically elected 
President to another from the opposition. It has trained 10,000 
officers so far, and it is currently working to raise that 
figure to 14,000 by the end of 2011.
    The U.N. peacekeeping mission in Haiti has helped the other 
U.N. agencies, like UNICEF's efforts to educate more than 
720,000 children and 15,000 teachers across the country. In 
addition, the WFP is providing over 400,000 schoolchildren with 
meals every day.
    As a permanent veto-wielding member of the U.N. Security 
Council, the U.S. approves every peacekeeping mission. Over the 
last decade the number of U.N. peacekeeping missions has grown, 
with its largest growth in history during the George W. Bush 
administration. This is because these missions serve our 
national interests and are cost-effective. According to the 
GAO, U.N. peacekeeping is eight times less expensive than 
fielding a comparative U.S. military force. Further, Secretary 
of State Condoleezza Rice said that U.N. peacekeeping is much 
more cost-effective than using American forces, and, of course, 
America doesn't have the forces to do all of these peacekeeping 
missions. But somebody has to do them.
    I ask for your support of this amendment. Thank you.
    Chairman Ros-Lehtinen. Thank you so much.
    Ms. Wilson yields back.
    Mr. Mack is recognized for 5 minutes.
    Mr. Mack. Thank you, Madam Chair. And I first want to thank 
Ms. Wilson for her continued commitment and passion for 
supporting the people of Haiti in these difficult times. And I 
also want to thank the chair of the committee for her strong, 
steadfast commitment to ensuring the people of Haiti get the 
things they need and the resources they need.
    However, I would like--also like to say, as the two 
amendments before this one, I think we need to be clear that 
the underlying provision of this amendment is not about Haiti 
or any other particular mission for that matter. It is about 
fiscal responsibility.
    The United States has made it, Congress has made it, 
abundantly clear that we support the efforts of Haiti to 
recover from the tragedy of last year's earthquake. In fact, we 
provided nearly $2 billion in assistance to the nation since 
last January. I also believe that there is roughly $7 million 
that are available through the U.N. for Haiti that have not 
been spent.
    So I just want to make it clear that this is not a question 
about the commitment of this committee or Congress to Haiti. 
And I respectfully urge a no vote on the amendment. And I yield 
back.
    Chairman Ros-Lehtinen. Thank you, Mr. Mack.
    Mr. Berman is recognized for 5 minutes.
    Mr. Berman. Thank you very much, Madam Chairman.
    And I rise in support of the amendment. It is about Haiti. 
We can have a disagreement about how much we should be spending 
on peacekeeping, but we know not just the incredibly 
humanitarian issues raised by the disasters, natural and 
manmade, that have occurred in Haiti, the state of the people 
there, the national security implications of what is happening 
in Haiti before us, the issues of refugees and immigrants, and 
when you decide to take the peacekeeping cap from $1.9 billion 
to $1.7 billion and don't prioritize, you impact on life in 
Haiti, just as the author of the amendment, the gentlelady from 
Florida, pointed out in describing exactly what is going on 
there and what these peacekeepers are doing.
    I think--and what is the alternative? Well, because Haiti 
is so important to us, because the case is so compelling, we 
will now pay 100 percent rather than 27 percent of operations 
to help Haiti survive and turn things around, or not?
    Somewhere there should be responsibility for which of these 
missions are highest priority when we cut this money without 
having renegotiated the percentages among all the countries who 
participate in the peacekeeping. This is 27 cents, or, after 
the amendment that has passed, 25 cents of each dollar, and 
that is a lot better than 100 percent of each dollar.
    And I would argue in the case Haiti would rank very high on 
my list of priorities for where we should not be pulling back 
from our commitments, especially when they produce so much 
greater from other countries in terms of the good that they are 
doing. So I call--I urge the support for this amendment.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Berman yields back.
    Mrs. Schmidt of Ohio is recognized.
    Mrs. Schmidt. Thank you, Madam Speaker, and I really don't 
want to belabor the point, but I do want to point out some 
things. No one is more committed to Haiti than the Members of 
Congress, the President, in fact the citizens of the United 
States. And we are not talking about getting rid of our 
support. We fully support our presence in the stabilization and 
recovery of Haiti, and we continue to do this time and time 
again.
    The underlying provision does not eliminate the MINUSTAH, 
which is the U.N. initiative for Haiti. The U.S. would still be 
authorized to provide nearly $200 million in support. This is 
on top of the $300 million the U.S. is providing to Haiti on a 
bilateral basis to choose to support the rule of law and 
governance in Haiti, which, as my good friend from Florida 
said, is part of the $2 billion that Congress has already 
appropriated for Haiti since last January.
    So the U.S. is clearly committed to Haiti, as am I. But 
that is not what this amendment is about. Madam Chair, if we 
continue to carve out every mission under peacekeeping, the 
U.N. will continue to take advantage of our generosity and 
raise our level of assessment until we finally put our foot 
down and say, no more. And this is what we did in 2005. And 
while the cap was in effect, our rate of assessment dropped 
from 28 percent to 25.6 percent.
    When the leadership of the last Congress decided to 
arbitrarily raise the cap above and beyond what the U.N. itself 
was asking for, we virtually invited them to raise our rate of 
assessment, which they did this year.
    This is about getting us back on track and respecting U.S. 
law. And so, again, I urge my colleagues to oppose this 
amendment. I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Payne is recognized for 5 minutes.
    Mr. Payne. I rise in support of the amendment.
    Once again, I do think that as we are dealing with the 
capping of funds available, I still contend the basic premise 
that I have mentioned before, that there needs to therefore be 
an order of priority. I think it only makes sense that we tend 
to prioritize when we have scarce resources, and the fact that 
Haiti is so close to our borders, it makes it essential, 
because many of us remember when the boat people were coming 
over, and people were drowning at sea and in shark-infested 
water and ships turning over, and the U.S. Navy had to spend 
tremendous resources rescuing people, and attempted to put a 
blockade in, and the tremendous amount of resources spent on 
that operation exceeded probably what we will spend in 5 years 
in a peacekeeping operation. And so sometimes a stitch in time 
saves nine, my grandmother used to say. If you tend to then put 
preventive situations in, you therefore can prevent larger 
problems from happening.
    And U.S. has really been, as you know, so involved in 
Haiti. I went back to Haiti with President Aristide when he was 
restored during the Clinton administration. I was there when 
the U.S. went in militarily. I was there when the U.S. came out 
militarily. I was there when the U.N. went in initially. I was 
there when they restored democracy to Haiti.
    And so it is just the right thing to do. They are close to 
us in our Nation. We have many, as you know, Haitian Americans 
in throughout the United States, not only in Florida, where, of 
course, you all have tremendous numbers, but in New Jersey and 
New York and in other parts of our country.
    I do believe that things are getting better. I believe we 
actually have started a daily service to Port au Prince from 
Newark, which is a great step forward because there was limited 
air transport to Haiti. You had to go to New York to catch a 
flight.
    So I think that this makes sense. I certainly support the 
gentlelady, Congresswoman Wilson, who even prior to coming to 
the U.S. Congress spent a lot of her time in the State assembly 
and in her activities in Florida fighting for the cause of the 
Haitian people. And I commend her for this amendment and urge 
the support.
    I will yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Fortenberry is recognized.
    Mr. Fortenberry. Thank you, Madam Chair.
    I want to express appreciation to Ms. Wilson for her deep 
concern about Haiti. I was there on election day last year as a 
part of a group of--Members of Congress as a group were 
observing the integrity of the election, and like so many 
Members I have a deep concern about that country, which is 
really on the doorstep of our own neighborhood and has been 
mired in such deep poverty and structural governance 
difficulties for so long. I think many of us share the concern.
    I do for a moment want to go back to the commentary made by 
Mrs. Schmidt, and Mr. Connolly, as well as Mr. Payne in the 
debate that occurred prior to this debate right now. I think 
some excellent and constructive points were made about the 
problem of trying to carve out countries, prioritizing one over 
the other with somewhat limited information in this particular 
process, yet at the same time all situations are not the same. 
And do we take advantage of the moment to actually determine 
whether some slight increase of resources for one particular 
area of the world as balanced against other areas of the world 
that may not have as pressing of a need at the moment is 
particularly germane. I think Mr. Payne made that argument, and 
yet Mrs. Schmidt and Mr. Connolly made equally as good 
arguments about this problem of going country by country and 
carving it out.
    I would like to point out that we have a process by which 
the administration notifies our committee before the U.N. 
Security Council acts on any change of a mission and commits 
troop levels. They notify our committee, and there is an 
implied consent if we don't do anything.
    We also have an appropriations process where I think it 
would behoove all of us to become perhaps more informed, where 
we go line by line and actually commit a dollar figure to these 
various missions.
    So with that said, maybe after all of this particular 
hearing on the State authorization is done, if we want to 
strengthen our ability to have more direct oversight so that we 
have better information in a more timely fashion, some of us 
could creatively think about that so that we can determine 
whether or not we want to prioritize one country or region over 
another given the particular sensitivity of that situation in 
the moment. That is why I voted for Mr. Payne's amendment on 
the Sudan earlier, taking advantage of this moment, although it 
is limited, in terms of a comprehensive discussion about that 
particular situation. It is particularly sensitive and 
potentially volatile, and peacekeeping forces there will affect 
a five-country region.
    But it is a real dilemma to start going country by country 
and carving things out. So again, as a constructive comment, 
Madam Chair, perhaps if some of us want to think creatively 
about a process later that puts us more in the midst of direct 
oversight or better exercising what is already in place, I 
would simply offer that and yield back my time.
    Mr. Payne. Would the gentleman yield?
    Chairman Ros-Lehtinen. He has yielded back his time. 
Perhaps Mr. Faleomavaega could.
    Mr. Payne. I thought I caught him in time before he yielded 
back.
    Chairman Ros-Lehtinen. Mr. Faleomavaega is recognized.
    Mr. Faleomavaega. Thank you, Madam Chair. I yield my time 
to Mr. Payne.
    Chairman Ros-Lehtinen. Mr. Payne is recognized.
    Mr. Payne. I just want to commend the gentleman for the 
suggestion that perhaps in the future we could sit down, if the 
chairperson and ranking member would think it prudent. Perhaps 
a small group of us from both sides of the aisle could have 
some conversation about how do we deal with the dilemma that 
faces us. We may not come up with a conclusion, but I think we 
could share the opportunity to discuss the issues and try to 
understand the rationale that people--and I would like to maybe 
carve out about 8 hours from Mr. Connolly to explain the 
situation. But however, but we--seriously, getting back to the 
serious part, if we could have some conversation, it could be 
formal or informal, even though I don't think it has to be a 
formal committee. And I yield back to Mr. Faleomavaega.
    Mr. Faleomavaega. Reclaiming my time.
    Chairman Ros-Lehtinen. Mr. Faleomavaega.
    Mr. Faleomavaega. I would also like to commend Mr. 
Fortenberry for his very constructive observations in terms of 
what has been proposed so far. And I think what really is not 
so much to say which is a higher priority, the problem is that 
they are all important and part of our national interest in 
these countries that if they are unstable, we may end up having 
to pay more than what we are doing now by providing the 
necessary funding to do this peacekeeping forces to stabilize 
these countries.
    So with that, I want to thank Mr. Fortenberry for a very 
thoughtful and constructive observation on this issue.
    I yield back.
    Chairman Ros-Lehtinen. Do any other speakers wish to be 
recognized?
    Mr. Rivera is recognized on the Wilson amendment.
    Mr. Rivera. Thank you, Madam Chair, and I want to recognize 
Congresswoman Wilson's efforts on this behalf. I served with 
Congresswoman Wilson for 8 years in the State legislature in 
Florida, and I witnessed firsthand her passion on this issue 
and her activism on this issue.
    I know last year, early last year, I participated in a 
visit to Haiti right after the earthquake. And Congresswoman 
Wilson, then-State Senator Wilson, helped to coordinate and 
facilitate that trip where we took food and medicine and 
humanitarian supplies to orphanages and to hospitals in Haiti. 
And I remember discussing that trip with Congresswoman Wilson. 
I know more recently Congresswoman Wilson has discussed with me 
her visit to Haiti and where she certainly understands the 
conditions on the ground in Haiti and what that country needs 
right now in terms of assistance from the United States.
    I think I can address this issue of distinguishing between 
countries where peacekeeping efforts might be considered, and I 
think one of the thresholds that we could apply is the issue of 
our national interest in terms of where we would carve out or 
make exceptions for a peacekeeping force. For example, I know 
we talk about the drug war in Mexico here in Congress. Many 
times we talk about the fact that it is right at our border, 
and that it is in our national interest to deal with that issue 
in Mexico because it can spill over into our borders. There may 
be drug wars in Russia or Ukraine or other parts of the world, 
but I know we have a specific national interest in dealing with 
that drug war at our border.
    We also have a crisis in Haiti at our border, at our 
doorstep. And Congresswoman Wilson has made this argument so 
articulately on many occasions. We have a situation that is 
brewing right on the borders of the United States. And I think 
if there is ever somewhere where we can make an exception or 
see where our national interests is at stake, it is when it 
hits so close to home on our doorstep.
    So if anybody understands the issue of Haiti, the 
implications for bilateral relations between the United States 
and Haiti, it is Congresswoman Wilson. So I would encourage my 
fellow members to vote in favor of this good amendment.
    Chairman Ros-Lehtinen. And the gentleman yields back.
    Seeing no other members who seek recognition, and based 
upon our previous agreement, a recorded vote has been 
requested. And we will roll that vote until the second series 
of votes is over on the House floor.
    Do other members have amendments on this section?
    Mr. Berman.
    Mr. Berman. Yes, Madam Speaker. I move to strike the last 
word.
    Chairman Ros-Lehtinen. Yes, sir. You are recognized.
    Mr. Berman. I am only aware of one amendment on this side 
left on title I, and I believe that the purpose of my seeking 
to strike the last word in order to get unanimous consent for 
that offer to return has already been dealt with, and so I 
yield back the balance of my time.
    Chairman Ros-Lehtinen. Okay. Does anyone have an amendment 
on the desk? Mr. Higgins perhaps?
    Mr. Higgins has an amendment. The clerk will read the 
amendment.
    Mr. Higgins.
    Ms. Carroll. Which amendment, Mr. Higgins?
    Mr. Higgins. 17.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Higgins 
of New York. In section 104(3), strike ``$7,237,000'' and 
insert ``$8,000,000''.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. We will wait a second until everyone 
gets a copy of the amendment.
    And I believe that all the members have a copy of the 
Higgins amendment, and he is now recognized for 5 minutes to 
explain the amendment.
    Mr. Higgins. Thank you, Madam Chair.
    My amendment would restore critical funding to the 
International Joint Commission to Fiscal Year 2011 levels of $8 
million from the current level proposed of $7.3 million. 
Restoring $750,000 in funding to the International Joint 
Commission would allow it to fully continue its important 
efforts along our country's northern border with Canada.
    The International Joint Commission was founded under the 
1909 boundary waters treaty between the United States and 
Canadian Governments to manage waterways along our shared 
border. The Great Lakes is the centerpiece of the Commission's 
efforts. The Commission has been instrumental in addressing 
issues of water quality in the region, specifically along Lake 
Erie in my congressional district. The Commission also has the 
authority to approve the construction of dams and hydroelectric 
power plants, as well as studying variations in water levels 
across the Great Lakes seaway system.
    Water quality and water levels in the Great Lakes are an 
important issue to the communities of western New York that I 
represent as they have a direct and economic and environmental 
impact on these communities.
    Just last week we were successful in fighting a bill before 
the Ohio Governor that would have allowed 5 million gallons of 
water drained from Lake Erie every day. We argued that this is 
a violation of the Great Lakes Compact.
    As the value of water in the Great Lakes rises, those who 
desire it, we must have an effective safeguard in place to 
police it and ensure that it remains a resource for those 
living in the Great Lakes Basin. Now is not time to cut funding 
for the Commission after it has been so instrumental in 
improving water quality in the Great Lakes. I urge my 
colleagues to support this amendment.
    Chairman Ros-Lehtinen. Thank you.
    And the gentleman yields back.
    Do other members seek recognition?
    Mrs. Schmidt is recognized for 5 minutes.
    Mrs. Schmidt. Madam Chairman, this looks like this is a 
straight funding increase. And correct me if I am wrong--and 
the 2012 level is $7,237,000, and the gentleman would request 
it to go to $8 million.
    My concern is that these boundaries, waterways and 
fisheries have a longstanding treaty and the agreement-based 
organizations between the U.S. and allies are on our borders. 
These Commissions address important border water and fisheries, 
but the authorization levels in the current bill serve as a 
cost-cutting measure, saving the American taxpayers over $31 
million compared to the FY 2010 funding levels, and that there 
has been some question about how those moneys have been spent 
in the FY 2010 levels. And I just think that this is a very 
prudent way to go and look at this, and I support the 
underlying bill and the $7,237,000 request and not the $8 
million increase.
    At a time when we are really counting pennies in 
Washington, and at a time when the American public is asking us 
to do so; at a time when the American public is looking at 
foreign aid, foreign assistance, foreign budgets, foreign 
appropriations and asking us why are we even doing this; when 
it is hard enough for us to really administer to the wants, 
wishes and needs back home, I think what we have done here is 
craft a bill that goes after what we need to have accomplished 
with foreign aid, but in a very prudent and responsible way. 
And if we continue to ratchet this back up, we are going to be 
exactly where the public doesn't want us to be: Overspending 
their taxpayer dollars at a time when we should be doing it in 
a very prudent and efficient way.
    And so while I respect the gentleman for his amendment, I 
would ask this body to say no, because we have a financial 
responsibility to the folks in our Nation, and we have to 
address that. And I think this bill clearly does that while 
also addressing the needs of foreign aid.
    I yield back my time.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Berman is recognized for 5 minutes.
    Mr. Berman. Thank you, Madam Chairman.
    I yield my time to the gentleman from New York, Mr. 
Higgins, the author of the amendment.
    Chairman Ros-Lehtinen. Mr. Higgins.
    Mr. Higgins. I thank the gentleman for yielding.
    I would just say that in response, that Great Lakes water 
resources represent about 20 percent of the world's freshwater 
supply. And we saw with the situation in Ohio last week that 
despite eight States and two Provinces of Canada coming 
together to do a Great Lakes Compact, the desperate need for 
freshwater threatens the compact and thus that great resource.
    And it seems to me that this is a very little amount of 
money within the context of what is at stake here. An 
additional $750,000 is not a waste of money. It is an 
investment in protecting and preserving the great resource of 
the Great Lakes.
    So I would yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Burton is recognized.
    Mr. Burton. Thank you, Madam Chairman.
    This amount that is in the bill is what the administration 
requested for Fiscal Year 2012, and so the President has 
already asked for this amount of money. I don't know why we 
would want to increase it, with all due respect to my 
colleague. The administration is agreeable to what is already 
in the bill.
    I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Seeing no other requests for time, and based on our 
previous agreement, a recorded vote has been requested, and the 
vote will be put into place after the second series of votes on 
the floor.
    Do any other members seek recognition on an amendment that 
they might have?
    Mr. Higgins is recognized.
    Mr. Higgins. Madam Chair, I have another amendment.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Higgins 
of New York. In section 104(4), strike ``$31,291,000'' and 
insert ``$38,900,000''.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. We will briefly suspend while the 
amendment is given out, and then we will at the appropriate 
time call upon Mr. Higgins to explain.
    All the members having received a copy of the amendment, 
the Chair recognizes the author for 5 minutes to explain the 
amendment.
    Mr. Higgins. Thank you, Madam Chair.
    My amendment would restore funding to the International 
Fisheries Commissions to $38.9 million from the current 
proposed funding level of $31.3 million.
    This amendment would increase funding for these important 
Commissions, but would still represent a nearly 25 percent cut 
from funding levels for Fiscal Year 2011.
    The Great Lakes Fishery Commission, the largest Commission 
funded through this program, is a critical resource for 
ensuring that the largest freshwater lake system in the world 
is healthy and thriving. The Great Lakes are vital economic 
environmental resources for the communities I represent, and 
the environmental health of those lakes is crucial to our 
Nation's future. In fact, the Great Lakes fisheries and 
recreational boating industries represent over $23 billion to 
the economy, supporting over 75,000 jobs.
    The Commission continues to address the environmental 
challenges imposed by invasive species that run the risk of 
destabilizing the entire marine habitat. Controlling these 
invasive species has been essential to restoring the Great 
Lakes fisheries, and adequate funding for control methods are 
needed to ensure that these invasive species populations do not 
proliferate, resulting in ecological and economic harm to the 
Great Lakes fisheries.
    Furthermore, the challenges of the Commission loom as the 
prospect for the entrance of Asian carp into the Great Lakes 
system. This poses the largest threat in recent memory to the 
health of the Great Lakes.
    Now is not the time to cut funding to these crucial 
institutions. Approving my amendment would allow the Great 
Lakes Fishery Commission and others to carry out their 
important tasks.
    I urge the committee to support my amendment to provide 
adequate funding for these Commissions, and I yield back.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mrs. Schmidt is recognized for 5 minutes.
    Mrs. Schmidt. Madam Chair, in the interest of time, I won't 
go into the fact that the American public wants us to do more 
with less and to really examine the way we are expending 
foreign aid, but I would like to point out that the $31,291,000 
is the administration's budget request, and what my gentle 
friend from New York is asking is that we actually increase 
what the administration is already asking. Quite frankly, I 
think we have been more than generous to keep it at their 
level. And so I would urge my colleagues to oppose this 
amendment.
    Chairman Ros-Lehtinen. The gentlelady yields back.
    Do any members seek recognition? If not, we will call those 
votes. We will call for a recorded vote at the specific time 
when we come back.
    And I would just like to note that because I had said there 
will be no votes during this time, and I then asked for a 
recorded vote, if when we come back you ask for your amendment 
not to have a recorded vote, that would be fine. I am not 
forcing you to have a recorded vote, but I can't do it any 
other way, so I have to call for a recorded vote. Feel free to 
let go of that request. Thank you.
    Do any other members have an amendment on this section or 
title?
    Yippee.
    We will now proceed to consider title II of the bill. The 
clerk will designate the title.
    Ms. Carroll. Title II--Department of State Authorities and 
Activities.
    Chairman Ros-Lehtinen. Thank you. Are there any amendments 
to this title?
    Ms. Wilson of Florida. Madam Chair, I have an amendment at 
the desk.
    Chairman Ros-Lehtinen. Thank you, Ms. Wilson, and then we 
will go--Ms. Wilson, amendment--do you need to clarify which 
amendment?
    Ms. Carroll. I do not have that amendment at the desk.
    Chairman Ros-Lehtinen. Is it the one on Tibet? I have seen 
that.
    Ms. Carroll. Amendment to H.R. 2583 offered by Ms. Wilson 
of Florida. At the end of section 212 the following: (d) 
Bilateral assistance. Section 616 of the Tibetan Policy Act of 
2002 is amended--(1) in subsection (a), in the second sentence, 
by striking ``subsection (d)'' and inserting ``subsection 
(e)''; (2) in subsection (b), by striking ``subsection (d)'' 
and inserting ``subsection (e)''; (3) in subsection (c), by 
striking ``subsection (d)'' and inserting ``subsection (e)''; 
(4), by redesignating subsection (d) as subsection (e); and (5) 
by inserting after subsection (c) the following new subsection: 
``(d) United States Assistance. The President shall provide 
grants to nongovernmental organizations to support sustainable 
economic development, cultural and historical preservation, 
health care, education, and environmental sustainability 
projects for Tibetan communities in the Tibet Autonomous Region 
and in other Tibetan communities in China, in accordance with 
the principles specified in subsection (e)----''
    Chairman Ros-Lehtinen. I ask unanimous consent that the 
amendment be considered as read.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. And Ms. Wilson is recognized for 5 
minutes to explain her amendment.
    Ms. Wilson of Florida. Thank you, Madam Chair.
    I rise to speak in support of my amendment that will merely 
authorize what has already been appropriated, funding for 
nongovernmental organizations to provide support to the Tibetan 
communities in China.
    In 2000 Congress established a program to provide grants to 
nongovernmental organizations to support activities which 
preserve cultural traditions and promote sustainable 
development and environmental conservation in Tibetan 
communities, and in the Tibetan Autonomous Region, and in other 
Tibetan communities in China. This program was first 
administered by the Office of the Special Coordinator at the 
State Department and run by USAID since 2003. The U.S.-based 
grantees are the bridge funds, Winrock and the Tibet Poverty 
Alleviation Fund. It is my understanding that the program has 
strong support of USAID leadership, including Administrator 
Shah.
    Adoption of my amendment sends an important political 
signal about U.S. interests in preserving the unique Tibetan 
identity. Legislatively this program has been funded annually 
in the foreign operations appropriations bill with bipartisan 
support.
    The program is currently funded at $7.4 million. The steady 
state level for the next 3 years--for the last 3 years, the 
budget request is for $5 million. However, this program has 
never been authorized. A provision authorizing the program was 
included in H.R. 2410, section 237, which passed the House in 
2009. It was also included in H.R. 2475, the Republican 
alternative introduced by our current chairwoman Ileana Ros-
Lehtinen. This amendment is the same exact language passed in 
2009.
    This amendment would authorize a program funded for more 
than a decade by the Appropriations Committee, strengthening 
the jurisdiction of HFAC. Better yet, the amendment neither 
authorizes a specific amount, nor sets them as may be 
necessary. It merely authorizes the program. I ask for your 
support of this amendment.
    Chairman Ros-Lehtinen. Thank you very much.
    The gentlelady yields back.
    The Chair recognizes herself for 5 minutes.
    I would like to tell Ms. Wilson that you were so correct in 
the way that you explained your amendment. The money is already 
being used. This is to authorize it. We have no opposition on 
our side. But based on what I had said that we would be rolling 
amendments until a later time, although we are prepared to 
accept your amendment, I will ask for a recorded vote. But feel 
free to unrequest that, and then we will accept it as soon as 
we get back into regular order.
    So you are waiving? Well, wonderful. Then we accept the 
amendment. Thank you very much for waiving, and without 
objection the amendment is considered as having been adopted. 
Thank you, Ms. Wilson.
    Mr. Mack has an amendment at the desk.
    Ms. Carroll. Number 32, Mr. Mack?
    Amendment to H.R. 2583 offered by Mr. Mack of Florida. 
Foreign Relations Authorization Act, Fiscal Year 2012. At the 
appropriate place in the bill, insert the following: Section 
[blank]. Sense of Congress Regarding Keystone XL pipeline. It 
is the sense of Congress that--(1) the delay of the Secretary 
of State to authorize the Presidential Permit for the Keystone 
XL pipeline has adversely affected the United States economy 
and weakened United States national security; (2) according to 
the Energy Information Administration, in 2010, the United 
States imported 2,321 barrels per day from Canada; 3) Canada, 
as a democratic ally, offers a stable source of energy for the 
United States; (4) support of this pipeline is contingent 
upon----
    Chairman Ros-Lehtinen. I ask unanimous consent that the 
amendment be considered as read.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. And all the members have a copy of 
the amendment, and Mr. Mack is recognized for 5 minutes to 
explain his amendment.
    Mr. Mack. Thank you, Madam Chair, and I will try to be 
brief.
    The Keystone XL pipeline is really waiting just one permit, 
and that permit sits with the Secretary of State. And what this 
amendment does is to urge the Secretary to sign off on a permit 
that would allow the Keystone XL pipeline to move forward.
    And why is this a foreign--why is this in front of our 
committee? Right now we get about 900,000 barrels of oil a day 
from Hugo Chavez. The Keystone XL pipeline would deliver around 
830,000 barrels per day. And the significance of this is we 
could help a friend and ally in Canada and strengthen our 
relationship with Canada instead of continuing to buy oil from 
Hugo Chavez in Venezuela.
    There have been numerous studies done on the environmental 
impacts, and those studies have come back very strong on both 
occasions. And I believe that the Secretary of State is 
positioned to support this Keystone XL pipeline, and merely 
what this amendment does is it urges her to sign off on the 
Presidential Permit. And with that, I will yield back.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Connolly is recognized for 5 minutes.
    Mr. Connolly. Madam Chairman. And I might put this perhaps 
ultimately in the form of a question to the author of the 
resolution. As I understand it, this Keystone pipeline would 
terminate in the Port of New Orleans; is that correct?
    Chairman Ros-Lehtinen. Mr. Mack.
    Mr. Mack. Yes, it would.
    Mr. Connolly. One of the concerns I have--I thank my 
colleague, Madam Chairman--is that by not terminating, say, in 
Oklahoma, by terminating in the export-oriented Port of New 
Orleans, it suggests that by permitting this pipeline, we 
aren't necessarily improving domestic access to Canadian oil. 
We are facilitating the export of Canadian shale oil. And while 
that may be a good public policy, I don't know that it 
addresses the concerns the gentleman raised, legitimate 
concerns, about improving domestic access to energy sources and 
eliminating our reliance on foreign oil, especially Venezuelan. 
And with that I would be happy to yield.
    Chairman Ros-Lehtinen. Mr. Mack.
    Mr. Mack. I thank the gentleman, and I thank the gentleman 
for the question.
    This would bring the Canadian oil to the refineries and to 
ensure that we are able to refine the product for domestic use.
    But there is no doubt that we continue to buy oil at 
roughly 900,000 barrels a day from Venezuela, and with this 
pipeline, we would no longer need to buy our oil from Chavez. 
One other, if you allow me. The oil that we get from Chavez is 
a heavy crude oil, and there are only a few places in the world 
where it can be refined. One of those places is in the U.S. The 
oil that would be coming from Canada is that same heavy crude 
oil. So you can understand then if we don't buy that oil from 
Chavez, it is going to be harder for him to sell it to someone 
because of the refinery capacity.
    Mr. Connolly. I thank you.
    Reclaiming my time. I am not going to oppose my colleague's 
resolution, but I just say to him that I think this legitimate 
source of concern that with the best of intentions--not his, 
but the country's--that we end up facilitating the export of 
this oil rather than for domestic consumption. And so when we 
do address this issue on the floor, I am going to have an 
amendment that would make contingent the approval of this 
permit on the fact that the certification that the bulk of the 
oil produced would be for domestic consumption, not for export, 
and hopefully my colleague would see his way clear to 
supporting such an amendment when it comes to the floor.
    Mr. Faleomavaega. I want to compliment the gentleman from 
Florida for introducing this amendment. And I recall that we 
had a similar hearing on the matter about how much we import 
the oil that comes from Mr. Chavez in Venezuela. And it is my 
understanding I think we are purchasing from Mr. Chavez about 
$113 million a day of the oil that we import from Venezuela. 
That comes to about $14.6 billion that we are giving to Mr. 
Chavez if we are going to look at in terms of the pricing. And 
so I certainly want to thank my good friend from Florida for 
offering this amendment, and I do support this amendment.
    Chairman Ros-Lehtinen. Mr. Connolly.
    Mr. Connolly. Reclaiming my time, Madam Chairman, I 
certainly agree with my friend Mr. Faleomavaega, but on the 
other hand, I am sure he would share my concern that we not 
find ourselves unwittingly facilitating the export of this oil 
when the goal here is to lessen our reliance on foreign 
imported oil, especially Venezuela under the Chavez regime. So 
I just want to make sure that if we get this pipeline, and with 
the risks attendant, that it does the intended, it meets the 
intended goal which is for domestic consumption, not for 
export.
    With that, I yield back.
    Chairman Ros-Lehtinen. Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Madam Chair.
    This is a very difficult issue for me in that this pipeline 
will go straight across a very environmentally sensitive area 
of Nebraska. The committee may be wondering why we are dealing 
with this. Mr. Mack rightly points out that the State 
Department interestingly has jurisdiction over it because it 
involves an international treaty. The State Department is also 
in the process of doing a rigorous environmental assessment.
    There is a very significant debate happening in Nebraska as 
to whether this pipeline is appropriately sited. There is 
another Keystone pipeline already in the eastern part of the 
State located in my district where the soil is basically a 
clay-type soil. Out west it is a sandy soil, it would run over 
the Ogallala aquifer, again a highly sensitive area for 
environmental purposes. So it is my opinion that the State 
Department needs to take its time to make sure that whatever 
siting is agreed to is done so in a manner that is 
environmentally responsible.
    So in good conscience, I am going to have to oppose this, 
although I agree with the underlying premise that we do need to 
be strengthening our partnership with the Canadians in looking 
for appropriate ways to use that resource in our own 
hemisphere.
    Thank you. I yield back.
    Chairman Ros-Lehtinen. Do any other members wish to be 
recognized on this amendment?
    Mr. Meeks is recognized.
    Mr. Meeks. Thank you, Madam Chair. And again unfortunately, 
I have to oppose my good friend from Florida. I will do so in a 
calm voice this time. Listening to some of the argument--in 
fact, I can understand some of the strong arguments that Mr. 
Mack made in favor of it. But it is probably unwise to do--and 
let me explain why real quickly. In the last year or so, we 
have seen a nuclear meltdown in Japan, and a colossal oil spill 
in the Gulf of Mexico. Both of which are due, in large part, to 
inadequate regulation and government oversight. So considering 
the scale of these disasters, I find it perplexing that some 
think we should short-circuit the process which is making the 
pipeline safer. It is not just members of this side of the 
aisle that say the State Department and the EPA review is 
making the Keystone XL pipeline safer. It also comes from David 
Goldwyn, a Republican witness who Chairman Mack called to 
testify at a hearing of the pipeline, I believe. He stated 
that--and I quote,

        ``The environmental impacts are important. The United 
        States is required under EPA to consider them. In fact, 
        the pipeline is safer because of comments that we have 
        received in the process, that the U.S. Department of 
        State has received.''

    And you have heard right, even Keystone XL pipeline 
supporters are saying the review process is working. So what is 
the rush? Why rush now? The State Department has committed to 
completing its review by the end of the year, and there is no 
inside information or anything of that nature. But if I was 
betting, I would wager that the State Department is going to 
approve this pipeline.
    Mr. Mack. Would you yield?
    Chairman Ros-Lehtinen. Mr. Meeks, Mr. Mack, would like to--
--
    Mr. Meeks. Yes.
    Mr. Mack. Thank you. And I wouldn't disagree with a portion 
of your statement. But I am not sure that maybe you are 
speaking to a time past, because we have now--this is the 
second review of the State Department. So the State Department 
got an environmental study not once but twice. So there has 
been ample time for the review of this. And, in fact, this 
pipeline will be built to a higher standard than any other 
pipeline. So I think, the concerns that you raise are 
legitimate, and certainly having dialogue is a good thing. But 
we have already had two now reviews, environmental reviews, to 
the State Department.
    So I think a lot of the concerns that you bring up were 
valid but now the reviews have been in. They have had ample 
opportunity to review those reviews. And I agree with you, I 
think that they are going to sign off on this presidential 
permit. And I yield back.
    Chairman Ros-Lehtinen. Mr. Meeks.
    Mr. Meeks. Reclaiming my time and just saying quickly, all 
I am saying is I believe that it is going to please what, it is 
going to happen fairly quickly. We have to make sure that we 
don't have the colossal mistakes again.
    Mr. Fortenberry. Will you yield me some time, Mr. Meeks?
    Mr. Meeks. Yes.
    Mr. Fortenberry. It is important to point out that by 
taking extra time for this environmental review, there have 
been changes made to actually strengthen the safety 
considerations involved here in siting this pipeline. Now, 
there are other issues still left undetermined. So I would 
agree that there shouldn't--this body should not constrain a 
thorough environmental assessment particularly given that as it 
has gone on, we have had Keystone pipeline leakage.
    We have had other pipelines in the area leak as well. So to 
ensure there is a thorough and rigorous environmental process 
without an artificial truncation with pressure from this body, 
I think it is in the best interest of moving this forward in 
the best way for environmental stewardship. I yield back to the 
gentleman.
    Mr. Meeks. I yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you. We have just been called 
for votes but maybe we can dispense with this amendment. We 
have Mr. Duncan and Mr. Sires, and now Mr. Berman. Let us see 
if we can get through it. Mr. Duncan is recognized.
    Mr. Duncan. Thank you, Madam Chairman. I just want to echo 
the comments of my friend from Florida. We have to look at who 
we are buying the oil from. Who are we relying on for American 
energy resources. It is Middle Eastern countries. A lot of 
times it is Venezuela who Hugo Chavez is not our friend. Canada 
is our friend. They are a longstanding ally. Why do we continue 
to depend on Middle Eastern energy sources controlled by a 
cartel who is intent and concerned about their own pocketbooks 
and not the pocketbooks of Americans, not the pocketbooks of 
people in my district who are having to take a $100 bill out to 
buy the same gasoline that they paid $20 or $30 for just a 
short time ago.
    So the Keystone XL pipeline will help meet America's energy 
needs from a friendly source. And I want to echo that the 
reason that it is terminating in Louisiana is because that is 
where our refineries are in this country, along the Gulf Coast 
where a majority of our sources of energy are.
    So in order to bring the crude oil there and have it 
refined into products that we can use as Americans has to be 
refined, and the refineries are there on the Gulf Coast. So let 
us buy from a friendly country. I want to thank my colleague on 
the upper dais for putting this amendment up. Something I 
firmly believe that we need to encourage the Secretary of State 
to sign off on this and I yield back the balance.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Duncan. And 
Mr. Sires is recognized for 5 minutes.
    Mr. Sires. Thank you, Madam Chairperson. I support 
Congressman Mack's effort to get this pipeline done. I support 
it because I think we need it for domestic use. I would be 
supporting Congressman Connolly's effort to make sure that the 
oil that is imported from Canada is used domestically. I would 
hate to see us running a risk of having this pipe go through 
this country and not reap the rewards. I supported it in the 
committee with you and I think it is a good thing for this 
country that we import our oil from a friendly country like 
Canada. Thank you.
    Chairman Ros-Lehtinen. The gentleman yields back. Mr. 
Wilson is recognized.
    Mr. Wilson of South Carolina. And I am grateful to be 
joining with my colleague from Pennsylvania also in support of 
this amendment, and my colleague from South Carolina and 
Florida, not only is Canada a great ally of the United States, 
but this is creating jobs in South Carolina and in the United 
States, specifically, the earth mover tires that are used in 
the recovery of oil which will be in this pipeline are made in 
Lexington, South Carolina. So hundreds of jobs are created 
because of our relationship with Canada, and so I just see this 
as a positive move at a crucial time where we have record 
unemployment. I yield the balance of my time.
    Chairman Ros-Lehtinen. Thank you, Mr. Wilson. Do any other 
members seek--Mr. Berman is recognized for 5 minutes.
    Mr. Berman. Yes. Just very quickly. I am actually very 
sympathetic to this project with the one caveat that I want to 
know what the consequences are on some of the issues that are 
being looked at. In other words, if this is okay generally, the 
notion that we can get a huge amount of our domestic energy 
from Canada rather than from the Middle East is a tremendous 
positive in reducing our reliance there. If you were to change 
your words to the ``Secretary of State should promptly make a 
decision on whether or not to authorize'' because--what I 
cannot answer, I don't have the experience, the background to 
know--is there something about this that is so detrimental to 
our interests that my instinctive desire to see it happen I 
should think--that is what is going on. I am told the 
administration is going to decide this by the end of the year. 
I'd just hate to put aside their process. Going with your gut 
is sometimes a very good idea, but I think we have a process in 
place and if it isn't taking too long and if we can get the 
resolution within the next few months, we can move ahead on 
this. I guess if you were to recast this, which my guess is you 
aren't going to, to call for a quick decision by the Secretary, 
I'd support it.
    Mr. Duncan. Will the gentleman yield down here?
    Chairman Ros-Lehtinen. Mr. Mack?
    Mr. Duncan. Sure. Can you assure us that the administration 
is going to make the right decision and approve the XL 
pipeline?
    Mr. Berman. I can assure you that they will make a prompt 
decision based on the movement of the head of a gentleman in 
the second row. In other words----
    Mr. Duncan. We are encouraging her to make the right 
decision.
    Mr. Berman. In other words, some of this is just a little 
bit fact-based, and again, it is not religion. And I like the 
argument for it, and I think if it could work, it is a great 
answer to a very significant problem. Not a total answer, but a 
significant answer to a great problem. But I still would like 
to have a few facts that I am not capable of ascertaining on my 
own. That is all.
    Chairman Ros-Lehtinen. Never let a gang of brutal facts get 
in the way of a beautiful theory. Mr. Mack, your amendments 
stir up a lot of debate. I like that. But seeing no other 
people who would like to be recognized on this amendment, a 
roll call vote has been asked for and our committee will 
suspend for this next series of floor votes and we will come 
back to vote on all of the roll call votes that have been 
requested, and the committee is in recess.
    [Recess.]
    Chairman Ros-Lehtinen. The committee will come to order. 
Thank you so much. As we had previously agreed, we will keep 
debating and we will start voting at 4 o'clock. That way we can 
debate and give proper attention to every member who has an 
amendment. We are on title II. When we left off, Mr. Mack had 
finished his amendment. And so--because we are not going to 
vote--I will ask, do any members have amendments on this 
section/title. Mr. Higgins is recognized.
    Mr. Higgins. Thank you, Madam Chair. I have an amendment. I 
will offer it and withdraw it.
    Chairman Ros-Lehtinen. Thank you. The clerk will read the 
amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Higgins 
of New York. At the appropriate place in the bill insert the 
following: Section 215. Payment of passport fees. (a) In 
General. Section 1(a) of the act of June 4, 1920 (22 U.S. Code 
214(a)), is amended, in the first sentence, by 
striking<greek-l>, quote,  deg. ``into the Treasury of the 
United States'' and inserting<greek-l>, quote, deg. ``to the 
Department of State''. (b) Retention of Fees. Any amount 
collected by the Department of State in Fiscal Year 2012 and 
each fiscal year thereafter as a fee for visas, passports, or 
other consular services may be credited as an offsetting 
collection to the appropriate Department of State 
appropriation,----
    Chairman Ros-Lehtinen. Move to consider the amendment as 
read, because all of the members have a copy of the amendment 
by now. The Chair reserves a point of order and recognizes the 
author for 5 minutes to explain the amendment. Mr. Higgins.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Higgins. Thank you, Madam Chairman. My amendment would 
have the effect of reducing passport fees to reflect the actual 
cost of the passport program. Currently, over half of the fees 
and surcharges collected by the Department of State are 
returned to the Treasury as general revenues, meaning the cost 
of passports does not correspond with the cost to the 
government for providing passports. This amendment would 
require the State Department to set the passport fees no higher 
than the cost of administering the passport program. As a 
result of the new documentation requirements under the Western 
Hemisphere travel initiative, over 240,000 passports have been 
issued in Erie and Chautauqua counties since 2007. 
Approximately 20 percent of the total population largely to 
comply with the Western Hemisphere travel initiative.
    A family of four looking to get passports to go to Canada 
could pay upwards of $500 before they even cross the border. We 
must do everything we can to decrease the cost of passports, 
not find ways to get more money out of citizens who forced to 
spend thousands of dollars just to maintain a quality of life. 
Crossing the border to Canada should be convenient and not a 
burden. I would urge the committee to support my amendment. And 
I yield back.
    Chairman Ros-Lehtinen. Thank you. The Chair recognizes 
herself for 5 minutes. As we had discussed in the break, Mr. 
Higgins, your amendment also references appropriations language 
which is not permissible in authorizing legislation under rule 
XXI. So I would ask the gentleman if he was prepared to 
withdraw at this time.
    Mr. Higgins. I am.
    Chairman Ros-Lehtinen. The gentleman is withdrawing his 
amendment. If the clerk would so note. And I withdraw my point 
of order. Thank you so much, Mr. Higgins, for that. I ask the 
members if they have any amendments on this title. Mr. Berman 
is recognized.
    Mr. Berman. Yes, Madam Chair, I know that the gentleman 
from Florida, Mr. Deutch, has some amendments to title II, do 
any of the other members of the committee who are not here--
that is not a good question.
    Chairman Ros-Lehtinen. You could present the amendment for 
Mr. Deutch.
    Mr. Berman. And I also have an amendment that we are 
reworking. So we are just finishing the drafting of it. Mr. 
Deutch had at least one or two amendments on this.
    Chairman Ros-Lehtinen. I would ask the clerk, how many 
amendments do you have from Mr. Deutch listed under title II? 
Two amendments?
    Ms. Carroll. We have two Deutch amendments for title II.
    Mr. Berman. Do you have any other ones for title II?
    Ms. Carroll. No, that is all we have.
    Chairman Ros-Lehtinen. Mr. Berman, would you like to 
present the amendments for Mr. Deutch?
    Mr. Berman. The only other way would be to move--if we--
through unanimous consent for those specific amendments and the 
one--well, here is----
    Chairman Ros-Lehtinen. Ms. Deutchette.
    Mr. Berman, you will do a wonderful job presenting these 
amendments.
    Mr. Berman. I know about as much as I do with my own 
amendments.
    Chairman Ros-Lehtinen. Absolutely.
    Mr. Berman. How about Amendment No. 621.
    Chairman Ros-Lehtinen. The clerk will read the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Berman.
    Chairman Ros-Lehtinen. On behalf of Mr. Deutch.
    Ms. Carroll. On behalf of Mr. Deutch. At the end of title 
II, section [blank]. Bureau on Counterterrorism. (a) 
Establishment. There is established in the Department of State 
a Bureau of Counterterrorism----
    Mr. Berman. I ask unanimous consent that the reading be 
dispensed with.
    Chairman Ros-Lehtinen. Granted. But let us just wait one 
moment until everybody gets the amendment. That is why I let 
her read. Will you suspend?
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Berman. I withdraw my unanimous consent request. Madam 
Chairman? Since the resolution I actually do know something 
about is at the desk----
    Chairman Ros-Lehtinen. I will ask the clerk to delay 
consideration of the Deutch amendment as presented by Mr. 
Berman, and let us go with the Berman amendment that is at the 
desk. Without objection. If the clerk will report the Berman 
amendment.
    Ms. Carroll. Ma'am, the amendments are not ready right now.
    Chairman Ros-Lehtinen. They are coming right off the 
printer as we speak, I am sure.
    Mr. Berman. I thought that was just the clump of papers 
that were handed to you.
    Chairman Ros-Lehtinen. It is multiple pages and they are 
not stapled.
    Chairman Ros-Lehtinen. So we have it here. We can copy it. 
It is the sense of Congress----
    Mr. Berman. It is copied, but it is not stapled.
    Chairman Ros-Lehtinen. That is fine. Just start reading. If 
the clerk would--start reading the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Berman. 
At the end of title II, insert the following: Section 200. 
Sense----
    Chairman Ros-Lehtinen. 208?
    Ms. Carroll. It is 208, sense of Congress regarding Turkey. 
It is the sense of Congress that the Secretary of State, in all 
official contacts with Turkish leaders and other Turkish 
officials, should emphasize that Turkey should--(1) end all 
forms of religious discrimination; (2) allow the rightful 
church and lay owners of Christian church properties, without 
hindrance or restriction, to organize and administer prayer 
services, religious education, clerical training, appointments, 
and succession, religious community gatherings, social 
services, including ministry to the needs of the poor and 
infirm, and other religious activities; (3) return to their 
rightful owners all Christian churches and other places of 
worship, monasteries, schools, hospitals, monuments, relics, 
holy sites, and other religious properties, including movable 
properties, such as artwork, manuscripts, vestments, vessels, 
and other artifacts; and (4) allow the rightful Christian 
church and lay owners of Christian church properties, without 
hindrance or restriction, to preserve, reconstruct, and repair, 
as they see fit, all Christian churches and other places of 
worship, monasteries, schools, hospitals, monuments, relics, 
holy sites, and other religious properties within Turkey.
    Chairman Ros-Lehtinen. I ask unanimous consent that the 
reading be dispensed with, even though you had actually 
finished the reading. You are good. And I think every member 
now has a copy of the amendment. And Mr. Berman is recognized 
for 5 minutes to explain his sense of Congress amendment.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Berman. Yes. Madam Chairman, I would ask unanimous 
consent that the--208, No. 208 be stricken and we just--and 
section 2. It would just be section 2.
    Chairman Ros-Lehtinen. Without objection.
    Mr. Berman. Madam Chairman, thank you very much. This 
amendment incorporates with a slight change in the initial 
paragraph in order to worm it into title II the result causes 
from H. Res. 306, a bipartisan resolution that the gentleman 
from California, Mr. Royce, and I have introduced that has 34 
co-sponsors and I am offering this amendment with Mr. 
Cicilline. This amendment is simple in its directness but 
profound in his implications.
    The Christian communities of Turkey, once populous and 
prosperous, have long been victims of discrimination and are 
now reduced to a mere handful. Whereas, well over 2 million 
Christians lived in Anatolia a century ago, today there are 
only a few thousand, and yet although Christians are less than 
1 percent of Turkey's population today and clearly constitute 
no threat to the majority, the various Christian communities 
remain the victims of unthinkable discrimination. Their 
churches have been desecrated, their properties confiscated and 
they are denied the right to practice their religion as they 
see fit or to train their clergy. Through this amendment, we 
are asking that Turkey rectify this terrible situation. Much of 
the worst damage to and confiscation of Christian properties 
was done in the earlier decades of the Turkish Republic, but it 
continues to some extent today.
    And Christians suffer other forms of discrimination as 
well. Every church in Turkey suffers petty harassment at a 
minimum. Forced to apply to central authorities for 
authorization to do any types of repairs or construction, 
requests that often linger for months and years without 
government action. Moreover, Turkey recognizes certain 
Christian groups as legitimate but not others. If you belong to 
one of the unauthorized groups, such as the evangelicals, you 
can't even build a church. The amendment calls on Turkey to 
make good on past transgressions and allow true freedom of 
religion to achieve the standards of Democratic behavior to 
which it says, and to which I believe it aspires.
    We want Turkey to allow its Christian citizens to worship 
exactly as they want and to allow them to train their clergy 
exactly as they want. We want Christians to have the right to 
preserve, reconstruct and repair their churches and other 
communal buildings without hindrance or petty harassment as in 
the case of all other democracies. We want our Turkey to return 
confiscated property to Christian communities and at a minimum 
to provide compensation for properties that can't be recovered.
    In short, we want Christian communities in Turkey to enjoy 
the same rights and privileges that religious minorities enjoy 
in this country. That is not too much to ask. In fact, that is 
the minimum we must ask if Turkey is ever to join the ranks of 
the world's fully free nations. I urge all members to support 
the amendment and I yield back my time.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman. Thank you. 
And I would like to recognize Mr. Bilirakis for 5 minutes to 
speak on this amendment.
    Mr. Bilirakis. I won't take the 5 minutes, Ms. Chairman. 
But I want to thank the ranking member for offering the 
amendment. I encourage support of this very important 
amendment. It is imperative that the Turkish Government take 
immediate steps to address serious concerns regarding its 
treatment of believers of certain religions and reform its 
policies to allow those denominations the freedom to worship, 
congregate and preserve their religious sites and to return 
those--to those organizations the properties that they have 
previously held. And I yield back, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you, Mr. Bilirakis. The 
gentleman yields back.
    Voice. Madam Chair.
    Chairman Ros-Lehtinen. I had already seen--I don't know who 
is saying my name, but Mr. Sherman had already gotten my 
attention. So there are some folks over here. Mr. Sherman is 
recognized.
    Mr. Sherman. Thank you. I rise in strong support of this 
amendment and am an original co-sponsor of H.R. 306 on which it 
is based. The adoption of this amendment would add a powerful 
voice, the voice of the United States Congress in the defense 
of religious freedom for Christians in present day Turkey and 
reinforce the traditional leadership of Congress in defending 
freedom of faith around the world. This amendment is urgently 
needed to address the vast destruction of Christian religious 
heritage as a result of the Turkish Government's theft, 
desecration and disregard of ancient Christian holy sites and 
churches, many holding great significance to the world 
Christian community. The U.S. Commission on International 
Religious Freedom raises the following alarm in its 2011 
report. The Turkish Government continues to impose serious 
limitation on freedom of religion or belief, thereby 
threatening the continued vitality and survival of minority 
religious groups in Turkey. This amendment honors our heritage 
as a Nation dedicated to religious liberty.
    For example, in January 2011, President Obama noted, 
bearing witness to those who are persecuted or attacked because 
of their faith is essential to who we are as Americans. While 
President Bush declared in 2009 no human freedom is more 
fundamental than the right to worship in accordance with one's 
conscience. Churches in Turkey have been desecrated. The 
adoption of this amendment would help bring the attention of 
the world to the Christian communities within Turkey which 
remain highly vulnerable and are forced to endure restrictions 
on their right to practice their faith. For example, of the 
2,000 Armenian churches which existed in the early 1900s, less 
than 100 remain standing and functioning today. The U.S. 
Commission on International Religious Freedom has, for 3 
straight years, placed Turkey on their watch list.
    In 2009, Bartholmew I, the ecumenical Christian orthodox 
patriarch of Constantinople, appeared on CBS' ``60 Minutes'' 
and reported that Turkey's Christians were second class 
citizens and that he personally felt crucified by a state that 
wanted to see his church die out. Christian property is 
routinely confiscated through discriminatory laws. The U.S. 
Commission on International Religious Freedom has reported, and 
I quote, ``Over the past 5 decades, the Turkish state has using 
convoluted regulations and undemocratic laws to confiscate 
hundreds of religious minority properties, primarily those 
belonging to the Greek orthodox community, as well as Armenian 
orthodox, Catholics and Jews.'' The state has closed seminaries 
denying these communities the right to train their clergy.
    The Turkish Supreme Court issued a ruling just this year 
transferring ownership of a substantial part of the ancient 
Syriac monastery of Mor Gabriel dating from the 4th century 
A.D., transferring that property to the Turkish state.
    I think that it is important that we pass this amendment 
and I yield back.
    Chairman Ros-Lehtinen. Thank you very much to the gentleman 
from California. The order I have for speakers who have 
requested time. Mr. Burton, Mr. Connolly, Mr. Royce, Mr. 
Cicilline and Mr. Duncan. So we will go with Mr. Burton. Thank 
you.
    Mr. Burton. First of all, Madam Speaker, I support the 
resolution. I think everybody on the dais believes in religious 
freedom and believes that those who have religious views should 
be able to express them freely in a free society. So I support 
this. As a matter of fact, my wife and I have met with the 
patriarch over in Turkey and have had a chance to talk to him 
personally. There is just no question that there are questions 
about religious freedom over there. However, the one thing that 
I hope that we will realize as we discuss this and realize the 
problems that do exist in Turkey today.
    We also realize that they are a NATO ally and a lot of 
these problems have gone back for 70, 80, 90, 100 years. And 
while those problems, to a large degree still exist, we have to 
realize that Turkey is a NATO ally, and while we are talking 
about religious freedom and people's right, we also have to 
realize that there are a lot of positives in having a good 
relationship with Turkey.
    So while I support this resolution and support religious 
freedom, I think it is extremely important that we don't go 
overboard in criticizing Turkey because it could have a bad 
impact on the problems that we have in the Middle East right 
now. Turkey is a NATO ally. They have been a conduit for us 
getting supplies into Afghanistan and helping our allies and to 
just beat them over the head on this issue to a larger degree 
than what has already been done seems to me to be a little bit 
excessive. But I do support the amendment. I do support 
religious freedom and I hope that this amendment does pass.
    Chairman Ros-Lehtinen. Thank you. Mr. Burton yields back. 
Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman. And I want to 
thank Mr. Berman for crafting language to put before us that is 
consensus language and that obviously, I think, all of us can 
rally behind. Religious freedom is a Tenet of American 
philosophy. It is a cardinal American value. In fact, with 
Thomas Jefferson, a native of my State of Virginia was 
contemplating his gravestone, it was the Tenets on religious 
freedom, not the presidency, that he wanted on his tombstone. 
He thought it was that important.
    So obviously, it is appropriate for an American Congress to 
reiterate those Tenets and urge them on others. I would echo 
what our friend Indiana just said. In this context we also have 
to remember the importance and the criticality of the 
relationship of a NATO ally and a country that with which we 
have very important ties and relationships, and I think the 
language drafted by Mr. Berman strikes a careful balance, 
making the point while avoiding perhaps other entanglements and 
other appointments that could be made in some other form and 
agenda. And I thank him for that and look forward to supporting 
the language. And I yield back.
    Chairman Ros-Lehtinen. I thank the gentleman. Mr. Royce of 
California is recognized for 5 minutes.
    Mr. Royce. Yes, Madam Chairman. The reason we are bringing 
forward this amendment today, the reason that Ranking Member 
Howard Berman and I have introduced legislation on this issue, 
is because this is an issue that is ongoing in Turkey. And as 
discussed--imagine a situation in which you have a country 
where you had literally millions of people of many faiths and 
over the last few generations, we have reached the point today 
where the Baha'i and the Christians and the Jews in Turkey are 
less than 1 percent of the population.
    And in tandem with that, the personal experiences that we 
have had in discussions with people that we have gotten to know 
today who will try to practice religious freedom in Turkey and 
have come under these constraints, constraints that frankly 
have led to a situation where 2,000 churches are now 200 in 
Turkey. A situation where no longer if you are a religious 
minority can you effectively practice your religion because in 
order to practice, you have got to be able to study, you have 
got to have clergy teach your religion and if you can't 
overcome the barriers to that, how are you going to keep that 
religion alive? If those religious needs are not met, if we 
don't speak out, if we don't--as the United States of America, 
if we don't speak up for this principle, what do we think is 
going to happen ultimately to those religious minority groups?
    They are going to decline eventually. If this continues, 
they are going to disappear. And that is why this resolution 
urges Turkey to fulfill its obligation. The United States 
Commission on International Religious Freedom points this out 
repeatedly, Turkey is identified as a country among the world's 
top violators of religious freedom, despite it being a 
signatory of the universal declaration of human rights.
    So we urge Turkey to fulfill its obligation, allow clergy 
to train and students to study Christianity and other religions 
there, return all confiscated church properties that were 
stolen, frankly, provide religious minorities with the right to 
own property, repair the damage that Turkey has caused with 
these minority groups and allow people to practice their faith 
freely.
    And lastly, and most importantly, provide churches with 
legal status and rights because until these churches, until the 
Baha'i, until the Jews, until the Christians, until the Greek 
orthodox have the legal status in Turkey, we are going to see 
the winding down of a situation where they are now less than 1 
percent. We are going to watch as they fear to even repair--you 
cannot, on some of these--on some of these churches there is a 
desire to put a cross back up on the church. On some of these 
Greeks orthodox churches. Why not allow that? If it is a 
secular society, why not allow the parish to do that.
    People fear discrimination there. They fear that 
discrimination while they study, while they practice, while 
they are trying to teach their religion, and this goes to that 
issue.
    And let me close by saying this. The United States has a 
vested interest in protecting religious freedom because by 
threatening the vitality and survival of minority religious 
communities, that threatens the fundamental freedoms that this 
country was founded upon. That is why we have an obligation, I 
think, and the entire international community has an obligation 
to speak out now before it is too late, and these religions are 
finally gone. I yield back, Madam Chair.
    Chairman Ros-Lehtinen. The gentleman from California yields 
back. The gentleman from Rhode Island, Mr. Cicilline, is 
recognized for 5 minutes.
    Mr. Cicilline. Thank you, Madam Chairman. The respect for 
the full exercise of religious freedom is really central to who 
we are as Americans and central to the values and the ideals 
that we promote all over the world, and I am proud to be an 
original co-sponsor of the House Resolution 306, and I thank 
Mr. Berman the courtesy in allowing me to cosponsor this 
amendment and for his extraordinary leadership.
    As a strong supporter of religious freedom, we have a 
responsibility as a Congress to speak to this issue and really 
a moral obligation to talk about what is happening in Turkey. 
Christian communities in Turkey have long suffered from the 
destruction and confiscation of their holy sites, the forced 
closure of their theological schools and restrictions on their 
right to worship according to their conscience. There are 
reports that Christians are prevented from praying in their own 
churches. Continued prosecution of the vulnerable Christian 
minority in Turkey threatens the survival of their religious 
tradition. The adoption of this amendment would support their 
struggle for religious freedom, a value central to basic human 
dignity and a basic civil right. My home State, the State of 
Rhode Island, was founded by Roger Williams, on the principle 
of religious liberty and freedom. And I am proud to support Mr. 
Berman's amendment in that spirit. I urge my colleagues to do 
the same and vote yes on this amendment. I yield back the 
balance of my time.
    Chairman Ros-Lehtinen. I thank the gentleman for yielding 
back. Mr. Duncan is recognized for 5 minutes.
    Mr. Duncan. Thank you, Madam Chairman. And I just want to 
thank the colleagues that put this language together. I am one 
of the signers of the letter to President Obama. I think there 
were 214 of those signers the last count I had. So this is an 
issue that is important to a lot of us. I want to point out 
that on June 12th of this year, I was in Turkey when they had 
the parliamentarian elections. And it is interesting to note, 
and I would like to have in the record here today that Turkey 
elected its first Christian to the Turkish Parliament, Erol 
Dora, Turkey's first Christian, part of the AKP party that took 
over. And so I think it is interesting to note that we are 
seeing some change hopefully in Turkey. But as a patriotic 
American that understands the first amendment rights that we 
have here and that we should be the country that promotes 
religious freedom, not just in Turkey but worldwide, to give 
folks around the world the opportunities that we have to 
worship as we wish, as Christians or any other religious 
organization, the freedoms that we have in this country should 
be promoted worldwide.
    So I want to commend my subcommittee chairman, Mr. Royce, 
and Mr. Berman for their efforts on this to call on Turkey to 
end religious discrimination, to cease all constrictions on 
gatherings for religious prayer and education and return stolen 
church property that you have heard about already.
    So I want to urge my colleagues to get behind this 
amendment, to sign onto the letter to the President if you 
haven't already and get behind this issue. And I yield back.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Duncan, for 
yielding back. And Mr. Engel is recognized and another speaker 
that I have is Meeks, Carnahan and Rohrabacher. We will go to 
you afterward. Thank you. If you could hold on, Mr. 
Rohrabacher. Would you like to go now? No, sorry. We had a 
Republican. Sorry. We have got to go to--and we want to go to 
Mr. Engel. We wish, we desire, we really need to go to Eliot.
    Mr. Engel. I am not letting my classmate Dana Rohrabacher 
jump ahead of me. He comes before R in the alphabet you know.
    Chairman Ros-Lehtinen. Beauty before beast.
    Mr. Engel. Thank you, Madam Chairwoman. And I rise in 
strong support of this resolution, this amendment today. And, 
you know, sometimes we get bills before us that are complicated 
to understand and you have got to read them several times, you 
have got to look at memos, you have got to see what they do and 
then you hope you have a good knowledge of what they do. I read 
this amendment. It is really easy. It is really simple. And I 
don't think anybody should oppose it, no matter where they 
stand with regard to Turkey or anything else like that. I would 
like to just read it because I think it is important. It simply 
is a statement of Congress regarding Turkey and it says that 
Congress urges the Government of Turkey to honor its 
obligations under international treaties and human rights law 
to, one, end all forms of religious discrimination and, two 
allow the rightful church and lay owners of Christian church 
properties without hindrance or restriction to organize and 
administer prayer services, religious education, clerical 
training, appointments and succession, religious community 
gatherings, social services, including ministry to the needs of 
the poor and infirm and other religious activities.
    Well, no one could find any fault with that. Three, return 
to their rightful owners all Christian churches and other 
places of worship, monasteries, schools, hospitals, monuments, 
relics, holy sites and other religious properties, including 
movable properties such as artwork, manuscripts, vestments, 
vessels and other artifacts, and finally, allow the rightful 
Christian church and lay owners of Christian church properties 
without hindrance or restriction to preserve, reconstruct and 
repair as they see fit all Christian churches and other places 
of worship, monasteries, schools, hospitals, monuments, relics, 
holy sites and other religious properties within Turkey.
    I don't find one thing objectionable in what I have just 
read. I would ask any country to do that. In fact, many of you 
know that one of my crusades here in the 23 years that I have 
been here has been independence for Kosovo, to try to fight for 
independence of Kosovo because the majority of people who live 
in that country, 95 percent of them are Kosovo Albanians, the 
majority of whom are Muslim. And as much and as fervent as I 
have been of Kosovo independence and still am and have been to 
the country many, many times, from day one, I have said that we 
must take great pains to make sure that the monastery, the 
Serbian orthodox monasteries in Kosovo are not desecrated or 
taken care of, that the church needs to be insured that 
everything that pertains to the church is under its control, 
there needs to be freedom of worship, that there needs to be 
all of these things. I don't find that inconsistent with any of 
the principles in terms of Kosovo independence which I 
wholeheartedly support or any of the principles here.
    Yes, Turkey is an ally in NATO, and we recognize that. I 
wish they would frankly act a little more like an ally of the 
United States than they have lately. They really have gone 
astray and gone away frankly from--their foreign minister has 
set out a policy of Islamicism and has moved away from the 
European Union and the West and the United States and has 
behaved very poorly with the flotilla and Israel and the whole 
bit, but that is beside the fact.
    The fact is, who could be against safeguarding the right of 
Christians in Turkey to worship and the right of churches to 
keep their properties. Now, I have gotten notice from both the 
Armenian National Committee of America, the Armenian Assembly 
of America are saying that and I find that completely 
persuasive.
    So I would urge my colleagues on both sides of the aisle, a 
bipartisan amendment and with good cause to support this 
amendment. I am in favor of religious freedom for all people 
and certainly for Christians in Turkey. And I yield back.
    Chairman Ros-Lehtinen. Thank you so much, the gentleman 
from New York. The gentleman from California, Mr. Rohrabacher, 
is recognized for 5 minutes.
    Mr. Rohrabacher. Thank you very much. And I am in support 
of this amendment, but I would like to ask Mr. Berman, the 
author of the amendment----
    Chairman Ros-Lehtinen. Mr. Berman.
    Mr. Rohrabacher [continuing]. Several questions if I could. 
Mr. Berman, this amendment is aimed at promoting religious 
freedom in Turkey. Where would you rank Turkey in terms of 
other Muslim countries in terms of freedom of religion?
    Mr. Berman. Countries of the world?
    Mr. Rohrabacher. And the world, yes. I mean, yes, the 
planet, the world, not Mars----
    Mr. Berman. You seem to limit it to Muslim countries. Is 
there a different standard?
    Mr. Rohrabacher. Would you agree with me that Turkey is a 
relatively free country as compared to other countries that 
have such large Muslim populations?
    Mr. Berman. Could I answer the question with a question?
    Mr. Rohrabacher. Well, if you don't want to answer my 
question.
    Mr. Berman. Why do you keep limiting this to Muslim 
countries?
    Mr. Rohrabacher. Because Turkey finds itself in a part of 
the world not surrounded by Western democracies, but instead, 
bordering many countries that have, perhaps, less freedom than 
the Turks do, yet we have in front of us, yes, an amendment 
that is accurate, but it is aimed at perhaps the freest country 
in the region. I am trying to understand why.
    Mr. Berman. It is not my intention to hold Turkey to the 
particular standard you have chosen to articulate. Turkey is a 
modern country that is a member of NATO that is a candidate for 
EU members that is a close ally on which we have many important 
relationships. But in this particular area, their practices for 
many years after--in the post----
    Mr. Rohrabacher. Reclaiming my time.
    Mr. Berman [continuing]. Ottoman period have been 
atrocious.
    Mr. Rohrabacher. Reclaiming my time.
    Chairman Ros-Lehtinen. Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. Reclaiming my time. Obviously there is a 
double standard being put to use here clearly. Now, I agree 
with everybody here. I am going to vote for this because it is 
true. The same reason I vote for the Armenian genocide 
resolution and these other things that have happened with 
Turkey in the past. If they are true, I vote for them and this 
is true. But that doesn't mean there isn't a double standard 
that is being used against Turkey. I will----
    Mr. Berman. Will the gentleman yield?
    Mr. Rohrabacher. No. Let me go on for one moment. We all 
know this. People come into my office all the time. Jews will 
come into my office and say, ``What have you done for Israel?'' 
and Irishmen will come in and say, ``What have you done to help 
us in Ireland to promote peace?''
    And of course, the Greeks and the Armenians come in saying, 
``What have you done to hurt Turkey?'' For Pete's sake, the 
bottom-line is we are supposed to be--yes, we will stand up for 
the principle, and that is what is in this amendment, that is 
why I will vote for it. But we have a terrible double standard 
when it comes to Turkey. And the Armenians and the Greeks, yes, 
they have legitimate concerns, but that doesn't mean we have to 
be inconsistent and always express those concerns and make 
Turkey feel that we are singling them out from all the other 
Muslim countries who have a worse record than Turkey has.
    If we want to drive them in the opposite direction, that is 
what we are doing. By doing things like this, we are not 
promoting freedom in Turkey. We are making them think that we 
are singling them out and have a total double standard.
    Mr. Berman. Would the gentleman yield?
    Mr. Rohrabacher. I certainly will.
    Mr. Berman. I appreciate the gentleman yielding.
    Give me a break. There are many ills in this world. There 
are many governments that are not living by standards, I 
think--involved a fundamental commitment to universal human 
rights. This resolution, which you have defined as accurate----
    Mr. Rohrabacher. Correct.
    Mr. Berman [continuing]. And something that you will 
support, you are sort of working yourself into a rage that I am 
offering something that you think is accurate----
    Mr. Rohrabacher. No, I----
    Mr. Berman [continuing]. Because there are other evils in 
the world.
    Mr. Rohrabacher. Okay. Reclaiming my time----
    Mr. Berman. The gentleman from California----
    Chairman Ros-Lehtinen. Mr. Rohrabacher reclaims his time.
    Mr. Rohrabacher. Reclaiming my time.
    No, you could have had on this--we suggested that our 
leaders of our Government, the Secretary of State and others, 
when meeting with people from that region, including Turkey and 
naming several other countries, should talk about freedom of 
religion and all these other things.
    Mr. Berman. I agree.
    Mr. Rohrabacher. Instead, you didn't put that in there. You 
just singled out----
    Mr. Berman. I also didn't put who is borrowing money----
    Chairman Ros-Lehtinen. Mr. Rohrabacher has his time----
    Mr. Rohrabacher. Thank you very much.
    Chairman Ros-Lehtinen [continuing]. That he has not 
yielded.
    Mr. Berman. Will the gentleman yield?
    Chairman Ros-Lehtinen. The gentleman's time has expired.
    Mr. Meeks is recognized.
    Mr. Meeks. Thank you, Madam Chair.
    You know, I rise in support of this amendment because it is 
the right thing to do. Religion--and once we learn to be 
tolerant of religion, different than ours especially, we will 
be there a lot better and safer place. And we have to encourage 
all to make sure that everyone has the opportunity to practice 
his or her religion of choice, and they should not be 
discriminated against because of his or her religion.
    Now, clearly, in this particular instance, Turkey, in my 
estimation, has shown some forward progress and flexibility--
for example, in the nationality of the patriarch. And I hope 
that an agreeable solution can be found on the Halki seminary, 
perhaps as incorporated under a Turkish university of the Greek 
Orthodox community's choosing. But more can and should be done. 
And I thank the ranking member for his language in this bill, 
so that it makes it--so that it brings us all together.
    And I think that is what the key is. The key is trying to 
figure out--because religion is a way of life. And a religion 
shouldn't be something, no matter what your religion, that 
separates us or to make us not like one another. It should be, 
you have the freedom of the way of life and the freedom of the 
belief that you have.
    And I would just, you know, give a cautionary note, as we 
do talk to other countries, et cetera, we in the United States 
need to also take a check at ourselves. When I look at the 
debate that we have had in New York about whether or not 
Muslims can build a mosque in New York City or not, practicing 
their religious freedom, whether or not--and I hear the debate, 
people questioning whether or not the President of the United 
States is a Muslim or not, as if that should be considered. He 
is not, but his religion should not preclude him from being the 
President of the United States, as people are talking about 
here.
    So it is easy to look out and talk to other people about 
what they should do--and we should, because if you stay silent 
when you know something is wrong, then you are allowing it 
continue. So we have to be vocal about it. But we also have to 
make sure--we don't live in a glass house. We have to make sure 
that our house is also taken care of, because people are 
looking at us also. And when you look at people burning the 
Koran or other things of that nature, we are talking about 
their religion.
    So we have to lead by example in the United States also. 
And I think, by and large, we have. But I just get concerned 
when I hear the kinds of issues and the long debates that we 
have had about even the President's--whether he is a Christian 
or whether he is not. And he has stated over and over what his 
beliefs were, but we doubt it, as if it would be something 
negative if he was.
    For me, you know--and I am a devout Christian. We talked 
about--someone just mentioned that--and in Turkey, they 
finally--they elected a Christian. Well, it took us a long 
time; just recently we elected two Muslims to the United States 
Congress. It just happened--not, you know, 4 years ago, that 
hadn't happened.
    So there is progress that is being made on all sides, and I 
think that is a good thing. And I think that we have to make 
sure that--you know, in the words of Dr. King, Dr. King said, 
``Injustice anywhere is a threat to justice everywhere.'' And 
so, if we allow religious discrimination anywhere, then it is a 
threat to practicing religion everywhere, and it affects all of 
us.
    And so, Mr. Berman, again, thank you for writing an 
amendment that we can all agree upon so that we can get this 
message across. And, hopefully, we can all make this place that 
we call ``Earth'' a more tolerable and a better place, as we 
all practice our individual religion.
    Mr. Ackerman. Would the gentleman yield?
    Mr. Meeks. I yield.
    Mr. Ackerman. I thank the gentleman very much.
    Well said.
    I just can't help but laughing. It is really extraordinary 
that we take out all this time to fight about something we 
agree upon, and to do it with such venom.
    You know, Turkey certainly stands not without blemish, but 
they are among the closer countries to us in that area, which 
causes one some concern and gives us an additional ability to 
have--what friends would say, we have a call upon each other 
and a right to say to our friends and very, very important 
player in the region that there are things that you could do to 
burnish your image and look like the country that you hope to 
be; this is one of those areas.
    There is no double standard. We are just talking about 
Turkey in this amendment. Bring up any country in any amendment 
that you want, and if there are problems with human rights or 
religious freedoms, I think we would all be willing to support 
that amendment.
    But let's try to at least agree on the things we know we 
agree on, instead of just picking each other apart because we 
are sitting on different sides of the aisle. This thing is 
getting ridiculous here.
    Chairman Ros-Lehtinen. The gentleman yields.
    Who had the time? Mr. Meeks? Does Mr. Meeks yield?
    Mr. Meeks. Yeah, I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Yes, we are loving it to death. Never has an amendment so 
loved been so controversial.
    Mr. Smith, then Mr. Carnahan, then Mr. Poe.
    Mr. Smith. I will be very brief, Madam Chair. Just to point 
out that this is a very timely and, I think, a very important 
amendment.
    You know, the May edition, just-released edition of the 
Commission on International Religious Freedom, points out that 
the Turkish Government continues to impose serious limitations 
on freedom of religion or belief, threatening the continued 
vitality and survival of the minority religious communities in 
Turkey. They have also pointed out that, when Turkey was placed 
on the Commission's watch list in 2009, the issues related to 
religious freedom have deteriorated to this end. So the glide 
slope is in the wrong direction in Turkey, not the right 
direction. And that goes equally for both the Christians and 
the rising tide of anti-Semitism.
    I chair the Commission on Security and Cooperation in 
Europe and never miss an opportunity to raise this with our 
counterparts in the Turkish Parliament, both Christians and 
Jews, who are increasingly put at risk--and that, of course, 
would include the Orthodox and the Armenians.
    So I think it is timely and it is always, I think, 
appropriate to raise this issue in the hopes of providing 
additional freedoms and respect for this fundamental human 
right.
    I yield back.
    Chairman Ros-Lehtinen. Thank you so much to the gentleman 
from New Jersey. He yields back.
    And Mr. Carnahan is recognized for 5 minutes.
    Mr. Carnahan. Thank you, Madam Chairman.
    And I want to thank Mr. Berman and Mr. Royce for putting 
together this balanced amendment, but also that includes frank 
language but also language that I think can unify us around our 
common values instead of dividing us.
    Last year, our subcommittee had a briefing on the status of 
religious freedom around the world. This is a key element and a 
key measure for us to have included in our relations around the 
world. It is a key indicator for free and developing societies.
    Turkey has been a longtime ally and friend, and so we can 
and should speak frankly to them about this. We should 
recognize progress they have made, but we should also urge them 
to do more. They have been a key NATO ally. They are a key 
world economy. And they are especially today a key example of a 
moderate, Muslim, democratic country. During this vital time of 
transition for so many Muslim countries across the Middle East 
and North Africa, they are a model in many respects for how 
those countries can succeed. So we need them at the table. We 
need to continue to urge them to do more.
    And to the broader question that many have raised here 
today, Chairman Smith spoke about the International Commission 
on Religious Freedom, the annual reports that they come out 
with each year. It is important that we look at those, measure 
that progress, not just in Turkey, but in other countries 
around the globe.
    So, with that, Madam Chair, I yield back.
    Chairman Ros-Lehtinen. I thank the gentleman.
    And Mr. Poe of Texas is recognized because that is just the 
way it is.
    Mr. Poe. Thank you, Madam Chair.
    I do support the amendment, but I do have the same concerns 
that Mr. Rohrabacher from California has. It seems to be 
traditional in the United States we are always harder on our 
allies and our friends than we are on our enemies for some 
reason. And I think we should have an equal standard and make 
sure that we promote religious liberty and freedom everywhere, 
not just in certain specific countries.
    I was with the gentleman from South Carolina and Mr. 
Carnahan of Missouri when the free elections took place in 
Turkey, and I do believe they are making progress. I commend 
them for the progress that they are making, and I would hope 
that we would commend them where they are doing good. We should 
look to the future with Turkey. They are an ally of the United 
States, and support religious freedom everywhere, including in 
the United States.
    And, with that, I will yield back.
    Chairman Ros-Lehtinen. Thank you, sir.
    Hearing no further requests for recognition, the question 
occurs on the amendment. And we will have a recorded vote on 
that amendment, but we will now proceed in the order that I had 
stated.
    Pursuant to committee rule 4 and the prior announcement of 
the Chair, recorded votes will now take place on the following 
amendments that were postponed and will be taken now in this 
order: First, we will have the amendment offered by Ms. Bass to 
section 103, regarding peacekeeping contributions and the 
Democratic Republic of Congo. The second amendment, offered by 
Ms. Wilson of Florida, to section 103, regarding peacekeeping 
contributions and Haiti. The third vote will be Amendment No. 
17 offered by Mr. Higgins, raising the funding level for the 
International Joint Commission. The fourth vote will be the 
Amendment No. 16 offered by Mr. Higgins, raising the funding 
level for the International Fisheries Commission. The fifth 
vote will be the amendment offered by Mr. Mack regarding the 
pipeline. And the last vote--not the last vote of today, but 
the last vote in this series will be the amendment just offered 
by Mr. Berman, loved by all, on the sense of Congress regarding 
Turkey.
    Mr. Berman. Madam Chairman?
    Chairman Ros-Lehtinen. Yes, Mr. Berman.
    Mr. Berman. In all fairness, because we were rewriting it 
to get it into title II, it is a Berman-Cicilline amendment. 
And I just----
    Chairman Ros-Lehtinen. Let the record so reflect, with 
unanimous consent.
    Mr. Ackerman. Madam Chair?
    Chairman Ros-Lehtinen [continuing]. Will it be the Berman-
Cicilline-Ackerman amendment?
    Mr. Ackerman. Madam Chair, I just wanted to clarify that it 
is the amendment, not Mr. Berman, that is loved by all.
    Chairman Ros-Lehtinen. Both, both, both. Please. Cherished, 
admired, respected, revered, feared.
    So the clerk--are we all--I don't want to confuse anyone. 
Are we clear on the votes that will take place?
    The first vote will be the amendment offered by Ms. Bass to 
section 103, regarding peacekeeping contributions and the 
Democratic Republic of the Congo.
    The clerk will call the roll.
    Ms. Carroll. Madam Chairman?
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no.
    Mr. Smith?
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no.
    Mr. Burton?
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no.
    Mr. Gallegly?
    Mr. Gallegly. No.
    Ms. Carroll. Mr. Gallegly votes no.
    Mr. Rohrabacher?
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo?
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no.
    Mr. Royce?
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no.
    Mr. Paul?
    Mr. Paul. No.
    Ms. Carroll. Mr. Paul votes no.
    Mr. Pence?
    [No response.]
    Ms. Carroll. Mr. Wilson?
    [No response.]
    Ms. Carroll. Mr. Mack?
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Fortenberry?
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul?
    Mr. McCaul. No.
    Ms. Carroll. Mr. McCaul votes no.
    Mr. Poe?
    Mr. Poe. No.
    Ms. Carroll. Mr. Poe votes no.
    Mr. Bilirakis?
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no.
    Ms. Schmidt?
    Mrs. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no.
    Mr. Johnson?
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera?
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no.
    Mr. Kelly?
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin?
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Mr. Marino?
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan?
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle?
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Ms. Ellmers?
    [No response.]
    Ms. Carroll. Mr. Berman?
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman?
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Aye.
    Ms. Carroll. Mr. Faleomavaega votes aye.
    Mr. Payne?
    Mr. Payne. Aye.
    Ms. Carroll. Mr. Payne votes aye.
    Mr. Sherman?
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel?
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks?
    Mr. Meeks. Aye.
    Ms. Carroll. Mr. Meeks votes aye.
    Mr. Carnahan?
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires?
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Mr. Connolly?
    Mr. Connolly. No.
    Ms. Carroll. Mr. Connolly votes no.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Mr. Cardoza?
    Mr. Cardoza. Aye.
    Ms. Carroll. Mr. Cardoza votes aye.
    Mr. Chandler?
    Mr. Chandler. No.
    Ms. Carroll. Mr. Chandler votes no.
    Mr. Higgins?
    Mr. Higgins. Aye.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz?
    Ms. Schwartz. Aye.
    Ms. Carroll. Ms. Schwartz votes aye.
    Mr. Murphy?
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye.
    Ms. Wilson?
    Ms. Wilson of Florida. Aye.
    Ms. Carroll. Ms. Wilson votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Mr. Keating?
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded? Mr. 
Pence?
    Ms. Carroll. Mr. Pence?
    Mr. Pence. No.
    Ms. Carroll. Mr. Pence votes no.
    Chairman Ros-Lehtinen. Have all members been recorded?
    The clerk will report the vote.
    Ms. Carroll. Madam Chairman, on that vote there are 18 ayes 
and 25 noes.
    Chairman Ros-Lehtinen. The noes have it, and the question 
is not agreed to.
    The next vote is on the amendment offered by Ms. Wilson of 
Florida to section 103, regarding peacekeeping contributions in 
Haiti.
    Ms. Carroll. Mr. Smith?
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no.
    Mr. Burton? Mr. Burton?
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no.
    Mr. Gallegly?
    Mr. Gallegly. No.
    Ms. Carroll. Mr. Gallegly votes no.
    Mr. Rohrabacher?
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo?
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no.
    Mr. Royce?
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no.
    Mr. Paul?
    Mr. Paul. No.
    Ms. Carroll. Mr. Paul votes no.
    Mr. Pence?
    Mr. Pence. No.
    Ms. Carroll. Mr. Pence votes no.
    Mr. Wilson?
    [No response.]
    Ms. Carroll. Mr. Mack?
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Fortenberry?
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul?
    Mr. McCaul. No.
    Ms. Carroll. Mr. McCaul votes no.
    Mr. Poe?
    Mr. Poe. No.
    Ms. Carroll. Mr. Poe votes no.
    Mr. Bilirakis?
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no.
    Ms. Schmidt?
    Mrs. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no.
    Mr. Johnson?
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera?
    Mr. Rivera. Aye.
    Ms. Carroll. Mr. Rivera votes aye.
    Mr. Kelly?
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin?
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Mr. Marino?
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan?
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle?
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Ms. Ellmers?
    [No response.]
    Ms. Carroll. Mr. Berman?
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman?
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Aye.
    Ms. Carroll. Mr. Faleomavaega votes aye.
    Mr. Payne?
    Mr. Payne. Aye.
    Ms. Carroll. Mr. Payne votes aye.
    Mr. Sherman?
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel?
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks?
    Mr. Meeks. Aye.
    Ms. Carroll. Mr. Meeks votes aye.
    Mr. Carnahan?
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires?
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Mr. Connolly?
    Mr. Connolly. No.
    Ms. Carroll. Mr. Connolly votes no.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Mr. Cardoza?
    Mr. Cardoza. No.
    Ms. Carroll. Mr. Cardoza votes no.
    Mr. Chandler?
    Mr. Chandler. No.
    Ms. Carroll. Mr. Chandler votes no.
    Mr. Higgins?
    Mr. Higgins. Aye.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz?
    Ms. Schwartz. Aye.
    Ms. Carroll. Ms. Schwartz votes aye.
    Mr. Murphy?
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye.
    Ms. Wilson?
    Ms. Wilson of Florida. Aye.
    Ms. Carroll. Ms. Wilson votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Mr. Keating?
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Mr. Wilson, are you recorded?
    Mr. Wilson of South Carolina. Madam Chair, how am I 
recorded?
    Ms. Carroll. You are not recorded, sir.
    Mr. Wilson of South Carolina. I seek to vote no.
    Ms. Carroll. Mr. Wilson votes no.
    Madam Chairman?
    Chairman Ros-Lehtinen. Yes.
    Ms. Carroll. The chairman votes aye.
    Chairman Ros-Lehtinen. The clerk will call the vote.
    Ms. Carroll. Madam Chairman, on that vote there are 19 ayes 
and 25 noes.
    Chairman Ros-Lehtinen. The amendment is not agreed to.
    Thank you. We will now move to Amendment No. 17, offered by 
Mr. Higgins, raising the funding level for the International 
Joint Commission.
    Ms. Carroll. Madam Chairman?
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no.
    Mr. Smith?
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no.
    Mr. Burton?
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no.
    Mr. Gallegly?
    Mr. Gallegly. No.
    Ms. Carroll. Mr. Gallegly votes no.
    Mr. Rohrabacher?
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo?
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no.
    Mr. Royce?
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no.
    Mr. Paul?
    Mr. Paul. No.
    Ms. Carroll. Mr. Paul votes no.
    Mr. Pence?
    Mr. Pence. No.
    Ms. Carroll. Mr. Pence votes no.
    Mr. Wilson?
    Mr. Wilson of South Carolina. No.
    Ms. Carroll. Mr. Wilson votes no.
    Mr. Mack?
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Fortenberry?
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul?
    Mr. McCaul. No.
    Ms. Carroll. Mr. McCaul votes no.
    Mr. Poe?
    Mr. Poe. No.
    Ms. Carroll. Mr. Poe votes no.
    Mr. Bilirakis?
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no.
    Ms. Schmidt?
    [No response.]
    Ms. Carroll. Mr. Johnson?
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera?
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no.
    Mr. Kelly?
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin?
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Mr. Marino?
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan?
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle?
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Ms. Ellmers?
    [No response.]
    Ms. Carroll. Mr. Berman?
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman?
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Aye.
    Ms. Carroll. Mr. Faleomavaega votes aye.
    Mr. Payne?
    Mr. Payne. Aye.
    Ms. Carroll. Mr. Payne votes aye.
    Mr. Sherman?
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel?
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks?
    Mr. Meeks. Aye.
    Ms. Carroll. Mr. Meeks votes aye.
    Mr. Carnahan?
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires?
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Mr. Connolly?
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Mr. Cardoza?
    Mr. Cardoza. Aye.
    Ms. Carroll. Mr. Cardoza votes aye.
    Mr. Chandler?
    Mr. Chandler. No.
    Ms. Carroll. Mr. Chandler votes no.
    Mr. Higgins?
    Mr. Higgins. Aye.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz?
    Ms. Schwartz. Aye.
    Ms. Carroll. Ms. Schwartz votes aye.
    Mr. Murphy?
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye.
    Ms. Wilson?
    Ms. Wilson of Florida. Aye.
    Ms. Carroll. Ms. Wilson votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Mr. Keating?
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded? Mr. 
Deutch?
    Mrs. Schmidt. One more. No.
    Ms. Carroll. Ms. Schmidt votes no.
    Chairman Ros-Lehtinen. Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded?
    The clerk will report the vote.
    Ms. Carroll. Madam Chairman, on that vote there are 19 ayes 
and 25 noes.
    Chairman Ros-Lehtinen. The noes have it, and the question 
is not agreed to.
    We will now move to Mr. Higgins' No. 16 amendment, raising 
the funding level for the International Fisheries Commission.
    The clerk will call the roll.
    Ms. Carroll. Madam Chairman?
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no.
    Mr. Smith?
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no.
    Mr. Burton?
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no.
    Mr. Gallegly?
    Mr. Gallegly. No.
    Ms. Carroll. Mr. Gallegly votes no.
    Mr. Rohrabacher?
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo?
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no.
    Mr. Royce?
    [No response.]
    Ms. Carroll. Mr. Chabot?
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no.
    Mr. Paul?
    Mr. Paul. No.
    Ms. Carroll. Mr. Paul votes no.
    Mr. Pence?
    Mr. Pence. No.
    Ms. Carroll. Mr. Pence votes no.
    Mr. Wilson?
    Mr. Wilson of South Carolina. No.
    Ms. Carroll. Mr. Wilson votes no.
    Mr. Mack?
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Fortenberry?
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul?
    Mr. McCaul. No.
    Ms. Carroll. Mr. McCaul votes no.
    Mr. Poe?
    Mr. Poe. No.
    Ms. Carroll. Mr. Poe votes no.
    Mr. Bilirakis?
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no.
    Ms. Schmidt?
    Mrs. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no.
    Mr. Johnson?
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera?
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no.
    Mr. Kelly?
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin?
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Mr. Marino?
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan?
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle?
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Ms. Ellmers?
    [No response.]
    Ms. Carroll. Mr. Berman?
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman?
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Aye.
    Ms. Carroll. Mr. Faleomavaega votes aye.
    Mr. Payne?
    Mr. Payne. Aye.
    Ms. Carroll. Mr. Payne votes aye.
    Mr. Sherman?
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel?
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks?
    Mr. Meeks. Aye.
    Ms. Carroll. Mr. Meeks votes aye.
    Mr. Carnahan?
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires?
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Mr. Connolly?
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Mr. Cardoza?
    Mr. Cardoza. Aye.
    Ms. Carroll. Mr. Cardoza votes aye.
    Mr. Chandler?
    Mr. Chandler. Aye.
    Ms. Carroll. Mr. Chandler votes aye.
    Mr. Higgins?
    Mr. Higgins. Aye.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz?
    Ms. Schwartz. Aye.
    Ms. Carroll. Ms. Schwartz votes aye.
    Mr. Murphy?
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye.
    Ms. Wilson?
    Ms. Wilson of Florida. Aye.
    Ms. Carroll. Ms. Wilson votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Mr. Keating?
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded? Mr. 
Royce?
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no.
    Chairman Ros-Lehtinen. All members have been recorded?
    The clerk will report the vote.
    Ms. Carroll. Madam Chairman, on that vote there are 20 ayes 
and 24 noes.
    Chairman Ros-Lehtinen. The noes have it, and the question 
is not agreed to.
    We will now proceed to the amendment offered by Mr. Mack, 
regarding the Keystone XL pipeline.
    The clerk will call the roll.
    Ms. Carroll. Madam Chairman?
    Chairman Ros-Lehtinen. Yes.
    Ms. Carroll. The chairman votes aye.
    Mr. Smith?
    Mr. Smith. Yes.
    Ms. Carroll. Mr. Smith votes aye.
    Mr. Burton?
    Mr. Burton. Yes.
    Ms. Carroll. Mr. Burton votes aye.
    Mr. Gallegly?
    Mr. Gallegly. Aye.
    Ms. Carroll. Mr. Gallegly votes aye.
    Mr. Rohrabacher?
    Mr. Rohrabacher. Yes.
    Ms. Carroll. Mr. Rohrabacher votes aye.
    Mr. Manzullo?
    Mr. Manzullo. Yes.
    Ms. Carroll. Mr. Manzullo votes aye.
    Mr. Royce?
    Mr. Royce. Yes.
    Ms. Carroll. Mr. Royce votes aye.
    Mr. Chabot?
    Mr. Chabot. Aye.
    Ms. Carroll. Mr. Chabot votes aye.
    Mr. Paul?
    Mr. Paul. Aye.
    Ms. Carroll. Mr. Paul votes aye.
    Mr. Pence?
    Mr. Pence. Aye.
    Ms. Carroll. Mr. Pence votes aye.
    Mr. Wilson?
    Mr. Wilson of South Carolina. Yes.
    Ms. Carroll. Mr. Wilson votes aye.
    Mr. Mack?
    Mr. Mack. Yes.
    Ms. Carroll. Mr. Mack votes yes.
    Mr. Fortenberry?
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul?
    Mr. McCaul. Aye.
    Ms. Carroll. Mr. McCaul votes aye.
    Mr. Poe?
    Mr. Poe. Yes.
    Ms. Carroll. Mr. Poe votes aye.
    Mr. Bilirakis?
    Mr. Bilirakis. Aye.
    Ms. Carroll. Mr. Bilirakis votes aye.
    Ms. Schmidt?
    Mrs. Schmidt. Aye.
    Ms. Carroll. Ms. Schmidt votes aye.
    Mr. Johnson?
    Mr. Johnson. Aye.
    Ms. Carroll. Mr. Johnson votes aye.
    Mr. Rivera?
    Mr. Rivera. Aye.
    Ms. Carroll. Mr. Rivera votes aye.
    Mr. Kelly?
    Mr. Kelly. Aye.
    Ms. Carroll. Mr. Kelly votes aye.
    Mr. Griffin?
    Mr. Griffin. Aye.
    Ms. Carroll. Mr. Griffin votes aye.
    Mr. Marino?
    Mr. Marino. Yes.
    Ms. Carroll. Mr. Marino votes aye.
    Mr. Duncan?
    Mr. Duncan. Aye.
    Ms. Carroll. Mr. Duncan votes aye.
    Ms. Buerkle?
    Ms. Buerkle. Yes.
    Ms. Carroll. Ms. Buerkle votes aye.
    Ms. Ellmers?
    [No response.]
    Ms. Carroll. Mr. Berman?
    Mr. Berman. No.
    Ms. Carroll. Mr. Berman votes no.
    Mr. Ackerman?
    Mr. Ackerman. No.
    Ms. Carroll. Mr. Ackerman votes no.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Yes.
    Ms. Carroll. Mr. Faleomavaega votes yes.
    Mr. Payne?
    Mr. Payne. No.
    Ms. Carroll. Mr. Payne votes no.
    Mr. Sherman?
    Mr. Sherman. No.
    Ms. Carroll. Mr. Sherman votes no.
    Mr. Engel?
    Mr. Engel. Yes.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks?
    Mr. Meeks. No.
    Ms. Carroll. Mr. Meeks votes no.
    Mr. Carnahan?
    Mr. Carnahan. No.
    Ms. Carroll. Mr. Carnahan votes no.
    Mr. Sires?
    Mr. Sires. Yes.
    Ms. Carroll. Mr. Sires votes aye.
    Mr. Connolly?
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch?
    Mr. Deutch. No.
    Ms. Carroll. Mr. Deutch votes no.
    Mr. Cardoza?
    Mr. Cardoza. Aye.
    Ms. Carroll. Mr. Cardoza votes aye.
    Mr. Chandler?
    Mr. Chandler. Yes.
    Ms. Carroll. Mr. Chandler votes aye.
    Mr. Higgins?
    Mr. Higgins. Yes.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz?
    Ms. Schwartz. No.
    Ms. Carroll. Ms. Schwartz votes no.
    Mr. Murphy?
    Mr. Murphy. No.
    Ms. Carroll. Mr. Murphy votes no.
    Ms. Wilson?
    Ms. Wilson of Florida. No.
    Ms. Carroll. Ms. Wilson votes no.
    Ms. Bass?
    Ms. Bass. No.
    Ms. Carroll. Ms. Bass votes no.
    Mr. Keating?
    Mr. Keating. No.
    Ms. Carroll. Mr. Keating votes no.
    Mr. Cicilline?
    Mr. Cicilline. No.
    Ms. Carroll. Mr. Cicilline votes no.
    Chairman Ros-Lehtinen. Have all members been recorded?
    The clerk will report the vote.
    Ms. Carroll. Madam Chairman, on that vote there are 30 ayes 
and 14 noes.
    Chairman Ros-Lehtinen. The ayes have it, and the question 
is agreed to.
    Our last rolled vote is the amendment offered by Mr. Berman 
on the sense of Congress regarding Turkey.
    The clerk will call the roll.
    Ms. Carroll. Madam Chairman?
    Chairman Ros-Lehtinen. Yes.
    Ms. Carroll. The chairman votes aye.
    Mr. Smith?
    Mr. Smith. Yes.
    Ms. Carroll. Mr. Smith votes aye.
    Mr. Burton?
    Mr. Burton. Aye.
    Ms. Carroll. Mr. Burton votes aye.
    Mr. Gallegly?
    Mr. Gallegly. Aye.
    Ms. Carroll. Mr. Gallegly votes aye.
    Mr. Rohrabacher?
    Mr. Rohrabacher. Yes.
    Ms. Carroll. Mr. Rohrabacher votes aye.
    Mr. Manzullo?
    Mr. Manzullo. Aye.
    Ms. Carroll. Mr. Manzullo votes aye.
    Mr. Royce?
    Mr. Royce. Aye.
    Ms. Carroll. Mr. Royce votes aye.
    Mr. Chabot?
    Mr. Chabot. Aye.
    Ms. Carroll. Mr. Chabot votes aye.
    Mr. Paul?
    Mr. Paul. No.
    Ms. Carroll. Mr. Paul votes no.
    Mr. Pence?
    Mr. Pence. Pass.
    Ms. Carroll. Mr. Wilson?
    Mr. Wilson of South Carolina. Aye.
    Ms. Carroll. Mr. Wilson votes aye.
    Mr. Mack?
    Mr. Mack. Yes.
    Ms. Carroll. Mr. Mack votes aye.
    Mr. Fortenberry?
    Mr. Fortenberry. Yes.
    Ms. Carroll. Mr. Fortenberry votes aye.
    Mr. McCaul?
    Mr. McCaul. Aye.
    Ms. Carroll. Mr. McCaul votes aye.
    Mr. Poe?
    Mr. Poe. Yes.
    Ms. Carroll. Mr. Poe votes aye.
    Mr. Bilirakis?
    Mr. Bilirakis. Yes.
    Ms. Carroll. Mr. Bilirakis votes aye.
    Ms. Schmidt?
    Mrs. Schmidt. Aye.
    Ms. Carroll. Ms. Schmidt votes aye.
    Mr. Johnson?
    Mr. Johnson. Aye.
    Ms. Carroll. Mr. Johnson votes aye.
    Mr. Rivera?
    Mr. Rivera. Aye.
    Ms. Carroll. Mr. Rivera votes aye.
    Mr. Kelly?
    Mr. Kelly. Aye.
    Ms. Carroll. Mr. Kelly votes aye.
    Mr. Griffin?
    Mr. Griffin. Aye.
    Ms. Carroll. Mr. Griffin votes aye.
    Mr. Marino?
    Mr. Marino. Yes.
    Ms. Carroll. Mr. Marino votes aye.
    Mr. Duncan?
    Mr. Duncan. Aye.
    Ms. Carroll. Mr. Duncan votes aye.
    Ms. Buerkle?
    Ms. Buerkle. Yes.
    Ms. Carroll. Ms. Buerkle votes aye.
    Ms. Ellmers?
    [No response.]
    Ms. Carroll. Mr. Berman?
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman?
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Ayes.
    Ms. Carroll. Mr. Faleomavaega votes aye.
    Mr. Payne?
    Mr. Payne. Aye.
    Ms. Carroll. Mr. Payne votes aye.
    Mr. Sherman?
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel?
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks?
    Mr. Meeks. Aye.
    Ms. Carroll. Mr. Meeks votes aye.
    Mr. Carnahan?
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires?
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Mr. Connolly?
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Mr. Cardoza?
    Mr. Cardoza. Aye.
    Ms. Carroll. Mr. Cardoza votes aye.
    Mr. Chandler?
    Mr. Chandler. Aye.
    Ms. Carroll. Mr. Chandler votes aye.
    Mr. Higgins?
    Mr. Higgins. Yes.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz?
    Ms. Schwartz. Aye.
    Ms. Carroll. Ms. Schwartz votes aye.
    Mr. Murphy?
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye.
    Ms. Wilson?
    Ms. Wilson of Florida. Aye.
    Ms. Carroll. Ms. Wilson votes aye.
    Ms. Bass?
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Mr. Keating?
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Mr. Pence?
    Mr. Pence. Aye.
    Ms. Carroll. Mr. Pence votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded?
    The clerk will report the vote.
    Ms. Carroll. Madam Chairman, on that vote there are 43 ayes 
and 1 no.
    Chairman Ros-Lehtinen. The ayes have it, and the question 
is agreed to.
    We will now go back to regular order.
    And, Mr. Deutch, we have two amendments that you have 
offered under title II. And if you would like to offer your 
amendments at this time.
    Mr. Deutch. Thank you, Madam Chair.
    Amendment 621 is what we are on. Madam Chair, I think this 
has been distributed.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    And we all have a copy of it. Let's just make sure we all 
do. It is Bureau of Counterterrorism.
    Mr. Deutch is recognized to explain his amendment.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Deutch. Madam Chairman, this amendment would authorize 
a new Bureau of Counterterrorism. It is based on a 
recommendation of the Quadrennial Diplomacy and Development 
Review to elevate the position of the coordinator for 
counterterrorism.
    Madam Chairman, when the Office of Counterterrorism was 
first created during the Reagan years, counterterrorism was an 
important yet relatively peripheral issue in the Department. 
That has changed dramatically in the last 20 years.
    Elevating the office to a bureau accomplishes two goals: 
First, it strengthens the position of the coordinator, enabling 
that individual to serve as a more effective leader of U.S. 
counterterrorism activities. Statutorily, the coordinator for 
counterterrorism is supposed to coordinate all U.S. Government 
counterterrorism activities, but, in practice, it does not work 
that way. Creating a bureau puts the coordinator on the same 
footing as his colleagues at the Department of Defense and the 
Department of Homeland Security. It gives him a more expansive 
role in the State Department.
    Second, converting to a bureau would have allow the 
coordinator to strengthen States' involvement in new, powerful 
counterterrorism activities, such as multilateral and bilateral 
diplomacy to advance U.S. counterterrorism goals, building the 
capacity of foreign partners to fight terror, and coordinating 
public diplomacy and military information support programs.
    Since 9/11, we have seen the role of the Department of 
Defense evolve dramatically. That department now fights not 
only terrorists but battles the underlying conditions that lead 
to terror. The Department of Defense speaks of ``influencing 
the global environment and eroding support for extremist 
ideologies.''
    I view these as fundamental functions of the Department of 
State and USAID. And I view the coordinator for 
counterterrorism as a point person in the Department's efforts 
to coordinate these activities. Just as DoD's role has changed, 
so, too, should that of the coordinator for counterterrorism to 
reflect this expanded mission.
    I am aware that, although many on this committee support 
the counterterrorism efforts of the Department, there are 
concerns about establishing a new bureau. And yet I support the 
fundamental recommendation of the QDDR to establish a bureau 
and, given the imminent threats faced by the United States, 
want to see this bureau established as soon as practicable. For 
that reason, I urge my colleagues to support this amendment.
    And I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Deutch.
    Do other members seek recognition to speak on the 
amendment?
    Mr. Royce is recognized for 5 minutes.
    Mr. Royce. Yes, Madam Chair. I do appreciate the 
gentleman's focus here on counterterrorism, but I have a couple 
of concerns about this amendment.
    And I am not convinced that making the office of the 
special coordinator for counterterrorism a bureau would make 
its activities any more effective. I think that is the 
conceptual point we need to concern ourselves with. It is an 
office today, and it is an office because it is supposed to 
coordinate programs. It is not supposed to implement them. Its 
responsibility is to coordinate programs, which is exactly what 
offices do, and that is why it is an office.
    And I just haven't heard enough about why we should move 
away from the coordinator model, which is what is suggested 
here. And if you think about it, also, it is the person doing 
the job that makes the difference when it comes to 
effectiveness, not the title. But the basic job here is the job 
of the bureau.
    Now, let's take the second point. If the administration 
feels that this is important, then they already have the 
authority to create a bureau here. The problem is that they 
have other priorities, right? The State Department's numbers of 
bureaus are capped at 29, and right now they have--I think it 
is 27, right? Twenty-seven bureaus. They can't create a Bureau 
of Counterterrorism because they have given preference to 
creating a new Bureau for Conflict Stabilization and a new 
Bureau for Energy Resources. And the bottom line is, that is 
the administration's choice. So I would feel better about this 
amendment if it struck one of these new or even several of 
these currently existing bureaus.
    But the base bill--and let's think about what we are doing 
with the base bill here--the base bill has a provision 
requiring the President to send Congress a feasibility study to 
eliminate duplicative bureaus and offices and positions. So the 
administration has already made its decision here. What we are 
trying to do is get more efficiency out of the bureaucracy. So 
let's get that information, and then we can make a better 
choice about where in the bureaucracy counterterrorism should 
be housed.
    And one thing I am certain about is that the State 
Department does not need 30 assistant secretaries, which would 
be the practical result of this amendment if we do not 
basically reduce other bureaus at State. And, frankly, it goes 
against the intention of the underlying bill here, which is to 
get that feasibility study to eliminate duplicative bureaus, 
offices, and positions. As I say, if the administration wanted 
to do this, they could do it.
    So I yield back, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, Mr. Royce.
    Mr. Berman is recognized.
    Mr. Berman. Thank you, Madam Chairman.
    I rise in support of the amendment and yield my time to the 
sponsor of the amendment, the gentleman from Florida, Mr. 
Deutch.
    Mr. Deutch. I thank the ranking member.
    In response to the gentleman from California, three points.
    First, the idea of eliminating duplicative bureaus is one 
that I think we can all support, but there is no suggestion 
that there is a duplicative bureau that deals with 
counterterrorism. In fact, there is no bureau that deals with 
counterterrorism. That is the purpose of this amendment.
    Secondly, in response to the suggestion that simply 
changing the title won't have an effect, I would again restate 
that, by creating an Assistant Secretary of State for 
Counterterrorism, we would be putting that person at State on 
the same level as his counterparts at DoD and the Department of 
Homeland Security, exactly the position that person should 
hold, given the responsibilities that come with that job.
    And, finally, if this is merely a problem with the number, 
the number of assistant secretaries, the number of bureaus as 
currently capped, I would gladly entertain a secondary 
amendment to my amendment to increase that cap by one so that 
we could accomplish it that way.
    And I yield back.
    Mr. Royce. Would the gentleman yield before----
    Chairman Ros-Lehtinen. Thank you, Mr. Deutch.
    Mr. Royce [continuing]. He yields back?
    Chairman Ros-Lehtinen. Mr. Deutch, would you like to yield?
    Mr. Deutch. Gladly. Gladly. I yield.
    Mr. Royce. Mr. Deutch, when you were responding to my 
points, again, the point I was making is that it is an office, 
rather than a bureau, because the function here, the 
responsibility, is to coordinate programs. It doesn't have the 
function of implementing programs. It is not, in fact, a 
bureau. That is why it is set up that way. That is probably why 
the administration has not made it a bureau.
    So I would just suggest that--that point I would just 
reiterate. And your amendment might seek, in keeping with the 
underlying bill, to cut the number of bureaus and then let the 
administration make the choice of how it wants to reorganize.
    I yield.
    Mr. Deutch. I thank the gentleman for yielding.
    Reclaiming my time, I would simply point out that the role 
of--currently the role of coordinator, ultimately the role of 
Assistant Secretary, is not merely to coordinate programs but 
to lead the fight at State Department in the counterterrorism 
area.
    And I would urge my colleagues to adopt the amendment.
    And I yield back, Madam Chair.
    Mr. Connolly. Well, would the gentleman yield before he 
yields back?
    Chairman Ros-Lehtinen. Mr. Connolly----
    Mr. Deutch. I would gladly yield to the gentleman from 
Virginia.
    Mr. Connolly. You know, I am struck, Mr. Deutch, by the 
fact that, in the culture of the State Department--and I take 
to heart our colleague from California, Mr. Royce's words. But, 
on the other hand, as a longtime observer of the State 
Department and somebody who used to, on the staff level, write 
these authorization bills in the other body, what has always 
struck me is that, you know, hierarchy and status, in a sense, 
are everything, and that by elevating counterterrorism to 
bureau status we have made a statement in terms of elevating 
the issue and insisting on more coordination and making sure 
that this has equal status with other functions within the 
State Department as opposed to sort of the stovepipe mentality 
that this is somebody else's assignment at the clerical level.
    And it strikes me that that is really, in many ways, what 
you are getting at, Mr. Deutch, if I understand your amendment. 
Would that be correct?
    Mr. Deutch. That is correct. That is exactly what we are 
getting at in this amendment.
    Again, this office was created during the Reagan years. 
Counterterrorism was hardly--played hardly the role that it 
does today. That added stature that would come, as the 
gentleman from Virginia points out, is exactly what is 
necessary to put this officer on the same footing as his 
colleagues at Defense and Homeland Security.
    Mr. Connolly. And as I recall, Mr. Deutch, actually, the 
State Department had some issues in terms of coordination and 
the passing on of intelligence prior to 9/11 in terms of, 
frankly, monitoring al-Qaeda. And, you know, obviously, since 
9/11 we have made counterterrorism a priority. But ensuring 
that it is enshrined as a priority for the State Department and 
that, hopefully, those problems of the past are no longer with 
us is also encompassed in the intent of your amendment.
    Would that also be correct?
    Mr. Deutch. That is correct. And I appreciate the gentleman 
from Virginia pointing that out.
    Mr. Connolly. I thank my colleague for yielding.
    Chairman Ros-Lehtinen. The gentleman yields back.
    Mr. McCaul is recognized.
    Mr. McCaul. Thank you, Madam Chair. I yield to the 
gentleman from California, Mr. Royce.
    Chairman Ros-Lehtinen. Mr. Royce?
    Mr. Royce. I thank Mr. McCaul for yielding.
    Well, the suggestion I was going to make to Mr. Deutch, in 
keeping with the legislation here, how about a secondary 
amendment to eliminate a bureau that already exists? You would 
keep it at 29. We need to make choices, but in so doing at 
least we keep with the intention of the legislation.
    As I already reiterated, the administration could do this 
if it wanted to. Let us make the choice. Let's keep it at 29 
but dictate the elimination of 1 bureau and put this on the 
list.
    I think that is a credible suggestion for a secondary 
amendment, which you might want to consider accepting.
    Chairman Ros-Lehtinen. Mr. Deutch?
    Mr. Deutch. I appreciate the gentleman's suggestion. I am 
not--this is not, I don't believe, a--this is not an issue of 
whether or not we have too many bureaus. This is a question of 
whether fighting counterterrorism deserves added importance.
    Mr. Royce. But keep in mind that one of the things we are 
doing with the legislation is we are making a choice. This is 
about the need to make choices. If you make that choice and we 
do that with a secondary amendment, you can achieve your goal, 
even though the administration has not elevated it to that 
position.
    I would just suggest that to you for your contemplation. It 
is an idea. It is not a bad one.
    Chairman Ros-Lehtinen. Mr. Deutch?
    Mr. Deutch. And I appreciate the gentleman's suggestion. I 
am not prepared to engage in an evaluation of the various 
bureaus to determine whether one should be reduced. I believe 
the issue is important enough that elevating----
    Mr. Royce. But----
    Chairman Ros-Lehtinen. Mr. Royce?
    Mr. Royce. But returning to my time, it is an issue of 
making choices. Because a new bureau is going to cost money. 
The administration has not made that choice. If we make that 
choice, let's do it, but let's continue to cap it at 29. We can 
do that.
    And let me yield to the----
    Chairman Ros-Lehtinen. Mr. Burton?
    Mr. Royce [continuing]. Gentleman from Indiana.
    Mr. Burton. I would like to know how they came up with 29 
bureaus. I mean, why is it not 25? Why is it not 35? Where did 
this number, 29, come? Does anybody know?
    Mr. Royce. Well, probably for the reason--reclaiming my 
time--for the reason that it is not 1,000. At some point, you 
have to control the size of the bureaucracy because the 
bureaucracy becomes unwieldy. And just as we know that too many 
Cabinet positions creates a certain roadblock toward the 
ability to operate efficiently, so it is with bureaus. And 
there is an attempt to keep this within the confines not only 
of a budget but also of being able to operate effectively. You 
build a bureaucracy too large and you----
    Mr. Burton. Well, if the gentleman would yield further.
    Mr. Royce. Yes.
    Mr. Burton. I am not questioning whether or not it should 
be 29 or 28. I was just curious about----
    Mr. Royce. Right.
    Mr. Burton [continuing]. Where this number originated, 
because it seems to be stuck on 29. Was that legislated?
    Mr. Royce. Yes. Congress authorized it, and we did it in 
order to keep this from proliferating to the hundreds.
    Chairman Ros-Lehtinen. The gentleman yields back.
    Mr. McCaul, do you yield back?
    Mr. McCaul. I yield back.
    Chairman Ros-Lehtinen. Does any other member seek 
recognition on this amendment?
    If not, the clerk will call the roll.
    Ms. Carroll. Madam Chairman?
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no.
    Mr. Smith?
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no.
    Mr. Burton?
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no.
    Mr. Gallegly?
    [No response.]
    Ms. Carroll. Mr. Rohrabacher?
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo?
    [No response.]
    Ms. Carroll. Mr. Royce?
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no.
    Mr. Chabot?
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no.
    Mr. Paul?
    [No response.]
    Ms. Carroll. Mr. Pence?
    Mr. Pence. No.
    Ms. Carroll. Mr. Pence votes no.
    Mr. Wilson?
    [No response.]
    Ms. Carroll. Mr. Mack?
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Fortenberry?
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul?
    Mr. McCaul. No.
    Ms. Carroll. Mr. McCaul votes no.
    Mr. Poe?
    [No response.]
    Ms. Carroll. Mr. Bilirakis?
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no.
    Ms. Schmidt?
    Mrs. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no.
    Mr. Johnson?
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera?
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no.
    Mr. Kelly?
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin?
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Mr. Marino?
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan?
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle?
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Ms. Ellmers?
    [No response.]
    Ms. Carroll. Mr. Berman?
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman?
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Aye.
    Ms. Carroll. Mr. Faleomavaega votes aye.
    Mr. Payne?
    Mr. Payne. Aye.
    Ms. Carroll. Mr. Payne votes aye.
    Mr. Sherman?
    [No response.]
    Ms. Carroll. Mr. Engel?
    [No response.]
    Ms. Carroll. Mr. Meeks?
    Mr. Meeks. Aye.
    Ms. Carroll. Mr. Meeks votes aye.
    Mr. Carnahan?
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires?
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Mr. Connolly?
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Mr. Cardoza?
    Mr. Cardoza. Aye.
    Ms. Carroll. Mr. Cardoza votes aye.
    Mr. Chandler?
    Mr. Chandler. Aye.
    Ms. Carroll. Mr. Chandler votes aye.
    Mr. Higgins?
    Mr. Higgins. Yes.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz?
    Ms. Schwartz. Aye.
    Ms. Carroll. Ms. Schwartz votes aye.
    Mr. Murphy?
    Mr. Murphy. Aye.
    Ms. Carroll. Mr. Murphy votes aye.
    Ms. Wilson?
    Ms. Wilson of Florida. Aye.
    Ms. Carroll. Ms. Wilson votes aye.
    Ms. Bass?
    [No response.]
    Ms. Carroll. Mr. Keating?
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Mr. Engel?
    Mr. Engel. Votes aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Wilson of South Carolina. Madam Chair?
    Chairman Ros-Lehtinen. Mr. Wilson?
    Mr. Wilson of South Carolina. I vote no.
    Ms. Carroll. Mr. Wilson votes no.
    Chairman Ros-Lehtinen. Have all members been recorded?
    The clerk will report the vote.
    Ms. Carroll. Just one moment, ma'am.
    Madam Chairman, on that vote there are 18 ayes and 20 noes.
    Chairman Ros-Lehtinen. The noes have it, and the question 
is not agreed to.
    Mr. Deutch, did you have another amendment on this title?
    Mr. Deutch. I do, Madam Chair, Amendment 29.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Deutch 
of Florida. At the end of title II, section [blank]. Report on 
Office of Terrorism Finance and Economic Sanctions Policy of 
the Department of State. (a) Report. Not later than 3 months 
after the date of the enactment of this act, the Secretary of 
State shall submit to the Committee on Foreign Affairs of the 
House of Representatives and the Committee on Foreign Relations 
of the Senate a report on the resources and effectiveness of 
the Office of Terrorism Finance and Economic Sanctions Policy 
of the Department of State. (b) Contents----
    Chairman Ros-Lehtinen. I ask unanimous consent to dispense 
with the reading.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. The Chair reserves a point of order 
and recognizes the author for 5 minutes to explain the 
amendment. Mr. Deutch is recognized.
    Mr. Deutch. Thank you, Madam Chairman.
    It has been 1 year since Congress passed the Comprehensive 
Iran Sanctions, Accountability, and Divestment Act. This 
legislation, the most robust sanctions package to date, coupled 
with the passage of U.N. Security Council Resolution 1929 and a 
newly strengthened sanctions package from the European Union, 
gave us the tools to create a targeted international sanctions 
regime aimed at bringing maximum economic pressure on the 
Iranian regime to halt its illicit nuclear program.
    In the year since the President signed CISADA into law, the 
Iranian regime has continued to advance its nuclear weapons 
program, with the latest report from the IAEA identifying 
possible military dimensions to the Iranian program and plans 
to triple highly enriched uranium production. In addition to 
its flagrant violation of international nuclear 
nonproliferation laws and sanctions policy, the regime has 
continued to be the leading sponsor of terrorist organizations 
like Hezbollah and Islamic Jihad.
    For the past year, members of this committee, including the 
chairman and ranking member, both of whom have been so 
committed to this issue, have lamented over the lack of 
implementation and enforcement of CISADA. We have questioned 
countless witnesses about the lack of sanctions on major energy 
companies and the seemingly slow progress of investigations. We 
have cited news reports of developing deals and new investments 
in the Iranian energy sector and wonder why no determinations 
were made and sanctions imposed.
    Madam Chairman, in a subcommittee hearing just weeks ago, 
the Director of the Office of Terrorism Finance and Economic 
Sanctions Policy, the office within the State Department 
charged with initiating and conducting investigations into 
sanctions violations, sat before many of us on this full 
committee and confirmed that his office has three and a half 
full-time staff devoted to these efforts--three and a half 
full-time staffers to determine the validity of thousands of 
news reports, documents, and statements about the thousands of 
energy firms potentially operating or looking to operate in 
Iran. Many Members of Congress, Madam Chairman, have five times 
as many staff members.
    As we look to pass new legislation in the coming months 
that would further tighten our existing sanctions policy, we 
must make sure the United States Government has the necessary 
resources to properly execute these laws. This amendment 
requires that a report be issued on the ability of the Office 
of Terrorism Finance and Economic Sanctions Policy to 
effectively carry out its duties given its current resources. 
It will provide an assessments of how additional resources 
would enhance the efforts of the office, and it will also 
address what has continued to be a troubling issue for many of 
us--the pace of investigations--by providing an analysis of the 
potential impact of increased personnel, contracting authority, 
and resources for the Office of Terrorism Finance and Economic 
Sanctions Policy on the timeframe for a typical investigation's 
initiation, performance, conclusion, and resolution.
    If we are serious about stopping the threat to national and 
international security posed by a nuclear-armed Iran, then we 
must not only continue to create the most stringent framework 
of targeted, biting sanctions, but we must ensure that we are 
providing the necessary tools to implement and enforce these 
laws to their fullest extent.
    Madam Chairman, this is a de minimis report that would not 
be scored by the CBO. Any cost can be offset by the repeals 
listed in section 1 of this legislation. And I urge your 
support of this amendment.
    I thank the members, and I yield back the balance of my 
time.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Deutch of 
Florida, for your amendment.
    And Mr. Burton is recognized.
    Mr. Burton. Well, I see that the committee is possibly 
going to accept this amendment. I was just going to state that 
I think it makes a lot of sense.
    I think Mr. Deutch is correct; if we are going to impose 
sanctions, we need to know when and how we are going to impose 
them. And we need the personnel that can study the issue and 
make a decision as quickly as possible.
    So I think it is a good amendment.
    Chairman Ros-Lehtinen. Thank you, sir.
    The gentleman yields back. Seeing no other recognition for 
time, then we will perhaps have a voice vote.
    Yes, sir?
    Mr. Burton. I move we accept the amendment unanimously.
    Chairman Ros-Lehtinen. Thank you, sir. And I move that that 
be done, without objection. My magic wand.
    Thank you. Yippee.
    Mr. Deutch, any more amendments on title II?
    Does any other member have amendments to title II of the 
bill?
    Having no further amendments on that title, we will then 
proceed to title III. The clerk will designate the title.
    And before you do so, Madam Clerk, I would like to ask 
unanimous consent from the members that, pursuant to rule 4, I 
am announcing that from 6:30 to 8 o'clock p.m., any recorded 
votes will be rolled until at least 8 o'clock p.m. However, 
debate and voice votes will continue during that time.
    So recorded votes will be rolled until at least 8 o'clock, 
but we will continue to debate the amendments. You must be 
present to win. You must be present to lose. No tickee, no 
laundry. If you are not here, you can't present it, or you can 
have someone else present it for you. But we will continue with 
our business.
    Mr. Berman. Reserving----
    Chairman Ros-Lehtinen. Mr. Berman is recognized.
    Mr. Berman. I am just reserving the right to object. I 
don't intend to, but--so we are now starting title III. We will 
proceed with amendments for title III.
    To the extent the amendments are considered and a roll call 
is requested, that process will take place at that time until 
6:30. And then at 6:30, from that point on, amendments that are 
taken up, if a roll call is requested, that roll call will be 
postponed.
    I thought it was going to be until 8:30. Because Georgetown 
is a long way from here. No----
    Chairman Ros-Lehtinen. 8:15.
    Mr. Berman. 8:15. Okay, 8:15.
    But if we finish a title during that time and a person is 
not here to offer their amendment, they lose their chance to 
offer that amendment. That is my understanding of your----
    Chairman Ros-Lehtinen. That is correct. If the gentleman 
would yield. Or you can have a member offer it on your behalf.
    Mr. Berman. Just so it is not me.
    Chairman Ros-Lehtinen. So, to be clear, once again, 
pursuant to rule 4, I am announcing that we will not have 
recorded votes from 6:30 to 8:15. And we will have voice votes. 
And you must be present or have a friend present your amendment 
because we will move by section and title, and if you are not 
here, we are not going back in time.
    So thank you. It shall be done. And with that, we were 
about to enter the title III, and we had the clerk designating 
the title.
    Madam Clerk.
    Ms. Carroll. Title III--Organization and Personnel 
Authorities.
    Chairman Ros-Lehtinen. Are there any amendments to this 
title?
    Mr. Fortenberry.
    Mr. Fortenberry. I have an amendment at the desk.
    Chairman Ros-Lehtinen. The clerk will read the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. 
Fortenberry of Nebraska. At the end of title III, insert the 
following: Section 311. Diaspora Affairs. (a) Statement of 
Policy--it shall be the policy of the State Department Bureau 
of Population, Refugees, and Migration to track resettled 
refugee patterns, migrations, and educational and skill set 
accumulations in the United States with the goal of engaging 
new Americans for the purpose of facilitating U.S. national 
security, humanitarian, and economic goals in their home 
countries.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Thank you. The Chair reserves a 
point of order. The amendment is still being given out.
    The Chair recognizes the author to explain the amendment, 
Mr. Fortenberry.
    Mr. Fortenberry. Thank you, Madam Chair.
    It is my understanding there is a point of order problem 
here as well as a jurisdictional issue, so I am going to 
withdraw the amendment momentarily, but I do want to speak to 
the issue since I think it is a possible idea that some of us 
may want to consider moving in another measure.
    Madam Chair, the Nebraska delegation for about almost the 
last 70 years on a weekly basis, when we are all in Washington, 
gets together for a breakfast. And any Nebraskans who are in 
town can join us, and that even includes U.S. Senators. And we 
have a good lively discussion with our constituents. And 
recently a young man who was a Sudanese refugee, a new 
American, who actually grew up from childhood in Nebraska and 
went to the University of Nebraska in Omaha, came to that 
breakfast and told us after that referendum in Southern Sudan, 
he went back to the village where his family had come from and 
began his project of digging a well for the people there.
    I say that simply because it wasn't until the registration 
began for the Southern Sudanese referendum earlier this year 
that it was realized that the largest population of Southern 
Sudanese refugees in the United States is in my home State of 
Nebraska. Many of these refugees came to America over the years 
during the course of the violence in the former Sudan and were 
settled in communities across the country, but for various 
reasons, such as migratory patterns, jobs, family and tribal 
linkages, a vast number of refugees made their home in 
Nebraska.
    Following the referendum until Southern Sudan's official 
independence on July 9th, my office learned there was not any 
type of focus on following the progress of new Americans, 
refugees, in our country.
    Furthermore, as many refugees in Nebraska inquired as to 
how they could help their former home establish independence 
and work toward becoming a strong and viable nation, I learned 
that refugees with in-demand technical skills and educations 
were not being called upon to assist U.S. development and aid 
efforts in South Sudan.
    Many refugees from other places throughout the world desire 
the opportunity to make a difference in their former homes when 
U.S. diplomacy creates the opportunity for peace and new 
beginnings.
    This amendment would have, if we had considered it, would 
have made it policy of the State Department Bureau of 
Population, Refugees, and Migration to track resettled refugee 
patterns, migrations, educational and skill set accumulations 
in the United States with the goal of engaging these new 
Americans for the purpose of facilitating U.S. national 
security, humanitarian and economic pursuits in their former 
countries.
    I know many refugee doctors and engineers and others with 
technical skills that could help in development efforts are 
eager to make such a difference. We should use their linguistic 
and educational talents, as well as cultural familiarity.
    And again, I understand there is a point of order with this 
amendment, and I am prepared to withdraw it, but I did want to 
use the time to talk about what I hope could be a constructive 
idea that we may consider in another measure.
    Thank you, Madam Chair, and I yield back my time.
    Chairman Ros-Lehtinen. Thank you.
    Is the gentleman prepared to withdraw his amendment?
    Mr. Fortenberry. I withdraw my amendment.
    Chairman Ros-Lehtinen. Thank you so much.
    Are there any other amendments to this title? Does any 
other member have an amendment? Hearing no further amendments 
to this title, we will proceed to title IV.
    The clerk will designate the title.
    Ms. Carroll. Title IV--Foreign Assistance.
    Chairman Ros-Lehtinen. Are there any amendments to this 
title?
    Mr. Poe is recognized.
    Mr. Poe. I have an amendment at the desk.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Which number Mr. Poe?
    Mr. Poe. Number 156.
    Ms. Carroll. Number 156, amendment to H.R. 2583 offered by 
Mr. Poe of Texas and Mr. Duncan of South Carolina. At the end 
of title IV, add the following: Section 4xx. Internet Web site 
to make publicly available comprehensive, timely, comparable, 
and accessible information on United States foreign assistance 
programs. (a) Establishment; Publication and Updates. Not later 
than 2 years after the date of the enactment of this act, the 
President shall establish and maintain an Internet Web site to 
make publicly available comprehensive, timely, comparable, and 
accessible information on United States foreign assistance 
programs. The head of each Federal department or agency that 
administers such programs shall on a regular basis publish and 
update on the Web site such information with respect to the 
programs of the department or agency.----
    Chairman Ros-Lehtinen. Unanimous consent to dispense with 
the reading.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. I think all the members now have a 
copy of the amendment offered by Mr. Poe of Texas and Mr. 
Duncan of South Carolina.
    Mr. Poe is recognized for 5 minutes to explain his 
amendment.
    Mr. Poe. Thank you, Madam Chair.
    I am honored to introduce this with my good friend from 
South Carolina, Mr. Duncan. This amendment is a transparency 
amendment. It requires the President to post all foreign aid 
programs online. In January of this year, January 11, USAID 
launched the Foreign Assistance Dashboard, a public online 
resource that allows users to examine, research and track 
government foreign assistance investments in an accessible and 
easy-to-understand format. But USAID itself said the site is 
incomplete and only includes programs from two of the 25 
Federal agencies that administer aid and no performance metrics 
posted for any foreign aid program.
    In a recent study by the Brookings Institute and the Center 
for Global Development, the United States ranked 22nd out of 31 
countries when it came to transparency in foreign aid programs. 
There are hundreds of foreign aid programs run by the United 
States, but without transparency, there is no accountability.
    This amendment is a simple amendment, and with the 
amendment, everyone from someone cooking dinner in the kitchen 
table to the independent watchdog investigator can know where 
our foreign aid is going and what it is accomplishing or what 
it is not accomplishing.
    And I will yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Poe, for 
yielding back. Do other members wish to be heard on Mr. Poe and 
Mr. Duncan's amendment?
    Mr. Duncan. Madam Chairman.
    Chairman Ros-Lehtinen. Mr. Duncan.
    Thank you.
    Mr. Duncan. Thank you, Madam Chairman.
    This is a simple issue of transparency. I think the 
American people deserve to know how their tax dollars are being 
spent. So I strongly believe in the need for more transparency 
in reporting standards.
    We have so many Federal agencies that give foreign 
assistance, and both the American people and policy makers need 
a uniform standard by which to determine whether our foreign 
assistance is effective.
    I believe this amendment will help us better determine what 
programs are working, what programs need tweaking and really 
what programs need to be cut out altogether. We are $14 
trillion in debt, but part of the problem with foreign 
assistance is that American taxpayers do not have a way to 
monitor how Federal agencies use the funds they receive from 
the government. It is difficult to know exactly where the money 
is going and determine whether or not it is being used 
effectively in our national interests. Large percentages of 
U.S. foreign assistance are being used to pay administrative 
costs at organizations and companies who deliver U.S. foreign 
assistance.
    President Obama has said Western consultants and 
administrative costs end up gobbling up huge percentages of our 
aid overall. That was in a July 2, 2009 interview.
    And so I urge the passage of this amendment, and let's give 
real transparency to the American people about how their tax 
dollars are being spent.
    Chairman Ros-Lehtinen. Thank you.
    And Mr. Berman is recognized for 5 minutes.
    Mr. Berman. Thank you, Madam Chairman, and I rise in 
support of this amendment. This is one of several good Poe 
amendments.
    I may have a different view on other amendments, but this 
is one of the important issues I think in a reform of our 
foreign assistance program, and that is improving transparency. 
I urge my colleagues to support the amendment.
    Chairman Ros-Lehtinen. The gentleman yields back.
    Mrs. Ellmers is recognized.
    Mrs. Ellmers. Thank you, Madam Chairman.
    I would just like to congratulate my colleagues, Mr. Poe 
and Mr. Duncan, on this great amendment. I think at a time now, 
as we have all discussed, in the economic stance that we are in 
right now, this is just a perfect way of our being able to 
track the moneys that are being responsibilities.
    We have all discussed many times here today that with 
foreign aid and U.N. funds, that there are inefficiencies that 
exist and we acknowledge that. And this would be one of those 
great ways that we could watch and see with our own eyes 
through the Web site or through a Web site how these things are 
being spent. The transparency and accountability would be a 
great improvement.
    And again, I thank my colleagues.
    And I yield back, Madam Chairman.
    Chairman Ros-Lehtinen. Thank you.
    And seeing no further requests for recognition, the 
question occurs on the amendment.
    All those in favor, signify by saying aye.
    Opposed, no.
    In the opinion of the Chair, the ayes have it and the 
amendment is agreed to.
    Mr. Berman is recognized for an amendment.
    Mr. Berman. Yes, Madam Chairman, amendment 042 is at the 
desk.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Berman 
of California. Page 27, strike line 7 and all that follows 
through page 28, line 17, and insert the following: (a) 
Findings. Congress finds the following: (1) In an increasing 
interdependent world, the health, prosperity, freedom, and 
security of the people of the United States are strengthened 
when the people of all countries can enjoy these same 
advantages; (2) United States foreign assistance should be 
designed to build the capacity of other countries to meet the 
needs of their people and to conduct themselves responsibly in 
the international system; (3) Foreign assistance is not only a 
reflection of the values, generosity, and goodwill of the 
people of the United States, but also an essential means for 
achieving the United States foreign policy, economic, and 
national security objectives.
    (b) Statement of Policy. It is the policy of the United 
States to help build and sustain an international community 
composed of states that meet basic human needs, resolve 
conflicts peacefully, respect fundamental freedoms, cooperate 
to address issues that transcend national boundaries, use 
wisely the world's limited resources in a sustainable manner, 
and work toward the achievement of economic well-being for all 
people.
    (c) Goals and Assistance. United States foreign assistance 
should be designed to achieve the following interrelated and 
mutually-reinforcing goals: (1) Reduce global poverty and 
alleviate human suffering. (2) Advance peace and mitigate 
crises. (3) Support human rights and democracy. (4) Build and 
reinforce strategic partnerships. (5) Combat transnational 
threats. (6) Sustain global environment. (7) Expand prosperity 
through trade and investment.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you.
    Mr. Berman is recognized for 5 minutes to explain the 
amendment.
    Mr. Berman. Well thank you very much, Madam Chairman.
    This is one of the unfortunate aspects of not knowing that 
we would be doing a foreign assistance title until Saturday 
night. I think we might have been able to work through a lot of 
these things, but I would ask both the chairman and my 
colleagues on the other side of the aisle to take a look at 
this because this is not a got-you amendment. This is not an 
effort to make some political point. It is a statement that 
deals with what the goals of United States assistance should 
be.
    This relates to title IV, foreign assistance. Foreign 
assistance is a very broad topic. It doesn't just mean 
development assistance. The Foreign Assistance Act of 1961 
covers everything from foreign military sales to antiterrorism 
assistance, nonproliferation and export-control assistance, 
international narcotics control, humanitarian and disaster 
assistance, democracy and human rights programs, OPIC, the 
Trade and Development Agency and a number of other accounts and 
programs. The whole annual foreign operations appropriation 
bill also covers all these areas.
    Now if you look at the base text of the bill, there is a 
fine statement in section 401, but it is a very narrow and 
constrained view of the goals of foreign assistance. I agree 
with every word in there, but it fails to deal with the large 
sweep of what foreign assistance is all about.
    So when we are talking about the goals of United States 
assistance, they ought to be very broad goals; things like 
supporting human rights and democracy, advancing peace and 
mitigating crises, reducing global poverty and alleviating 
human suffering. Even if section 401 were only referring to 
development assistance, it is still extremely narrow in its 
conception. Development assistance seeks to promote food 
security, advance health, expand education, improve access to 
clean water and sanitation, foster equal opportunities for 
women and so forth.
    To rectify this problem, I am proposing a simple substitute 
that lays out a few broad findings about the reasons for 
providing foreign assistance, makes a general policy statement 
and lists seven overall goals of assistance, including the ones 
mentioned specifically in the base bill.
    For example, ``build and reinforce strategic partnerships'' 
covers things like maintaining Israel's qualitative military 
edge. There are a lot of provisions in this legislation that 
are doing it. This is not just development assistance. There 
is, as I mentioned before, a whole variety of types of 
assistance. ``Combat transnational threats'' would encompass 
programs like counternarcotics, counterterrorism, and 
counterproliferation.
    I look forward to having a debate some time when we can 
begin considering a complete overhaul of our foreign assistance 
program. But I would ask my colleagues, I think these fit 
better as the goals of our foreign assistance program and would 
ask you to seriously consider supporting this amendment, even 
though I am the author of it. And again, it is just a more 
overarching perspective on what our goals are, qualitative 
military edge for Israel is not about public-private 
partnerships to produce economic development. It is about 
something else. It is important. We want to do it; 
counterproliferation, counterterrorism, and counternarcotics. 
Yes, I am a full subscriber to the notion that the true way to 
sustainable growth and stability is through private 
partnerships in the economic sphere, as well as trade, 
investment, and developing the private sector of these 
countries. But it is not the only thing.
    And so, with that, I will yield back the balance of my time 
and ask you to consider supporting this amendment.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman yields.
    Mr. Smith is recognized.
    Mr. Smith. Thank you very much.
    I would like to ask my good friend from California, on page 
2, where it says, ``respect fundamental freedoms,'' would he be 
willing to substitute ``fundamental freedoms,'' which are not 
defined, to ``basic human rights,'' which have clear definition 
in international fora, human rights treaties and the like? 
Universal Declaration of Human Rights and all the other 
treaties that have been passed and ratified by the United 
States have clear definitions. I don't know what ``fundamental 
freedom'' means.
    Chairman Ros-Lehtinen. Mr. Smith would like to know.
    Mr. Berman. So the gentleman yields to me?
    Mr. Smith of New Jersey. Yes.
    Mr. Berman. You are suggesting a more precise and definable 
term is ``fundamental human rights'' rather than ``fundamental 
freedoms''?
    Mr. Smith. That is correct. I think it strengthens it. 
There is a----
    Mr. Berman. I am not sure I understand why you say that, 
but on good faith, I am willing to accept your suggestion if 
you think that might motivate you to be supportive of what we 
are trying to do.
    Mr. Smith. It will.
    Mr. Berman. In that case, I would ask unanimous consent, if 
I might, on your time to amend my amendment to substitute 
``fundamental human rights'' for ``fundamental freedoms.''
    Chairman Ros-Lehtinen. If the gentleman would yield, Mr. 
Berman, would you consider using your amendment as an addition 
to the base text rather than in lieu of the base text 
<greek-l>when deg.which we have, and our staff can work on the 
proper wording so that you don't have two sections of findings 
but rather blend them together? Because at first blush, I would 
say that it does not appear to do any harm, but I would feel 
more comfortable, having just been handed this to----
    Mr. Berman. Would the gentlelady yield?
    Chairman Ros-Lehtinen. It is your time.
    Mr. Smith. I yield to Mr. Berman.
    Mr. Berman. If I could make one slight amendment to your 
suggestion, because I think it is appropriate we start with the 
broader, overarching, now amended goals and then include 
exactly as you have it, your findings and policy statement. 
Because it makes more sense to do the more overarching one 
first and then get specifically into your quotes regarding the 
help to enhance lives of poor people and those specific 
provisions.
    Chairman Ros-Lehtinen. I do understand what you are saying. 
And I would be fine with it. I think our side would be fine 
with it. Mr. Smith would like to have that change and----
    Mr. Smith. Mr. Berman asked unanimous consent so I think 
that----
    Mr. Berman. I would seek unanimous consent to substitute on 
page----
    Chairman Ros-Lehtinen. Page 27.
    Mr. Berman. But on the amendment, page----
    Chairman Ros-Lehtinen. Page 2, line 6, Goals of Assistance. 
No. 3, support human rights and democracy.
    Mr. Berman. Respect fundamental freedom, respect 
fundamental human rights, and if I could add to that unanimous 
consent that, instead of as a substitute for the base text, 
this provision become the first part of the base text.
    Chairman Ros-Lehtinen. And I think the staff understands 
the changes that we are making. And I assure our side of the 
aisle that it is not a huge change and tracks our line of 
thinking on the bill and on the findings and on the goals of 
foreign assistance.
    With that understanding, I know that our staff will work on 
any technical changes and if the gentleman would kindly 
withdraw his amendment for just a little while, while we 
redraft it so that everyone is clear on what we are about to 
vote on. And then we will move on to the next amendment, but we 
will redraft it. Would that be all right with the gentleman?
    Mr. Berman. That is fine.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Mack is recognized.
    Mr. Mack. Thank you and I--just to, I guess inquiry, so it 
says here that the United States' foreign assistance should be 
designed to help build the capacity of other countries to meet 
the needs of their people and to conduct themselves responsibly 
in the international system. Shouldn't the purpose of foreign 
assistance be to meet the needs of and the goals of the U.S., 
of the people of the U.S., of the United States?
    Mr. Berman. It is my firm, firm belief, if I may respond, 
that it is----
    Chairman Ros-Lehtinen. The gentleman is recognized.
    Mr. Berman. By seeking to achieve those goals, that we 
serve the interests of the American people in reducing the 
consequences of conflict, extreme poverty, natural disasters, 
refugee flows, those all serve American interests. By 
definition, I believe this is on behalf of the American people. 
Otherwise, how could I support foreign assistance?
    So I take your point, but I think that is assumed in the 
whole fabric of our foreign assistance program; there is no 
point to doing this with taxpayer money unless we think we are 
serving the interests of our constituents. I am not----
    Chairman Ros-Lehtinen. At this point, Mr. Mack, we only 
have a few seconds, we will rework this amendment. We will keep 
that in consideration, and we will come back to the committee 
with a revised amendment.
    Mr. Berman. I would ask unanimous consent to withdraw 
without prejudice.
    Chairman Ros-Lehtinen. Consider it done. Thank you.
    Any other amendments to this title? Do we have any other 
members have an amendment? Mr. Manzullo.
    Mr. Manzullo. Madam Chair, I have an amendment at the desk.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Manzullo 
of Illinois. At the appropriate place in the bill insert the 
following: Section [blank]. Prohibition on funding for 
Development Innovation Ventures (DIV) program. (a) Prohibition. 
No funds available to the United States Agency for 
International Development (USAID) may be used to carry out the 
Development Innovation Ventures (DIV) program or any successor 
program. (b) Effective Date. This section shall take effect on 
the date of the enactment of this act and shall apply with 
respect to funds available to USAID for the DIV program or any 
successor program that are unobligated on or after such date of 
enactment.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. We are still handing the amendment 
out.
    Mr. Manzullo is recognized for 5 minutes as the author to 
explain his amendment.
    Mr. Manzullo. Thank you, Madam Chair.
    This amendment is narrowly focused on eliminating a truly 
duplicative and wasteful program at the U.S. Agency for 
International Development. The Development Innovation Ventures 
(DIV) program, created only last year, provides grants up to $6 
million to conduct research and development activities that 
``promote development outcomes.'' Recipients of these grants 
could be foreign governments or domestic or foreign 
individuals, companies, or NGOs. A recipient may end up using 
the money to develop a product in the U.S., even if that 
product is never used for a foreign aid purpose. The program 
adds at least 10 new employees to the Federal payroll in 2012, 
and it adds more than $30 million a year to the deficit.
    Research conducted by my office shows that this program 
duplicates existing work by the Energy Department, NIH, Defense 
Department, and the private sector. Creating new government 
programs, particularly under current fiscal conditions, must 
occur only as a last resort. DIV fails this basic test. It does 
nothing to promote economic recovery in the U.S., create jobs 
or even boost national security.
    Furthermore, it is questionable whether DIV will even help 
improve the livelihood of those in the developing world. The 
President's fiscal commission criticized the creation of more 
programs among multiple agencies to address the same concerns. 
DIV currently funds a variety of projects with questionable 
outcomes, such as a grant to develop an affordable hydrogen 
fuel cell bicycle called the E-bike. The technology behind the 
E-bike already exists and has a number of private-sector 
investors, including large multinational corporations. When 
that bike is developed, we have no guarantee it is even going 
to end up overseas. The money goes to a domestic inventor and 
company. The American Recovery and Reinvestment Act of 2009 
appropriated $41.9 million to the Department of Energy for 
hydrogen fuel research, including miniaturization and 
portability applications.
    Other projects supported by DIV include a $99,992 grant to 
study the effectiveness of using cell phones to monitor 
election results in foreign countries and a $173,000 grant to 
study the use of smart phone technology to combat absenteeism 
in health care in India.
    According to USAID, the DIV program provides grants in 
three separate stages: Stage one is $100,000; stage two, up to 
$1 million; and believe it or not, stage three projects are 
funded up to $15 million. These are peer grants. Thus, a 
project like the E-bike can receive $15 million of Federal 
funding, regardless of the fact that the Energy Department is 
funding an almost identical program.
    Let me read to you from the official publication of some of 
the programs that DIV puts on. It says DIV funding will also 
support, and I am reading from the State Department bulletin,

        ``USAID innovation fellows and innovation solution-
        seeking sessions. Professor Mike Kremer of Harvard's 
        economic department has been recruited as the first 
        innovation fellow and scientific director of DIV. 
        Innovation conferences will bring together development 
        experts from academia, the private sector and USAID to 
        brainstorm and develop innovative ideas for potential 
        seed funding and scaling up of critical innovations.''

    It is interesting that the next program in their bulletin 
is the science and technology program that spends an additional 
$22 million.
    Madam Chair, we are at a point in America today where we 
don't need additional programs. If the members would take a 
look at the handout that we passed out with the red ribbon 
across the top, you will see the duplicative programs that 
USAID is funding under this program. We need to strike it. I 
spoke with the Director of USAID. He is a very nice fellow, but 
as I examine the programs, many of these, if not most, have 
absolutely no relationship to the foreign aid purpose that the 
taxpayers pay so heavily in this country.
    Chairman Ros-Lehtinen. Mr. Manzullo yields back.
    Do any members seek recognition on this amendment?
    Mr. Berman is recognized.
    Mr. Berman. Madam Chairwoman, I rise in opposition to the 
amendment.
    Innovative technology is exactly the kind of thing we want 
to encourage USAID to be investing in. This is a program that 
helps U.S. companies and creates U.S. jobs. While it is not 
restricted to American applicants, Development and Innovation 
Ventures' first round of grants went to U.S. firms and 
organizations located all around the country. There is all this 
new technology out there that could be harnessed to make game-
changing breakthroughs so that we can save money and improve 
results.
    Do we really want to be opposing an innovative idea to do 
things better with new technologies than we have done? Think 
back to the green revolution. It didn't come out of thin air. 
One of the great advances based on innovative technology 
happened because agencies like USAID were out there investing 
in research and development that was specifically designed to 
address development challenges.
    That is what this program is for. It is a small amount of 
money and not new money. The gentleman, whom you praise, the 
new Director of USAID, has reallocated $30 million from 
existing USAID resources. They are taking steps to make sure 
this program does not duplicate R&D programs in other agencies. 
They are very sensitive to the notion that we don't want to 
spend our scarce resources at USAID on duplicative work. They 
are requiring all applicants to specify whether they are 
receiving other U.S. Government funds, and they are including 
experts from other U.S. Government agencies on the grant review 
panels.
    We have an administrator over there who I believe is really 
trying to shake things up and try new approaches and get more 
results. This is sort of the kind of program we should be 
encouraging. So I would urge my colleagues to oppose the 
amendment.
    I yield back.
    Chairman Ros-Lehtinen. The gentleman yields back.
    Mr. Duncan is recognized.
    No. I meant Mr. Griffin.
    Mr. Griffin. Thank you, Madam Chair.
    I support this amendment. As I look across the government, 
I see report after report, particularly GAO reports, that 
detail duplicative programs. I don't have any evidence that 
this is a bad program; that is not the issue. The issue is what 
in the heck is USAID doing with this program working on 
economic development and innovation? This is the type of thing 
that if you are going to have it, it ought to be consolidated 
with other programs that are similar at the Commerce Department 
or elsewhere.
    You can look in so many different areas in this government 
and find programs of merit, but they are duplicated all across 
the government because each entity, each agency wants their own 
little program. Take workforce programs, there are something 
like 40 of them spread all over the government, most of them 
doing what the others are doing, not coordinating. They just 
want their own little pot of money to do their own little 
thing. And this is another example of this.
    So I don't have any problem with the general concept. It is 
just that I can't figure out why USAID is the one handling 
this. Let's get all these things together and consolidate them 
and find efficiencies through the consolidation and not 
continue to support a program that is repeated elsewhere in 
every little agency. And this is just another example. So I 
support the amendment.
    Chairman Ros-Lehtinen. Thank you, Mr. Griffin.
    How dare I confuse you with Mr. Duncan.
    Terrible mistake.
    I apologize, Mr. Griffin.
    Do other members seek recognition?
    We will go to Mr. Connolly, and we have Mr. Cicilline, and 
on this side, we have Mr. McCaul. Thank you.
    Mr. Connolly. Thank you, Madam Chairman.
    I listened to my colleague, Mr. Duncan, I don't know if Mr. 
Duncan's visited USAID projects or NGO projects in developing 
countries, but the idea that the U.S. Commerce Department and 
its research and development efforts can be conflated with 
those of the Third World is sadly false. It doesn't work that 
way. The Department of Commerce of the United States has a 
different mission.
    And it is not looking into new techniques to control 
Bilharzia. It is not looking at new techniques to help make 
small dirt-poor farmers upgrade their livestock capability to 
bring in some cash for the family. They are not looking at ways 
to get necessarily higher yields from certain strains of grain 
that grow only in certain parts of the world, mostly located in 
the third world.
    This is a modest program. It is funded by reallocated 
funding. It is not adding to the deficit, despite what we heard 
in the presentation.
    I represent a high-tech district. And I find it amazing 
that we would want to go--we would actually want to discourage 
the Agency for International Development from funding on a 
really seed basis some opportunities to exploit technology and 
innovation to save money, to actually make lives better and 
more productive. The green revolution didn't happen by itself. 
Smallpox eradication ultimately was concluded successfully 
because of USAID investments made in West and Central Africa 
that understood the difference in the phenomenon of smallpox as 
a disease in that part of the world versus other parts of the 
world. Innovation, R&D, tailored to the mission.
    This is a modest program. It is an innovation of our new 
USAID Director. And I think it needs a little more time.
    If you know anything about R&D funding at all, it takes 
time to see the fruits of your labor. And sometimes, yes, it 
means that you don't always see the fruit of your labor. Go ask 
NIH. Go ask CBC. It took a long time, for example, doing AIDS 
research, to be able to isolate the virus and to be able to 
then develop treatments. And it was hit and miss. There were 
failures along the way. But thank God, we maintained the 
commitment in terms of the funding stream.
    Here we are trying to have a research component on an 
innovative basis for USAID to try to see if there are some 
things we have missed. And all of the grants, by the way, went 
to U.S. companies, creating jobs in the United States and 
supporting U.S. institutions, organizations and nonprofits.
    I must, unfortunately, oppose the amendment of my friend 
from Illinois as being penny wise and pound foolish and will 
never, if this succeeds, will never fully understand the missed 
opportunity represented.
    I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Duncan is recognized.
    Mr. Duncan. Thank you, Madam Chairman, I would like to 
yield the balance of my time to the other Mr. Duncan, who goes 
by Mr. Griffin.
    Chairman Ros-Lehtinen. Mr. Griffin.
    Mr. Griffin. Thank you, Mr. Duncan.
    I would just say I am familiar with these sorts of projects 
when I served with the 101st Airborne Division in Mosul, Iraq. 
I was familiar with what USAID and the Department of 
Agriculture were doing in Iraq. I just got back from 
Afghanistan and talked with USAID and Department of Agriculture 
personnel there and talked with them about what they were 
doing.
    It is interesting to me that a couple of the examples 
mentioned by the gentlemen on the other side are precisely the 
type of innovation and research that is being done at the 
Department of Agriculture. Sure, those aren't being done at 
Commerce, ones dealing with seeds and varieties of the seeds 
and how to better conduct agriculture in Afghanistan and around 
the world in developing nations. That is being done at the 
Department of Agriculture.
    So there is duplication.
    And I would also point out, it is my understanding that the 
seed money for this program was taken from within the budget. 
But, yes, they are requesting additional money, new money, this 
year. My understanding is that it is $30 million of new money, 
not money that was already in the budget.
    So, yes, this program was started with money already in the 
budget, but now they are requesting $30 million in new money. 
That is what I am told by staff. Thank you.
    Chairman Ros-Lehtinen. Thank you so much.
    The gentleman yields. We will have Mr. Cicilline, Mr. 
Cardoza, and then I hope we have a roll call vote on this 
amendment.
    Mr. Cicilline is recognized.
    Mr. Cicilline. Thank you, Madam Chairman. And I want to 
first associate myself with the remarks of Ranking Member 
Berman.
    When this initiative was launched, USAID recognized that 
they would really pursue market-driven solutions that really 
engaged the business community in developing new, creative 
ideas to solve some of the important issues in the developing 
world and that would really serve as game changers. And it 
seems to me that this is precisely the kind of investments we 
should be making in innovation, in ensuring that taxpayer 
resources are most effectively being used and are most 
impactful. And I think the agency has gone to great pains to 
really separate out the research and development function and 
instead focus on applied innovation, to take these developed 
ideas and figure out how they can be used in ways that address 
development challenges more cheaply and more effectively.
    This is precisely the kind of innovation we should be 
expecting and supporting in every area of government to develop 
new innovations to use taxpayer resources more effectively, to 
have a greater impact and to solve some of the great challenges 
of our time.
    Some of the examples in this first round of funding was a 
grant for $100,000 that could reduce the cost of a lifesaving 
maternal medical test by 99 percent. Another grant was for a 
portable clean low-cost hydrogen-based energy source with a 
range of potential applications in the developing world. Those 
are just two examples.
    So I think the notion that we would want to send a message 
that we don't support and are willing to not invest in 
innovation in this developing work, it seems to me is the wrong 
message. We ought to be encouraging and nurturing that kind of 
investment and innovation because it will ultimately make the 
cost of our investment less and much more impactful.
    We are living in an innovation economy. We are living in a 
time when that is how we are creating jobs, that is how we are 
solving the big challenges of the 21st century. This should be 
applauded. It should be supported.
    Mr. Berman. Would the gentleman yield?
    Mr. Cicilline. Certainly.
    Mr. Berman. I thank the gentleman for yielding.
    And I would like to say to my colleague, Mr. Griffin, that 
if this amendment were to pass, neither the deficit nor the 
USAID budget would be reduced by $30 million. It goes back to 
programs that the administration of USAID, who is lauded by the 
members on the other side for his talents and his abilities and 
his intentions in his new position as administrator, it goes 
back to programs that he thought were less valuable for the 
foreign assistance programs than this program. So we are taking 
something, where I have not heard yet an example of duplicative 
work, I have heard the possibility of duplication--I know that 
ARPA does things and Commerce does things. They all have 
different goals. But this does not in any way bring down the 
authorization.
    And I yield back to Mr. Cicilline.
    Chairman Ros-Lehtinen. Mr. Cicilline, there was someone who 
sought time?
    Mr. Manzullo. Would the gentleman yield?
    Mr. Cicilline. Certainly.
    Chairman Ros-Lehtinen. Mr. Manzullo.
    Mr. Manzullo. The answer, if you look at this page that I 
handed out with the orange on the top, it shows about eight of 
the programs that are being funded on the left, and on the 
right, it shows the same programs being funded by other Federal 
agencies.
    Mr. Berman. I don't have what you handed out.
    Mr. Manzullo. Thank you.
    Mr. Cicilline. Reclaiming my time. I will yield to Mr. 
Berman.
    Chairman Ros-Lehtinen. Mr. Berman.
    Mr. Berman. I don't know what you are handing out. All I 
know is there is nothing about your amendment that will reduce 
the authorization, and maybe I shouldn't have said that because 
now you will do it. But the fact is what you are doing saying 
something that the Director thought made more sense with the 
resources he had, you are going to wipe out so that he can 
instead do things he thought were less valuable with those 
resources. That doesn't make a lot of sense to me.
    Mr. Cicilline. I yield back the balance of my time.
    Chairman Ros-Lehtinen. The gentlemen yields back.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    I rise in support of the amendment, and the author has just 
indicated if you look at what he is presenting, the duplicative 
nature of this. And what I might add, let's just go to the very 
fundamental of what we are trying to decide.
    This, I believe, is a USAID budget that we are talking 
about here, and not the budget of a Department of Energy or 
Department of Commerce, which has specific responsibilities of 
making decisions about developing new technologies.
    Now certainly people who are engaged in foreign aid need to 
have technology that they can buy. But why are we thinking at 
all that it is their job to enlist inventors and entrepreneurs 
in order to oversee the development of a new technology? No. 
They should be going on the market, getting what they do best, 
which is trying to manage a part of the budget rather than 
trying to be entrepreneurs and inventors.
    This makes no sense at all, and the fact that it is already 
being done in other departments and agencies, it is a total 
waste of money.
    I would now be very happy to yield the rest of my time to 
Mr. Manzullo.
    Chairman Ros-Lehtinen. Mr. Manzullo.
    Mr. Manzullo. Thank you.
    The Hydrogen and Fuel Cells Interagency Working Group, 
these are the present agencies already working on this fuel 
cell powered bicycle. There are about 12 of them. I asked Mr. 
Shah, who was in my office, about this particular grant for the 
bicycle. He is an American innovator. He is working on the 
bicycle with this fuel cell. I said, ``Do you have any idea 
what this would cost?'' He said, ``No.'' I said, ``Do you have 
indication whether or not this will be even used overseas?'' He 
said, ``No.'' I said, ``Then why are we spending all this 
money, up to $15 million, to an American inventor of this 
particular bicycle when there is slightly no guarantee it will 
even go overseas for any use overseas?'' And he couldn't answer 
that question.
    It is not the mission of USAID to be involved in research 
and development. Other agencies have the core knowledge and the 
understanding in how to use those tools. What we are saying 
here is if you take a look at the USAID what their mission goal 
is online, it says to extend a helping hand to those people 
overseas struggling to make a better life, recover from a 
disaster, or striving to live in a free and democratic country.
    I can't see us spending $15 million of taxpayers' money to 
develop a fuel-powered bicycle is going to aid their own 
definition of their own mission. Thank you.
    Chairman Ros-Lehtinen. Thank you very much.
    The gentleman yields back.
    And Mr. Cardoza is recognized for 5 minutes.
    Mr. Cardoza. Thank you, Madam Chair.
    I want to applaud Mr. Manzullo's effort with this. I 
think--I don't know every aspect of this program. There may be 
some good things in it that may end up being cut. But I want to 
applaud the method by which you went by these cuts.
    These are specifics. These are duplicative programs that 
you have indicated with this orange sheet, headed sheet, and 
this is the way we ought to be going about doing our business. 
Too often in this institution, we do 2 percent cuts across the 
board. We do unthoughtful ways of getting at the real goals.
    I want to tell a story very briefly. I know the committee 
is taking a lot of time, but I think it is important to applaud 
when things are right. I had an earmark last session where I 
got money to do wiretaps to take on the Mexican Mafia doing bad 
things in my district. They just arrested 170 people. That was 
a positive earmark. That was a good use of taxpayers' $250,000.
    And we have eliminated all earmarks because a few folks 
didn't do it right. That is the unthoughtful way of going about 
our business as Congress.
    So I am going to support your amendment, sir. I applaud you 
for doing it. I don't know if everything we are doing here is 
correct, but I think this is the right method by which we ought 
to be doing it.
    Mr. Rohrabacher. Would the gentleman yield?
    Mr. Cardoza. I will yield.
    Mr. Rohrabacher. Let me just note, there are some people on 
this side of the aisle that agree with everything you just said 
about earmarks. And so just know that I am very happy you just 
made that point.
    Mr. Cardoza. Thank you.
    Chairman Ros-Lehtinen. The gentleman yields back.
    No other member seeks recognition?
    Oh, Mr. Sires, I apologize.
    Mr. Sires. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. It is so easy to overlook you; you 
are so small.
    Mr. Sires. I will yield to my colleague from Virginia.
    Chairman Ros-Lehtinen. Mr. Connolly.
    Mr. Connolly. I thank the gentleman.
    I just want to say, Madam Chairman, I am glad our friend 
from Illinois actually said, ``USAID should not be in the 
business of R&D.'' I couldn't disagree more fundamentally.
    As somebody who has worked with the agency and used to 
authorize its legislation in the other body, that is just now 
not how it works. The idea that you can just readily go off the 
shelf in the marketplace and purchase that which has been 
developed in technology and R&D unspecialized for the unique 
needs on the field is false. I wish it were that simple. That 
is not how it works.
    And having a modest capability within the agency to modify 
technology, to come up with new R&D, like oral rehydration 
therapy, for example, that saves tens of millions of children 
from a cruel and bitter death, up to the green revolution, is 
simply false and sadly turning our back on how science works, 
which seems to be a phenomenon increasingly experienced in this 
Congress.
    So I respect my colleague from Illinois. I know they are 
desperate to find examples of saving money. This one, in my 
view, will not save money, will eventually cost money, will 
cost the United States a critical capability and who knows what 
future improvements in R&D and technology might have been 
achieved but for this investment, a modest investment.
    Mr. Rohrabacher. Would the gentleman yield for a question?
    Chairman Ros-Lehtinen. Mr. Sires, would you yield to Mr. 
Rohrabacher?
    Mr. Sires. My pleasure.
    Mr. Rohrabacher. Mr. Connolly.
    Mr. Connolly. Mr. Rohrabacher.
    Mr. Rohrabacher. You talked about your experience, could 
you tell us why it is more important to have some government 
employees at USAID instead of putting out, this is what we 
need, and seeing what the market will produce and then 
purchasing whatever is brought to them by people who are trying 
to make money and developing new products, rather than 
commissioning someone specifically to build a product?
    Mr. Connolly. Well, I would say to my friend, assuming Mr. 
Sires continues to yield----
    Mr. Sires. Yes. I yield to you.
    Mr. Connolly. Well, it is not an either/or proposition.
    Of course, the Agency for International Development goes 
out to the market to look at what is out there and to see 
whether it is appropriate. It also, however, needs this 
capability, in its view, because there are large parts of the 
market that don't have the experience in working with 
developing countries and with some of the unique circumstances 
of geography, warfare, health issues, on and on and on but make 
this very difficult terrain.
    And so it is not an either/or proposition. The idea that we 
want to wipe clean any capability of R&D at USAID, an agency 
that has world class experience, going back almost now 55, 60 
years, unique in the world, is, to me, turning our back on 
science and experience at a very modest price and will prove to 
be penny wise and pound foolish.
    With that, I yield back to my friend from California.
    Chairman Ros-Lehtinen. Mr. Sires yields back, having no 
further requests for recognition, the question now occurs on 
the amendment. A recorded vote has been requested----
    Mr. Faleomavaega. Madam Chair, I ask unanimous consent that 
we consider the gentleman's amendment by voice vote.
    Chairman Ros-Lehtinen. He would like to have a recorded 
vote.
    We asked your staff.
    We would love a voice vote. We had asked--voice? Okay. 
Okay.
    All those in favor, signify by saying aye.
    Opposed, no.
    In the opinion of the Chair, the ayes have it. And the 
amendment is agreed to.
    Thank you.
    Ms. Schwartz has an amendment at the desk.
    The clerk will report the amendment.
    Ms. Carroll. Which amendment, Ms. Schwartz?
    Ms. Schwartz. Four.
    Ms. Carroll. Thank you.
    Amendment to H.R. 2538 offered by Ms. Schwartz of 
Pennsylvania. In section 401(a) of the bill, add at the end the 
following: (4) the Millennium Challenge Corporation (MCC) 
effectively supports countries with a demonstrated commitment 
toward good governance, sound economic policies and investment 
on their people, hence the, ``HELP Commission'' report 
recommends a reduction of tariffs for MCC Compact-eligible 
countries to more closely align United States trade and 
development policies.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. The amendment is being distributed.
    The Chair reserves a point of order and recognizes the 
author for 5 minutes to explain the amendment.
    Ms. Schwartz.
    Ms. Schwartz. Thank you, Madam Chairman, and I hope this is 
actually an easy one.
    Maybe we can reach sort of easy agreement on this one. What 
I am seeking to do is to add a statement, a recognition of some 
findings in a report from the health commission. And I think it 
is a helpful finding and recommendation for us to consider 
basically what <greek-l>the what  deg.this does is it 
highlights a provision that makes a connection between economic 
development and foreign assistance.
    U.S. foreign assistance, as we all know, is a 
multipurpose--has multi purposes, including furthering 
America's foreign policy interests by expanding democracy and 
free trade, economic development as well as, of course, 
improving the lives health and well-being of citizens in the 
developing world. Increasing trade opportunities can help 
strengthen these ties.
    MCC forms partnerships in some of the world's poorest 
countries, which are committed to good governance, economic 
freedom and investments in their citizens.
    MCC provides particular countries, there are 23 of them, 
with grants with particular accountability and benchmarks in 
terms of reducing poverty through sustainable economic growth.
    MCC, which was a Bush administration initiative that has 
been continued, and many of us who have visited some of these 
countries find have a really quite a powerful force in moving 
these very new economies economically. It is a prime example, I 
think, of the U.S. Government assistance that works, that is 
benefiting these developing countries and U.S. taxpayers.
    So what I want to do is an add this additional wording you 
just heard as read that would suggest that for MCC compact 
nations that are promoting these growth opportunities and open 
markets and standard of living, that we recognize that the 
recommendation that we consider reductions in tariffs for these 
23 nations that are building their economies is a good finding. 
I want to add it to the report--it is in the report. I want to 
add it to this language. I think it would be useful to consider 
in the future. And I hope that I would just ask for a voice 
vote, if we get to that point, but I would hope that my 
colleagues on both sides of the aisle would recognize that this 
is just pointing out something that could be a huge advantage 
to these very new economies and possibly an advantage to our 
Nation as well.
    Chairman Ros-Lehtinen. Thank you, Ms. Schwartz.
    Before you yield, let me just tell you that this staff is 
just looking at the amendment to make sure that this reduction 
of tariffs doesn't then lead to a referral to the Ways and 
Means Committee. So I will recognize others to speak while they 
are sorting it out.
    And the gentlelady yields back.
    Ms. Schwartz. We did--before I yield back, we tried to come 
up with something that would be general enough and not terribly 
specific, but it is a reference to a slight change in the 
findings but a reference to the findings that already exist, 
but I am happy to hear other comments.
    Chairman Ros-Lehtinen. If the gentlelady would yield, it is 
just because it is a jurisdiction of another committee when you 
talk about the reduction of tariffs.
    Ms. Schwartz. Having served on the Ways and Means 
Committee, I would certainly not want to take from their 
jurisdiction. I hope to go back there someday. So by all means.
    Chairman Ros-Lehtinen. I don't mind grabbing it. It is just 
that we are not allowed. Does anyone wish to be heard? Mr. 
Mack, you had some questions on the MCC itself. Perhaps this is 
a good opportunity for you to air that out. Mr. Mack is 
recognized for 5 minutes.
    Mr. Mack. Thank you, Madam Chair. I guess part of the 
concern I have when we are dealing with the MCC is that first 
of all, the way that some of the compacts are determined, who 
gets them and who doesn't get them, are very subjective. And I 
will give you an example. Nicaragua, who invades Costa Rica, is 
allowed to have a compact with the MCC, and Honduras, who 
fights for and defends its democracy and freedom, is turned 
down based upon subjective kind of numbers. In other words, I 
think a lot of times the MCC can be so politicized that if we 
want to, let's say, punish--if our Government wants to punish 
Honduras because they feel like something happened there that 
they didn't like, they will manipulate the standards and the 
criteria. And what I would be concerned about with this 
amendment is then, in effect, if a country like Nicaragua, that 
invades another country like Costa Rica, gets an MCC compact, 
then that would also trigger tariff issues as well.
    And I am just not sure that I am comfortable with moving 
forward with something like this as long as it continues to--
until the MCC has more defined criteria on how countries and 
how these compacts are guaranteed.
    Ms. Schwartz. Would the gentleman yield?
    Mr. Mack. I would be happy to yield.
    Ms. Schwartz. As I understand it, this would not change any 
of the criteria for MCC. Except for other parts of the bill, my 
next amendment, you might want to discuss it, because there is 
a suggestion in the underlying bill, which I didn't write, but 
the majority did, suggested use of MCC criteria. But in this 
situation, all I am doing is recognizing a finding in a report 
that is referenced in the underlying bill and adding to it the 
suggestion--the finding, I am just highlighting in a way a 
finding that suggests that at some point, there might want to 
be more discussion about the opportunity to enhance trade.
    Mr. Mack. And reclaiming my time, I understand what it is 
that you are trying to do. I guess I am just trying to shine 
the light a little bit on the, MCC in that we see a lot of 
times that the State Department or others will influence the 
outcome of these based upon criteria that is not 
understandable.
    In other words, a corruption charge may be put on a country 
that they can't point to any real corruption, but they use a 
subjective measurement of corruption for their political gain, 
outcome, if that makes any sense. And I just don't think that--
you know, I think that is something, frankly, that the 
committee, we ought to look at, is how do we ensure that we 
don't get kind of this double standard where a country like 
Nicaragua that invades another country and is granted an MCC 
compact, and then another country that fights for and defends 
its freedom and its democracy has an MCC compact taken away 
from them.
    Chairman Ros-Lehtinen. Thank you. Mr. Mack, if you would 
yield to me----
    Mr. Mack. I would yield.
    Chairman Ros-Lehtinen. And if I could make a request of Ms. 
Schwartz, we are trying to work it out so that whether your 
amendment passes or not, it would not cause it to be dual 
referred. So if the gentlelady would withdraw her amendment, 
because your amendment actually amends the area in the bill 
that Mr. Berman and I are trying to work out also.
    So we have got an agreement with Mr. Berman on that. If you 
would temporarily withdraw your amendment until we work it out 
with the dual jurisdiction so that yours doesn't get pulled.
    Ms. Schwartz. That would be very helpful. I would be happy 
to temporarily withdraw it.
    Chairman Ros-Lehtinen. Withdraw it. And I know we have 
other folks who want to speak on it, but we will hold that 
discussion for a little while. Now we go to Mr. Duncan, who has 
got an amendment at the desk.
    Mr. Duncan. Yes, ma'am. I offer amendment number 18.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Duncan 
of South Carolina. At the appropriate place in the bill, insert 
the following: Section [blank]. Reports on financial disclosure 
of certain organizations and businesses that receive United 
States foreign assistance funding. (a) Purpose. The purpose of 
this section is to strengthen the capacity, transparency, and 
accountability of United States foreign assistance programs to 
steward American tax dollars wisely in effectively adopting and 
responding to new challenges of the 21st century. (b) Reports. 
The Administrator of the United States Agency for International 
Development shall require any organization or business that 
receives more than 50 percent of its funding from the United 
States Government under the Foreign Assistance Act of 1961 (22 
U.S. Code 2151 et. sequentially) for any fiscal year to submit 
to the United States Agency----
    Chairman Ros-Lehtinen. Ask unanimous consent to dispense 
with the reading. And Mr. Duncan is recognized for 5 minutes to 
explain his amendment.
    Mr. Duncan. Thank you, Madam Chairman. The problem is 
currently we have salaries for nonprofit USAID contractors that 
are not disclosed. And 501(c)(3) nonprofit agencies only have 
to report their CEO's pay on public tax records. We discussed 
transparency earlier in the Poe-Duncan amendment. And I want to 
take the opportunity to thank the gentleman from California, 
Mr. Berman, for his support of that early amendment. And this 
is just an effort for more transparency. This amendment 
requires a financial disclosure of the compensation provided to 
the top five employees of an organization or business that 
contracts with the U.S. Government to deliver U.S. foreign 
assistance if that organization or business receives more than 
50 percent of its budget from American taxpayers. Now, this is 
not unprecedented. It has happened before. In 2009, Congress 
enacted restrictions on foreign----
    Mr. Faleomavaega. Madam Chair? We don't have the same 
amendment.
    Chairman Ros-Lehtinen. Yes. We are going to wait there. If 
you would hold on a second, I think that we have gotten another 
amendment. Hold on a second. Because what you are explaining 
doesn't jive with the amendment that we have here.
    Mr. Duncan. She read the correct one.
    Ms. Carroll. Madam Chairman, I don't think we have copies 
to distribute right now.
    Chairman Ros-Lehtinen. Okay. We have the Duncan of South 
Carolina prohibition on assistance to countries that oppose the 
position of the United States in the United Nations. Mr. 
Duncan, we do have the one on the United Nations. Do you want 
to offer that one now?
    Mr. Duncan. I would be glad to. Are we in that section? I 
didn't want to be out of order.
    Chairman Ros-Lehtinen. We are not in that section yet? The 
same title, but a different section. If you don't mind, I don't 
want to force you, but since we have that amendment, if we 
could redistribute that amendment on the United Nations. And we 
will just take care of that. Hold on 1 second. Madam Clerk, do 
you understand me?
    Ms. Carroll. Yes. I just thought that was part of title 
VIII.
    Chairman Ros-Lehtinen. Never mind.
    Ms. Carroll. We have copies of 18 now.
    Chairman Ros-Lehtinen. That was just a tease to let them 
know that it is going to get really good later on. You are 
recognized to explain your amendment. It is being handed out.
    Mr. Duncan. Okay. Thank you, Madam Chairman. They just got 
a preview of one we are going to deal with a little bit later. 
I ask them to go ahead and take a look at the United Nations 
one. We are going to talk a little bit right now about the 
transparency issue that I was talking about a minute ago. This 
amendment requires a financial disclosure of the compensation 
provided to the top five employees of an organization or 
business that contracts with the U.S. Government to deliver 
U.S. foreign assistance if that organization or business 
receives more than 50 percent of its budget from American 
taxpayers. This is not unprecedented. It happened before. In 
2009, Congress enacted restrictions----
    Chairman Ros-Lehtinen. Hold on 1 second again.
    Mr. Payne. Madam Chair, it seems Mr. Duncan is confused on 
this one again. We have something totally different.
    Mr. Faleomavaega. Prohibition on assistance.
    Chairman Ros-Lehtinen. Mr. Duncan, according to you, what 
should your amendment say on the very top after your name?
    Mr. Duncan. It says at the very top, ``Reports on financial 
disclosures of certain organizations or businesses that receive 
United States foreign assistance funding.''
    Chairman Ros-Lehtinen. That is what we have.
    Mr. Payne. Okay. We got it now.
    Chairman Ros-Lehtinen. You got it. Okay. Let me just take 1 
minute and make sure. It says, ``Reports on financial 
disclosure of certain organizations or businesses that receive 
United States foreign assistance funding.''
    Mr. Duncan. That is correct.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. The gentleman is now recognized. If 
you could start again on your 5 minutes.
    Mr. Duncan. Okay. Thank you, Madam Chairman. I apologize. 
We have six amendments offered today, so I understand the 
confusion. This is a very simple amendment. It is talking about 
transparency again. Like I said, it is not unprecedented. In 
2009, Congress enacted restrictions on for-profit companies 
that received taxpayer bailouts. But today, there are no 
restrictions on disclosures for organizations or companies that 
subsist on Federal grants. All disclosures would be made 
publicly available on the USAID Web site. Taxpayers need 
assurance that most of their tax dollars will go for the 
foreign aid that they actually should go for.
    We need a way to monitor and make sure that the tax dollars 
are going for the foreign aid versus inflating salaries of 
those contractors. And as I mentioned earlier, we discussed 
transparency in the Poe-Duncan amendment, and that Mr. Berman 
supported that earlier, I hope that he will support this one. 
The gentleman from Rhode Island says that taxpayer dollars need 
to be spent effectively. This is the way we can assure that 
taxpayer dollars are getting to where they are supposed to go, 
and that is providing the aid and not inflating salaries. And I 
just urge my colleagues to support this amendment.
    Chairman Ros-Lehtinen. Thank you, sir. Any members wish to 
be heard on the Duncan amendment? Yes, Mrs. Schmidt.
    Mrs. Schmidt. Thank you, Madam Chairman. And I would like 
to thank Mr. Duncan for offering this important amendment, and 
urge my colleagues to support it. This amendment will increase 
transparency and accountability of U.S. foreign assistance 
dollars, particularly when being allocated to contracting 
firms, nongovernmental organizations, and other entities 
involved in U.S. foreign assistance programs. You know, a 
substantial amount of USAID's work in development is conducted 
through the establishment of contracts with numerous NGOs, 
businesses, and organizations. And there have been reports 
concerning exorbitant and disproportionate levels of salary and 
benefits for high level staff at organizations involved in 
implementing United States Government foreign aid programs.
    This amendment would increase the accountability and 
transparency of the U.S. Government assistance funds by 
requiring organizations that receive more than 50 percent of 
its funding from the United States under the FAA to disclose 
the salaries and how their employees are compensated. This 
would allow increased and proper oversight of our public funds. 
And I think it is a great amendment. And I hope that everyone 
agrees with it and votes for it.
    Chairman Ros-Lehtinen. Thank you very much, Mrs. Schmidt. 
Mr. Chandler is recognized for 5 minutes.
    Mr. Chandler. Madam Chairman, may I ask the gentleman a 
question? Would you yield for a question? Will you take a 
question?
    Chairman Ros-Lehtinen. Mr. Duncan?
    Mr. Chandler. Why limit it to the five most highly 
compensated employees? Why not just have it all be transparent? 
Let's have a report that shows exactly what money goes to whom.
    Mr. Duncan. I would be fine with that. This is a step in 
the right direction, a beginning. Top five highest paid 
employees would give us some indication of whether taxpayer 
dollars are actually getting to where they are supposed to go 
or whether we have inflated budgets and inflated overhead that 
we see in a lot of organizations where the money doesn't get to 
where it is supposed to go.
    Mr. Chandler. I have a hard time understanding why you 
wouldn't require a report that just gives a detailed summary of 
all of the money and who it goes to. Just say who the money 
goes to, each and every employee that receives it.
    Mr. Duncan. I would be fine with supporting that type of 
amendment. I believe in transparency all the way around. This 
was a step in the right direction to begin the transparency 
process. If you see what the salaries are of the top employees 
at an organization, independent contractors that are doing work 
for USAID, it would give you an indication of whether there is 
a problem and to look further.
    Mr. Chandler. All right. Thank you.
    Chairman Ros-Lehtinen. Thank you. Does any member----
    Mr. Faleomavaega. Would the gentleman yield?
    Chairman Ros-Lehtinen. Hold on 1 second. Yes, Mr. 
Faleomavaega.
    Mr. Faleomavaega. I would just like to ask Mr. Duncan in 
terms of he made an earlier statement about inflated salaries. 
Is this because the administrator is given discretionary 
authority in terms of how these people are to be paid or is it 
because there is no mandate? I am just a little puzzled when 
you said inflated salaries. Is it because something is wrong 
with the system of how these people are to be paid?
    Mr. Duncan. Well, the contracts are written, you know, 
basically you contract with an independent contractor to 
provide that foreign aid assistance. The contractor determines 
his budget, determines who he hires and what he pays. And if 
they are directing more of our taxpayer dollars to high 
salaries, this is just a check and balance to make sure that 
all that money is not going to salaries and not getting out 
into the field where it should go. I think everyone in here 
would agree that we want our tax dollars, if we are giving it 
to foreign aid, we want it to go to where the rubber meets the 
road, and that is to meet the need. And it is not going to go 
to line the pockets of the independent contractor. I think this 
is a step in the right direction, sir.
    Mr. Faleomavaega. I think your point is well taken. And I 
do want to associate myself with Mr. Chandler's earlier line of 
questioning. If we are going to do it not just for this agency, 
let's do it throughout the whole State Department, making sure 
that everybody, contract or whatever. You know what, when we 
had 20,000 contractors in Iraq, we are still trying to find $8 
billion in cash that we are not able to account for. So I do 
appreciate the gentleman's concern about transparency. And this 
is probably one way that we ought to really get into.
    But I do want to say that Mr. Chandler's point is well 
taken. Let's not just do it for USAID, let's do it for the 
entire Department of State so we can find out what happened to 
the $8 billion in cash that we can't account for. I thank the 
gentleman for yielding.
    Mr. Duncan. Will the gentleman yield? I agree with you. I 
would put the check register for every government agency 
online. Our salaries and our MRAs are online for the American 
people. I think that there ought to be total transparency for 
the government so that the American taxpayer can go and find 
out where every dollar, whether it goes to the U.N., which 
cannot provide us any transparency on how that money is being 
spent, any agency, any tax dollar should be transparent so the 
American people knows how that money is being spent. And then 
they can let us know that they don't think it is being spent 
very wisely. We are $14 trillion in bad debt. We need to be 
more accountable to the taxpayer. Thank you.
    Chairman Ros-Lehtinen. The gentleman yields back. Does any 
other member wish to be heard on this amendment? If not, 
hearing no further requests for recognition, the question 
occurs on the amendment. All those in favor say aye. All 
opposed, no. In the opinion of the Chair, the ayes have it, and 
the amendment is agreed to.
    Ms. Schwartz is recognized for another amendment that you 
have.
    Ms. Schwartz. I think this will be within our jurisdiction, 
but maybe a little more controversial. We'll see. I do have an 
amendment at the desk.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Ms. Schwartz 
of Pennsylvania. Strike section 407 of the bill.
    Chairman Ros-Lehtinen. We will wait a minute and make sure 
that we have the correct amendment. So we will suspend. While 
they are handed out, I would like to remind the members that 
pursuant to my prior announcement, after the ranking member's 
request, from 6:30 to 8:15 we will continue with debate and 
voice votes, but any recorded votes will be postponed until 
8:15. Ms. Schwartz is recognized to explain her amendment.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Ms. Schwartz. Yes. This amendment would strike section 407. 
It is a very short section. So maybe it would be, the best 
explanation I will start with is just to simply read it. It 
basically says that there would be a prohibition on assistance 
to countries that fail to meet the Millennium Challenge 
Corporation's corruption performance indicator. And while there 
are some waivers and exceptions that would be allowed, actually 
basically allowing the President to be able to make a waiver, 
it is a pretty blanket statement that no countries can receive 
any foreign assistance if they don't meet this particular 
indicator under the Millennium Challenge grant.
    And let me just say that I agree with the intent of what I 
would understand would be the intent of this section, which is 
to make sure that we are providing assistance to countries that 
are moving, you might want to even say aggressively, to 
eliminate corruption in their country. And many of us, again 
who have visited many countries, understand how it is a key 
element to really having a democracy that people can trust is 
to eliminate corruption. And for many new democracies, this is 
a major issue as they take over from dictatorships in 
particular.
    There are, however, some real problems with using this 
particular indicator. Under MCC, the corruption indicator has 
several provisions I just want to point out that I think would 
eliminate some countries we would not want to stop foreign aid 
to. And I will just mention a few of them. One of them is 
Afghanistan. Another one is Armenia. There is Haiti, Honduras, 
Kosovo, just to name a few. Basically, what the standard calls 
for under MCC, which would now be applied broadly as I 
understand reading this section, and that may not have been 
what was intended, but this is what it says, is that it would 
prohibit any aid to government. And for many of these 
countries, this is a big problem.
    For example, if we want to provide foreign aid to train 
teachers, well, teachers are paid by the government. That would 
no longer be allowed. That if they provide--if we want to 
provide aid to health clinics and doctors that are paid by the 
government, that would be a part of the problem of this 
indicator that they judge. That if we want to support clean 
water and sanitation, that that would be a part of the 
indicator, and that would be a problem. So again, countries 
like Afghanistan, where our assistance is really working to 
build a capacity within government to do exactly these 
functions, this would actually be a problem because it would 
affect the corruption indicator, as I understand it.
    So let me also say that the indicator, this is, I think, 
the one that really is even the most problematic, does 
basically say that any country that is below the median is not 
fighting corruption enough. They can no longer meet the 
criteria. So that means even if they are doing a pretty good 
job, that means that half the countries would be eliminated 
just because median means that half of the countries fail. Half 
are below the median and half are above the median, so half 
would fail and no longer be able to get foreign assistance from 
the United States. And I am not quite sure.
    Mr. Connolly. Would my colleague yield for a question?
    Ms. Schwartz. Sure.
    Mr. Connolly. Would one of those countries, for example, be 
Haiti?
    Ms. Schwartz. Yes. As I understand. Let me look.
    Mr. Connolly. That is my understanding as well.
    Ms. Schwartz. Yes.
    Mr. Connolly. The idea that the United States would cut off 
aid to Haiti because of a well-intentioned but mislaid 
criterion I think speaks to the gentlelady's point. We can all 
think that these are worthy goals and values, but frankly, the 
implementation, the consequence of this standard, I think, 
would be very self-defeating for the United States. And Haiti 
is a great example. I yield back to my colleague.
    Ms. Schwartz. Just to finish this, if I may, is just to 
finish my point, is, again, I think that for many of us, myself 
included, we are deeply concerned about and want to assist 
nations that are fighting corruption and building their 
countries to do that. I think the problem here is the indicator 
that was used, which comes from the Millennium Challenge grant, 
which I just talked about liking, but in this case, to apply 
that to all foreign assistance, eliminate half of the nations 
that could receive aid from us because they fall below the 
median. And then, of course, if you do it another year, you are 
breaking the numbers of countries in half again. And if you do 
it the next year, you are he breaking it--I mean, at some point 
we reach no countries could receive foreign aid, because there 
are always going to be half the countries are going to fall 
below the median. So I think some of this is just the nature of 
the indicator and the way it is measured is really a problem.
    Chairman Ros-Lehtinen. Thank you. The lady's time is 
expired. Mrs. Schmidt is recognized.
    Mrs. Schmidt. Thank you, Madam Chair. And while I do share 
the concerns of my colleague, first off, with Haiti, I believe 
that the President can give a waiver so that Haiti, the foreign 
aid Haiti receives would not be interrupted. Really, this 
amendment effectively endorses the provision of the U.S. 
foreign assistance to corrupt regimes, thus rewarding those 
committed to stealing U.S. taxpayer dollars and perpetuating 
the cycle of an inefficient and ineffective assistance program 
worldwide.
    And you know, the MCC has it right. Assistance is most 
effective when directed toward those who have demonstrated a 
commitment to the rule of law, investments in people, and 
economic reform. Corruption, on the other hand, perpetuates 
poverty, contributes to instability, and renders foreign 
assistance useless. It is difficult for me to fathom how one 
could defend providing assistance to corrupt regimes without 
even a second thought. I realize there are exceptions, and that 
is why this bill has provided a waiver, a waiver for those 
exceptions, exceptions like Haiti. There are some countries 
where our national security objectives are so important that we 
need to make targeted investments, while simultaneously seeking 
to mitigate risk and root out corruption.
    So I strongly oppose this amendment. And I want to add that 
we can't play favorites when it comes to accountability for 
U.S. assistance. I know some might want to carve out one 
country or another. But you know, this is just common sense. We 
should not be giving U.S. money to governments that are found 
to be corrupt.
    And finally, to account for any time lags in the corruption 
indicator, I would like to note that this again does provide a 
provision for the President to have waiver authority, so he 
doesn't have to wait on Congress, to allow certain countries to 
receive this assistance once Congress has received 
certification that the recipient nation is taking steps to 
alleviate corruption and that the end use monitoring measures 
are in place.
    So all we want to do is make sure that if the country is 
corrupt and it is trying to correct itself and it is 
demonstrating good policy, that we will give them the 
assistance. But if it is a country like North Korea, where Kim 
Jong Il is never going to make steps, that we don't give it to 
Kim Jong Il. And I think that that is just--I mean, that is 
just----
    Ms. Schwartz. If the gentlewoman would yield.
    Chairman Ros-Lehtinen. Excuse me, Mrs. Schmidt has the 
time.
    Mrs. Schmidt. And I really didn't want to yield.
    Chairman Ros-Lehtinen. I know. You have the time, and 
continue with your thoughts.
    Mrs. Schmidt. I mean, it makes sense, with the precious 
dollars that we have, to make sure that they are going to 
countries that are not working against us. And if there is an 
exception to that, then let's allow the President to make that 
exception. But to just carte blanche say we are not going to 
see if you are good stewards, we are not going to see whether 
you are corrupt or not, just hand the money over carte blanche 
is really foolish. Because a corrupt government, chances are, 
isn't going to give that money to the people who need it. If 
they are corrupt, they are going to use that money, that 
assistance, that grain, that whatever for their own benefit. 
And so it is counterproductive, counterintuitive to what we 
want to do. So why don't we just look at the precious dollars 
that we have to spend and make sure that they are spent in a 
place where corruption is not the dominant feature of the 
country? Where this country, whatever it is, is either non 
corrupt or trying to make itself non corrupt. And toward that 
end, I yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you so much, Mrs. Schmidt. Mr. 
Berman.
    Mr. Berman. Yes. Madam Chairman, I ask my friends in the 
majority to think about what you are saying. In response to the 
gentlelady from Pennsylvania's arguments, and the gentleman 
from Virginia's question, you are saying the President has a 
waiver. So we are going to have a roll call vote on this 
amendment. And what this will say is we who, assuming the 
majority side prevails and the amendment is defeated, we in 
Congress will cut off aid to Honduras, that just got rid of 
this bad guy and is now trying to rebuild a civil society 
because Honduras--so we are going to cut off aid to Honduras. 
The President has a way of saving you if he can work language 
in that says the national security interests of the United 
States. Not the ``national interest'' of the United States, but 
the ``national security interests'' of the United States. 
Armenia? Historic relationship, aid programs, Congress cuts it 
off.
    Iraq and Afghanistan, where our troops are dying, we are 
going to cut off all economic aid because they are in the lower 
half.
    Cote d'Ivoire just had an election. The guy tried to hold 
on to power, this corrupt dictator tried to hold onto power. 
President Ouattara finally gets in, he is just starting his 
job. But Ivory Coast is in the lower half. Cut off all their 
aid. You can't be serious about wanting to do that.
    If you are worried about Kim Jong Il, let me tell you, 
first of all, there are about 22 provisions in law that keep us 
from giving foreign assistance in almost every circumstance to 
him. Legislate about North Korea. If you want to talk about 
some other people who are against our interests, we don't want 
to give aid to, propose it. But don't take an index that 
applies to people who are trying to get better. The Millennium 
Challenge program is a wonderful program because it was said 
for some portion of our foreign aid we are going to have a real 
merit test, and one of the tests is if you have confronted 
corruption and dealt with it effectively, then you are going to 
be eligible for compacts and grants under those compacts. We 
didn't say the whole foreign assistance program immediately is 
going to become subject to the Millennium Challenge Corporation 
standards.
    Now, I don't think you want to be on record voting to cut 
off aid to Honduras and Armenia and Haiti and say, Oh, but the 
saving grace here, we really didn't do it, because the 
President, if he wants to scream national security, can waive 
it. Is that the position you want to be in? Is that a Congress 
that wants to assert its authorities in the proper way? That is 
the ultimate delegation of power to the executive branch of 
government. And remember who is President. Thank you. I yield 
back.
    Mr. Payne. Madam Chair.
    Chairman Ros-Lehtinen. Mr. Payne is recognized.
    Mr. Payne. I too would like to echo what the ranking member 
has said. You know, I think that these things sound good, 
however, when we start to look at it, for example, Egypt is on 
this particular--would be out. They have a transition going on, 
have people who are trying to go in to set up a democracy. And 
if this bill goes through, Egypt is cut off. We are worried 
about the Muslim Brotherhood. Okay, let's just cut off all our 
aid to the military, cut off aid to the country, let it fend 
for itself. If you think you have a problem in the Middle East 
now, you haven't even seen a problem. You take a place like 
Indonesia, the largest Muslim country in the world. They got 
more people who are Muslims practicing Islam in Indonesia than 
all of the Arab countries in the Middle East.
    We should, therefore--and they are our biggest supporters. 
So this brilliant amendment would say let's cut them off. 
Right. The bill does. Cut them off. The bill would cut them 
off. That makes a lot of sense. Kenya, who gives more 
intelligence to the United States about Somalia and Yemen and 
those areas that have people who are threatening our service 
persons, would be cut off.
    Kenya is one of the longest-serving emerging countries in 
democracy. They are the stability. You take Uganda. Uganda is 
the country that has the U.N. peacekeepers. They are dying. 
Uganda was attacked at the World Cup. You know why they were 
attacked at the World Cup? People were sitting around watching 
the game, some of them went in, blew them up, killed 20 or 30 
people because Uganda is assisting the United States by having 
peacekeepers in Somalia so that Somalia doesn't turn around and 
become a haven for al-Qaeda. And if you think we have got a 
problem with hijacking now, let Somalia get turned over to al-
Qaeda and we will be in tremendous problems. I mean, we could 
go country by country. It does not make any sense at all. So I 
would hope that countries are striving to cut out corruption. 
Countries, we have had people killed who were in offices on 
anti-corruption who are on these very lists. So I would hope 
that we would think about this. You know, it certainly has good 
intentions. However, the road to purgatory is paved with good 
intentions. I just hope that we really would give a good 
thought to this before we go and make another wrong vote. I 
yield back.
    Chairman Ros-Lehtinen. We look forward to a recorded vote 
on this amendment. Do other members wish to be heard on this 
amendment? Yes, Mr. Carnahan, Mr. Engel, and Mr. Cicilline.
    Mr. Carnahan. Madam Chair, if I could yield time to Ms. 
Schwartz.
    Chairman Ros-Lehtinen. Yes.
    Ms. Schwartz. Thank you. I just wanted to echo the last 
comments, and to be very clear about this. I think what we are 
saying very clearly I hope is being heard, is that we too are 
very concerned about corruption, and are not looking to reward 
any nation that is not doing the work that it needs to do to 
fight corruption and to build a fair and transparent both rule 
of law and government that their own people and we can trust 
with our dollars. That is absolutely a goal we share. The issue 
is how we achieve them. And the adverse consequences of 
removing aid to countries that are working very hard, very 
aggressively, maybe even very well on this major and important 
issue, would be shut down in terms of receiving aid for us to 
do that very work is our concern.
    And so again, maybe it is in the drafting of this and not 
the intent, but it really is not about North Korea. We don't 
give them aid now. That is not the issue. Obviously, if a 
country is not cooperating with us there are consequences. We 
just saw that happen with Pakistan. So it is not like there 
isn't intention to these issues. And that was not about 
corruption per se, that was other issues. This really is very 
specific and potentially extremely harmful to the very mission 
that this committee works on every day.
    Mr. Rohrabacher. Would the gentlelady yield?
    Chairman Ros-Lehtinen. It was the gentleman's time. Would 
the gentleman yield to Mr. Rohrabacher, to Ms. Schwartz?
    Mr. Rohrabacher. I have a question for the lady. So clear 
it up for me. Is your amendment aimed at making it more likely 
that aid would go to countries that are questionable in terms 
of corruption? Or are you loosening the standard for countries 
that maybe were being too fastidious about to whom we are 
choosing to give aid? What is the purpose of your amendment in 
terms of the standard that we have for corruption?
    Ms. Schwartz. My amendment would delete this section. It 
doesn't replace it with anything. So the standard would remain 
as it is today. It does not replace it with any new standard at 
all. It just basically says that this new standard--the section 
establishes a new standard, which I am objecting to as being--
--
    Mr. Rohrabacher. So the new standard is about corruption?
    Ms. Schwartz. Yes.
    Mr. Rohrabacher. So you are eliminating a standard that has 
been put in place to prevent our money from going to 
corruption?
    Ms. Schwartz. No. It is saying that this new standard that 
is going to go into effect in this section is deeply flawed. 
And I am suggesting--and it may be an opportunity for there to 
be cooperation in working out what would be the right standard 
and the right language. So I am not at all suggesting that 
there couldn't be a better standard or a better written 
standard. I am just suggesting that this one is deeply flawed.
    Mr. Rohrabacher. So the purpose of what you are trying to 
replace was to eliminate corruption. But you feel that it is a 
flawed wording or something like that, so that you need to 
eliminate that section that would protect our money from going 
to fraudulent countries because it really won't be effective in 
doing it.
    Ms. Schwartz. No, it would prevent countries from being 
denied foreign assistance in a way that would be so sweeping as 
to have many, many countries that may not have been intended to 
fit into this because that particular Millennium Challenge----
    Mr. Rohrabacher. I think I understand now. Thank you.
    Ms. Schwartz. You are welcome.
    Chairman Ros-Lehtinen. Thank you. The gentleman yields?
    Mr. Carnahan. I yield back.
    Chairman Ros-Lehtinen. Thank you. Ms. Buerkle is 
recognized.
    Ms. Buerkle. Thank you, Madam Chairman. I want to echo some 
of the sentiments of my colleague from Ohio, Mrs. Schmidt. We 
have been here for the better part of today discussing this 
piece of legislation. And the recurring themes that we continue 
to hear are that this Nation faces a $14 trillion-plus debt, 
that we need to be accountable to the American people and wise 
stewards of their taxpayer money, and that we need to be 
careful about how we spend money. And it seems to me that 
elimination of section 407 flies in the face of everything we 
have been talking about today. We talked about being 
transparent and accountable to the American people. I think 
this flies in the face of it.
    You know, I think it has been proven after five decades of 
providing assistance across the world that we know assistance 
over a long period of time can create dependency, but worse 
than that, it can create corruption. And I think in light of 
the difficult times the American Nation faces here at home, 
that to continue to allocate U.S. taxpayer dollars to the 
governments that indulge in corruption for the benefit of 
themselves is wrong, and it is neglecting the American people, 
and it is not being good stewards of their taxpayer dollars. I 
yield back.
    Chairman Ros-Lehtinen. Thank you so much, Ms. Buerkle. I 
believe that we had Mr. Engel. Is that right?
    Mr. Engel. Yes.
    Chairman Ros-Lehtinen. Mr. Engel is recognized.
    Mr. Engel. Yes. Thank you, Madam Chair. I rise to support 
Ms. Schwartz's amendment. I understand the frustration that we 
don't want to pour money down a sewer hole and give good money 
after bad. And I also understand that in this day and age, with 
our budget deficits and problems we have, many of us get tired 
of giving assistance to countries that seem to always spit in 
our face. But let's look at what we are doing here. I think 
this would be penny wise and pound foolish, and I think it 
would also be tying our hands artificially. The Millennium 
Challenge Compacts which we are talking about here are just a 
few a year, 2 or 3, or whatever it is. It is not as if we are 
giving foreign assistance to everybody through the Millennium 
Challenge Compacts.
    Now, if you take the corruption standards and you say it is 
a median, obviously by the term median, half of countries are 
going to be below the median, and half of countries are going 
to be above the median. Now, we may want to give aid to a 
country that may be pro-American, pro-West, doing the things we 
want, but they artificially fall below the median, and 
therefore we would be barred from giving them Millennium 
Challenge Compacts. It doesn't make any sense.
    For instance, I said this before, you know I have been very 
active in the Balkans, particularly with Albania and Kosovo. 
Well, what this would do is Kosovo would fall below the median. 
That is a country that is as pro-West as you can get, pro-
American as you can get, and would need our help, yet we would 
be precluded from giving them a Millennium Challenge Compact. 
In fact, some of U.S. assistance is specifically designed to 
help countries minimize corruption. That was the Millennium 
Challenge Compact threshold program for Albania. It targeted 
corruption, and successfully reduced corruption in Albania. If 
this had been in place, we would never have been able to target 
Albania, and would never have been able to give them aid to 
help them reduce corruption. So I think what this does is it 
ties our hands artificially. We should look at the criteria 
that is good for our country. And sometimes a country may fall 
below the median, and giving them the MCC would be good for 
them and good for us. And so, you know, this is not about 
blocking foreign assistance to bad players. It is assistance to 
countries that are pro-West potentially.
    So I don't know why we need to do this, to tie our hands 
artificially. I wouldn't want to hurt Haiti. I would want to 
help Haiti. We have an obligation to help Haiti. Haiti would 
fall below the median, therefore, we wouldn't be able to help 
them.
    I mentioned Kosovo. There are other countries as well. In 
fact, I think it was pointed out Afghanistan and Egypt as well. 
Honduras. We want to help Pepe Lobo and the new government 
there. This would preclude us from helping them. And Indonesia, 
Kenya, countries like that. So I know that the intent here is 
good. I just think that we are boxing ourselves in, and we are 
using artificial medians to sort of cut off other criteria that 
can at least and should at least be as important as that. So 
for those reasons----
    Mr. Payne. Would the gentleman yield for a question?
    Mr. Engel. I would certainly yield. But for those reasons, 
I think Ms. Schwartz is absolutely right. This is well 
intentioned, but I think if you scratch beneath the surface it 
has the potential to do us harm. I yield to Mr. Payne.
    Mr. Payne. With the few seconds left, I would just like to 
mention in countries where we have and we know that there is a 
high level of corruption, for your information, the U.S. 
assistance does not go to the government. For example, Haiti 
gets zero dollars directly to the government. We have NGOs, we 
have organizations that provide the services in those 
countries. So if there are some countries where we know that 
the corruption is something that is suspected to be gross, the 
countries do not get the foreign assistance. So I just want to 
make that clear. We don't fund governments. As a matter of 
fact, very few governments in Africa get direct funding. It 
goes to health groups, it goes to Red Cross, it goes to those 
groups. So I just wanted to make that clarification.
    Chairman Ros-Lehtinen. Thank you. The gentleman's time has 
expired. The Chair will recognize herself. Mr. Mack, I 
understand that you are interested in the manner in which the 
MCC develops and applies the corruption performance benchmarks. 
I pledge to work with you, Mr. Mack, to request that the GAO, 
the Government Accountability Office, review the MCC's 
application and development of these indicators. And I will 
ensure to make reference to this GAO request and your concerns, 
Mr. Mack, in the committee report on this legislation.
    Mr. Mack. Thank you. Would you yield?
    Chairman Ros-Lehtinen. Yes, sir.
    Mr. Mack. Thank you very much. And I have been very 
interested in this debate. And first of all, I must commend the 
chair. We do have to have standards in this bill to ensure that 
the people who are receiving the hard-earned tax dollars go to 
countries that are not corrupt. But as you stated, I do think 
it is important to look at the way that the indicators are 
developed, the way that the corruption indicator is developed.
    And I am concerned that just based upon public opinion that 
can influence the corruption indicator, and a report from the 
GAO would be fantastic. I want to thank the chair.
    Chairman Ros-Lehtinen. Count on it.
    Mr. Mack. I want to thank you very much.
    Chairman Ros-Lehtinen. Thank you. I yield back. Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chairman. I too would 
like to associate myself with the position taken by the 
gentlelady taken from Philadelphia. I don't think she is being 
very restrictive. I think she is flexible. She is willing to 
work out the language in such a way that is not so restrictive 
in saying a corruption indicator. What does that mean by being 
corrupt? I looked at countries like Cambodia and Laos. Madam 
Chair, I don't know if any of our colleagues have been to Laos. 
We dropped over 2 million pounds of bombs during the Vietnam 
War. And never did the people of Laos ever wage war or even 
declare war against us. Where does the corruption come into 
play in this? Because it was like a little playground. Cambodia 
the same thing. We dropped bombs there simply because we, you 
know, on the way back from the sorties that we did against 
Vietnam. It was just horrible. And I would invite my colleagues 
to go to Cambodia and Laos. And when you talk about corruption, 
I don't know what we can do, the kind of decisions that we 
made, but we did this against these countries.
    We can go to Uzbekistan, Tajikistan, and Kyrgyzstan. These 
countries have only been democracies less than 20 years. How do 
we measure corruption of the fact that these people were under 
colonization for 100 years of the former Soviet Union. How do 
we measure corruption? Do you expect that they are going to 
become democracies the same way that we expect them to be like 
us? It took us over 100 years to give Black people the right to 
vote and their civil rights recognized. And here we are making 
demands, I believe, that I think we are being a little too 
stringent in trying to understand these countries that have 
been given corruption indicators, it is just unbelievable. I 
would like to suggest to the gentlelady that as part of the 
description or the narrative that is put in the proposed bill 
that we ought to work out maybe better language than just say 
corruption.
    Maybe there are other factors we ought to consider, and not 
just this one indicator to say if a country is corrupt. I would 
challenge anybody to suggest that all these countries are that 
corrupt given the fact that we really--I just don't know where 
the measurement comes into play in this.
    Mr. Rohrabacher. Would the gentleman yield?
    Mr. Faleomavaega. I will be glad to yield to my friend from 
California.
    Mr. Rohrabacher. I will be very quick. Listen, I spent some 
time in Vietnam back then too. And I was not in the military. I 
was involved in some other activities there. And I left Vietnam 
as a very--how do you say, I was very pessimistic because I saw 
the blood and the gore of war. And it was my opinion at that 
time, and I was 19 years old, that it was the corruption that 
would prevent us from winning that war. And quite frankly, we 
should have set a much higher level against the corruption of 
the Saigon regime. And we might not have gone through that 
defeat, and we might not have had this 20 years of 
dictatorship, Communist dictatorship. But we didn't set the 
standard against corruption in Vietnam. And maybe we should 
have learned that lesson, my friend.
    Mr. Faleomavaega. I would say to my good friend, I served 
in Vietnam. And we supported a corrupt government, if you want 
to call it.
    Mr. Rohrabacher. That is what I am saying.
    Mr. Faleomavaega. But my point is how do you define 
corruption?
    Mr. Rohrabacher. It was easy to see, wasn't it? I saw it. I 
was 19 years old. I certainly identified it very easily.
    Mr. Payne. Would the gentleman yield?
    Mr. Faleomavaega. I gladly yield to my friend from New 
Jersey.
    Mr. Payne. On the question of corruption, and we should 
certainly work toward it, however some of these countries are 
working to try to cut down on corruption. We have here in the 
United States, we are still fighting to try to win the battle 
against corruption. Take Mr. Rupert Murdoch, most powerful 
person in Europe.
    Mr. Faleomavaega. And a U.S. citizen, too.
    Mr. Payne. And a U.S. citizen. When his corporation pays 
off Scotland Yard, pays people to give information, pays people 
to try to get 9/11 survivors' phone numbers. So when we talk 
about corruption, we should continue to work--the NYPD. You 
continue to work against corruption everywhere. We shouldn't 
tolerate it. However, I think that we ought to maybe look at 
ourselves and see how many people do the right thing on their 
income tax or when they pay taxes offshore rather than taxes 
here.
    Mr. Faleomavaega. Reclaiming my time, all I want to say, 
Madam Chair, is that we ought to find some sense of measurement 
how do we define, how do we measure corruption.
    Chairman Ros-Lehtinen. Thank you very much. Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chairman. It strikes me, 
from listening to this discussion, that people are talking 
about two different things. I think we would all agree that we 
ought not ever be supporting corrupt governments. And I think 
there is no question about that. The other question is, is 
there a role for the United States to play in supporting 
governments that are fighting corruption and helping them 
develop institutions to successfully combat corruption? And I 
think we are mixing up two different conversations here. And I 
would hope that we could work on some language which ensures 
that we are not supporting corruption or corrupt governments, 
but at the same time recognizing that we have a role to play in 
supporting leaders and governments that are working hard and 
seriously to combat corruption.
    We had a recent visit here, Madam Chairman, as a result of 
your good work, of the President of the nation of Liberia, 
Ellen Johnson Sirleaf, who is a hero in terms of the work that 
she is doing to combat corruption in her government. She made 
it clear to us in those conversations that she relies 
enormously on the support and aid of the United States. And so 
I think we have to be able to distinguish between those 
governments that are working hard to build the kinds of 
institutions that share the values of our country and combat 
corruption, and we have a whole series of efforts underway in 
helping countries build court systems, and develop rule of law. 
And all of that in part is a battle to fight corruption, which 
it would seem to me would no longer be permitted under the new 
language of this legislation.
    Mr. Rohrabacher. Would the gentleman yield for a question?
    Mr. Cicilline. I would be happy to.
    Mr. Rohrabacher. Are you aware the part of the bill that 
she is seeking to eliminate actually provides the President a 
waiver so that when he has examples like you have given, that 
he is able to provide a waiver to the President of Liberia?
    Mr. Cicilline. I will reclaim my time. I am aware it has a 
waiver. But we have a responsibility, I believe, as members of 
the Foreign Affairs Committee, to set this policy, to be 
thoughtful about the way we do it, and not to rely on the 
executive branch to do our job. I yield back the balance of my 
time.
    Chairman Ros-Lehtinen. Thank you. Seeing no other requests 
for time, a recorded vote has been requested on the Schwartz 
amendment. It will be rolled until 8:15. I know that Mr. McCaul 
had an amendment. We have a list of a lot of amendments. Don't 
worry about it. But I had told Mr. McCaul that he would be 
next.
    Mr. McCaul. Thank you. Am I being recognized?
    Chairman Ros-Lehtinen. Yes. If you have your amendment, you 
can call it up to the desk there.
    Mr. McCaul. Thank you, Madam Chair. I have an amendment at 
the desk, number 21.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. McCaul 
of Texas. At the appropriate place in the bill, insert the 
following: Section [blank]. Limitation on USAID training 
contracts under the Merida Initiative.
    Chairman Ros-Lehtinen. And we will hand out the amendment 
as she is reading it. Hold on 1 second. Let's make sure. Merida 
Initiative, McCaul.
    Ms. Carroll. (a) Findings. Congress finds the following: 
(1) In 2007, the United States and Mexico announced the Merida 
Initiative, a multi-year partnership to fight organized crime 
and associated violence, while furthering respect for human 
rights and the rule of law in the region; (2) One of the Merida 
Initiative's four primary goals is to improve the capacity of 
justice systems in the region; (3) In April 2009, USAID/Mexico 
awarded a 3-year, $44.1 million cost-type contract to 
Management Systems International (MSI) to work with Mexican 
state and Federal justice institutions to strengthen their 
capacity to improve transparency, public oversight, and public 
accountability, and better serve Mexican citizens under the new 
constitutional reforms that shape the police and criminal 
procedure codes; (4) A January 2011 USAID Office of Inspector 
General audit determined that the contract mechanism that 
USAID-Mexico used to award the task order to MSI was not done 
in accordance with procurement regulations, USAID-Mexico's 
technical officers responsible for the rule of law projects 
have not effectively carried out all of their responsibilities 
in accordance with USAID policy and internal mission orders. 
USAID-Mexico's contractor has not developed----
    Chairman Ros-Lehtinen. Ask unanimous consent that the 
amendment has been read. I believe that all members have a copy 
of the amendment. And I will call on Mr. McCaul for 5 minutes 
to explain his amendment.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. McCaul. Thank you, Madam Chair. You know, we talked a 
lot about the wars in Iraq, Afghanistan, and Libya. But we have 
a war that is going on right next door and just south of our 
border in Mexico. I have met with President Calderon. Connie 
Mack, the gentleman from Florida, and I recently met with him. 
Security is his number one issue. And since he has declared 
war, about 40,000 people have died in Mexico at the hands of 
the drug cartels, who have become more brazen and more violent 
than ever. In Juarez alone, 6,000 people have been killed. As a 
result, the Congress passed the Merida Initiative to deal with 
that, to provide intelligence, military assistance to Mexico. 
And I think, as Chairman Mack of the Subcommittee on Western 
Hemisphere, and Mr. Engel would agree as well, we have been 
very frustrated with the State Department and the inability to 
implement the Merida Initiative.
    I think today only 25 percent of that funding has been 
implemented. And it has been about 2\1/2\ years. One area that 
I think we need to--let me just add also that it has become so 
brazen that our U.S. law enforcement have now been under fire, 
not only in Mexico, but on this side of the border.
    ICE agent Jaime Zapata was killed in cold blood, and his 
partner, Agent Avila, by nothing short of a miracle survived 
that ambush by the Zetas cartel, which has become the most 
violent down there. So we need to look at the Merida 
Initiative. We need to ensure that the training that we provide 
is contracted the right way, completed in a timely manner, and 
measured for its effectiveness. This committee has a 
responsibility to provide effective oversight to ensure that 
this happens for our security and for the security of Mexico. 
So when we look at these training programs and we look at the 
contracting of those programs, I have seen some inefficiencies.
    My amendment would prevent USAID from spending more than 50 
percent of the training funds under the Merida Initiative with 
any one company.
    One of the main areas in which we provide Merida aid is to 
institutionalize the rule of law in Mexico by providing these 
training programs for the Mexican police, judges and 
prosecutors. USAID was tasked to carry this out and gave about 
90 percent of that contract to one single company, Management 
Systems International, or MSI. This company has a poor record 
of performance, and the inspector general agreed. He reported 
that there are issues with the contract's process; that it was 
hurried, sloppy; and there were no metrics of performance; and 
the reporting was ineffective and lacking.
    In fact, USAID itself admitted it has been ineffective in 
its metrics and oversight of MSI and the training. In fact, we 
have made repeated calls to MSI from my staff that were never 
returned. And the situation, I believe, is getting worse.
    This bill does one thing, in effect. It provides 
competition, which I always think brings out the best, 
competition to carry out these contracts, and it will force 
USAID to do what they should have done in the first place, and 
that was to provide effective training with real metrics and 
real oversight.
    With that, I ask that the members of this committee support 
my amendment, and I yield back the balance of my time.
    Chairman Ros-Lehtinen. The gentleman yields back.
    Do any members wish to be heard on the McCaul amendment?
    Mrs. Schmidt is recognized, and also Mr. Mack.
    Mrs. Schmidt. Thank you, Madam Chairman. And I want to 
applaud my good friend Mr. McCaul for this amendment.
    You know, the USAID has the task to carry out the 
responsibility for the training component of the Merida 
Initiative, as well as the Department of Justice, especially 
under pillars 2 and 4, institutionalizing the rule of law and 
building stronger and resilient communities. But, Madam Chair, 
until the 4th of January, until the 10th of December, 2010, 
USAID held 501 training events, with 466 of these events being 
contracted through just one company, Management Systems 
International, or MSI, and I think that is the basis for this 
amendment.
    On January--in January 2011, the USAID IG Office identified 
several problems with the contract with MSI and other 
companies, including issues with the process, the metrics and 
the reporting. The audit specifically found, one, the rule of 
law program lacked strategic focus, there was a poor statement 
of working and poor technical control over the contractor; two, 
the contracting mechanism used for the rule of law program was 
not appropriate. USAID attempted to expedite the award and the 
implementation of the program; three, the performance 
indicators and targets were inappropriate measures of the 
program's progress. There was either no target or unrealistic 
targets. Performance measures were either not available or not 
within the USAID control. There was a lack of effective program 
oversight; that is, no visit, no formal approval of work plans 
and reports. And finally, training effectiveness was not 
evaluated. There was no consideration of formal evaluation 
systems during the design of training, and the USAID did not 
adhere to the policy regarding assessing the degree of results 
and impact of training.
    Given the horrific violence that continues along our U.S.-
Mexico border, given the tragic deaths of our ICE agent Jamie 
Zapata, given the continued threats posed by drug cartels to 
our Nation and citizens as well as the citizens of Mexico, we 
need to ensure that the rule of law and strong, resilient 
communities exist in Mexico. We need to ensure that the 
training we provide is contracted in the right way, completed 
in a timely manner, and measured for its effectiveness. This 
committee has a responsibility to provide effective oversight 
to ensure that this happens for our security and for that of 
Mexico.
    This amendment stresses our concerns with USAID's handling 
of training for the Merida Initiative and restricts the 
practice of ``putting all of our eggs in one basket'' regarding 
training. Our administration, Madam Chair, cannot afford to 
haphazardly enter into contracts simply for convenience, ease 
or timeliness alone. For security of our country, as well as 
Mexico, regarding the Merida training programs, we must ensure 
the best possible training programs for Mexico, utilizing solid 
contracting processes that consider all companies that are able 
to perform components of this vital training process.
    I yield back the balance of my time and urge my colleagues 
to vote for this amendment.
    Chairman Ros-Lehtinen. Thank you very much, Mrs. Schmidt.
    And Mr. Keating is recognized for 5 minutes.
    Mr. Keating. Thank you, Madam Chair.
    I urge support of this amendment as well. I think the 50 
percent--people could argue where 50 percent comes from and how 
accurate that might be. But the situation in Mexico, as we have 
found out in the Homeland Security Committee, is one of a 
crisis. And if we have a contractor that is not fulfilling the 
obligation, and we are held captive to that contractor, I think 
we have to do something about that.
    I will be offering an amendment later on that I think will 
address this same kind of situation at no cost as well, but I 
do think we should move forward with this amendment, and I do 
support it.
    I yield back the rest of my time.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Mack is recognized.
    Mr. Mack. Thank you, Madam Chair. And just real quickly, I 
want to thank Mr. McCaul for bringing this amendment forward.
    We have got a huge challenge when it comes to Mexico. The 
Merida Initiative has struggled for sure, the implementation 
and the delivery of the resources. And I would urge all of my 
colleagues to support this amendment.
    Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Faleomavaega.
    Mr. Faleomavaega. I support the gentleman's amendment, but 
the only thing, as a matter of observation, I don't think it is 
MSI's fault in this whole process. It is the USAID 
administrators. They are the ones that should be disciplined. 
And I just wanted to share that with the gentleman, because it 
says that MSI was not in accordance with procurement 
regulations. My gosh, we should fire the guy that administers 
USAID in Mexico and not necessarily put the blame on MSI.
    I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Rivera is recognized.
    Mr. Rivera. Thank you, Madam Chair.
    And I similarly applaud the gentleman's bringing this 
amendment forward. I think it is an important step to make sure 
that we have accountability in our programs with respect to the 
Merida project, and making sure that USAID is held to the 
highest standards, and making sure that our contractors are 
held to the highest standards, and making--in that procurement 
process. So again, I support this good amendment.
    Chairman Ros-Lehtinen. Thank you so very much.
    Hearing no further requests for recognition, the question 
occurs on the amendment. All those in favor, say aye.
    All those opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
amendment is agreed to.
    Mr. Cicilline. Madam Chair, I have an amendment.
    Chairman Ros-Lehtinen. Yes. Mr. Cicilline is recognized. 
But I had told Mr. Carnahan that he would go first. I 
apologize. I am looking at my master list.
    Mr. Carnahan, you are on the master list.
    Mr. Carnahan. Thank you, Madam Chair. I am happy to be on 
your list. It is a good list, I hope.
    Chairman Ros-Lehtinen. If the clerk would look for the 
Carnahan amendment and let us see if we are in sync.
    Mr. Carnahan. It is No. 032.
    Ms. Carroll. Yes, sir. Amendment to H.R. 2583 offered by 
Mr. Carnahan of Missouri. At the end of title IV, add the 
following: Section 4 [blank]. Assistance to establish 
partnerships between businesses and postsecondary education 
institutions in developing countries in Africa. (a) Findings. 
Congress finds the following: (1) There is a growing need in 
developing countries in Africa to educate and properly train 
future business leaders in such a way to help them adapt to the 
demanding complexities and leadership.
    Mr. Carnahan. Excuse me, Madam Chair. If I could interrupt. 
In lieu of reading the entire amendment----
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Why don't we wait just 1 second so 
everyone gets a copy of the amendment, and that is why I let 
her read on a little bit. But, no, we will wait. Well, just 
suspend. Hold on 1 second. And while you are handing out that 
amendment, I would like to tell members that this is the list I 
have of folks who have amendments, but please tell me if you 
are also on my dance card: Mr. Mack, Mr. Cicilline, Mr. 
Griffin, Mr. Deutch, Mr. Duncan, Mr. Rohrabacher, Mr. 
Fortenberry. If you are not on my dance card--Mr. Poe. Thank 
you. And Mr. Berman. Okay. Thank you.
    Mr. Carnahan, you are recognized.
    Mr. Carnahan. Thank you.
    Madam Chair, my amendment would authorize USAID to provide 
assistance to establish partnerships between businesses and 
postsecondary educational institutions in developing countries 
in Africa.
    The reason for the program is simple. There was a 
recognized need to further educate, develop and train future 
business leaders in developing countries in Africa. Better 
education, training will allow for more prosperous businesses. 
One way to help train the next generation of leaders is through 
entrepreneurial education. While institutions throughout the 
continent offer business certificates or degrees, the training 
can lack certain practical elements necessary for ultimate 
success, and there is a shortage of access.
    My amendment sets out that there are only 50, only 50 
business schools that exist in the entire continent of Africa 
compared to--and that is for 800 million people--compared with 
1,000 business schools in India, 1,200 in the U.S. There is a 
clear shortage of access there.
    My amendment would help focus efforts to close this gap by 
enabling students to practice in their future fields. They will 
enhance their education by requiring real-world business and 
management experience. Better training will help lead to jobs, 
better economic opportunities. This is not only in their 
interest, but it is in our interest as well to help them 
succeed and focus our efforts to support that.
    With that, I would yield----
    Chairman Ros-Lehtinen. Thank you. It sounds good. We are 
busily trying to find something wrong with it, but apparently 
we can't come up with anything.
    Mr. Carnahan. I want to cut you short then. I have reached 
out--and just if I may add, Madam Chair, I reached out to our 
ranking member and the chair of the subcommittee and shared 
this information, and it is my----
    Chairman Ros-Lehtinen. That explains it.
    Does anyone wish to be recognized?
    Mr. Payne. Madam Chair.
    Chairman Ros-Lehtinen. Yes, Mr. Payne.
    Mr. Payne. Let me commend the gentleman for introducing 
this resolution. We are working on legislation where we are 
trying to deal with higher education in general. As you know, 
in many African countries now, there is universal education in 
elementary school. Some small school fees are still required; 
however, most students are able to go. The other big movement 
in the elementary is that the girl child, which has always--in 
developing countries been sort of left behind, they have sort 
of a ``leave no girl behind'' type thing going on now, but they 
have included in a number of countries because of wives of many 
of the Presidents have said the girl child should be involved.
    So as we are increasing elementary ed, there is a move on 
secondary education that only makes sense that with more 
graduates coming out of elementary and secondary school, going 
into higher education, that we ought to have a way to tap this 
new resource of qualified entrepreneurs. And I think if we did 
this and we sort of taught them the way that we do it, we could 
perhaps interest some American businesses to invest in China.
    I see we have a lot of concern about China's investment. My 
African friends in perhaps every country in Africa say, we wish 
America would come, we prefer to do business with American 
businesses, we know it is better, it is more honest, it is more 
proficient. The typical African who goes for higher education 
doesn't want to go to Beijing. It is just totally free. But 
they want to come to the U.S. institutions at Harvard and 
Howard and Yale and Morehouse to the person.
    So we have a great opportunity. The only reason we are not 
doing better in Africa businesswise is simply because our 
business people have not decided to maximize the opportunity. 
So I think this Carnahan is a good measure, and I certainly 
support it wholeheartedly.
    I yield back.
    Chairman Ros-Lehtinen. Thank you, sir.
    Do any members wish to be heard on the Carnahan amendment? 
If not, hearing no further requests for recognition, the 
question occurs on the amendment. All those in favor, say aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
amendment is agreed to. We just didn't have enough time.
    Mr. Mack is recognized.
    Mr. Mack. Thank you, Madam Chair. I have an amendment at 
the desk.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Mack of 
Florida. At the appropriate place in the bill, insert the 
following: Section [blank]. Limitation on assistance to 
Argentina, Venezuela, Nicaragua, Ecuador, and Bolivia. None of 
the funds authorized to be appropriated under this act may be 
made available for assistance to the Governments of Argentina, 
Venezuela, Nicaragua, Ecuador, or Bolivia.
    Chairman Ros-Lehtinen. Thank you. And we will just wait a 
few minutes until the amendment is distributed.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Mr. Mack, you are recognized for 5 
minutes on your amendment.
    Mr. Mack. Thank you, Madam Chair.
    And again, as the chair of the Western Hemisphere 
Subcommittee, we have focused a lot on how to move Latin 
America forward. And it appears that every time we turn around, 
there are a number of countries who stand in the way, or at 
least put up resistance, and those countries are the countries 
that are outlined in this amendment.
    I think we all recognize that Venezuela--whether it is 
supporting terrorism, drug trafficking, assistance to Iran, 
kicking out DEA agents, severing ties, you name it, I think 
Venezuela is probably an easy one for everyone in here to agree 
with me on. Bolivia, at the same time has kicked out the DEA, 
kicked out the U.S. Ambassador and aligns itself with the ALBA 
nations undermining democracy in Latin America. Nicaragua has 
invaded Costa Rica. Ortega is unconstitutionally running for a 
third term, and they are in close relations with Iran.
    I could go on and on about the--each one of these 
countries, but I believe again, as I heard from some of my 
friends on the other side of the aisle, that we need to make 
choices, and I believe that Mr. Berman said that if we had 
governments that we wanted to make sure we restricted funds to, 
then we ought to bring that to the committee. Well, that is 
exactly what this does. We send approximately $96 million to 
these countries right now, and none of these countries are 
helping in the creation and strength of democracy and freedom 
in Latin America.
    And I want to make one last point about Argentina. 
Argentina is undermining both the United States judicial system 
and the settlement process at the World Bank. Argentina owes 
the United States bondholders more than $3.5 billion and has 
cost the United States bondholder, taxpayers and shareholders 
more than $10 billion. You will know that recently they seized 
sensitive U.S. equipment for domestic, political maneuvering, 
and the government continues to intimidate and initiate attacks 
on the media and freedom of expression.
    So, Madam Chair, I believe this is a good amendment. This 
really shows where our priorities are, and it sticks to the 
principles that I believe are important, that we will support 
our friends and our allies. Countries in the Western Hemisphere 
that support the ideals of freedom, security and prosperity 
should and can expect the United States to stand with them. 
This amendment says that if you choose to turn your back on 
those principles and ideals, then we will no longer continue in 
support of those governments.
    And with that, I yield back.
    Chairman Ros-Lehtinen. Thank you, Mr. Mack.
    Mr. Berman is recognized.
    Mr. Berman. Thank you, Madam Chairman.
    And the gentleman's amendment--I do agree with this 
approach, rather than a standard which is much more general and 
has very negative consequences on our interests. But there are 
a few points--questions I would like to ask.
    If the logic is bad leader, oppressive government, 
corruption, Iran comes to mind. But we, with my colleagues on 
the other side very enthusiastically leading the way, 
appropriated significant funds for democracy promotion in Iran. 
Why would we want in Bolivia--in Bolivia, we have a program 
that promotes democracy-building programs in municipalities far 
away from Evo Morales' control. Why do we want to wipe out 
those programs? We have counternarcotics programs going on in--
again, in Bolivia.
    Mr. Mack. Would the gentleman yield?
    Mr. Berman. Just 1 second. As I understand the gentleman's 
amendment, you are cutting out all economic assistance 
regardless of category to these five countries--five countries, 
each of which has their own problems, but are different 
countries--and we are lumping them together in a way that I am 
not sure makes sense. So I would be happy to yield to get a 
little more----
    Chairman Ros-Lehtinen. Mr. Mack.
    Mr. Berman [continuing]. Understanding of what the 
gentleman is intending here.
    Mr. Mack. Thank you.
    And the amendment is very clear that these are funds that 
go to the government. So these are some of the programs that 
you talked about are not included in this. This is about 
assistance to these governments.
    Mr. Berman. And my reply to the gentleman, the democracy-
building and counternarcotics programs, the democracy building 
goes to municipal governments, frankly, in many years where 
they are quite opposed to the policies of the central 
government. You don't distinguish between the central 
government and the municipal governments in this amendment, and 
the counternarcotics programs do go to the government. So this 
is a decision to cut out those programs. I haven't heard enough 
reason to feel comfortable doing that without understanding 
what we are getting from them and why they are concerned.
    So I understand the spirit of the gentleman's amendment, 
but I am just wondering if a strict application of these 
provisions doesn't undermine some of our interests here.
    Chairman Ros-Lehtinen. Is that a question for Mr. Mack?
    Mr. Berman. Only if he chooses to answer it.
    Mr. Mack. Well, I thank the gentleman.
    Look, I don't think that we can--you can't make the 
argument, let us say, in Bolivia that we have a program with 
the DEA, because the DEA isn't in Bolivia. So I think if you go 
through and look at the countries that we are pointing out 
here, each one of these countries has stood in the face of 
democracy and freedom in Latin America, whether it is 
Venezuela, Bolivia, Nicaragua, Ecuador. Argentina owes an 
incredible amount of money. So the idea that we are going to 
continue to fund these governments when they have no intentions 
in standing with us and fighting narcotrafficking, fighting 
drugs, fighting terrorism. In fact, the leaders of these 
countries all align with Hugo Chavez, who is trying to change 
the direction of Latin America. Hugo Chavez wants to see--he 
wants to be leader for life, and all of those other countries 
are moving in that same direction.
    So what we are saying is we have to make the hard choices. 
We don't have unlimited amounts of money. When it comes to 
these countries, they have shown that they do not support the 
ideals of freedom, security and prosperity in Latin America. 
And if they don't support those ideals, then we should no 
longer support----
    Mr. Berman. May I just reclaim my last second here?
    Chairman Ros-Lehtinen. If the gentleman would like to get 
time from another person, that would be great. We just went to 
Mr. Berman.
    Mr. Rivera is recognized.
    Mr. Rivera. Thank you, Madam Chair.
    It seems like I am reminiscing about the earlier debate 
regarding the amendment on the OAS. As Yogi Bear would say, 
this is deja vu all over again. How much longer does the United 
States need to subsidize anti-American behavior in the 
hemisphere? How much longer should the United States subsidize 
activities that run counter to U.S. national interests?
    When I spoke earlier on the OAS amendment, and I spoke 
about the OAS taking actions that run counter to U.S. national 
interests, those U.S. national interests include making sure 
that we have democracies that are moving more and more toward 
democratic reform, human rights, respect for civil liberties. 
That is not only in the interest of the United States, but in 
the interest of the entire hemisphere, in the interest of 
hemispheric cooperation, in the interest of hemispheric 
stability among all of our neighbors.
    These countries have taken concrete action to destabilize 
U.S. interests in the hemisphere, and those actions have 
already been outlined in part by Chairman Mack, and there are 
many others that perhaps we don't have complete time to 
deliberate. But there are many other activities that these 
countries have taken that run counter to U.S. national 
interests.
    So why, particularly in an era of economic austerity, and 
an era of budgetary constraints, why should we subsidize or 
continue to subsidize these countries? Let us finally send a 
message that we are not going to be the punching bag for 
countries that perhaps ostensibly or purportedly try in some 
way to give a semblance of a friendly relationship, but in 
reality, in practice they are taking actions that run counter 
to U.S. interests. And we should not subsidize--our taxpayers, 
United States taxpayers, should not subsidize anti-American 
activities, anti-democratic activities in the hemisphere, and 
that is why I support this good amendment.
    I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Rivera.
    Mr. Engel.
    Mr. Engel. Thank you, Madam Chairwoman.
    I am afraid I am going to have to disagree with my good 
friend Mr. Mack on this amendment, although we do share a lot 
of the concerns. This is sort of a one-size-fits-all approach, 
and I am not sure it is the best way to do it.
    For instance, I would not lump Argentina in with these 
other countries. Yes, there have been things in Argentina that 
have happened that we are perhaps not happy about, but I think 
that what is going on in Argentina--Argentina is a democracy, 
and we have relationships with that government. There are 
things on which we agree, and there are things on which we 
disagree. But, for instance, I would not--would put it in the 
same category as Venezuela.
    I think that is a little bit of a too simplistic approach. 
Bolivia, Evo Morales sort of makes his own bed, and he lies in 
it. I don't understand why he does half the things he does. 
Venezuela, we have all kind of given up. And Nicaragua, you 
know, we have seen a lot of things that make us very unhappy. I 
am disappointed with Ecuador. I think that they are expelling 
our Ambassador and we expel their Ambassador was foolhardy, but 
I wouldn't even put Ecuador in the category of Venezuela. I 
think when we do that, we push them further into the hands of 
Hugo Chavez, and I am not sure that is the right way.
    By this logic, for instance, when Lula was President of 
Brazil, which is a very important country, he was really 
collaborating with Iran. He did it many, many times in the U.N. 
He did it in terms of when we were able to get sanctions on 
Iran, he was trying to go a different direction. Would we then 
have included Brazil into that, an important country with which 
we need to have a good relationship with? Since their new 
leader Dilma is there, she is a lot better.
    And so are we to do this every time a country elects a 
government that we don't particularly like or that we think is 
wrong?
    So I have difficulty. I think we can decide a country by 
country. I don't think we need to lump everybody in. And I 
think that here, Argentina, it is the most egregious to put 
Argentina here.
    I have visited there several times. I met with the 
President and the Foreign Minister, who was the Ambassador here 
in Washington. I would not say that they are anti-American. I 
think they want to work with us. Yes, they have a good 
relationship with Hugo Chavez and Venezuela. He gives them 
money. He gives them oil. He helps pay off their debt. I don't 
think if a country has a relationship with Hugo Chavez it means 
that they cannot also have a positive relationship with us. I 
don't think it is an either/or situation. I think that they can 
do what is in their best interest, and it is in our best 
interest, I think, to have a good relationship with a country 
like Argentina, which again is a democracy. I went there, I 
visited. We took a codel there. We visited with their trade 
union movement with their people.
    Again, there are many, many countries that I think we can 
say that we don't agree 100 percent with, but I think putting 
Argentina in this group is not the right thing to do.
    Mr. Connolly. Would my colleague yield?
    Mr. Engel. Yes.
    Mr. Connolly. I would echo what he said. Look, this is a 
crude way of substituting for diplomatic engagement. We don't 
have to like the actions of another country, or many of their 
actions, or their leadership, or some of their votes or 
practices to nonetheless understand that we have to be engaged. 
We have no choice. To cut off aid of any kind, I think, has 
ramifications and limits whatever leverage the United States 
may yet still exercise.
    I certainly echo my colleague from New York's puzzlement at 
the inclusion of Argentina on this list. But nonetheless, this 
is a crude weapon. It impinges on any diplomatic leverage. It 
ought to be a last resort, not a first resort, and I believe it 
will have some unwitting consequences in terms of other things 
that matter to the United States not here discussed. I think it 
is a mistake to adopt this amendment, and I am going to vote 
against it.
    Mr. Engel. I want to reclaim my time for about 8 seconds. I 
just want to say of late Colombia has been having close 
relations with Venezuela. Do we want to eliminate Colombia, who 
is our best ally? And I am very supportive of Colombia. So I 
think we have to be careful to have these blanket things.
    I yield to Mr. Berman.
    Mr. Berman. Thank you for not much.
    Chairman Ros-Lehtinen. Does anyone seek recognition?
    Mr. Rohrabacher is recognized, and then we will go on that 
side.
    Mr. Rohrabacher. Okay. So we are only spending $1.5 
trillion more than we are taking in. If the money we are 
sending these countries--we are borrowing from China and giving 
the debt to our children, who will have to pay it off some day. 
So what? Let us just give it to them. Cutting off aid in any 
way to anybody is a crude weapon.
    Well, I have got to tell you, I hope the American people 
hear this loud and clear, because that is not in keeping, I 
don't believe, and they will determine who they elect and 
decide to have up here on these desks making these decisions. 
We--they know we are on the edge of a catastrophe, an economic 
catastrophe.
    Mr. Berman. Would the gentleman yield?
    Mr. Rohrabacher. Not until I finish.
    We are talking about a collapse of our currency unless we 
do something rather than going in to debt $1.5 trillion a year, 
$1.5 trillion a year for the last 3 years. That is almost $5 
trillion. What is the interest on that? And we can't cut out 
people from receiving our money and adding to that debt; we 
can't just say, okay, if you are really having a negative 
attitude toward us, we are not going to give you the money and 
put our kids further in debt? We can't do that? What can we do? 
Come on. In that is your philosophy? This is my philosophy: Let 
us let the American people decide.
    Thank you. I will yield to my friend Mr. Berman.
    Mr. Berman. He doesn't want it anymore.
    Mr. Rohrabacher. Okay. Thank you.
    Mr. Connolly. Would you yield to me for a question?
    Chairman Ros-Lehtinen. Mr. Connolly is recognized.
    Mr. Connolly. I thank my colleague from California.
    I am just curious, you have repeatedly throughout this 
markup brought up the fact that a significant percentage of any 
dollar for diplomacy, for USAID, for a State Department is 
largely a borrowed dollar, and the clear indication being that 
is a negative thing. So should we cut back on aid to Israel, 
because the same percentage of borrowed dollars applies to 
Israel, which is one of the larger aid programs we have.
    Mr. Rohrabacher. If Israel started to be engaged in anti-
American activity, and we determined they were going in that 
direction, the answer is yes.
    And I would suggest to you that the reason why I am saying 
every dollar that we spend is a borrowed dollar, because 40 
percent of our budget is borrowed, I am taking it for granted 
that the other 60 percent are things like Social Security, 
Medicare, things that really are important directly to the 
American people, and that what we are talking about is part of 
that 40 percent that is not really totally directed to their 
personal well-being at the moment. But I would think that 60 
percent of our budget is in that way. So the 40 percent that we 
are talking about is borrowed. So we are borrowing this from 
China in order to give to countries that express themselves 
very well in the fact that they don't like us? Sorry.
    Chairman Ros-Lehtinen. The gentleman yields back.
    I know Mrs. Schmidt wants to be recognized, but first, Don 
Payne.
    Mr. Payne. Thank you very much.
    I do think when we have this start/stop kind of policies 
that we are starting to do now, we sort of, I think, defeat the 
long-term goals of our foreign policy. These countries here at 
different times were close to the U.S. They have--perhaps a 
little bump has come in the road. We have countries that we had 
very terrible relations with; Peru, for example, when Sendero 
Luminoso was killing people, and Fujimori came in and 
eliminated them, and then Fujimori became the bad guy, and we 
put them on the bad list, and now they are back on the good 
list.
    We are taking the short-term--we are a relatively new 
country; however, the fact that we look at things on an annual 
basis rather than a 15- or 20-year plan, I think, is kind of 
short-sighted. We sort of--like they used to say in Britain, 
penny wise and pound foolish. You know, the British pound. The 
fact that we have changed--we are willing now to throw some of 
these countries out, whereas they were our allies before.
    What I am saying is that I think if we had a long-term 
plan--as was mentioned, Brazil now, I think, is going to become 
one of our closer allies, very important with a several-
hundred-million-people population and the economic growth where 
we can have some trade relations. But we had bad relations with 
them before because we didn't like the guy who got elected 8 
years ago. Sixteen years ago--8 years wasn't as bad as that 
one--and now the new President seems to be okay.
    So my point is that if we have these short-term, jerky, 
bump-in-the-road, roller coaster policies, we are not going to 
win in the long run. So I would hope that we could take a 
vision that could certainly be more than sort of a knee-jerk 
type of reaction. And I will certainly yield to the gentleman 
from California.
    Mr. Berman. I thank the gentleman for yielding. And I 
wonder if the author of the amendment would be open to a few 
exceptions to his prohibition on aid.
    In Bolivia, yes, the DEA--the Drug Enforcement Agency is 
not there, but the NAS--Narcotics Assistance Section of the 
State Department--has a counternarcotics program in Bolivia, 
one of the world's three largest suppliers of the foundations 
for cocaine that is dealing with eradication of the growth of 
coca leaves. That is going through the government.
    Maybe there--yes, Bolivia is opposing a lot of our 
initiatives, but is this something that we are doing for 
Bolivia, or are we doing it for ourselves? Is the program 
worthless and ineffective?
    The gentleman talked about democracy programs and other 
things like that. Would the gentleman be open to exempting 
assistance provided through nongovernmental organizations even 
though it is because there may be government people being 
trained, teachers being trained, health workers may be trained? 
This is wiped out by your amendment. If there is a chance to do 
what you want to do, even though I don't like lumping Argentina 
into the category with Venezuela and Nicaragua, but if he is 
open to some exceptions, I would be interested in knowing, 
because that might be a way we could get you some support you 
may not need for your amendment. But sometimes a belt and 
suspenders----
    Chairman Ros-Lehtinen. Mr. Mack.
    Mr. Mack. I thank the gentleman. And let me just say this, 
that I think I will stick with the amendment as written, 
because I think it is important that we send a message to our 
friends and our allies and to those who oppose us. And these 
countries clearly have aligned with each other to denounce, if 
you will, into the ideals of freedom, security and prosperity. 
And I don't think that we ought to continue to support with 
taxpayer dollars governments that have no interest in those 
ideals.
    Mr. Berman. Well, just to reclaim the time that Mr. Payne 
controls, if he will continue to yield to me.
    Mr. Payne. Yes.
    Mr. Berman. I would say I thought you guys were supply-
siders. Well, the supply of cocaine in the United States is 
very much contributed to by----
    Chairman Ros-Lehtinen. Thank you. The time has expired.
    Mr. Berman. I don't know why you want to wipe out a program 
that is for us, not for Bolivia.
    Chairman Ros-Lehtinen. Mrs. Schmidt is recognized.
    Mrs. Schmidt. Thank you, Madam Chair.
    And I want to applaud my good friend from Florida for this 
amendment. Tonight, while we have got papers up here debating 
what amendments to support and not support, there are millions 
of Americans out there at their kitchen tables trying to figure 
out how to balance their budgets and pay their bills. And so 
their papers look a little different. It might be their energy 
bill, it might be their mortgage payment, it might be their car 
payment. And I say that because as they struggle in this 
recessed economy to meet their bills, their demands, we in our 
Nation need to be doing the same with ours, and we cannot 
continue to spend money that we don't have. And we certainly 
can't afford to spend money in ways that I think are wrong for 
this Nation, and I think that the people at the tables tonight 
who are paying their bills would ask us why.
    And I really want to look at the countries that Mr. Mack 
has included and ask why would we be giving them our hard-
earned money, our taxpayers' hard-earned money? Argentina, you 
know, Argentina is undermining both the United States judicial 
system and the settlement process at the World Bank. Argentina 
owes the United States bondholders more than $3.5 billion. It 
has caused the U.S. bondholder, taxpayers and shareholders more 
than $10 billion. And in addition, it has seized sensitive U.S. 
military equipment for domestic political maneuvering.
    Venezuela, well in addition to Chavez not being a really 
great guy, they sponsor terrorism and drug trafficking, and 
they provide assistance to Iran.
    Bolivia kicked out the DEA, kicked out the U.S. Ambassador, 
aligns with ALBA, and undermines democracy.
    Nicaragua invaded Costa Rica. Ortega unconstitutionally is 
running for a third term and has a very close relationship with 
Iran.
    Ecuador refuses to regulate its borders with Colombia, 
where the majority of the FARC are. So while Colombia is trying 
to get rid of drug trafficking along its border with Ecuador, 
they are allowing the ties to continue. The government official 
ties are very close with the FARC, and they kicked out the U.S. 
Ambassador, and undermine freedom of the press.
    We have got to figure out how we are going to spend 
American taxpayer dollars, and they are really concerned about 
spending it with foreign aid. When I go back home, that is the 
one thing that people say to me is, ``Why are you giving it to 
foreign countries, why don't you keep it here?'' Well, there 
are reasons why we give it to foreign countries, countries like 
Israel, which, by the way, for every dollar that we give them, 
we actually get 75 cents of that dollar back right here in the 
United States. But there are countries that maybe we shouldn't 
be giving those taxpayer dollars to. And I applaud Mr. Mack for 
pointing out that maybe these are countries we should say, 
``Hey, not until you straighten up your act, you are not going 
to get money from us.''
    So I urge my colleagues to support this amendment. And it 
is not because of an ideological difference between the other 
side and my side. It is because the American public is asking 
us, point blank, ``Why are we giving any foreign assistance 
money, period, case closed?'' We have to go back and defend it. 
We better doggone well not have to answer why are we giving it 
to Argentina, Venezuela, Bolivia, Nicaragua and Ecuador because 
I cannot support them, but I can support other countries.
    I yield back my time.
    Chairman Ros-Lehtinen. Thank you so much, Mrs. Schmidt.
    Mr. Meeks is recognized, and then Mrs. Ellmers.
    Mr. Meeks. I, of course, understand that my friend from 
Florida really believes that he is doing the right thing, but I 
really think that what we are looking at--you know, it is pay 
me now or pay me later. To have this kind of policy really says 
and belittles, I think, the people that we need--we are working 
with on our hemisphere and these countries.
    I mean, Bolivia, for example, do we have an interest? Of 
course we have an interest, because when you talk about cocaine 
and drugs and things of that nature, we want to make sure that 
it doesn't come over here, so we need to interact with that 
government and governments like it so that we can make a 
difference, and so that we can--and when President Morales was 
elected, it was a big thing for the Bolivian people, the first 
time an individual who happened to be an Indian from the--he is 
from the community. It was a big thing for them. It was a 
democracy. Democracies are--democracy is sometimes messy. You 
can't determine--I mean, I wish in the United States I could 
determine the outcome of the elections that we have, and I can 
determine who is the President and who is going to be the 
President of the United States, and those that I like I will 
stay with, and then those that are elected that I don't like, I 
will take myself out of the Nation.
    It doesn't work that way. I am compelled to deal with who 
the people have decided that they are going to elect. So it is 
the same situation when we talk about our hemisphere. We can't 
vote, nor should we, nor should we tell the people in these 
countries who they should elect. But what we have got to do, 
and I think similar, I think that Mr. Engel mentioned it--I see 
what is taking place with President Santos where he and 
Venezuela were--Colombia and Venezuela were completely at odds, 
and he decided to take a different tack to figure out how he 
can have a better relationship based upon the interests that 
Colombia has with Venezuela.
    Well, the same thing that we should do. We should look at 
this in a tactical manner and figure out the best way that we 
can continue to move to get the results that we need, and 
understanding at times we are going to have these governments 
that--or these Presidents that are not the ones that we would 
have selected. But it doesn't mean that we have a herky-jerky-
type situation and say, okay, the guy that we like or the lady 
that we didn't like got elected, so therefore we are going to 
change all of our policies, we are not going to do anything, we 
are going to cut all of the programs. I think that is--it is 
short-sighted. It does not have any vision. It is--you can have 
short-term gain. It makes you feel good, short-term gain, but 
you will probably be in for some long-term pain. I think what 
we need to do is maybe have some short-term pain so that we can 
have some long-term gain and better relationships overall on 
our hemisphere.
    Mr. Connolly. Would my colleague yield?
    Mr. Meeks. Yes, I yield.
    Mr. Connolly. I just wonder whether my colleague is as 
puzzled as I am. If we are going to make these the criteria, 
why wouldn't we have Pakistan on the list? I mean, they are 
shooting at--in some cases reportedly at allied troops in the 
Afghan border, harboring terrorists----
    Chairman Ros-Lehtinen. Wait a minute.
    Mr. Connolly [continuing]. Noncooperation in terms of our 
fight against terrorism and insurgency, corruption, compromise 
of intelligence. One could go on and on and on. Frankly, the 
countries here on this list are penny ante compared to the 
magnitude of Pakistan. So if we really mean it, why wouldn't we 
add Pakistan to the list?
    Mr. Payne. Mr. Rohrabacher?
    Mr. Rohrabacher. I hope you will wait. I have an amendment 
on the floor.
    Chairman Ros-Lehtinen. Whose time is it?
    Mr. Gregory Meeks.
    Mr. Meeks. My time, and I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mrs. Ellmers.
    Mrs. Ellmers. Thank you, Madam Chairman.
    We on this side--and thank you to my colleague from Florida 
for offering this amendment. And I echo the sentiments of my 
fellow colleague from Ohio on this issue.
    I keep hearing over and over again from our colleagues on 
the left about being penny wise and pound foolish. Well, it is 
difficult when the American people see of every dollar that is 
spent in this country, 42 of those pennies are borrowed from 
other countries for these purposes. So we continue to spend 
money we do not have.
    And we understand international diplomacy. We understand 
these issues. But the fact of the matter is we have got to put 
an end to this wasteful spending and giving money to countries 
that we really need to pull back on because of their continued 
policies. And it is just very frustrating to hear how--what a 
luxurious lifestyle we are all living, and as far as short-term 
pain, the American people have been in pain for 2\1/2\ years. 
This is pain, real pain. And it is time we put an end to this.
    And I would just like to say also that I would like to 
again thank my colleague from Florida for offering this. This 
is very needed, a very needed amendment. And I would like to 
yield a moment of my time to Ms. Buerkle, if that----
    Chairman Ros-Lehtinen. Ms. Buerkle is recognized.
    Ms. Buerkle. Thank you. Thank you, Madam Chairman. Thank 
you to my colleague for yielding time to me. I will be brief.
    I want to speak in support of Mr. Mack's amendment. I want 
to say that the definition of insanity is to continue doing the 
exact same thing and expecting a different result. When I hear 
my colleagues on the other side talk about stopping and 
starting diplomacy, that is exactly what this body should be 
charged with. If a program isn't working, if we are funding a 
corrupt government, or we are funding a government that does 
not espouse our values, then, yes, we will stop. We should not 
support them. We should not expect the same result when we 
continue to fund these countries. So I thank you, and I yield 
back to Mrs. Ellmers.
    Chairman Ros-Lehtinen. Thank you so much, Mrs. Ellmers and 
Ms. Buerkle.
    Do other members wish to be recognized on this amendment? 
If not, then----
    Mr. Payne. Recorded vote.
    Chairman Ros-Lehtinen. Yes, we will get to that part. So 
hearing no further requests for recognition, the question 
occurs on the amendment. Mr. Mack has requested a roll call 
vote already. So because of our previous agreement, this will 
be the second roll call vote that will take place at 8:15, in 
just a little bit. So thank you, Mr. Mack, for that amendment.
    Mr. Cicilline is recognized, and then we will have Mr. 
Poe's amendment.
    Mr. Cicilline. Thank you, Madam Chairman.
    I have an amendment at the desk. It is an amendment which 
is also cosponsored by Mr. Keating of Massachusetts.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. 
Cicilline of Rhode Island and Mr. Keating of Massachusetts. At 
the appropriate place in title IV, insert the following: 
Section [blank]. Sense of Congress regarding the Millennium 
Challenge Corporation. (a) Findings. Congress finds the 
following: (1) The Millennium----
    Mr. Cicilline. Madam Chairman, I would ask for unanimous 
consent that the amendment be deemed as read.
    Chairman Ros-Lehtinen. Correct.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. And we will just then suspend until 
the members have the amendment. And I do have the list of the 
Republicans who are offering an amendment. But, Mr. Payne, did 
you say you had an amendment also? So we have Cicilline for the 
Democrats. I have Cicilline, Deutch, and Payne. And do let me 
know so I can put you in the queue.
    Everyone has the amendment?
    And Mr. Cicilline is recognized at this time.
    Mr. Cicilline. Thank you, Madam Chairman.
    This amendment is a sense of Congress language describing 
the success of the Millennium Challenge Corporation's first 
compact in Cape Verde. Members of the committee know, the MCC 
funding is based upon an assessment of a country's political, 
social and economic conditions, and the country's ability to 
promote sustainable economic growth. In order for a country to 
be selected as eligible for an MCC program, it must demonstrate 
a commitment to just and democratic governance, investments in 
its people and economic freedom as measured by 17 different and 
very specific policy indicators, control of corruption and 
commitment to rule of law among them. And in Cape Verde, the 
Millennium Challenge strategy has focused on microfinance 
development and improved access to credit for farmers.
    The Millennium Challenge has played a really important role 
in helping to transform Cape Verde's economy and help it create 
sustainable growth. My amendment simply recognizes the 
tremendous progress that Cape Verde has made and expresses the 
sense of Congress that a second compact would help Cape Verde 
build on the successes of the first compact.
    Chairman Ros-Lehtinen. Would the gentleman yield a second? 
We love your amendment, and Mr. Smith is ready to speak in 
favor of it, but I am wondering, would you like to read your 
statement nonetheless?
    Mr. Cicilline. Just one more paragraph.
    Chairman Ros-Lehtinen. Go right ahead. Threw you off your 
track.
    Mr. Cicilline. Yeah. Again, this amendment again--the award 
to Cape Verde demonstrates that MCC adheres strictly to its 
indicators about achieving results and investing in countries 
where it will be most effective, and really allows us to 
leverage our investment and build upon the investments we have 
already made. And I think it is important that when a small 
country like Cape Verde has made such progress, we want to 
really use it as a way to incentivize other countries to 
compete and develop policies that will help them sustain 
sustainable economic growth. So I thank--I have learned early 
to quit while I am ahead.
    Chairman Ros-Lehtinen. Thank you. And I know that this is 
cosponsored by our friend Mr. Keating of Massachusetts as well.
    We thank the gentleman for yielding back the time.
    Mr. Smith is recognized.
    Mr. Smith. Thank you very much, Madam Chair. I will be very 
brief.
    This amendment encourages the MCC to conclude a compact 
with Cape Verde. Cape Verde has proven to be a small but 
reliable partner, and has demonstrated respect for the rule of 
law, economic freedom and investing in people. Cape Verde was 
one of the first countries to qualify for, negotiate and 
implement a compact, which helped create jobs, reduce poverty, 
and create a sound investment environment, which sets the 
country on a trajectory to aid--to trade. Through MCC Cape 
Verde, though it was granted some $110 million for their 
compact, they have expended just $103 million to date, 
demonstrating fiscal constraint and saving the U.S. taxpayer $7 
million.
    I point out that a second compact for Cape Verde was 
included in the Millennium Challenge Corporation's Fiscal Year 
2012 request. Given existing resources and the opportunity to 
leverage private sector resources, the MCC has reduced the 
budget range for a second comeback for Cape Verde from $75 
million to $100 million to $50 million to $70 million. However, 
in supporting the amendment, I would like to emphasize that I 
fully expect the MCC to continue to adhere to its core 
principles and rigorous performance indicators. And again, I 
thank----
    Chairman Ros-Lehtinen. The gentleman yields back.
    Do any other members seek recognition to speak on the 
amendment?
    Mr. Payne.
    Mr. Payne. I certainly concur with the two previous 
speakers. I think Cape Verde is a very good example of how the 
MCC works, and it is doing an outstanding job. It is very close 
to our Government. Many of our codels were refueling. In the 
old days when we had codels, we would stop in Cape Verde for 
refueling, a very pleasant country, very cooperative. So I just 
would like to add my support to this amendment.
    Chairman Ros-Lehtinen. Thank you.
    Seeing no other members seeking recognition to speak on the 
amendment, the question occurs on the amendment. All those in 
favor, say aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
amendment is agreed to.
    And Mr. Poe is recognized for his amendment.
    Mr. Poe. I have an amendment at the desk, No. 155.
    Chairman Ros-Lehtinen. Thank you. The clerk will read the 
amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Poe of 
Texas. At the end of title IV, add the following: Section 4xx. 
Guidelines for United States foreign assistance programs. (a) 
Purpose. The purpose of this section is to evaluate the 
performance of United States foreign assistance programs and 
their contribution to policy, strategies, projects, program 
goals, and priorities undertaken by the Federal Government, to 
foster and promote innovative programs to improve the 
effectiveness of such programs, and to coordinate the 
monitoring and evaluation processes of Federal departments and 
agencies that administer such programs. (b) Establishment of 
guidelines. The President, in consultation with the 
Administrator of the United States Agency for International 
Development----
    Mr. Poe. Madam Chair, I move that we waive the reading of 
the rest of the amendment.
    Chairman Ros-Lehtinen. Thank you. It is so granted.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. We will just give 1 minute for all 
of the amendments to be distributed.
    And the gentleman is recognized.
    Mr. Poe. Thank you, Madam Chair.
    This amendment is really the second amendment in two. The 
first one was for transparency, which we passed by a voice 
vote. This amendment requires monitoring and evaluation done by 
the President for setting up guidelines for goals and 
benchmarks for all foreign aid programs.
    I want to thank the ranking member Mr. Berman and his staff 
for their input on this amendment.
    Right now, foreign aid programs are not measuring results. 
USAID, which has done more than any other agency except MCC on 
monitoring and evaluation, isn't even requiring its programs to 
have a way to measure results, let alone implementation, until 
Fiscal Year 2013.
    So, since the passage of the Foreign Assistance Act in 
1961, foreign aid programs have spread across 12 departments, 
25 agencies, 60 Federal offices. Funding levels for foreign aid 
have doubled in the last 10 years. And lack of accountability 
really invites waste, fraud, and even corruption.
    The losers are those the programs are trying to help 
overseas and the Americans who pay for all of this. So there 
must be a clearly defined set of standards that is applied to 
all foreign assistance programs. And I urge adoption of this 
amendment that monitors and evaluates all foreign aid programs.
    And I yield back.
    Chairman Ros-Lehtinen. Thank you, Mr. Poe.
    Mr. Faleomavaega. Will the gentleman yield?
    Chairman Ros-Lehtinen. Mr. Faleomavaega?
    Mr. Faleomavaega. I just wanted to ask the gentleman, the 
sponsor of the amendment, a question.
    Chairman Ros-Lehtinen. If the gentleman would yield, Mr. 
Poe?
    Mr. Poe. Certainly.
    Mr. Faleomavaega. I would just like to ask the gentleman if 
there was any reason why the Secretary of State is not included 
in the process of consultation. In the establishment of 
guidelines, the first page, I notice that we have USAID, we 
have the Secretary of Defense, got the MCC, but I was just 
wondering, to the gentleman, if there was any reason why the 
Secretary of State is not included.
    Mr. Poe. Well, it requires the President to set up the 
guidelines. I just mentioned USAID and MCC because they are 
doing something. But I prefer that the President set the 
guidelines and the benchmarks and the standards, rather than 
the Secretary of State. It is just a choice.
    Mr. Faleomavaega. I see. The Secretary of Defense is also 
included in the consultation. Is there a reason?
    Mr. Poe. Well, the Secretary of Defense--the Defense 
Department does foreign assistance, as well. That is the 
reason.
    Mr. Faleomavaega. Okay. I thank the gentleman.
    Chairman Ros-Lehtinen. Thank you.
    Do other members seek recognition on this amendment?
    Mr. Berman?
    Mr. Berman. Yes, I rise in very strong support of this 
amendment. I was going to offer an amendment on this subject, 
and the gentleman from Texas has offered an amendment that I 
think is as good as the one I was going to offer, and I am 
biased in favor of myself.
    So I hope the committee adopts it. I congratulate him. I 
think it is a significant contribution to the improvement of 
our foreign assistance program. And I encourage your 
enthusiastic support for it.
    Mr. Payne. Madam Chair?
    Chairman Ros-Lehtinen. Mr. Berman yields back.
    Mr. Payne is recognized.
    Mr. Payne. Yes. I think that this resolution has some 
merit, especially since Mr. Berman has agreed that it does.
    However, I also wonder about the organizations mentioned. 
And I really have a problem with us including the Department of 
Defense in foreign assistance per se.
    Now, we do know that the Department of Defense, if they are 
in a country, will help to build the road. However, there has 
been suspicion in the past when the Department of Defense or 
some of our agencies, like the CIA or others that were involved 
in so-called foreign assistance, also became involved.
    And one of the problems that initially confronted AFRICOM 
was that the African nations felt that foreign assistance now 
was going to be determined by the military, that there would be 
a general in charge and the USAID and other programs would have 
to get approval from AFRICOM that would be in charge. And after 
several years of assuring the African countries that this was 
not a military movement, this was not a program to simply 
protect U.S. military interests and fight al-Qaeda or protect 
the oil in the Gulf of Guinea, that there had now been an 
acceptance that AFRICOM, in its new reorganization, may be 
positive.
    So I just cringe a little bit when I see the Department of 
Defense included in USAID or the Department of State and would 
question--I don't think it would weaken your amendment at all 
if you would consider perhaps not having the Department of 
Defense mentioned, but when in instances that they do indeed 
become involved, they would kind of be consulted.
    Mr. Berman. Would the----
    Mr. Payne. Yes, I will yield to the gentleman.
    Chairman Ros-Lehtinen. Mr. Berman?
    Mr. Berman. I appreciate it.
    The way to make the amendment better than what I was going 
to offer is, certainly, the Secretary of State should be in 
there. I assume it was----
    Mr. Payne. Absolutely.
    Mr. Berman [continuing]. Inadvertent that the Secretary of 
State is not included. Since we have not made USAID an 
independent agency, the administrator works under the 
Secretary.
    And I do see a logic to the Secretary of Defense when we 
are dealing with 1206 funding. There are a lot of--I think too 
much--assistance administered through the Department of 
Defense, such as the whole Pakistan counterterrorism fund and 
all that. So there is logic for evaluation of those programs 
with Defense. Mr. Payne's suggestion is not a bad one, have 
them focus on those programs.
    But I do think it is a glaring omission not to have the 
Secretary of State as one of the people being consulted. And I 
am hoping the gentleman might----
    Mr. Payne. Reclaiming my time. I agree that the Secretary 
of State certainly should be in there. I think that was 
mentioned before. And it is sort of like the tail wagging the 
dog, because USAID is a part of the Department of State.
    I think that evaluations of Defense programs ought to be 
done by the Department of Defense. I think that some 
legislation like this for the Department of Defense should also 
be in--as a matter of fact, we spend maybe $50 billion a year 
on all foreign assistance, or less, even including MCA. We 
spend $700 billion on defense. So I would prefer to even see 
something like this set up for Defense.
    I just think it is inappropriate; however, I would not vote 
against it because it--I just think that we continue to have 
certain countries who remember Vietnam and remember the old 
days of Iran-Contra and so forth. To say with the Department of 
Defense being our aid agency, I think just, in my opinion, it 
sends the wrong message.
    Mr. Poe. Would the gentleman yield?
    Chairman Ros-Lehtinen. Mr. Poe?
    Mr. Payne. Yes, Mr. Poe.
    Mr. Poe. I ask unanimous consent that we add the Secretary 
of State.
    Chairman Ros-Lehtinen. Without objection?
    Mr. Faleomavaega. I thank the gentleman.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Poe. I yield back.
    Chairman Ros-Lehtinen. The clerk will make that addition.
    And does Mr. Payne yield back?
    Mr. Payne. I yield back. Thank you.
    Chairman Ros-Lehtinen. Thank you.
    Does any other member seek recognition?
    Hearing no further requests for recognition, the question 
occurs on the amendment.
    All those in favor, say aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
amendment is agreed to.
    Congratulations, Judge Poe.
    Mr. Deutch is recognized.
    Mr. Deutch. I thank you, Madam Chairman.
    I have two amendments at the desk. The first is Amendment 
623.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Deutch 
of Florida. At the end of title IV, insert the following: 
Section [blank]. Nonproliferation, antiterrorism, and demining. 
For nonproliferation, antiterrorism, and demining programs, not 
more than $740 million is authorized to be appropriated to the 
President for Fiscal Year 2012.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Thank you.
    Hold on 1 second, Mr. Deutch, and we will give out the 
amendment.
    The amendment having been given out, the gentleman is 
recognized to explain his amendment.
    Mr. Deutch. Thank you, Madam Chairman.
    As the ranking member noted earlier, the name of this title 
is ``Foreign Assistance,'' but the title omits authorization of 
key activities. Foreign assistance is not just development. It 
encompasses a broad swath of activities to support partners and 
advance U.S. national security.
    A key area of this assistance is the nonproliferation, 
antiterrorism, demining, and related programs account. It 
encompasses counterterrorism assistance, demining, and 
nonproliferation activities at the Department of State--some of 
the most important functions of the entire national security 
apparatus. The text before us omits authorization for these 
programs.
    These programs keep America safe and help us strengthen our 
partners. States' nonproliferation programs help halt the 
proliferation of weapons of mass destruction, their delivery 
systems, and advanced conventional weapons systems, with 
particular emphasis on denying such weapons to terrorists. 
These programs also support multinational exercises under the 
Proliferation Security Initiative and the destruction of WMD 
weapons.
    The Global Threat Reduction Program supports specialized 
activities aimed at reducing the threat of terrorist or state 
acquisition of WMD materials and expertise through such 
activities as scientist redirection and engagement. 
Antiterrorism programs provide training and equipment to help 
build the counterterrorism capabilities of partner nations.
    The coordinator for counterterrorism is expanding the 
Department's efforts to counter violent extremism in high-
priority countries. This is exactly what we need to do to 
ameliorate the need for military action down the road.
    The NADR account also funds the TIP/PISCES program, which 
provides computerized watch-listing systems to partner nations 
that enable immigration and border control officials to quickly 
identify suspect persons attempting to enter or leave their 
countries.
    Finally, NADR supports humanitarian demining efforts like 
the Conventional Weapons Destruction Program.
    The bottom line, Madam Chairman, is that these programs are 
critical to U.S. national security. We should fully exercise 
our committee's prerogative by authorizing these programs 
specifically in the bill. I urge adoption of this amendment.
    And I yield back.
    Chairman Ros-Lehtinen. Thank you.
    And the gentleman yields back.
    And speaking of critical issues, pizza has arrived for 
members on both sides of the aisle in the side room.
    Which member would like to be recognized for the Deutch 
amendment?
    Mr. Rohrabacher?
    Mr. Rohrabacher. Mr. Deutch, where did you come up with 
this $740 million number?
    Mr. Deutch. If I may, the $740 million is the Fiscal Year 
2011 number, which is consistent with the balance of this bill.
    Mr. Rohrabacher. Okay. So your proposal is just basically 
to carry over what we were doing last year----
    Mr. Deutch. That is correct.
    Mr. Rohrabacher [continuing]. Over to this year.
    Mr. Deutch. That is correct.
    Mr. Rohrabacher. Okay. All right. Just wanted to know where 
it came from. Thank you very much.
    Mr. Deutch. You are welcome.
    Chairman Ros-Lehtinen. Thank you.
    Do members wish to speak on this amendment?
    Mr. Royce. Yes, I will speak----
    Chairman Ros-Lehtinen. Mr. Royce is recognized.
    Mr. Royce. Yeah, I appreciate the gentleman's concern about 
this account, the NADR account. I have watched this account 
very closely over the years. As a matter of fact, Mr. Sherman 
and I, some years ago, worked together to make sure there were 
sufficient resources to combat the threat from shoulder-fired 
missiles, and the account got beefed up.
    But this amendment envisions a NADR account beyond what the 
President has called for. And the President's request is 
$708,540,000. So this amendment then goes and adds $30 million 
to the President's request, and it does so without saying why 
or identifying how that money would be spent.
    Now, if the President thought he could spend more money if 
the administration thought they could, we would know they would 
try to do that. But as I said before, we have to make choices. 
And going above the President's request just isn't a choice I 
think we are in the position to make.
    And I would also add that, in terms of the Appropriations 
Committee, they are in line with our number here--they are in 
line with the President's request. They are in line with the 
President's request.
    So, if the State Department thinks that this account 
request was shortchanged, I haven't heard anything from them. 
And as I indicated, we have worked with them closely on this 
account over the years. I chair the relevant subcommittee. No 
one has alerted me to the fact that they feel the President's 
request is insufficient.
    So I have to oppose this amendment. And to go back to the 
argument at hand, just to add $30 million to this without a 
compelling reason why, at a time when we have to make tough 
choices and when that is not what the State Department or the 
administration is asking for, is not a good idea.
    Mr. Deutch. Will the gentleman yield?
    Mr. Royce. I oppose the amendment.
    Mr. Deutch. Will the gentleman yield?
    Mr. Royce. Sure, I would be happy to yield.
    Mr. Deutch. This is not--just to clarify for the gentleman 
from California, this is not an increase from the President's 
requested amount to $740 million. This is an increase from zero 
to $740 million.
    Mr. Royce. No, it is not--it is not zero, because--the 
reason it is not zero, Mr. Deutch, reclaiming my time, is 
because I took the time to talk to the Appropriations Committee 
this morning to find out what the appropriations is, and the 
appropriation is $708,540,000.
    Mr. Deutch. If the gentleman will yield, there is nothing 
in this bill, in the underlying bill, that reauthorizes these 
programs. There is nothing in this bill that reauthorizes these 
programs.
    I will gladly accept an amendment to my amendment to change 
the $740 million to the $708 million requested by the 
President.
    Mr. Royce. Well, I think that is what you ought to do.
    Chairman Ros-Lehtinen. If the gentleman would yield, would 
there be any objection to changing the amount? The sponsor of 
the amendment would agree to that.
    Mr. Faleomavaega. Madam Chair?
    Chairman Ros-Lehtinen. It is a matter of the President's 
numbers--yes?
    Mr. Faleomavaega. Madam Chairman, I do have a question 
about----
    Chairman Ros-Lehtinen. Oh, yes, Mr. Faleomavaega.
    Mr. Faleomavaega. Mr. Deutch, I know----
    Chairman Ros-Lehtinen. We will just start the 5 minutes----
    Mr. Faleomavaega [continuing]. That in one of the drafts 
earlier, the proposed authorization, there was a specific 
section dealing with demining and, I believe, nonproliferation. 
And then the latest draft, there was no provision whatsoever. 
And I think this is the reason why Mr. Deutch has offered this 
amendment.
    And, specifically, I wanted to ask Mr. Deutch about the 
issue of demining. And I had intended and wanted to include 
unexploded ordnance, the fact that we dropped 2 million pounds 
of cluster bombs in Laos and Cambodia for which we never really 
did an honorable job in cleaning up the mess that we created in 
those two countries--countries that never waged war against us.
    And I wanted to ask the gentleman, how much money is being 
allocated for purposes of cleaning up mines? I presume it is 
land mines, but I wanted to know if there is any provision in 
there that touches on unexploded ordnance as well as cluster 
bombs.
    Chairman Ros-Lehtinen. Mr. Deutch?
    Mr. Deutch. I thank the chairman.
    If this amendment is adopted, there is $5 million for 
conventional-weapons destruction in Laos and $4 million, 
$3,940,000, for conventional-weapons destruction in Cambodia.
    Mr. Faleomavaega. I thank the gentleman.
    Chairman Ros-Lehtinen. Thank you.
    And, Mr. Deutch, if I could have that number again--did we 
write that down--that Mr. Royce had given, since you were in 
agreement? It is the President's number for Fiscal Year 2012: 
$708,540,000.
    If the clerk would note that, then I think that we are 
ready, if there are no further requests for time, to voice vote 
this Mr. Deutch amendment.
    Hearing no further requests for recognition, the question 
occurs on the Deutch amendment.
    All those in favor, say aye.
    All opposed, no.
    In the opinion of the Chair, the ayes have it, and the 
amendment is agreed to.
    Congratulations, Mr. Deutch.
    Now, pursuant to the earlier announcement, the following 
postponed votes will be taken in the following order: We have 
pending the Schwartz amendment to strike section 407, 
conditioning assistance on the MCC corruption performance 
indicator; and the Mack amendment, limitation on assistance to 
Argentina, Venezuela, Nicaragua, Ecuador, and Bolivia.
    And, Mr. Deutch, I know you have another amendment. Mr. 
Duncan has, like, three others. So we will take--and we have a 
bunch. So we are taking them one at a time. But thank you.
    So we are ready to vote.
    Mr. Berman, ready?
    You ready, gang?
    We are ready to go.
    Yes?
    Mr. Berman. You are certainly within your rights to go. I 
feel a little bad that the author of the amendment isn't back 
yet, and I am sure she will be here in a minute.
    Chairman Ros-Lehtinen. No. I think we were very clear. And 
we are pretty nice about accommodating folks, but we were 
pretty darn clear.
    So, pursuant to the earlier announcement, the following 
postponed votes will be taken in the following order: First, 
the Schwartz amendment to strike section 407, conditioning 
assistance on the MCC corruption performance indicator.
    The clerk will call the roll.
    Ms. Carroll. Madam Chairman?
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no.
    Mr. Smith?
    Mr. Smith. No.
    Ms. Carroll. Mr. Smith votes no.
    Mr. Burton?
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no.
    Mr. Gallegly?
    Mr. Gallegly. No.
    Ms. Carroll. Mr. Gallegly votes no.
    Mr. Rohrabacher?
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo?
    [No response.]
    Ms. Carroll. Mr. Royce?
    [No response.]
    Ms. Carroll. Mr. Chabot?
    Mr. Chabot. No.
    Mr. Manzullo. No.
    Ms. Carroll. Mr. Manzullo votes no.
    Mr. Royce?
    [No response.]
    Ms. Carroll. Mr. Chabot?
    Mr. Chabot. I said no earlier.
    Ms. Carroll. Mr. Chabot votes no.
    Mr. Paul?
    [No response.]
    Ms. Carroll. Mr. Pence?
    Mr. Pence. No.
    Ms. Carroll. Mr. Pence votes no.
    Mr. Wilson?
    Mr. Wilson of South Carolina. No.
    Ms. Carroll. Mr. Wilson votes no.
    Mr. Mack?
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Fortenberry?
    Mr. Fortenberry. No.
    Ms. Carroll. Mr. Fortenberry votes no.
    Mr. McCaul?
    Mr. McCaul. No.
    Ms. Carroll. Mr. McCaul votes no.
    Mr. Poe?
    Mr. Poe. No.
    Ms. Carroll. Mr. Poe votes no.
    Mr. Bilirakis?
    [No response.]
    Ms. Carroll. Ms. Schmidt?
    Mrs. Schmidt. No.
    Ms. Carroll. Ms. Schmidt votes no.
    Mr. Johnson?
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera?
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no.
    Mr. Kelly?
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin?
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Mr. Marino?
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan?
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle?
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Ms. Ellmers?
    Mrs. Ellmers. No.
    Ms. Carroll. Ms. Ellmers votes no.
    Mr. Berman?
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman?
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye.
    Mr. Faleomavaega?
    Mr. Faleomavaega. Aye.
    Ms. Carroll. Mr. Faleomavaega votes aye.
    Mr. Payne?
    Mr. Payne. Aye.
    Ms. Carroll. Mr. Payne votes aye.
    Mr. Sherman?
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel?
    Mr. Engel. Aye.
    Ms. Carroll. Mr. Engel votes aye.
    Mr. Meeks?
    Mr. Meeks. Aye.
    Ms. Carroll. Mr. Meeks votes aye.
    Mr. Carnahan?
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires?
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Mr. Connolly?
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Mr. Cardoza?
    [No response.]
    Ms. Carroll. Mr. Chandler?
    Mr. Chandler. Aye.
    Ms. Carroll. Mr. Chandler votes aye.
    Mr. Higgins?
    Mr. Higgins. Aye.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz?
    [No response.]
    Ms. Carroll. Mr. Murphy?
    [No response.]
    Ms. Carroll. Ms. Wilson?
    [No response.]
    Ms. Carroll. Ms. Bass?
    [No response.]
    Ms. Carroll. Mr. Keating?
    [No response.]
    Ms. Carroll. Mr. Cicilline?
    [No response.]
    Chairman Ros-Lehtinen. Have all members been recorded?
    Mr. Royce?
    Mr. Royce. Royce votes no.
    Ms. Carroll. Mr. Royce votes no.
    Chairman Ros-Lehtinen. Have all members been recorded?
    The clerk will report the vote.
    Ms. Carroll. Madam Chairman, on that vote there are 13 ayes 
and 23 noes.
    Chairman Ros-Lehtinen. The noes have it, and the question 
is not agreed to.
    Now we will proceed to vote on the Mack amendment, 
limitation on assistance to Argentina, Venezuela, Nicaragua, 
Ecuador, and Bolivia.
    The clerk will call the roll.
    Ms. Carroll. Madam Chairman?
    Chairman Ros-Lehtinen. Yes.
    Ms. Carroll. The chairman votes aye.
    Mr. Smith?
    Mr. Smith. Aye.
    Ms. Carroll. Mr. Smith votes aye.
    Mr. Burton?
    [No response.]
    Ms. Carroll. Mr. Gallegly?
    Mr. Gallegly. Aye.
    Ms. Carroll. Mr. Gallegly votes aye.
    Mr. Rohrabacher?
    Mr. Rohrabacher. Yes.
    Ms. Carroll. Mr. Rohrabacher votes aye.
    Mr. Manzullo?
    Mr. Manzullo. Aye.
    Ms. Carroll. Mr. Manzullo votes aye.
    Mr. Royce?
    Mr. Royce. Aye.
    Ms. Carroll. Mr. Royce votes aye.
    Mr. Chabot?
    Mr. Chabot. Aye.
    Ms. Carroll. Mr. Chabot votes aye.
    Mr. Paul?
    [No response.]
    Ms. Carroll. Mr. Pence?
    Mr. Pence. Yes.
    Ms. Carroll. Mr. Pence votes aye.
    Mr. Wilson?
    Mr. Wilson of South Carolina. Yes.
    Ms. Carroll. Mr. Wilson votes aye.
    Mr. Mack?
    Mr. Mack. Aye.
    Ms. Carroll. Mr. Mack votes aye.
    Mr. Fortenberry?
    Mr. Fortenberry.
    [No response.]
    Ms. Carroll. Mr. McCaul?
    Mr. McCaul. Aye.
    Ms. Carroll. Mr. McCaul votes aye.
    Mr. Poe?
    Mr. Poe. Yes.
    Ms. Carroll. Mr. Poe votes aye.
    Mr. Bilirakis?
    [No response.]
    Ms. Carroll. Ms. Schmidt?
    Mrs. Schmidt. Aye.
    Ms. Carroll. Ms. Schmidt votes aye.
    Mr. Johnson?
    Mr. Johnson. Aye.
    Ms. Carroll. Mr. Johnson votes aye.
    Mr. Rivera?
    Mr. Rivera. Aye.
    Ms. Carroll. Mr. Rivera votes aye.
    Mr. Kelly?
    Mr. Kelly. Aye.
    Ms. Carroll. Mr. Kelly votes aye.
    Mr. Griffin?
    Mr. Griffin. Aye.
    Ms. Carroll. Mr. Griffin votes aye.
    Mr. Marino?
    Mr. Marino. Aye.
    Ms. Carroll. Mr. Marino votes aye.
    Mr. Duncan?
    Mr. Duncan. Aye.
    Ms. Carroll. Mr. Duncan votes aye.
    Ms. Buerkle?
    Ms. Buerkle. Aye.
    Ms. Carroll. Ms. Buerkle votes aye.
    Ms. Ellmers?
    Mrs. Ellmers. Aye.
    Ms. Carroll. Ms. Ellmers votes aye.
    Mr. Berman?
    Mr. Berman. No.
    Ms. Carroll. Mr. Berman votes no.
    Mr. Ackerman?
    Mr. Ackerman. No.
    Ms. Carroll. Mr. Ackerman votes no.
    Mr. Faleomavaega?
    Mr. Faleomavaega. No.
    Ms. Carroll. Mr. Faleomavaega votes no.
    Mr. Payne?
    Mr. Payne. No.
    Ms. Carroll. Mr. Payne votes no.
    Mr. Sherman?
    Mr. Sherman. No.
    Ms. Carroll. Mr. Sherman votes no.
    Mr. Engel?
    Mr. Engel. No.
    Ms. Carroll. Mr. Engel votes no.
    Mr. Meeks?
    Mr. Meeks. No.
    Ms. Carroll. Mr. Meeks votes no.
    Mr. Carnahan?
    [No response.]
    Ms. Carroll. Mr. Sires?
    Mr. Sires. No.
    Ms. Carroll. Mr. Sires votes no.
    Mr. Connolly?
    Mr. Connolly. No.
    Ms. Carroll. Mr. Connolly votes no.
    Mr. Deutch?
    Mr. Deutch. No.
    Ms. Carroll. Mr. Deutch votes no.
    Mr. Cardoza?
    [No response.]
    Ms. Carroll. Mr. Chandler?
    Mr. Chandler. No.
    Ms. Carroll. Mr. Chandler votes no.
    Mr. Higgins?
    Mr. Higgins. No.
    Ms. Carroll. Mr. Higgins votes no.
    Ms. Schwartz?
    [No response.]
    Ms. Carroll. Mr. Murphy?
    Mr. Murphy. No.
    Ms. Carroll. Mr. Murphy votes no.
    Ms. Wilson?
    [No response.]
    Ms. Carroll. Ms. Bass?
    [No response.]
    Ms. Carroll. Mr. Keating?
    Mr. Keating. No.
    Ms. Carroll. Mr. Keating votes no.
    Mr. Cicilline?
    Mr. Cicilline. No.
    Ms. Carroll. Mr. Cicilline votes no.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Mr. Bilirakis?
    Mr. Bilirakis. Yes.
    Ms. Carroll. Mr. Bilirakis votes aye.
    Chairman Ros-Lehtinen. Mr. Burton? 
    Mr. Burton. Aye.
    Ms. Carroll. Mr. Burton votes aye.
    Chairman Ros-Lehtinen. Mr. Carnahan?
    Mr. Carnahan. No.
    Ms. Carroll. Mr. Carnahan votes no.
    Chairman Ros-Lehtinen. All members been recorded?
    The clerk will report the vote.
    Ms. Carroll. Madam Chairman, on that vote there are 23 ayes 
and 16 noes.
    Chairman Ros-Lehtinen. The ayes have it, and the question 
is agreed to.
    We will now turn--oh, the Chair recognizes the presence of 
her much better half. Hi, Better Half. You picked a good day to 
come up. Move we adjourn? We have pressing business. Don't 
embarrass me.
    All right, Mr. Griffin has lost his turn in the queue, 
which now goes to--oh, he is there? Okay, Mr. Griffin.
    He was excused for a little while for National Guard duty 
there. Reporting for duty.
    Mr. Griffin. That was pizza duty.
    Chairman Ros-Lehtinen. That was pizza duty.
    Mr. Griffin has an amendment at the desk.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Griffin 
of Arkansas. In section 403 of the bill, after the dollar 
amount, insert ``(reduced by $1,500,000)''. At the end of title 
IV, add the following: Section 4xx. Prohibition on funds for 
the Trilateral Assistance Program. (a) Findings. Congress finds 
the following: (1) During Fiscal Years 2009 and 2010, the 
United States Agency for International Development provided the 
Government of South Africa with $2,500,000 to support the 
Trilateral Assistance Program, a program through which the 
Government of South Africa provides technical assistance to 
third countries in Africa; (2) $1,500,000 was requested for 
Fiscal Year 2011 and $1,530,000 has been requested for Fiscal 
Year 2012; (3) South Africa has been recognized, along with 
Brazil, Russia, India, and China, as having one of the world's 
largest, rapidly growing economies and has become a donor 
nation; (4) Further, while South Africa still faces enormous 
development challenges, including one of the highest----
    Chairman Ros-Lehtinen. Thank you. Unanimous consent to 
consider the amendment as read.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. All members now have a copy of the 
amendment, and Mr. Griffin is recognized, as the author, for 5 
minutes to explain his amendment.
    Mr. Griffin. Thank you, Madam Chair.
    We all know that we have a problem with debt and spending 
money we don't have and borrowing about 42 cents on the dollar 
from foreign sources. And that brings me to the amendment I 
have on the South Africa Trilateral Assistance Program.
    We are giving money to this Trilateral Assistance Program 
at the request of USAID. They have requested $1.5 million for 
Fiscal Year 2012. And the Trilateral Assistance Program is a 
program through which the Government of South Africa provides 
technical assistance to other countries in Africa. That is not 
a bad thing.
    What bothers me about the funding of this particular 
program is that we give the money to South Africa so that they 
can give the money to other countries. My amendment reduces 
funding for the Trilateral Assistance Program by $1.5 million, 
because if we want to give to these countries, we can give to 
them directly. We do not need to give through South Africa.
    South Africa is a member of the G-20 and has been 
recognized, along with Brazil, Russia, India, China, as having 
a major, emerging world economy. South Africa invested billions 
in infrastructure for the 2010 World Cup.
    While South Africa still faces enormous development 
challenges, including the highest HIV/AIDS infection rate in 
the world, this program does not relate to that. De-funding 
this program does not keep those dollars from assisting in that 
area. Cutting this program would not affect funding to support 
development programs within South Africa.
    What we do here is we use South Africa as a pass through. 
And it is like taking these bags of food that we have seen 
around the world that USAID distributes, taking the American 
flag off, putting some other country's flag on there, and 
letting them get the diplomatic credit for feeding folks. That 
is what is happening here. We are giving the money to South 
Africa, and then they give it out as they see fit.
    I don't have a problem, in many instances, with where this 
money is going. I just feel like we should be giving it, if it 
is going to go there, particularly in light of the fact that, 
when we give through another country, we lose direct oversight 
over those funds. Simply put, if we want to spend this money, 
we need to be spending it directly and not through another 
country.
    We are out of money. And we have a task, the task of 
identifying wasteful spending or spending that could be done in 
a more efficient way. And this is another one of those 
examples.
    I yield back, Madam Chair.
    Mr. Chabot [presiding]. The gentleman yields back.
    The gentleman from New Jersey, Mr. Payne, is----
    Mr. Griffin. Oh, sorry. Not Madam Chairman.
    Mr. Chabot [continuing]. Recognized for 5 minutes.
    Mr. Payne. Thank you, Mr. Chairman.
    I rise in strong opposition to the amendment.
    One of our USAID's goals, and ultimate goal as a 
development agency, is to work ourselves out of a job. Given 
that many countries in Africa require development assistance 
for many years to sustainably develop, a critical part of our 
effort is to encourage African countries that have made 
significant development progress to show leadership in helping 
their neighbors achieve similar success.
    This program leverages a very small amount of U.S. 
Government money resources jointly with those of the Government 
of South Africa together. And, together, we provide technical 
assistance to other countries in Africa in a manner that is 
consistent with the tenets of the Paris Declaration on Aid 
Effectiveness, which includes country ownership, alignment with 
countries' strategies and systems, and mutual accountability. 
These trilateral activities allow the Government of South 
Africa to provide demand-driven expertise and services to other 
African countries while enhancing its own capacity to become a 
more active foreign assistance donor.
    The administration believes that Africa holds the key to 
its own development and that we must utilize opportunities to 
leverage African performances to engage the international 
community in a dynamic partnership. The trilateral activities 
provide a multiplier effect of not only strengthening the 
capacity of the Government of South Africa to play a more 
active role in Africa's development, but to achieve meaningful 
impact through project activities such as strengthening the 
capacity of government officials in South Sudan and other 
areas.
    And so what I am saying is that South Africa has been very 
important to us on some critical votes on Iran in the U.N. 
South Africa gave us support under the new government of our 
new President. I would urge us to continue to work with South 
Africa, a dominant force in Africa. And I think that this 
should not pass.
    I yield back.
    Mr. Chabot. The gentleman yields back.
    Does the gentleman from South Carolina seek recognition?
    Mr. Duncan. Thank you, Mr. Chairman.
    Mr. Chabot. If so, he is recognized for 5 minutes.
    Mr. Duncan. And I will yield my time to the gentleman from 
Arkansas.
    Mr. Griffin. I just wanted to make a couple more points, 
Mr. Chairman.
    We give South Africa almost $600 million a year, $582 
million. And the majority of that is to deal with their HIV/
AIDS crisis. The money that we are talking about in the context 
of the Trilateral Assistance Program is not somehow going to 
turn South Africa against us when we are still giving them over 
$500 million a year. That is just ridiculous. That is not a 
legitimate argument.
    The other argument is that they need help, they somehow 
need help in developing relationships. Well, South Africa has 
already become a leader in the region. They are a donor state. 
They have been engaging in bilateral arrangements with 
traditional donor states in other developing countries for 11 
years. They have sufficient experience and sufficient funds to 
do precisely what this program is allowing them to do with our 
money.
    And where does this end? I mean, we could just go around 
the world and give every country some money for them to give 
out to their neighbors, and that might help them to better 
their relationships. I mean, it never ends.
    This is a perfect example of us giving money away that we 
have little to no oversight over. And it is money that we can 
continue to provide to the recipients if we choose to. If we 
don't, we can stop.
    I ask that you support this amendment. Thank you.
    Mr. Chabot. The gentleman yields back.
    The gentleman is recognized, Mr. Faleomavaega.
    Mr. Faleomavaega. I thank the chairman.
    I yield my time to the gentleman from New Jersey.
    Mr. Chabot. The gentleman yields to the gentleman from New 
Jersey.
    Mr. Faleomavaega. And, along those lines, I would like to 
ask the gentleman to explain to us exactly what the trilateral 
agreement portends and why we participate in such, in doing 
this with South Africa, if he could.
    Mr. Payne. As you may know, South Africa is a dominant 
nation in the continent of Africa. With the new leadership of 
Jacob Zuma, we have now moved toward close relations. We have a 
number of votes that will come up in the United Nations, and 
South Africa, with the new leadership, has said that they will 
be even a stronger ally to the U.S.
    I never indicated that if we did not fund this program that 
South Africa would turn against us. The gentleman stated that 
he didn't feel that they would turn against us; I never said 
they would. I just simply said that they put in money which 
matches the money that we put in. It maximizes what they do, 
because many of the African countries look toward South Africa 
as they are developing, and they have the expertise, and the 
countries know that this is a joint program between the U.S. 
and South Africa.
    Mr. Faleomavaega. Will the gentleman yield?
    Mr. Payne. Absolutely.
    Mr. Faleomavaega. It is my time anyway.
    Mr. Payne. Yes.
    Mr. Faleomavaega. So what you are saying here, through the 
Trilateral Assistance Program, it is kind of like a burden-
sharing program.
    Mr. Payne. Absolutely.
    Mr. Faleomavaega. This is not like we are giving South 
Africa $2.5 million. They are also contributing to the fund, 
for which then they give assistance to other countries. Am I 
correct in that?
    Mr. Payne. That is absolutely correct. And we are able to 
maximize what we are able to do. Countries know that it is a 
U.S.-South Africa joint project. They look at that very 
positively. And I think that it is really money well spent. 
South Africa gets more expertise; we get credit for our 
partnership with them.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I yield back.
    Mr. Chabot. The gentleman yields back.
    Do any other members seek time?
    The gentleman from Pennsylvania, Mr. Kelly, is recognized 
for 5 minutes.
    Mr. Kelly. Thank you, Mr. Chairman.
    This is a very bizarre conversation. We can't pay our own 
bills. We are in over our head. We are borrowing 42 cents of 
every dollar we spend. And then we have to pay interest on that 
money that we borrow.
    And if I am understanding it, my friend from Arkansas, so 
we are borrowing money, and while some people would say $2.5 
million is not a lot of money, it is only a lot of money down 
here because it is not our money; it is easy to give away money 
that is not yours.
    But, Mr. Griffin, if you could explain to me, so we are 
borrowing this money, we are giving it to South Africa so that 
South Africa can give it to somebody else to develop their--
their what? Their image as a donor?
    Mr. Griffin. Well, South Africa has flexibility--oh, does 
the gentleman yield?
    Mr. Kelly. Yes.
    Mr. Griffin. South Africa has flexibility to determine who 
is going to get this money and what for. But the point is, if 
we want to give this money, we can give it directly. If you 
take the amount that is here, $1.5 million, that means almost 
half of that is borrowed, and a third of the borrowed is from 
China. Maybe if we are going to borrow all this money from 
China, we could just skip that step and try to work out an 
agreement where China can give it directly there. I mean, this 
is ridiculous. It is ridiculous.
    Mr. Kelly. Well, you know, if the gentleman would yield, 
what I think we ought to do, then, is propose to China that 
they give the money to South Africa but tell them it came from 
us.
    Mr. Griffin. Precisely.
    Mr. Kelly. All right, I get it.
    Mr. Griffin. That is what we are doing.
    Mr. Kelly. I get it. Okay. This is making a lot more sense 
to me now.
    Well, I will tell you what. The gentleman from Arkansas, 
thank you for bringing the amendment up. I think it does--in 
the theater of the bizarre or the theater of the absurd, which 
is what we operate in anymore. I appreciate that.
    Thank you very much, and I yield back my time.
    Mr. Ackerman. Would the gentleman yield?
    Mr. Kelly. I am yielding back my time.
    Mr. Chabot. He yielded back his time. Does the gentleman 
seek recognition?
    Mr. Ackerman. I would.
    Mr. Chabot. All right. The gentleman from New York is 
recognized for 5 minutes.
    Mr. Ackerman. I would just like to ask the gentleman who 
made the motion or the gentleman who just spoke, do you know 
how much money China actually does give directly to South 
Africa and to the African countries?
    Mr. Kelly. Are you directing that question to me?
    Mr. Ackerman. Okay.
    Mr. Kelly. I don't represent any of the citizens of China, 
so I really have no concerns of what China gives to anybody.
    Mr. Ackerman. But you do recognize that we have an interest 
in what China does on the planet because they are one of our 
main competitors, don't you?
    Mr. Kelly. I am not sure I understand where you are going 
with your question. Yes, I understand China is a competitor to 
the U.S., but thank you.
    Mr. Ackerman. Where I am going is that it is pretty cute to 
say, eliminate the middle man and China should give the money 
directly to them. But without even doing that, China, despite 
the fact that you don't represent any of them, is smart enough 
to know that it is in their national interest to invest in 
Africa. And they have indeed invested in Africa, and South 
Africa specifically, multiples, multiples, multiples of what we 
are looking at investing there now.
    The natural resources on the continent of Africa are huge. 
And the Chinese, who you are privileged enough not to represent 
any of, is smart enough to know that----
    Mr. Kelly. Will the gentleman----
    Mr. Ackerman [continuing]. This is a really good 
investment. Despite the fact that you don't represent them 
doesn't mean that they don't understand what a good investment 
is.
    Mr. Kelly. Will the gentleman yield back?
    Mr. Ackerman. I will yield back, maybe, in a minute. I will 
think about it.
    But the Chinese are smart enough to know a good investment 
when they see one.
    We are not the only ones on the planet. Some people seem to 
think so. And we have seen a lot of amendments today that begin 
with the words, as does this one, ``Prohibition on funds for.'' 
So it seems that we are pulling out of the planet and leaving 
the playing field to those Chinese people that you don't 
represent.
    But someone is representing them that is pretty smart. And 
they have looked around the world at the resources that they, 
and maybe even we, desperately need now and on into the future 
and say, let's see where we could make investments and we could 
buy some friends and let people know on this world that we have 
an interest in them and helping them, because that is not 
throwing away money--and I think they need money in China, 
too----
    Mr. Kelly. Would the gentleman----
    Mr. Ackerman [continuing]. But that is investing a lot of 
money. And they are investing that money in places like Africa.
    So I assure you that your suggestion, although it did bring 
a smile to my face, that they could make the investment 
directly, they have thought about this before you thought it 
was a joke. And they have really done it. They have done it to 
the extent that puts us looking like meager paupers.
    If we were as smart as we think we are, we should be 
investing in the world, not withdrawing and retracting 
ourselves from it.
    The gentleman wanted some time?
    Mr. Kelly. Yeah, I would appreciate it.
    Mr. Ackerman. Surely.
    Mr. Kelly. And I would agree with you, the Chinese have 
been much smarter in their investments. They really do get a 
positive ROI. And I don't know where China sits with their 
debt. I know where we sit. They are much smarter than us. I 
mean, we are $14.3 trillion in a deficit. So I would say, yes, 
China has done things a lot smarter than we have.
    But China makes its investments overseas when there is a 
strategic reason for China to make its investments overseas. 
They just don't throw money around like a Santa Claus----
    Mr. Ackerman. Yeah, reclaiming----
    Mr. Kelly [continuing]. Thinking it is going to buy them 
friends.
    Mr. Ackerman. I don't know a lot about Santa Claus, but 
reclaiming my time. The point is, China does know what is in 
their national interests. And if they could figure out what 
their national interests are, we should be able to figure out 
the same thing.
    And I assure you, it is in both countries' national 
interests to invest in mineral-rich areas and resource-rich 
areas such as Africa. And the Chinese are doing that.
    Mr. Duncan. Would the gentleman----
    Mr. Ackerman. We don't have to be smart----
    Mr. Duncan. Would the gentleman answer a question?
    Mr. Ackerman. I don't know if I know the answer, but I will 
refer it to my Chinese friends.
    Mr. Duncan. Are we talking about investments from China 
into rare earth minerals or energy issues? Or are we talking 
about humanitarian investments, where the Government of China 
is----
    Mr. Ackerman. The Chinese are doing all of the above, both 
of what you just suggested and more.
    Mr. Duncan. I would like to see the real numbers on that.
    Mr. Ackerman. And they are investing in resources, they are 
investing in businesses, they are investing in infrastructure 
in these countries. And they are building a tremendous amount 
of goodwill, and that is not just Africa.
    Mr. Chabot. The gentleman's time has expired.
    Mr. Ackerman. You would be shocked to see what they are 
doing in South America, as well.
    Mr. Chabot. The gentleman's time has expired.
    The gentleman from Indiana, Mr. Burton, is recognized for 5 
minutes.
    Mr. Burton. The Chinese are buying minerals and investing 
because they are going to use those investments long-term to 
become a more powerful country. They are not giving it away 
like we are. I think that is the point the gentleman is trying 
to make. Giving the money away is far different than buying 
assets that you can use later. And that is what the Chinese are 
doing.
    So I don't know how many Chinese people you have in your 
district, and I really don't care----
    Mr. Ackerman. 34 percent, if you did care.
    Mr. Burton. I don't really care. I think I said that. But 
what I do care about----
    Mr. Ackerman. You cared enough to bring it up and not care.
    Mr. Chabot. The gentleman from Indiana controls the time.
    Mr. Burton. Yes, but the gentleman from New York cannot 
control his mouth.
    The point is----
    Mr. Ackerman. I think that was really----
    Mr. Chabot. The gentleman from Indiana controls the time.
    Mr. Ackerman. Point of personal privilege.
    Mr. Burton. Take it.
    Mr. Chabot. The gentleman is recognized for making a point 
of privilege.
    And I think at this time it would be appropriate for me to 
give the committee back to the chair.
    Mr. Ackerman. I second that motion.
    Mr. Burton. Let me finish my time, Madam Chairman.
    The point of the whole discussion is, should we be giving 
money to a third party and let them disburse that money, or 
should we be doing it ourselves? And I think the gentleman 
from--where are you from? Arkansas?--the gentleman from 
Arkansas makes a very valid point. If we are going to give 
foreign aid, let's give foreign aid to whom we think deserves 
it. We shouldn't be giving it to a third party who can use it 
to influence people for their benefit. That is number one.
    And number two, the Chinese, since that has been a subject 
of contention here, the Chinese are investing and buying 
minerals and oil and other things around the world for their 
benefit. They are not the humanitarians that we have been led 
to believe by the other side today. They are not humanitarian. 
They are out for their own benefit. And you can't compare that 
to the humanitarian largesse that we give to the rest of the 
world.
    And I yield back.
    Chairman Ros-Lehtinen [presiding]. Thank you.
    Mr. Payne. Would you yield for a second?
    Chairman Ros-Lehtinen. Mr. Burton, would you yield to Mr. 
Payne?
    Mr. Burton. Sure.
    Mr. Payne. He is my former buddy, but now you are back, a 
friend of mine.
    The fact that--there are some numbers, and perhaps tomorrow 
I will dig them up--I gave them in a talk I talked about on 
China-Africa relations. Believe it or not, the amount of money 
that China gives for education in Africa is, like, maybe 50 
times, 100 times what we give to Africa for education. I mean, 
their investment is $50 billion just right now. That it is just 
starting.
    The thing about China is that we had the same 
opportunities, as I mentioned before. And this is not about 
China; this is about trilateral. However, we just did not pay 
attention to Africa until China said, ``Well, these Africans 
want to deal with U.S. They are not dealing with it. Let's go 
in.'' The copper mines in Zambia, oil fields in Sudan, the--you 
can go on and on and on--the plutonium that is in Africa. And 
so the Chinese just said, ``Hey, listen. Nobody is dealing with 
it. We will deal with it.''
    Mr. Burton. No. If the gentleman--let me reclaim my time.
    Chairman Ros-Lehtinen. You can reclaim your time.
    Mr. Burton. Let me reclaim my time and just say, you are 
making my point. The point is, they are buying assets around 
the world for future purposes and to make them a stronger power 
in the world. They are not the humanitarians that they have 
been made out to be.
    I yield back.
    Chairman Ros-Lehtinen. He yields back.
    And let me see, who seeks recognition? We have Mr. Johnson, 
who is recognized. And Mr. Rohrabacher, sorry.
    Mr. Johnson. Madam Chairman, I have been sitting here 
listening to this, and it strikes me as interesting. We are 
$14.3 trillion in debt. It is rising every day. I don't have to 
remind the members of this committee of that. Here within a 
month or so, the entire Nation thinks we are going to drive off 
the economic cliff. And we are actually sitting here debating 
whether or not we should borrow money to give to someone else.
    The gentleman earlier, on the other side, talked about 
intelligence and how smart that is. I dare say that the 
American people have great reason to be suspicious of the 
intelligence of those in Washington that are making those kinds 
of decisions in this kind of austere time.
    Also talked about whether or not this was a national 
security interest and how we should be focused on addressing 
national security interests. And I would submit that Admiral 
Mullen has said that our national debt is indeed our most 
serious national security interest and threat.
    So I am not sure how we get to this level of debate. It 
sort of seems to me that it verifies that we do, indeed, have 
parallel universes here that we exist in. Not sure what to make 
of it.
    And, with that, Madam Chairman, I yield back the balance of 
my time.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. Thank you very much. Just a few thoughts 
about what we have been hearing.
    First of all, let us just note--and, again, sometimes I 
feel like the gentleman just expressed, you know, what planet 
are we on or what parallel universe are we in, complimenting 
China's approach? Yes, China is able to go in to Africa in a 
big way, and other countries, and sometimes they are able to do 
things that we are unable to do--because they are a vicious 
dictatorship and don't permit anybody to complain. We happen to 
be a democracy.
    And the people of China, do you think that they would go 
along with their government if the government was just 
unloading resources on some other country, whether it was 
friendly or not? No. I mean, the Chinese people have no chance 
whatsoever to complain. Our people expect us to watch out for 
their interests.
    That is what democracy is all about. It is not some, you 
know, grandiose scheme that we are going to save everybody in 
the world and not expect to get any credit for it. And that 
attitude is, I think, again, a parallel universe. That may be 
what our colleagues on the left believe. That is not what I 
believe, and I am sure that don't reflect what my colleagues 
over here believe, first.
    Second of all, let's take a look at China. When you start 
looking at it and comparing us to China, they go in to a 
country, and there are no corruption standards for China. Just 
as if, by the way, I might note, we tonight have heard how we 
want to take away the corruption standards for our efforts. 
Well, no, corruption standards are very important. And in China 
they don't have the corruption standards; they go in and bribe 
other countries and other officials to go their way and to 
basically sell out their own people to these dictators in 
Africa.
    And, finally, let's just take a look, that when we are 
involved with helping other people--I think the American people 
are the most generous people in the world. You know, I don't 
think you should count foreign aid alone when you are talking 
about generosity. You should talk about people who go out and 
try to help other people.
    And there is nothing wrong with Americans holding their 
head up high and saying, ``We are the most generous people in 
the world, and we give voluntarily probably more money than 
China gives at all.'' Because my guess is, China doesn't give 
what we would consider beneficial and helpful hands. What they 
do is, they go in and they build a bridge or they buy a 
resource or they bribe an official, but they are not engaged in 
what we call foreign aid or humanitarian programs, as we are. 
Instead, they are engaged with ripping off countries as much as 
they can and also, again, not hampered by a democratic process.
    So any comparison of our country with China, I will just 
have to say that it is beyond my imagination that people could 
even think about making a positive comparison between our 
country and our people and the Chinese and this vicious 
government in China that is the world's worst human rights 
abuser.
    Chairman Ros-Lehtinen. The gentleman yields back.
    Mr. Rohrabacher. I yield back the balance of my time.
    Chairman Ros-Lehtinen. And Mr. Marino is recognized.
    Mr. Marino. Thank you, Madam Chair.
    I just want to bring out a point or two that--I should be 
investing in gold, at this point. But you know something? I 
don't have the money.
    The United States doesn't have the money. But China does. 
And as a dictatorship, it makes it even more convenient for 
them to go out and do the investments that they do.
    Now, I am a new member here. I have been here 7 months. And 
I have been doing town halls and conference town halls. At 
least in my district, in rural Pennsylvania, north-central, 
farm area, middle-class, small business, overwhelmingly, 
Republicans, Democrats, and independents and even people that 
aren't registered tell me, we have to look after our own need. 
And I agree with that.
    But before I am going to yield my time over to Mr. Griffin, 
I have an observation that I would like to make here. I have 
been sitting here for almost 12 hours, like most of us have 
been, and I have been sitting in these meetings for 7 months. 
And I am a little embarrassed.
    You know something? If we just check our egos at the door, 
respect one another, not trying to embarrass someone--because 
my father always told me, never try to embarrass someone 
intentionally. It is the wrong thing to do, particularly with 
our colleagues. But because of the cameras and because of the 
people sitting out there, we seem to think this is humorous. We 
seem to think it is okay to whack away at each other.
    You know, we are intelligent people. At least, I think we 
are. At least I am still hoping that that is the case. And we 
can get our point across by being respectful with one another, 
by treating each other like we should, like we want to be 
treated. So I am just going to throw out a little suggestion 
here. Why don't we try that once in a while? We will differ. We 
will differ a great deal. But we can have good, intelligent 
dialogue. I yield my time to Mr. Griffin.
    Chairman Ros-Lehtinen. Thank you very much. Oh, Mr. 
Griffin.
    Mr. Griffin. I would just want to reiterate that I don't 
think that anyone in this room needs a lecture on what China is 
doing in the world. You don't have to be a Ph.D. in Chinese 
history or world affairs to know what China is doing in the 
world. And to give a condescending briefing on what China is 
doing in the world as part of your argument is out of line and 
ridiculous. I come from a relatively poor State, Arkansas. 
Recent studies have shown that although we have almost the 
least of all the States, we give more per capita to charities 
than any other State in the country. This is a giving country. 
We invest, and we give all around the world. That is not what 
this amendment is about. This amendment is about spending our 
money wisely period. I yield back.
    Chairman Ros-Lehtinen. Thank you. Does any member wish--Mr. 
Murphy is recognized.
    Mr. Murphy. Thank you very much, Madam Chair. Listen, I 
agree with the gentleman. This is about spending our money 
wisely. Here is a great way to spend our money wisely. Let's 
stop invading countries. Let's stop having to spend $3 trillion 
overall, as we have done over the last 10 years in two wars. So 
it makes sense fiscally for us to think about the ways in which 
we don't get to a point of crisis where we have to invade 
another country.
    Now, Islamic extremist groups are popping up all over 
Africa, as we speak, so fast that we can barely count them. So 
as we try to catalogue the ways in which we can avoid this 
country getting mired in another conflict like we did in Iraq 
and Afghanistan, it is to start to think to ourselves maybe 
there is some partners in the region that we can invest in 
today that can help us, who maybe have stronger relationships 
and more leverage over countries that may be harboring those 
terrorists, to prevent us from spending trillions of dollars in 
the long run.
    For now I don't really care about the conversation about 
China. For now, I care about making sure that we spend our 
foreign aid dollars today in small, but important ways to make 
sure that we don't have to go into another country ever again 
with military troops to try to stop a nation from providing 
safe harbor to Islamic extremist groups. Africa is a very, very 
dangerous place today. That is the reality. And it is 
complicated about how we form alliances with true partners in 
that region who can reach out and try to represent our 
interests in the region. That, to me, is as much as anything 
else the reason why we are talking about aid to South Africa, a 
strong partner in the region, not just economically, but for 
national security reasons as well.
    So I am opposing this amendment, I am supporting this money 
because I am just as fiscally responsible as you all are. I 
care about spending our money wisely. But I ran for Congress 
because I watched this Nation spend trillions of dollars in 
wars that we might not have had to have fought if we would have 
been smarter about spending our foreign aid dollars up front. 
And if you talk to our military generals on the ground, they 
will tell you, they will tell you over and over again that 
foreign aid dollars spent wisely are just as important and a 
critical piece of our military spending. So for that reason, I 
think that many of us approach this with the same sense of 
fiscal responsibility that you do. We just maybe look a little 
bit farther down the line in terms of that. I yield back.
    Chairman Ros-Lehtinen. The gentleman yields. Mr. Chabot is 
recognized for 5 minutes. Then we will go to Mr. Deutch, and 
then we will go to Mr. Duncan, the other Mr. Griffin.
    Mr. Chabot. Thank you, Madam Chairman. I will be brief. I 
would just like to speak to this idea that the Chinese aid or 
investment or largesse is a positive thing around the world. I 
think in most instances, it has been just the opposite. China 
has undercut our efforts, our interests around the world time 
and time again. Just a couple examples. I have been to the 
refugee camps in Darfur, both on the Sudanese side and on the 
Chad side. And what you see there is just--well, it is an 
absolute shame. And a lot of the world was trying to put 
pressure, including the United States, on the Sudanese to back 
off with the Janjaweed and the travesty that was happening 
there. And our efforts on sanctions against Sudan were undercut 
by the Chinese. Why? Because they wanted their oil. And they 
didn't care about the people that were being killed, the 
villages that were being burned. They wanted their oil. And so 
they undercut the sanctions that could have, should have worked 
on Sudan. In Iran, I think all of us agree about the last thing 
this world needs is nuclear weapons controlled by Iran, you 
know, one of the largest countries that supports terrorists 
around the world.
    The chance that nuclear weapons could fall into the hands 
of terrorist organizations, the principal source of those would 
probably be Iran if they ultimately get nuclear weapons. So, 
rather than handle this militarily, the United States and our 
allies have tried to get Iran to back down this program by 
sanctions. And what country has time and again undercut those 
efforts? Well, China once again. China cares about China. And 
that is basically why these investments happen around the 
world. We could look at a whole range of things. And I said I 
would be brief, so I will. You know, you look at Burma, or 
Myanmar, whatever one's preference is what to call that 
country. I prefer Burma. But look what they have done there. 
Look what they have done in North Korea. Country after country 
after country. The aid that comes from China in general is 
against the United States' interests, unfortunately.
    And I agree with the comments of Mr. Rohrabacher, it is a 
dictatorship. It has been for a long, long time. Hopefully, at 
some point it won't be. But right now that is what it is. And I 
think the American people are with those of us that are 
speaking out. And this amendment is a pretty good way to do 
that. So I will yield back at this time.
    Chairman Ros-Lehtinen. Thank you, Mr. Chabot. Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman. I yield to the 
gentleman from New York.
    Chairman Ros-Lehtinen. Mr. Ackerman.
    Mr. Ackerman. Thank you very much. First, let me apologize 
if I offended anybody's sensitivities by bringing up China. It 
wasn't meant to lecture about China, but to stimulate some 
thinking about China. And I have heard a lot of people 
objecting to China, and the discussion has been about China for 
the last \1/2\ hour because obviously people are really 
thinking about China. But we have to try to approach this in 
some kind of intelligent, holistic way that makes sense for our 
American interests. And whether we are Democrats or 
Republicans, we have the same interests, especially vis-a-vis 
China.
    I can recite the litany of grievances against China as well 
as anybody else. And I agree with everyone. And I would throw 
in they put too much MSG in the food. But the Chinese are the 
competition of the future. They are the folks that we are going 
to be going up against. Their military is enlarging 
exponentially. Their influence around the world has greatened 
on every single continent, while ours is shrinking. We have to 
think about China as we do these things. Certainly they are not 
doing these things out of a great sense of benevolence. They 
are not wealthy philanthropists. They are acting in their own 
selfish interests. And we have to act in our American 
interests.
    What I am suggesting, and tried to suggest in my own crude 
way, was that we should not be looking to withdraw and abandon 
the playing field on the planet to the Chinese, because they 
are making those investments. Their people are poorer than our 
people. They can get away with it, and their government can act 
the way that it does because they are a dictatorship. But we 
are smart enough to educate our people to know that there is 
real competition and danger lurking out there in the world as 
the Chinese influence grows not only in Asia, where they are 
the dominating force, but in Africa, where they are the 
emerging force, and South and Latin America, where they are the 
emerging force. There is a danger in front of us here. And I 
don't look at it as a bad investment if we are teaming up in 
some Trilateral way and sharing the credit. I am looking at 
this as a matching grant. We are putting up money and South 
Africa is putting up the same amount of money.
    We are giving it out, and everybody over there knows what 
the game is. This is America helping our African brothers look 
good with some of our money, doubling the amount of resources 
that we are putting in. And there is an appreciative value that 
inures to us that is more important than just buying resources. 
It is letting people know that we care about them.
    And the Chinese aren't just buying resources that they are 
going to store away and use later. They are building bridges, 
they are building roads, they are investing in factories, they 
are doing infrastructure and everything else that you could 
think of. We have to wisen up and not be fighting against each 
other. And I didn't cite China to say that they are the mirror 
that we should be looking into and trying to make ourselves 
like them. We have other reasons to do it. But the fact of the 
matter is, like it or not, they are the real emerging 
competition. Name another country that you think is going to be 
competing with us, another military superpower. Who is it going 
to be? Another economic power. Who is it going to be? In the 
field of education, who is it going to be? We have to start 
winning the hearts and minds of the people of the world in an 
intelligent, comprehensive fashion. And we have to really think 
about this and come up with a strategy in working together on 
both sides of the aisle, and not just oppose each other because 
one side put up an amendment so that we are against it. But to 
really think it through and how do we improve it to make it 
really work for us as a people. How does it strengthen our 
economy? How does it strengthen our standing? And if I was too 
flippant in my approach to trying to do it the first time, I 
hope to have remedied it at least a little bit in this second 
try at an explanation. And I appreciate my friend yielding me 
the time. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Mr. Duncan.
    Mr. Duncan. Thank you, Madam Chairwoman. I apologize for 
dwelling on this issue. But I sat here and listened to the 
gentleman I think from Pennsylvania, Mr. Murphy, talk about the 
two wars, and as I sat here and thought about the context of 
the debate we are having, I think about the investment that 
America has made in the region where those wars are currently 
taking place. What we did for the Mujahedin Afghanistan to 
defeat the Russians during the Cold War. The money we gave to 
Iraq when they were fighting our enemies in the late 1970s and 
early 1980s of Iran. The fact that we went into that region at 
the bequest of Saudi Arabia and Kuwait to kick out an invading 
Army. It wasn't for imperialistic reasons. We went to help out 
folks that called for America to help. And now we see Saudi 
Arabia export being the Wahhabist literature, and supporting 
terrorism around the world, and maybe not the government, but 
individuals within that country supporting terrorism around the 
world with financial resources. How much money have we given 
Pakistan?
    Where was Osama bin Laden? He was in Pakistan. He was 
within the town where their military is, and yet they failed to 
tell us. We supported Egypt over the years. And how much money 
did Mubarak run off with? Afghanistan became a haven for 
terrorism and training camps that helped the 9/11 terrorists 
train to attack this country. And on 9/11 we were attacked. We 
were attacked. And for what? Because we are a free Nation. That 
is the root of it. We are a free Nation. And because we are 
free, we like to export our beliefs and freedom of religion and 
free markets, and that is just to name a few. On 9/11, we as a 
Nation came together. And has the war cost us? It has cost us a 
lot more than the financial resources of this Nation. It has 
cost us our men and women. They have lost limbs, and they have 
lost lives, and it is a price that we need to think about. 
Don't bring the war into this. We are talking about the 
financial stability of this country. We are talking about it in 
a context where this week we are dealing with a debt ceiling 
increase where we are looking to borrow more money to continue 
giving more money away. And something about my South Carolina 
upbringing tells me that is not right. So I apologize, Madam 
Chairwoman, but I cannot sit here and listen to someone bring 
the war into this when it is very clear the United States has 
had a presence there.
    Mr. Murphy. Would the gentleman yield?
    Mr. Duncan. I will.
    Mr. Murphy. I am sorry if I have touched a nerve here, but 
we can't sit here and believe there is some separation between 
the foreign aid budget and the military budget. We can't sit 
here and pretend that it is somehow unpatriotic to bring up the 
facts----
    Mr. Duncan. Will the gentleman yield? I am not saying there 
is a separation.
    Mr. Murphy. You control the time.
    Mr. Duncan. I am not saying there is a separation. But what 
I am saying is the United States has had a presence there in a 
lot more ways than just money over my lifetime, 45 years I have 
been alive. And what has it got us? In a lot of instances it 
has got us a lot of pain and heartache because we were 
attacked.
    Mr. Murphy. Would the gentleman yield? Listen, I understand 
the merits of that argument. But the suggestion that you can't 
bring up the wars, you can't bring up the military, the 
potential military consequences of not making foreign aid 
investments I think is an absolute fallacy.
    Mr. Duncan. Look at what the foreign aid investment has 
gotten us. I don't believe the argument holds water. You know, 
we are in Libya now. You failed to bring up that war. And I 
would be interested to find out how you voted on that war, 
because I voted to get us out of that war.
    Mr. Griffin. Will the gentleman yield?
    Mr. Duncan. I will yield to the gentleman from Arkansas.
    Mr. Griffin. I just want to make clear, my amendment does 
not comment on--I served in Iraq with the 101st. I am very 
familiar with the role of foreign assistance. I recently got 
back from Afghanistan, where I was briefed on the ground by 
Petraeus and other generals. I get all that. This is about $1.5 
million that we are giving to another country so they can give 
to other countries. It is this amendment. And if you are for 
this amendment, it does not mean that you are against foreign 
aid. It means you are for this amendment. I yield back.
    Mr. Duncan. I yield back.
    Chairman Ros-Lehtinen. Does the gentleman yield? Thank you. 
And we have anyone who would--okay. We have Connolly, and we 
have Mr. Fortenberry, and we have Mr. Payne--Mr. Meeks, and who 
else? Because we would like to bring this puppy home here.
    Mr. Manzullo. I was just going to move the previous 
question.
    Chairman Ros-Lehtinen. So hold on 1 second. If we are ready 
to vote on after these--we can keep----
    Mr. Manzullo. I move the previous question.
    Chairman Ros-Lehtinen. No, that is okay. I just want to say 
the prohibition on funds for the Trilateral Assistance Program 
is Mr. Griffin's amendment, and section 403. Who did I call on 
first? Who was that? Mr. Connolly? Thank you.
    Mr. Connolly. Thank you, Madam Chairman. And I will be 
brief. I had almost forgotten what Mr. Griffin's amendment was 
about. By my count tonight, this is like country number 56 in 
which we are slashing aid or disinvesting. And the night, of 
course, is young. And if one needed more evidence of the 
isolationist, retreatist mentality of the new majority in this 
Congress, tonight's markup is a good example.
    I would say to my colleagues who are concerned about the 
influence of China, if you want to help China and accelerate 
their broad influence and emerging confidence in Asia, Africa, 
and Latin America continue this pattern of disinvestment, 
because they have no such qualms. They are willing to put 
enormous resources on the ground. They are not disinvesting in 
countries because they don't agree with us or with them. And 
anyone who has traveled to large swaths of Africa or Latin 
America knows what I am talking about. You see the Chinese 
presence in the airport, in the city, at the hotels, on the 
ground, investing in construction, in securing access to raw 
materials, in whatever it is they are seeking. And that is the 
competition. That is the future, as Mr. Ackerman said. So, you 
know, we have a fairly modest foreign assistance program to use 
as a tool to help buttress our ability to compete with that. 
And tonight we are dismantling much of that foreign assistance 
tool. I yield back, Madam Chair.
    Chairman Ros-Lehtinen. The gentleman yield back. Mr. 
Fortenberry and then Mr. Meeks.
    Mr. Fortenberry. All I wanted to say, Madam Chair, is if we 
all have patience and want to continue the discussion of 
China's role in Africa, I have an amendment on this issue that 
will probably at this rate come up at about 5 a.m. So if we 
want to defer that discussion until later, I would be glad to 
do it. I yield back.
    Chairman Ros-Lehtinen. The gentleman yields back. Mr. 
Meeks.
    Mr. Meeks. Let me just say that, before I yield to Mr. 
Payne, that the gentleman's amendment basically says that we 
are going to take money away from South Africa, who is an ally, 
because what we are looking about is that region, the region of 
South Africa, where South Africa is, and we want to make sure, 
since they are such a good ally of ours, that they also have 
influence in that region, and that they can work with their 
neighbors and other African countries so that we have 
additional allies. And it shows that we are maximizing the 
money because South Africa is also saying, look, I am not just 
taking your money, we are going to put up some more money also. 
And that is going to help a lot of other countries in the 
region. And it is going to have greater influence in the region 
for us in the long run also. So it is really a wise move, 
because we are helping an ally who is helping give a good and 
better impression for all, for them to help them in that 
region, where we need allies, and to help us. I yield to Mr. 
Payne.
    Mr. Payne. I will be very brief. First of all, when the 
discussion began about China, I don't know if Mr. Griffin said 
he is tired of hearing a lecture about China, so I am trying to 
decide when a discussion becomes a lecture. A lecture is like 
somebody talking down to people. I thought it was a discussion 
that we were just having. And characterizing it as a lecture--
--
    Mr. Griffin. Would the gentleman yield?
    Mr. Payne. Yes. I would be glad to yield.
    Mr. Griffin. I wasn't referring to you.
    Mr. Payne. Pardon?
    Chairman Ros-Lehtinen. The person yielding is----
    Mr. Payne. I was yielding to Mr. Griffin.
    Chairman Ros-Lehtinen. I know, but that is not your time. 
Mr. Meeks.
    Mr. Meeks. I yield.
    Mr. Griffin. I wasn't referring to you. I don't even 
remember what you said.
    Mr. Payne. Okay.
    Chairman Ros-Lehtinen. Mr. Payne is recognized again.
    Mr. Payne. Thank you very much, Mr. Griffin, for that 
clarification. I just think that, and let me tell you 
something, there is no one over here in love with China. I 
mean, I saw the way they tried to interfere with Security 
Council resolutions on Darfur. I was there when the bombs were 
falling. I was there and--as a matter of fact, the 
Congressional Black Caucus almost had relations with China 
broken off, because we had a meeting with their Ambassador, and 
we told him what to tell Beijing. It was a quiet meeting, no 
one knew about it, it was a couple years ago, and we saw a 
change in China's attitude. So there is no love in our heart 
for China.
    I just want to say two things quickly. One, that in Africa 
there is the highest acceptance for the United States of 
America of any place in the world. It is almost 80 percent of 
the people in Africa prefer the United States, and we don't 
even do anything very much there compared to what China does. 
And secondly, just to say about the Heritage Foundation 
actually came up with the statistics that China in 2010 
invested $120 billion in Africa. Now, that is certainly a 
concern, because as has been indicated, it is simply building 
up to when they are at the point where they are going to have 
all the power that they need, and then we are going to have to 
decide, well, what do we do? One hundred twenty billion 
dollars, I thought it was $50 billion, and we just looked up 
the number.
    So there is something that we need to be concerned about. I 
want to make it clear that nobody over here, especially me, 
have any love in my heart for China. I think that we need to 
look at this Trilateral. I think it is money well spent. South 
Africa is putting their expertise, they are putting their money 
in. It is sort of like a public-private partnership. We are 
doing it with them. I would hope that we would have my 
amendment passed. Thank you. Yield back.
    Chairman Ros-Lehtinen. Thank you. Mr. Meeks, do you yield 
back?
    Mr. Meeks. Yield back.
    Chairman Ros-Lehtinen. Thank you. Seeing no further 
requests for recognition, the question occurs on the amendment. 
And the amendment is Mr. Griffin's amendment, prohibition on 
funds for the Trilateral Assistance Program. A recorded vote 
has been requested. And the clerk will call the roll.
    Ms. Carroll. Madam Chairman.
    Chairman Ros-Lehtinen. Yes.
    Ms. Carroll. The chairman votes aye.
    Mr. Smith?
    [No response.]
    Ms. Carroll. Mr. Burton.
    Mr. Burton. Aye.
    Ms. Carroll. Mr. Burton votes aye.
    Mr. Gallegly?
    Mr. Gallegly. Aye.
    Ms. Carroll. Mr. Gallegly votes aye.
    Mr. Rohrabacher?
    Mr. Rohrabacher. Yes.
    Ms. Carroll. Mr. Rohrabacher votes aye.
    Mr. Manzullo?
    Mr. Manzullo. Yes.
    Ms. Carroll. Mr. Manzullo votes aye.
    Mr. Royce?
    [No response.]
    Ms. Carroll. Mr. Chabot.
    Mr. Chabot. Aye.
    Ms. Carroll. Mr. Chabot votes aye.
    Mr. Paul?
    [No response.]
    Ms. Carroll. Mr. Pence?
    Mr. Pence. Aye.
    Ms. Carroll. Mr. Pence votes aye.
    Mr. Wilson?
    Mr. Wilson of South Carolina. Aye.
    Ms. Carroll. Mr. Wilson votes aye.
    Mr. Mack?
    Mr. Mack. Aye.
    Ms. Carroll. Mr. Mack votes aye.
    Mr. Fortenberry?
    Mr. Fortenberry. Aye.
    Ms. Carroll. Mr. Fortenberry votes aye.
    Mr. McCaul?
    Mr. McCaul. Aye.
    Ms. Carroll. Mr. McCaul votes aye.
    Mr. Poe?
    [No response.]
    Ms. Carroll. Mr. Bilirakis.
    Mr. Bilirakis. Yes.
    Ms. Carroll. Mr. Bilirakis votes aye.
    Ms. Schmidt?
    Mrs. Schmidt. Aye.
    Ms. Carroll. Ms. Schmidt votes aye.
    Mr. Johnson?
    Mr. Johnson. Aye.
    Ms. Carroll. Mr. Johnson votes aye.
    Mr. Rivera?
    Mr. Rivera. Aye.
    Ms. Carroll. Mr. Rivera votes aye.
    Mr. Kelly?
    Mr. Kelly. Aye.
    Ms. Carroll. Mr. Kelly votes aye.
    Mr. Griffin?
    Mr. Griffin. Aye.
    Ms. Carroll. Mr. Griffin votes aye.
    Mr. Marino?
    Mr. Marino. Yes.
    Ms. Carroll. Mr. Marino votes aye.
    Mr. Duncan?
    Mr. Duncan. Aye.
    Ms. Carroll. Mr. Duncan votes aye.
    Ms. Buerkle?
    Ms. Buerkle. Yes.
    Ms. Carroll. Ms. Buerkle votes aye.
    Mrs. Ellmers?
    Mrs. Ellmers. Aye.
    Ms. Carroll. Ms. Ellmers votes aye.
    Mr. Berman?
    Mr. Berman. No.
    Ms. Carroll. Mr. Berman votes no.
    Mr. Ackerman?
    Mr. Ackerman. No.
    Ms. Carroll. Mr. Ackerman votes no.
    Ms. Carroll. Mr. Faleomavaega?
    Mr. Faleomavaega. No.
    Ms. Carroll. Mr. Faleomavaega votes no.
    Mr. Payne?
    Mr. Payne. No.
    Ms. Carroll. Mr. Payne votes no.
    Mr. Sherman?
    Mr. Sherman. Yes. Let me correct that to a no.
    Ms. Carroll. Mr. Sherman off aye, on no.
    Mr. Engel.
    [No response.]
    Ms. Carroll. Mr. Meeks.
    Mr. Meeks. No.
    Ms. Carroll. Mr. Meeks votes no.
    Mr. Carnahan?
    Mr. Carnahan. No.
    Ms. Carroll. Mr. Carnahan votes no.
    Mr. Sires?
    Mr. Sires. No.
    Ms. Carroll. Mr. Sires votes no.
    Mr. Connolly?
    Mr. Connolly. No. But happy birthday, Nelson Mandela.
    Ms. Carroll. Mr. Connolly votes no.
    Mr. Deutch?
    Mr. Deutch. No.
    Ms. Carroll. Mr. Deutch votes no.
    Mr. Cardoza?
    [No response.]
    Ms. Carroll. Mr. Chandler.
    Mr. Chandler. No.
    Ms. Carroll. Mr. Chandler votes no.
    Mr. Higgins?
    Mr. Higgins. No.
    Ms. Carroll. Mr. Higgins votes no.
    Ms. Schwartz?
    Ms. Schwartz. No.
    Ms. Carroll. Ms. Schwartz votes no.
    Mr. Murphy?
    Mr. Murphy. No.
    Ms. Carroll. Mr. Murphy votes no.
    Ms. Carroll. Ms. Wilson?
    Ms. Wilson of Florida. No.
    Ms. Carroll. Ms. Wilson votes no.
    Ms. Bass?
    Ms. Bass. No.
    Ms. Carroll. Ms. Bass votes no.
    Mr. Keating?
    Mr. Keating. No.
    Ms. Carroll. Mr. Keating votes no.
    Mr. Cicilline?
    Mr. Cicilline. No.
    Ms. Carroll. Mr. Cicilline votes no.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Mr. Royce?
    Mr. Royce. Aye.
    Ms. Carroll. Mr. Royce votes aye.
    Chairman Ros-Lehtinen. Mr. Engel.
    Mr. Engel. No.
    Ms. Carroll. Mr. Engel votes no.
    Chairman Ros-Lehtinen. Mr. Smith.
    Mr. Smith. Aye.
    Ms. Carroll. Mr. Smith votes aye.
    Chairman Ros-Lehtinen. Have all members been recorded? The 
clerk will report the vote.
    Ms. Carroll. Madam Chairman, on that vote, there are 23 
ayes and 19 nos.
    Chairman Ros-Lehtinen. The ayes have it, and the question 
is agreed to. The next amendment will be Mr. Payne. I would 
like to tell the members that the Chair is going to restrict 
the time on the amendments because it keeps volleying back and 
forth, and it takes up an awful lot of time. I am going to try 
this. If I can't get unanimous consent, we will just limit it 
for \1/2\ hour. Would it be all right if members have 3 minutes 
each instead of 5? Ms. Wilson says aye. Can I get a witness? 
Yes? Let me try it this way. Since it is unanimous consent--
yes, sir.
    Mr. Berman. Madam Chair, I am reserving the right to 
object. There are many amendments where I think that is 
acceptable. There are a few amendments, I will just give you 
one example, in case you thought it wasn't going to happen, 
there will be an amendment regarding the global gag rule that 
has been inserted into this bill. And I would object to any 
effort to limit the debate on that kind of an amendment. But on 
most of the amendments, fine.
    Chairman Ros-Lehtinen. Okay. How about this? How about 5 
minutes for the person who offers the amendment, 3 minutes for 
everyone else except for Mexico City?
    Mr. Rohrabacher. Madam Chairman, just so people will 
understand, I have an amendment that eliminates aid to Pakistan 
and another amendment that eliminates aid to Iraq. I will be 
satisfied with my 5 minutes, but I would like my colleagues to 
understand that this would be limiting their ability to discuss 
this. So I mean, I am not being limited here by that rule, but 
they may not want to take it up.
    Chairman Ros-Lehtinen. Hold on 1 second. I will make a 
motion, and then we will vote on it. The Chair makes a motion 
that from now on, the person who offers the amendment, the 
sponsor, will have 5 minutes. Each member will have 3 minutes 
to speak on it.
    Mr. Berman. I have to make a point of order on this 
amendment.
    Chairman Ros-Lehtinen. Yes, sir.
    Mr. Berman. This amendment constrains House rules on the 
committee procedures. It can be done by unanimous consent, but 
I would make a point of order.
    Chairman Ros-Lehtinen. Will the gentleman yield? Are you 
saying that I cannot limit debate time?
    Mr. Berman. By motion.
    Chairman Ros-Lehtinen. By a motion that we will vote on?
    Mr. Berman. That is right. Under the House rules regarding 
how committees function, there is----
    Mr. Rohrabacher. But she can do it with unanimous consent.
    Chairman Ros-Lehtinen. Hold on. No one is recognized right 
now.
    Mr. Berman. While we are checking this, can I move to 
strike the last word?
    Chairman Ros-Lehtinen. No. No. Thank you. Hold on 1 second. 
Mr. Berman, while we are looking, Mr. Berman and Mr. 
Rohrabacher, what were you going to say? Mr. Berman is 
recognized.
    Mr. Berman. I will just take one moment. We have some 
additional amendments on title IV. I am not sure how many. I 
have three, at least one of which is going to be the amendment 
on the global gag rule. And then we have additional titles 
where there are many more amendments. I know this goes against 
the chair's initial desire of how to conclude this markup, but 
I would like to throw out a suggestion, that we try to work out 
a time agreement on amendments, both as to the amount of time 
that a member might speak and the amount of time on a total 
amendment, but that we do it in the context of saying there 
will be a time tonight when we will recess--I would just like 
to finish my request before it gets shot down, and that we 
reconvene at 9 o'clock or 9:30 or 10 o'clock, or whatever the 
appropriate time is tomorrow, to finish the markup at a 
reasonable hour. Because otherwise we will be here all night.
    Chairman Ros-Lehtinen. Yes, we will.
    Mr. Berman. And I would suggest we will end up spending 
much less time on this markup if we follow a notion of deciding 
to stay for another hour or \1/2\ hour and then coming back at 
9 o'clock or 10 o'clock tomorrow, and in the meantime, work out 
a unanimous agreement on time that members will speak on 
amendments and on the total time spent on an amendment, and 
that we will end up spending much less time in markup and love 
each other much more.
    Chairman Ros-Lehtinen. And I think I am ready to make the 
motion. Are we ready? On the time to limit. May I recognize 
you? Are you allowed to have a voice? We need a magnifying 
glass. You have to wait for my cataract surgery.
    Mr. Manzullo. Why don't we just agree.
    Chairman Ros-Lehtinen. Hold on a second. There is no 
unanimous consent on anything. We are going to proceed with 
debate, and we will try to work this out where we have perhaps 
5 minutes for the sponsor, 3 minutes for everyone else. And in 
\1/2\ hour, after that amendment is talked, except for the 
Mexico City, perhaps we will hear a motion to end the debate on 
that particular amendment.
    This last amendment went on for an awfully long time, and 
people were then called on again and again to talk, and off 
topic. So it is fine if we are on topic, but I am not going to 
censor what you say, but it is really getting a little out of 
control. But Mr. Payne, we will work it out while you debate 
your amendment. You have an amendment at the desk. And the 
clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Payne of 
New Jersey. At the end of title IV of the bill, add the 
following: Section 4xx. Improvements to nutritional quality, 
quality control, and cost-effectiveness of United States food 
assistance. (a) In General. The Administrator of the United 
States----
    Chairman Ros-Lehtinen. Everyone has the amendment. Thank 
you. Unanimous consent to consider it as read. And Mr. Payne is 
recognized to explain his amendment. Thank you, sir.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Payne. Great. And I hope to do it in less than 5 
minutes, however I will do my best. This amendment costs no 
money. It is, in my opinion, noncontroversial. I offer this 
amendment to title IV of the bill, which establishes a sense of 
Congress that USAID should institute critical reforms to 
improve the quality and cost-effectiveness of U.S. food aid. 
That is not asking for any more money or changing anything 
substantially. For 55 years, the United States, backed by the 
support of the American people, have been committed to 
providing life-saving food aid to developing countries and 
vulnerable populations around the world.
    After their inception, bilateral food aid programs were 
primarily organized with the disposal of major agricultural 
commodity surpluses generated by domestic farm production as 
the major objective. Additional objectives of the program 
include advancing U.S. trade and national security interests, 
as well as meeting the recipient countries' food security and 
development objectives. U.S. food aid has provided critical 
calories and nutrition to millions of people during short term 
emergencies. But food aid programs have been increasingly 
called into question over the past decade for not meeting the 
nutritional needs of recipient populations, and in some cases, 
for disrupting local markets. This sense of Congress amendment 
is our opportunity to voice support for the recommendations of 
two recent studies.
    One, the first study, conducted by the Government 
Accountability Office at my request, is entitled 
``International Food Assistance: Better Nutrition and Quality 
Control Can Further Improve U.S. Food Aid.'' The second study, 
conducted by Tufts University and commissioned by USAID, is 
entitled ``Improving the Nutritional Quality of U.S. Food Aid: 
Recommendations for Changes to Products and Programs.'' Both 
studies found that while U.S. food aid is effective in 
satisfying the nutritional requirements of recipients for 
short-term emergencies, it does not provide adequate nutrition 
during long-term emergencies, especially if food aid is the 
primary or only source of nutrition, and for populations with 
special nutritional needs, such as for infants, children under 
5, individuals who are critically malnourished, and individuals 
living with HIV and AIDS. The amendment simply calls on USAID 
to implement the GAO and Tufts recommendations to issue 
guidance on how best to address nutritional deficiencies that 
may emerge during protracted emergencies; two, to evaluate the 
performance and cost-effectiveness of specialized food 
products, convene a new interagency food aid committee to 
provide a one stop shop for whole of government technical 
actions and food aid, and interface with U.S. food industry and 
implementing partners, identify and systematically track key 
quality indicators, undertake reforms in commodity acquisition 
and supply chain management, develop mechanisms and 
partnerships to facilitate more U.S. private sector development 
and innovative innovation and food aid products, packaging, and 
delivery in order to improve the cost-effectiveness, 
nutritional qualities, and overall accept ability of the 
product, and develop clear guidance, in coordination with the 
Office of Global AIDS Coordinator and the President's Emergency 
Fund for AIDS Relief in Africa, PEPFAR, for standardized 
nutrition support in HIV programs, establish process and 
system-wide protocols for monitoring and evaluation of program 
impact, specifically for improving cost-effectiveness.
    As the U.S. continues its leadership in providing life-
saving food assistance, we must find efficiencies and leverage 
U.S. private sector innovations. As I mentioned, it does not 
ask for any additional costs. This simply says there are two 
studies that point out how we can take the program we have and 
make it better, more nutritional, probably not more food, but 
more nutritional aspects. And I would urge my colleagues to 
support this amendment. Thank you. I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Payne. I 
don't see a China angle to it, but the night is young. Mrs. 
Schmidt is recognized.
    Mrs. Schmidt. While we do use China to eat, I won't bring 
it up. Mr. Payne, I do want to thank you for offering this 
amendment and highlighting the importance of nutrition and 
quality of food issues in the United States. Food aid, as you 
well know, I chair the Subcommittee on Nutrition in the 
Agriculture Committee, and nutrition are near and dear to my 
heart. However, I can't support this amendment.
    Currently, the United States is the largest donor of food 
aid, contributing $1.6 billion through just the Food for Peace 
program in Fiscal Year 2010 alone. You know, the nutritional 
needs of vulnerable groups and the quality of our food aid to 
impoverished countries are critical issues. I couldn't agree 
with you more. However, many of the reforms to improve our 
quality control are already underway. The recent Government 
Accountability Office report on better nutrition and quality 
control highlights these issues for reform that both USAID and 
USDA concurred with and recently provided examples on 
continuing efforts to address such issues.
    This amendment calls for new programming, a convening of a 
new interagency food aid committee, and the establishment of a 
multi-stakeholding working group, adding to the bureaucracy, 
and I think, too, probably additional costs, because it is 
adding to the bureaucracy. Under such difficult constraints, I 
cannot support the potential costs of this amendment, 
especially when some of the reforms and recommendations that 
are cited within the amendment are currently being addressed.
    You know, Mr. Payne, if our budgetary issues weren't in the 
same shape as many Americans, and that we really have to look 
at pennies and the way to save pennies, I might be able to be 
more sympathetic to your point of view. But we have so few 
dollars to spend. And to create a new program that is only 
going to add layers of bureaucratic costs, I would rather find 
ways to improve nutrition with the dollars that we have to 
spend now instead of creating a new agency. And Madam Chair, I 
yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you so much, Mrs. Schmidt. I 
did not hear that nation brought up at all. Good job. Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Madam Chair. I just want to 
thank the gentleman from New Jersey for his proposed amendment. 
As I understand it, it immediately is not an additional cost to 
establish what he is trying to promote here. I would like to 
give him my time, if he could explain a little more exactly 
what the amendment provides.
    Mr. Payne. Right. Just briefly, it doesn't call for new 
employees. It says create an interagency organization. That 
would certainly be people who are currently employed by the 
agencies. It would not add anybody. It would not create any 
additional costs. We are not asking for more money for more 
food. We are simply saying that we have some very specific 
recommendations. We think that by having someone really 
focusing on it clearly with this new interagency group, it 
would be able to really facilitate it better. And this is just 
the sense of the Congress saying that we think we have done a 
good job, we are not asking for more money, we are not asking 
for more food, we are just saying, why can't we make the food 
more nutritious? And secondly, that we use people in our 
agencies already to simply have a meeting. So trying to save 
time, I will yield back to the gentleman.
    Chairman Ros-Lehtinen. Thank you, Mr. Payne. Thank you, Mr. 
Faleomavaega. Does any member wish recognition? I did not mean 
to put a chill on this. Okay then. I am sorry. All right. Then 
hearing no further request for recognition, the question occurs 
on the amendment. This is on the Payne amendment. All those in 
favor say aye. All those opposed, no. In the opinion of the 
Chair, the noes have it. The amendment is not agreed to.
    Mr. Payne. Madam Chair, may I ask for a recorded vote?
    Chairman Ros-Lehtinen. Absolutely. A recorded vote has been 
requested. The clerk will call the roll on the Payne amendment.
    Ms. Carroll. Madam Chairman?
    Chairman Ros-Lehtinen. No.
    Ms. Carroll. The chairman votes no.
    Mr. Smith?
    Mr. Smith. Yes.
    Ms. Carroll. Mr. Smith votes aye.
    Mr. Burton?
    Mr. Burton. No.
    Ms. Carroll. Mr. Burton votes no.
    Mr. Gallegly?
    Mr. Gallegly. No.
    Ms. Carroll. Mr. Gallegly votes no.
    Mr. Rohrabacher?
    Mr. Rohrabacher. No.
    Ms. Carroll. Mr. Rohrabacher votes no.
    Mr. Manzullo?
    [No response.]
    Ms. Carroll. Mr. Royce.
    [No response.]
    Ms. Carroll. Mr. Chabot.
    Mr. Chabot. No.
    Ms. Carroll. Mr. Chabot votes no.
    Mr. Paul?
    [No response.]
    Ms. Carroll. Mr. Pence?
    [No response.]
    Ms. Carroll. Mr. Wilson.
    Mr. Wilson of South Carolina. No.
    Ms. Carroll. Mr. Wilson votes no.
    Mr. Mack?
    Mr. Mack. No.
    Ms. Carroll. Mr. Mack votes no.
    Mr. Fortenberry?
    [No response.]
    Ms. Carroll. Mr. McCaul.
    Mr. McCaul. No.
    Ms. Carroll. Mr. McCaul votes no.
    Mr. Poe?
    Mr. Poe. No.
    Ms. Carroll. Mr. Poe votes no.
    Mr. Bilirakis?
    Mr. Bilirakis. No.
    Ms. Carroll. Mr. Bilirakis votes no.
    Mrs. Schmidt?
    Mrs. Schmidt. No.
    Ms. Carroll. Mrs. Schmidt votes no.
    Mr. Johnson?
    Mr. Johnson. No.
    Ms. Carroll. Mr. Johnson votes no.
    Mr. Rivera?
    Mr. Rivera. No.
    Ms. Carroll. Mr. Rivera votes no.
    Mr. Kelly?
    Mr. Kelly. No.
    Ms. Carroll. Mr. Kelly votes no.
    Mr. Griffin?
    Mr. Griffin. No.
    Ms. Carroll. Mr. Griffin votes no.
    Mr. Marino?
    Mr. Marino. No.
    Ms. Carroll. Mr. Marino votes no.
    Mr. Duncan?
    Mr. Duncan. No.
    Ms. Carroll. Mr. Duncan votes no.
    Ms. Buerkle?
    Ms. Buerkle. No.
    Ms. Carroll. Ms. Buerkle votes no.
    Mrs. Ellmers?
    Mrs. Ellmers. No.
    Ms. Carroll. Mrs. Ellmers votes no.
    Mr. Berman?
    Mr. Berman. Aye.
    Ms. Carroll. Mr. Berman votes aye.
    Mr. Ackerman?
    Mr. Ackerman. Aye.
    Ms. Carroll. Mr. Ackerman votes aye. 
    Mr. Faleomavaega?
    Mr. Faleomavaega. Aye.
    Ms. Carroll. Mr. Faleomavaega votes aye.
    Mr. Payne?
    Mr. Payne. Aye.
    Ms. Carroll. Mr. Payne votes aye.
    Mr. Sherman?
    Mr. Sherman. Aye.
    Ms. Carroll. Mr. Sherman votes aye.
    Mr. Engel?
    [No response.]
    Ms. Carroll. Mr. Meeks.
    [No response.]
    Ms. Carroll. Mr. Carnahan.
    Mr. Carnahan. Aye.
    Ms. Carroll. Mr. Carnahan votes aye.
    Mr. Sires?
    Mr. Sires. Aye.
    Ms. Carroll. Mr. Sires votes aye.
    Mr. Connolly?
    Mr. Connolly. Aye.
    Ms. Carroll. Mr. Connolly votes aye.
    Mr. Deutch?
    Mr. Deutch. Aye.
    Ms. Carroll. Mr. Deutch votes aye.
    Mr. Cardoza?
    [No response.]
    Ms. Carroll. Mr. Chandler.
    Mr. Chandler. Aye.
    Ms. Carroll. Mr. Chandler votes aye.
    Mr. Higgins?
    Mr. Higgins. Yes.
    Ms. Carroll. Mr. Higgins votes aye.
    Ms. Schwartz?
    Ms. Schwartz. Aye.
    Ms. Carroll. Ms. Schwartz votes aye.
    Mr. Murphy?
    Mr. Murphy. Aye.
    Ms. Carroll. Ms. Wilson?
    Ms. Wilson of Florida. Aye.
    Ms. Carroll. Ms. Wilson votes aye.
    Ms. Bass?
    [No response.]
    Ms. Carroll. Mr. Keating.
    Mr. Keating. Aye.
    Ms. Carroll. Mr. Keating votes aye.
    Mr. Cicilline?
    Mr. Cicilline. Aye.
    Ms. Carroll. Mr. Cicilline votes aye.
    Chairman Ros-Lehtinen. Have always members been recorded?
    Mr. Royce?
    Mr. Royce. No.
    Ms. Carroll. Mr. Royce votes no.
    Chairman Ros-Lehtinen.
    Ms. Bass.
    Ms. Bass. Aye.
    Ms. Carroll. Ms. Bass votes aye.
    Chairman Ros-Lehtinen. Mr. Meeks.
    Mr. Meeks. Aye.
    Ms. Carroll. Mr. Meeks votes aye.
    Chairman Ros-Lehtinen. Mr. Manzullo.
    Ms. Carroll. Wait.
    Chairman Ros-Lehtinen. I am sorry. I didn't mean to rush 
you.
    Mr. Pence. How am I recorded?
    Ms. Carroll. Mr. Pence, you are not recorded.
    Mr. Pence. No.
    Ms. Carroll. Mr. Pence votes no.
    Chairman Ros-Lehtinen. Mr. Engel.
    Mr. Engel. Votes yes.
    Ms. Carroll. Mr. Engel votes aye.
    Chairman Ros-Lehtinen. Mr. Manzullo would like to be 
recognized.
    Mr. Manzullo. Aye.
    Ms. Carroll. Mr. Manzullo votes aye.
    Chairman Ros-Lehtinen. The clerk will report the vote.
    Ms. Carroll. Madam Chairman, on that vote there are 20 ayes 
and 21 nos.
    Chairman Ros-Lehtinen. The noes have it, and the question 
is not agreed to. On my list of amendments, Mr. Duncan is 
recognized for his amendment.
    Mr. Duncan. Thank you, Madam Chairman. I have amendment 
number 19.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Duncan 
of South Carolina. At the end of title IV, add the following: 
Section 4xx. Prohibition on assistance to countries that oppose 
the position of the United States in the United Nations. (a) 
Prohibition. None of the funds authorized to be appropriated by 
this act or any amendment made by this act may be provided as 
bilateral economic assistance to a country that opposed the 
position of the United States in the United Nations. (b) 
Definitions. In this section--(1) the term ``opposed the 
position of the United States'' means, in the case of a 
country, that the country's recorded votes in the United 
Nations General Assembly during the most recent session of the 
General Assembly and, in the case of a country which is a 
member of the United Nations Security Council, the country's 
recorded votes both in the Security Council and the General 
Assembly during the most recent session of the General 
Assembly, were the same as the position of the United States 
less--sorry, the second page is not on here.
    Chairman Ros-Lehtinen. Can you give that to the clerk? 
Thank you.
    Ms. Carroll. Thank you. Than 50 percent of the time----
    Chairman Ros-Lehtinen. Thank you. We will consider the 
amendment as having been read because all of the members have 
the amendment. And the sponsor is recognized now for 5 minutes 
to explain. Mr. Duncan. Do all members have the amendment? Mr. 
Duncan.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Duncan. Thank you, Madam Chairman. Let me just set the 
stage for it. The U.S. is the largest contributor to the U.N. 
And U.S. voluntary contributions in the U.N. organizations has 
increased dramatically over the past decade. According to 
reports from the OMB, in the year 2006 through 2010, total U.S. 
contribution to the U.N. system jumped from $3.183 billion to 
$6.347 billion, more than doubled over the last decade. 
Excluding U.S. contributions to the U.N. regular budget, U.S. 
funding for U.N.-affiliated organizations through the 
contributions to international organizations account 
skyrocketed from $375 million in Fiscal Year 2000 to $645.5 
million in the year 2010. That is over the last 10 years it has 
skyrocketed. The U.S. pays 22 percent of the U.N.'s regular 
budget and 27.1 percent of the peacekeeping budget, while the 
combined total of 128 countries, or rather, two-thirds of the 
General Assembly pay less than 1 percent of the U.N.'s regular 
budget and less than \1/3\ of 1 percent of the peacekeeping 
budget. So when you review the State Department's 2010 report 
on voting practices in the United Nations, this lists all of 
the General Assembly votes during the 65th session of the 
United States General Assembly.
    Out of the 71 votes that the U.S. cast, 131 countries voted 
opposite of the United States more than 50 percent of the time. 
Only 60 countries voted with the U.S. at least 50 percent of 
the time. For example, for the 65th U.N. General Assembly, 18 
resolutions related to Israel. Only seven countries voted in 
coincidence with the United States at least 50 percent of the 
time: Australia, Canada, Israel, the Marshall Islands, 
Micronesia, Nauru, and Palau. So when these countries who don't 
support us, and they combine with influential voting blocks in 
the U.N., they can and do block U.S. attempts to implement 
reform, curtail budgets, and support American principles and 
values.
    Folks, the American people are behind us on this issue. We 
are $14.3 trillion in debt. Why are we giving so much money to 
the United Nations? What return are we reaping on our 
investment when these countries do not support American 
interests on the world stage? It is important that countries 
recognize that America values issues such as supporting Israel, 
U.N. reform, and international religious freedom. My amendment 
seeks to address this gap between spending and promoting 
American interests. Our level of foreign assistance to other 
countries should make a difference in how that country votes on 
resolutions in the U.N.
    My amendment is very simple. Our economic assistance is not 
an entitlement program. If countries that receive U.S. foreign 
assistance do not vote with the U.S. at least 50 percent of the 
time, then the U.S. has the right to revote that country's 
foreign assistance. As security assistance is in the interests 
of our national interest, this amendment does not touch 
security interests. Rather, as defined in the amendment, it 
refers to bilateral economic assistance only. I will keep it 
simple. I urge you to support this amendment, and I appreciate 
the consideration.
    Chairman Ros-Lehtinen. Thank you, Mr. Duncan.
    Mr. Berman.
    Mr. Berman. Thank you, Madam Chairman. This amendment, 
unlike, for instance, the Mack amendment, cuts off any money 
authorized to be appropriated by this act to a country that 
opposes the position in the United Nations under the 
definitions of the amendment. So you vote for this amendment, 
you kill the Merida Initiative because Mexico is one of those 
countries. You eliminate the global HIV/AIDS, malaria, 
tuberculosis program because practically every one of the 
countries that are recipients of that assistance votes against 
us more than half the time. You kill the democracy programs in 
Iran and other assistance to the people of Iran to stop their 
government from suppressing them because you haven't limited 
your amendment to aid to the government. You have said aid to 
the country. In other words, you go right through--and of 
course, you wipe out your bilateral assistance to Iraq and 
Afghanistan.
    Mr. Duncan. Would the gentleman yield?
    Mr. Berman. All aspects of it.
    Mr. Duncan. Would the gentleman yield? There is a waiver 
provision in the amendment.
    Mr. Berman. I love when you guys say that. I reclaim my 
time. We are going to do something really stupid and then give 
a waiver because we know we are doing something stupid, and the 
President has got to have the ability to undo this. And that is 
what this is. I am sorry to say, I have great respect for the 
gentleman, but I would love to know that he anticipated the 
consequences of his amendment before he had it drafted and 
offered it. I think it is a mistake to eliminate the Merida 
program.
    I don't want to cut the program that George Bush got 
started, with the help of a Republican Congress, to try and 
save hundreds of thousands and millions of lives through HIV/
AIDS medications. I don't want to get rid of our efforts to 
continue the transformation in Iraq that, as we move from a 
military situation to an effort to help them sustain themselves 
we wipe out all economic assistance. You have got to be 
responsible for what you are doing here. And to say that the 
President can issue a waiver just falls flat.
    Mr. Burton. Would the gentleman yield, please, for just a 
moment? Would the gentleman yield?
    Mr. Berman. Yeah.
    Mr. Burton. You know when we passed the Iran sanctions 
bill, we gave the President waiver authority. You didn't 
complain about it then. Why are you complaining now?
    Mr. Berman. I am saying thank God you gave the President 
waiver authority. And I believe in certain situations--by the 
way, we had a very nice high standard for that waiver 
authority. But reclaiming my time, I am saying, why would you 
do an amendment that the immediate consequence of its passage 
is that a huge number of countries that get our assistance to 
stop their people from being killed by AIDS and the children 
who are born to pregnant women taking medication so their kids 
won't be born with AIDS, and which will wipe out our Merida 
Initiative and undermine everything you guys supported doing in 
Iraq and Afghanistan, why would you want to offer an amendment 
that does this and then rest on the fact that the President 
could waive it?
    Mr. Burton. Will the gentleman yield for one more question?
    Mr. Berman. Sure.
    Mr. Burton. The amendment says very clearly that if they 
vote with us more than 50 percent of the time, then there is no 
penalty. And if they vote with us less than 50 percent of the 
time, the President, if it is in our national interest, can 
waive it. I don't understand what the problem is.
    Mr. Berman. By and large, I have generally found that when 
I want to get one of my colleagues to do something I would 
like, I don't tell them how I am going to whack him if he 
doesn't do what I like. It is not usually the best first 
approach. On those rare occasions, Mr. Burton, and there are 
some where you and I are on the same side, I don't come to you 
and say, you bum, I am going to do everything I can to destroy 
you unless you support my particular bill or amendment. I would 
suggest some of that logic applies here. Taking a standard, 
providing a waiver that allows you to make the standard 
meaningless, but that immediately insults the vast majority of 
the countries of the world by saying you are trying to bribe 
them into changing their sovereign decisions is not the best 
first approach toward international diplomacy or human 
relationships. I yield back my time.
    Chairman Ros-Lehtinen. The gentleman's time has expired. 
But maybe calling the proposal stupid is also not the best 
approach.
    Mr. Berman. I would like to correct it. What is a better 
word?
    Chairman Ros-Lehtinen. Foolhardy.
    Mr. Berman. Wrong. Wrongheaded.
    Chairman Ros-Lehtinen. Thank you. Much better. I have seen 
some hands up. I saw Mr. Johnson and I saw Mr. Connolly. And 
then I saw Mr. Rivera, and Mr. Carnahan, and Mrs. Schmidt, and 
Mr. Ackerman. Remind me of that order. Mr. Johnson.
    Mr. Johnson. Thank you, Madam Chairman. You know, with 
great wealth comes great responsibility. Even the Scriptures 
teach that. And we have a responsibility to be good stewards of 
taxpayer dollars. And I think if our goal, which I believe that 
everyone on this committee shares that goal, is to encourage 
the advancement of democracy and freedom across the globe, then 
we have a responsibility to help those who are less advantaged 
than we are understand that we are there to help, but that that 
help is not a handout, that it comes with a determination that 
they support the same ideals that we do. I support this 
amendment to restrict the bilateral economic assistance to 
countries that oppose the position of the United States at the 
U.N. You know, during the past decade about 90 percent of U.N. 
member states that receive U.S. assistance vote against the 
U.S. a majority of the time in the U.N. General Assembly on 
nonconsensus votes. These countries are happy to benefit from 
our economic assistance, but they frequently do not step up to 
the plate when we need their vote at the U.N.
    Mr. Duncan. Will the gentleman yield for just a second?
    Mr. Johnson. I will yield in a second, when I finish my 
statement. All too often, and with impunity, they vote against 
the United States, against Israel, against sanctioning Iran, 
against real budgetary and management reforms at the U.N. This 
amendment makes it clear that our economic assistance is not an 
entitlement program, and there are consequences when countries 
oppose our position at the U.N.
    In order for our economic assistance to promote 
responsibility, our economic assistance must reward 
responsibility. This amendment does not apply to our security 
assistance programs. Let me be clear about that. It does not 
apply to our security assistance programs. And because not all 
votes and situations are alike, the amendment includes a 
Presidential waiver--we have just discussed that--to ensure 
that economic assistance can continue when it is in our 
national interests to do so. With that, I will yield.
    Chairman Ros-Lehtinen. I think Mr. Griffin was asking for 
time.
    Mr. Johnson. I will yield to the gentleman.
    Mr. Duncan. Actually, Madam Chairman, it was me. You are 
getting us confused today.
    I just wanted to add some data to what you said, the 
gentleman from Ohio. South Africa, we talked a lot about them 
today. They only voted with the United States 33.8 percent of 
the time. Let us mention some others here. Pakistan, 21.3 
percent of the time. Nicaragua was mentioned earlier; 34.4 
percent of the time. The list goes on and on.
    It is very clear that countries that are large recipients 
of U.S. aid through the U.N. fail to vote with the United 
States. It is our tax dollars that we are giving to them. 
Shouldn't we demand something for that in return? And let us at 
least stand on the world stage shoulder to shoulder with the 
United States of America that is giving them hundreds of 
billions of dollars in foreign assistance, economic aid and 
vote with us. And if they want that money, Mr. Berman, they 
want that money, all they have to do is vote with us. They 
wouldn't be cut off if they voted more than 50 percent of the 
time.
    I yield back.
    Mr. Johnson. I reclaim the balance of my time just to say 
if we want to change the outcome, then we have to change the 
steps to the dance. We can't keep dancing the same dance over 
and over again and get our fiscal house in order and expect to 
get a different result from our partners overseas if we keep 
playing by the same rules.
    These are dire economic times. We owe to the people of this 
country, to our children and our grandchildren to be 
responsible. I believe this bill is a responsible bill and a 
movement in that direction. I support it, and I urge my 
colleagues to.
    And with that, I yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you, sir.
    Mr. Connolly is recognized.
    Mr. Connolly. Thank you so much, Madam Chairman. By the 
way, thank you for your patience and your fairness tonight. You 
have done it with good humor, and I appreciate it, and I know 
my colleagues do.
    In case anyone is keeping score, I think we have just 
doubled the number of countries we are disinvesting in and 
cutting aid from, at least economic aid. Interesting why we are 
not including military. And I listened very carefully to my two 
new colleagues, Mr. Johnson from Ohio and Mr. Duncan from South 
Carolina, and it is amazing what a binary world they apparently 
want us to live in. The United States is apparently always 
right, and anyone who votes against us must therefore by 
definition be wrong. No. Their national sovereignty is to be 
dismissed. In fact, when they exercise it, and it doesn't 
conform with what we think is right in our black-and-white 
world, view of the world, they are to be punished. All economic 
assistance is to be cut unless the President waives.
    We actually heard a Biblical reference about our 
responsibility to taxpayers, and I guess I would say that is--I 
don't know if it is Biblical, but I certainly know we have a 
responsibility to the taxpayers. But the other responsibility 
we have is when you are a great power, you do not retreat from 
your responsibilities. That makes for a dangerous world that no 
taxpayer is going to thank you for down the road. Been there, 
done that. We have done that in periods of American history. It 
didn't work out too well. Paid a high, terrible price for it.
    I don't want to return to that world. I want to maintain 
our international obligations. I don't want to be perceived as 
some crude, tin-horned, throw-your-weight-around power that 
takes its marbles and goes home when it doesn't get its way.
    Here is a question for us as a committee and as Members of 
Congress: Do we believe in democracy and democratic 
institutions or not? Maybe we ought to adopt a rule that any 
time you disagree with me, we throw you out of Congress, 
because that is really the standard you are espousing on this 
issue.
    Mr. Berman. Will the gentleman yield?
    Mr. Connolly. I would yield gladly to the ranking member.
    Mr. Berman. I would like to ask the gentleman a question. 
Under this title, our Cuba Democracy Program is bilateral 
economic assistance. As I read this language, there is no 
question but that this amendment, unless the President waives 
it, the guy who will save us from everything, the Cuba 
Democracy Program is cut out because Cuba does not vote with us 
very much at the U.N. Is that your understanding of this?
    Mr. Connolly. That would be my understanding, because it 
falls under the rubric of economic assistance, not military 
assistance. And I thank the ranking member for pointing that 
out.
    I just end by saying it is a complex world, and to suck us 
all into a simple right-or-wrong, black-or-white world does not 
serve anybody's interests, certainly not the United States'. 
And it is no substitute for doing the hard, difficult work of 
diplomacy and engagement to make it a better world and to make 
sure U.S. interests are protected and fostered. This is, I 
think, a very crude and almost juvenile approach to that and 
frankly will be counterproductive, no question about it, and I 
urge my colleagues to defeat this amendment.
    Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, sir.
    The gentleman yields back.
    I have Mr. Rivera, Mr. Carnahan, Mrs. Schmidt, Mr. Ackerman 
and Mr. Pence. So Mr. Rivera is recognized. And Mr. Cicilline. 
And Mr. Payne. Thank you.
    Mr. Rivera is recognized.
    Mr. Rivera. Thank you, Madam Chair.
    I am glad our friends on the other side mentioned Cuba just 
now, because I don't think they were accurate in their 
assessment. The money that goes for the Cuba Democracy Program 
does not go to the Cuban Government. The money that goes to the 
Cuba Democracy Program goes to civil society members--I will in 
a moment--members that are dissidents, human rights activists, 
people that are struggling against the Cuban dictatorship, 
people like the Mothers in White that march and are repressed 
by the Cuban Government, human rights dissidents like Orlando 
Zapata Tamayo, who was murdered while on a hunger strike 
protesting human rights in Cuba. I don't think Orlando Zapata 
Tamayo was a member of the United Nations or was voting against 
us more than 50 percent of the time at the United Nations.
    But it is very interesting to me how much criticism is 
leveled against the waiver provision that Congressman Duncan 
has enshrined in this amendment. I can recall about 15 years 
ago when four Americans were murdered in international air 
space by the Castro dictatorship, and Congressman Burton at 
that time authored legislation to sanction the Castro 
dictatorship for murdering those four Americans, and it was 
insisted, insisted upon, the sponsors of that legislation at 
that time, Jesse Helms and Dan Burton, to have a waiver 
provision for President Clinton to be able to waive the 
sanctions against the Castro dictatorship after they had just 
murdered four Americans in a civilian aircraft in international 
airspace.
    So--I will yield in a moment. So if four Americans, if 
their lives were not worthy of having specific, concrete 
sanctions, and a waiver was demanded at that point--I would 
think here we are talking about votes. I think four American 
lives are more important than votes at the United Nations. But 
Congressman Duncan is still providing that waiver because we 
might have some folks that are more aligned with us than 
others, and they may vote 49.9 percent, and we don't want to be 
unreasonable certainly, and Congressman Duncan has provided for 
a way for the administration to provide that waiver.
    But again, we are being very selective in our criticism, 
because if it wasn't good enough when four Americans were 
murdered to have sanctions leveled, then I would think that 
certainly for voting decisions at the United Nations, we could 
have a waiver provision. And before I yield to the other side, 
I want to yield to Congressman Rohrabacher, who also wants to 
say a few words.
    Chairman Ros-Lehtinen. Congressman Rohrabacher.
    Mr. Rohrabacher. Thank you very much.
    Yeah, I think that sometimes we can suggest that we have a 
black and white vision of the world. And I am talking to my 
friend and colleague, yes, it is a good thing if you are a 
friend of the United States, and it is a bad thing if you are 
an enemy of the United States and you don't like us. And when 
you have a limited amount of money to provide assistance 
because you yourself are going into a financial crisis, it is a 
good thing to make sure that you are not providing people who 
don't like you as expressed by their votes in the United 
Nations the limited amount of resources we have to help other 
people. Yes, it is a good thing to help your friends rather 
than to help your enemies. That is black and white. Fine.
    If that is the logic from which the American people are 
trying to decide as to what policy should take place, I hope 
they listen to this debate. I am very proud to stand behind 
that criteria. And there is nothing wrong with that.
    Let me note, Mr. Berman was talking about all these 
programs that are going to be eliminated by that. No. If 
countries want to have our support, they can come and become 
our friends. And there is nothing wrong with encouraging them 
to be our friends. And when we have programs that are designed 
that don't require that, what happens? We have the very program 
Mr. Berman was talking about.
    For example, the program--the Global Fund program that was 
supposed to fight AIDS, tuberculosis and malaria. China ended 
up contributing I think it was $96 million, and it got out of 
that program already $549 million, and, in fact, will be given 
$947 million. Yeah, what happens? Our adversaries end up 
getting our scarce resources that I have no apologies about 
directing to America's friends. And if that is what the 
American people need to hear to understand the difference 
between the left wing and the right wing, fine. Let them 
listen.
    Chairman Ros-Lehtinen. Time has expired.
    I would like to ask that Mr. Duncan, who wanted to make a 
clarifying change to his amendment. So I am going to take this 
out of turn so that he can make that motion.
    Mr. Duncan. Thank you, Madam Chairman.
    If you will look at line 7, the front page of the 
amendment, the word ``country,'' I would like to strike that. 
Unanimous consent to strike the word ``country'' and add the 
word ``government.'' I think it would clear up some of the 
confusion. But I would like to strike ``country'' and add 
``government.'' Unanimous consent.
    Mr. Berman. Reserving a point of order, you are seeking an 
amendment to your amendment; is that right?
    Mr. Duncan. That is correct. An amendment to the amendment 
to strike the word ``country.''
    Mr. Berman. On my reservation, can I conclude that when Mr. 
Rivera, the gentleman from Florida, says I am wrong, you are 
saying, no, he is not? I just want to make sure you 
understand--I made certain statements about different democracy 
programs. The Cuban Government is not going to change its vote 
in order to save the Cuban Democracy Program. I just want to 
make sure you are agreeing that amendment as written does not--
ends up cutting off democracy programs in these countries.
    Mr. Rivera. Congressman Duncan, would you yield for a 
moment?
    Mr. Duncan. I would. It is my time. It is just a 
clarification word to clear up any confusion going forward not 
out of this body, because you all have heard the argument, but 
going forward out of this body.
    Mr. Berman. Is there an amendment in front of us that you 
want to--the amendment is not in writing. It requires us to 
agree by unanimous consent to make that. So I am just reserving 
in order to ask----
    Mr. Burton. Madam Chair, point of order.
    Chairman Ros-Lehtinen. Yes, Mr. Burton is----
    Mr. Burton. I would propose the amendment that the 
gentleman suggested to change that word, and I will reduce it 
to writing right now.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Duncan. That is fine.
    Chairman Ros-Lehtinen. Mr. Burton----
    Mr. Burton. I have an amendment at the desk.
    Chairman Ros-Lehtinen. Mr. Duncan has an amendment, but you 
are not going to be--do you want Mr. Burton to be offering it?
    Mr. Duncan. I will withdraw the amendment, Madam Chairman.
    Mr. Burton. I have an amendment to his amendment.
    Mr. Berman. I just wanted to make the point, I think you 
have a right to fix up your amendment, and I don't object to 
it.
    Mr. Duncan. Then I will leave the amendment active and ask 
for unanimous consent.
    Chairman Ros-Lehtinen. To make the change, and the clerk 
has noted that change. Thank you so much.
    We will go back to the order of speakers. Unanimous consent 
has been granted. The change has been noted.
    Mr. Carnahan is now recognized to speak.
    Mr. Carnahan. Thank you, Madam Chairman. And I want to 
thank my friend from South Carolina for clarifying that. But I 
want to make a point.
    Some of my friends on the other side of the aisle, we may 
vote opposite 90 percent of the time, but if we took certain 
positions, we might miss out on that 10 percent of the time 
where we have some common ground or some opportunities to work 
together. I just want to make that point.
    And secondly, the U.N. is an easy target. They absolutely 
are a complex body. It is a difficult place to work. And it is 
hard to sit there at the table with every country in the world 
with competing and complex interests all mixed up there, and to 
be sure we are looking out for our interests there, but clearly 
our interests are not going to align with every country all the 
time, and sometimes not even half the time. But we absolutely 
need to be building those allies.
    And I would suggest to the gentleman that they speak to 
some of our leaders from Israel. And I bet virtually every one 
of them you spoke to, they would think this was a bad idea 
because we have fought many battles on behalf of our ally 
Israel at the U.N. to beat back a lot of the attacks that come 
against Israel on a regular basis, and because we are engaged 
in building alliances, looking for new ways to beat those 
things back, we have had success there. And Israel is just one 
example of how we have tried to keep some of those alliances 
together, and I would urge the gentleman or others to talk to 
some of our allies from Israel, and I believe they would tell 
you this is not a good approach.
    I think you have a good idea in terms of how to hold people 
accountable, but I think we need to look for some other ways to 
actually execute that idea. And that is going to be a constant 
challenge at the U.N. But I don't think it is going to work to 
have a formula like this, and so I would respectfully request 
my colleagues to vote no on the amendment.
    Chairman Ros-Lehtinen. Thank you, Mr. Carnahan, who yields 
back.
    Mrs. Schmidt is recognized.
    Mrs. Schmidt. Thank you, Madam Chairman.
    And I first want to thank Mr. Berman for bringing up the 
point about country versus government, because I was a little 
nervous about supporting this amendment, and I am so glad that 
we have corrected that all very important word.
    I just want to say again that when I go back home and I 
talk to folks, when I have teletown halls, when I have town 
halls, one of the things that I am constantly asked is why are 
we giving to foreign governments when we really can't even 
afford to help our own? One in four families in the United 
States at some point during the years is going to be on food 
stamps. The cost of our food stamp program, our domestic 
program in the United States, has nearly doubled in the last 
few years. Now, I am only pointing that out because we have 
real needs in the United States, and we have to find the 
dollars to pay for those needs.
    So now you look at the real needs across the globe, and, 
gosh, every country sounds like it has a real need. So how do 
you pick which one you are going to support? Well, it is really 
difficult for me to go back and justify supporting countries 
that continuously vote against us at the U.N., and that is an 
easy target because people can see the recorded votes.
    So I think that this is a very well-thought-out amendment. 
If you can't vote with us at least 50 percent of the time, then 
maybe you have to have a little different scrutiny on getting 
our money, and I think the scrutiny is we are not going to give 
it to you unless the President finds some compelling reason to 
give it to you, and then you are going to get it. So the 
President has that waiver authority. So if a country like 
Israel is concerned that another country that used to get our 
aid that is no longer getting our aid because they voted with 
us only 12 percent of the time, the President can override our 
concerns here in this body.
    I think we are giving the President a great deal of 
authority in this. I think it is the flexibility that works 
within Congress, within the halls of Congress, and I really 
urge the support of this amendment because I have to go home 
and justify the way I am spending taxpayer dollars, and it is 
just so difficult for me to justify foreign aid when folks see 
it going to countries that really don't care a whole lot about 
our national interests and our national security.
    And I will yield to Mr. Griffin.
    Mr. Griffin. I just want to mention, we have heard a lot of 
talk about the waiver provision, and I think some folks 
indicated that the fact that there is a waiver provision 
somehow takes away from the substance of the amendment. If you 
are applying that standard--I know someone mentioned it 
earlier--you could argue that because President Obama's health 
care law had a waiver provision, it should have never been 
passed in the first place. Well, I agree. It should never have 
been passed in the first place, but it is not because it has a 
waiver provision.
    Waiver provisions, as the folks who have been here much 
longer than I have know, are very common in legislation. I 
would opine that if you counted through the numerous bills that 
are passed in this body that have some sort of waiver, you 
would find a whole bunch of them.
    Mrs. Schmidt. Can I reclaim my time? Because I am really 
afraid we are going to get into the issue of the waiver of the 
health care bill, and that is not really germane to this.
    So while I applaud Mr. Griffin for his view, I would hope 
that both sides continue the debate on foreign aid and this 
bill and don't get side-tracked into other issues that we can 
talk about another day.
    And with that I yield back the balance of my time.
    Chairman Ros-Lehtinen. The gentlelady yields back.
    Mr. Ackerman is recognized.
    Mr. Ackerman. I am happy to see all----
    Chairman Ros-Lehtinen. Hold on 1 second. I had a 
parliamentary inquiry.
    Mr. Gallegly. Are we now officially abiding by 3 minutes on 
the----
    Chairman Ros-Lehtinen. No, we did not get that accord.
    Mr. Ackerman.
    Mr. Ackerman. I am happy to see the renewed confidence in 
the President's judgment. I am amazed to see yet another 
amendment that begins with prohibition on assistance to 
countries that--this one amendment alone encompasses two-thirds 
of the world. Two-thirds of the world. Two-thirds of the world 
because of a mathematical formula. I mean, it is not really 
sensible. I am not sure that the amendment was very well 
thought out. There are usually unintended consequences, and 
very often it is easy, when you take a second glance, to find 
the unintended consequences.
    I would like to ask Mr. Duncan, the author of the 
amendment, in those two-thirds of countries of the world that 
we eliminate from consideration from U.S. aid, how many of 
those countries are our strategic allies in the war against 
terror?
    Mr. Duncan. I can go through the list. If you want to go 
through every country and tell you based on the last General 
Assembly. Afghanistan, 34.3 percent of the time.
    Mr. Ackerman. Is the Government of Afghanistan on our side 
in the war against terror?
    Mr. Duncan. I can go through every country if you would 
like to.
    Mr. Ackerman. We just started the list. Is Afghanistan on 
our side in the war on terror? Is India on our side in the war 
on terror? Is Iraq on our side in the war on terror? These are 
the major partners that we have. These are where we fly our 
planes from. These are the people who let our troops and our 
supplies through.
    Voice. Will the gentleman yield?
    Chairman Ros-Lehtinen. Let me see----
    Mr. Ackerman. Let me finish my point. We are doing 
tremendous damage here because we haven't really considered 
what we are doing except it sounds good, and it will sell good 
back home because my constituents can understand this. Well, if 
your constituents can understand why we are doing this, then 
both of you are wrong. We should be making these decisions on a 
country-by-country basis as to which countries deserve our aid. 
If we are basing it on the principle of whose votes we can buy, 
gee, that makes us a terrible thing, and I won't name what it 
makes us. But we are in the business of selling ourselves. And 
if we are doing that, maybe we should have a sliding scale on 
the menu. What type of action do you need? And we will sell it 
to you. That is how we will base our aid.
    Mr. Duncan. Will the gentleman yield?
    Mr. Ackerman. What are you looking for? How much money?
    Chairman Ros-Lehtinen. Would the gentleman like to yield?
    Mr. Ackerman. In a moment.
    Should we give the same amount of money in consideration to 
somebody who is with us 52 percent as we do for 75 percent, 
because maybe the guy who is with us 52 percent has given 
everything that he can give, and maybe somebody who is with us 
49 percent is really there on the front lines when it counts. 
Because of the part of the world in which they find themselves, 
they have to vote in a certain way and fashion.
    I mean, if you analyze the list, you see what we have got 
going for us with the countries that are with us 75 percent of 
the time. There are not a lot of them. If we are going to give 
money only to people who like us, that is the reason people 
don't like us. It is bullying. It is buying. It is paying off. 
You don't get intelligent policy decisions and support because 
of that. And some of these countries are punching far above 
their weight grade.
    Mr. Mack. Would the gentleman yield?
    Mr. Ackerman. I would be delighted to yield.
    Mr. Mack. The one problem I am having is on the one hand 
you say we shouldn't do it this way, but then when I offer an 
amendment and specifically outline countries that have opposed 
the U.S. and laid out the cite that all of the things that you 
just said that we should do, you oppose that as well.
    Mr. Ackerman. You are talking about South America?
    Mr. Mack. What it sounds like is that it doesn't matter 
really that none of it makes sense on this----
    Mr. Ackerman. Reclaiming my time. There are some countries 
in Latin America--and I am not sure if it was you or one of the 
other gentlemen or ladies that made the point about free trade 
agreements with Latin America. I don't dismiss free trade 
agreements; you have to look at them one at a time and see what 
we are getting and why it is important. I am in favor of 
Colombia. Colombia under this would be excluded. We couldn't do 
a free trade agreement with Colombia under this because, guess 
what, they are not with us 50 percent of the time.
    I don't think anybody really analyzed it. Somebody picked a 
number that sounded good, like 50 percent sounds, like, good. 
You know, if you get a C or a C-minus or a C-plus, that is 
passing. That makes you our friend. That doesn't make you our 
friend. It doesn't make you a supporter of U.S. interests.
    We really have to put some collective thought into this, 
and certainly there are countries that we give aid to that 
shouldn't be getting aid, and certainly there are some that are 
bargains that we don't give enough aid to that can't vote with 
us for certain reasons.
    But of critical importance to us on our national security 
interests, countries in the Gulf. Look at the list. Countries 
in the Gulf are very important to us right now for the 
stability of the whole region. They are all off this list. We 
just dissed them just like that.
    They are not all the same. What I am suggesting is that we 
take a look at these one at a time on a policy basis, not on an 
arithmetic formula or a Biblical quote. If we wanted to base 
our foreign policy decisions on the Bible, I would offer an 
amendment of love thy neighbor and give them aid. That we can't 
take care of all our needs in this country? We will never take 
care of all our needs in this country, but, yes, I know a lot 
of poor individuals and poor families. And you know, they are 
the most generous people I know, and they give assistance, and 
they give charity to people that need help outside of their 
family, even though they don't cover their own bases 
completely.
    [Music plays.]
    Mr. Duncan. I have no way of stopping it.
    Mr. Ackerman. I think the place is haunted.
    Mr. Duncan. I apologize.
    Mr. Ackerman. Madam Chair, I am not sure what that is all 
about. But, Madam Chairman----
    Chairman Ros-Lehtinen. Mr. Berman wanted to know if they 
are paying royalties for that song.
    Mr. Ackerman. I am just suggesting that this approach is 
really helter skelter, and it picks a number that really 
doesn't mean anything. And we have to approach this on an 
intelligent basis, and I would ask if the gentleman would 
withdraw the amendment. Maybe a group of us can work together 
and pick those countries that are not deserving of our aid.
    Chairman Ros-Lehtinen. I don't think so.
    Mr. Pence is recognized.
    Mr. Pence. Thank you, Chairman. And I--you don't need to 
use theme music for my comments. Mr. Ackerman got a music bed I 
just heard.
    I want to rise in strong support of the amendment by Mr. 
Duncan from South Carolina, and I appreciate his leadership. 
And I--and the level of freshmen hazing that is taking place 
from some of my colleagues on the other side of the aisle is 
memorable, but unpersuasive. I particularly appreciate Mr. 
Berman revising and extending his characterization that this 
piece of legislation was stupid. But the use of the terms--Mr. 
Connolly referred to this legislation as crude. My good friend 
Mr. Ackerman referred to it as a helter-skelter approach. The 
gentleman from Virginia said that this is evidence of 
Republicans having a binary world view, isolationists 
retreating from the world.
    Since when did economic aid from the United States of 
America become an entitlement in the world? I am trying to get 
that. And the suggestion that there should be some rational 
limitation on how we use our increasingly scarce taxpayer 
dollars in the area of foreign aid to governments is not the 
same as what some of those accusations portend. Quite frankly, 
I talk to a lot of people back around the Hoosier State and 
across this country who just assume we did away with all 
foreign aid.
    I am not one of those people, but I do think that the way 
we have seen the United Nations evolve of late, it makes the 
late President John F. Kennedy quite a prophet when he said in 
his inaugural address, we must not permit the United Nations to 
become a forum for invective against the West. Now, the problem 
with President Kennedy's statement is he was not focused 
enough. It hasn't become a forum for invective against the 
West, it has become a forum for invective against the United 
States of America and Israel.
    And I say by an informational basis to my friend Mr. 
Ackerman, with whom I had the privilege of serving as the 
ranking member of the Middle East Subcommittee when he chaired 
that subcommittee, I know his heart for Israel. He may not be 
aware, a significant number of the recorded votes that would be 
affected here are anti-Israel votes, and if a country 
consistently voting against Israel in the United Nations should 
have no bearing on the United States providing economic aid to 
that country, well, I think I have got a different viewpoint on 
that.
    Mr. Ackerman. Would the gentleman yield?
    Mr. Pence. I will when I am done.
    Another thing the gentleman from Virginia said, a great 
power does not retreat from its responsibilities. We have a 
responsibility first to the American people, second to 
America's vital national interests, third to America's treaty 
allies. And America's opponents and detractors and enemies 
don't make the list. I have no responsibility to those 
countries where I grew up. I mean, someone just said if we only 
give money to people who like us--well, isn't it equally 
ridiculous to mostly give money to people who don't like us?
    And can I remind my colleagues on the other side of the 
aisle, we are the biggest benefactor of this forum for 
invective against the United States and Israel in the world. 
And I worked with the late Henry Hyde, whose portrait adorns 
these walls, and we tried to pass the U.N. Reform Act. He let 
this backbencher be the coauthor of one of those versions of 
the bill with him. I have worked with him in a spirit of 
partnership with colleagues I respect on the opposite side of 
this panel.
    This institution has a serious problem, and if--we were 
talking earlier about the war in Iraq. If the run-up to the war 
in Iraq was not evidence of the toothlessness and near 
uselessness of the United Nations in confronting tyrants in the 
world, which was the reason it was created was to confront 
tyranny as it rose, then I don't know what was. One resolution 
after another, one unenforced resolution after another, the 
United States of America eventually had to act. And I just--I 
want to----
    Chairman Ros-Lehtinen. I thank the gentleman.
    Mr. Pence. He has taken a bit of a pounding today. He is 
tough enough for it. But I strongly support this amendment and 
urge my colleagues to do likewise.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Pence.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chairman.
    And I certainly want to acknowledge the gentleman from 
South Carolina's interest in getting to this issue of ensuring 
that we are not providing support to countries who don't share 
our values and share interests of the United States. But I 
would say that the strength of our great country is not our 
ability to buy our friends or buy support in any forum, it is 
the power of our ideas, it is the strength of our values, and 
it is our commitment to democratic freedoms and democratic 
principles.
    And I think that we have to make determinations about how 
we use treasured resources, very, very important resources, in 
a very strategic and careful way. And we ought to be looking at 
a whole series of relevant factors. One of them should be that 
support of the United States. One of them should be the 
strategic importance in the world of the country. One should be 
prospects for democratic advancement, geopolitical 
considerations, a whole series of complicated important factors 
that we ought to be weighing individually and country by 
country. But if we engage in what will be described really as 
buying support, something if we did in our domestic politics 
would be a crime, it will diminish our democracy. It will 
diminish us. And I really appreciate what the gentleman is 
trying to do, but I would respectfully suggest it is an 
approach that really does reduce the democracy that we are 
trying to protect.
    And I would just say in conclusion, one other important 
reason, if by itself reason to defeat this amendment, is it 
will result in the senseless and horrible death of thousands 
of, maybe millions of, individuals from HIV and AIDS. As Mr. 
Berman stated, the Global Health Initiative, which is present 
in many, many countries which will not be on this list, and the 
work that is under way that is saving lives all across the 
world will come to an end, and so we can be certain that if 
this becomes law, millions perhaps individuals, innocent 
individuals, will face the scourge of HIV and AIDS. And I know 
the gentleman doesn't intend that to happen. I would urge 
defeat of this amendment.
    Mr. Murphy. Would the gentleman yield?
    Mr. Cicilline. Certainly.
    Mr. Murphy. I would just like to make an analogy. I think 
you make a great point as to how our constituents would look on 
our Government if we imposed the same rule. If our President 
proffered a public rule in which he said that only Members of 
Congress who vote with him 50 percent of the time will receive 
any funding from this administration, and they issued that as a 
public declaration, there would be a revolt because they know, 
as you know, that that is not how this democracy works. And 
though I think the gentleman is right that this should 
potentially play a factor in decision making, there will 
rightfully be the same response around the world as there would 
be in this country if we did the same thing.
    Chairman Ros-Lehtinen. He has already yielded back.
    Mr. Marino is recognized. Sorry, sir? Taken care of. Thank 
you.
    Mr. Smith.
    Mr. Smith. Thank you very much, Madam Chair.
    Let me just say that Mr. Duncan, I think, highlights a very 
serious problem of global nonsolidarity with the United States. 
He encourages a message to countries around the world that 
we're watching and we're watching very diligently, and I 
absolutely commend him for that. I do think it is a barometer. 
I am not sure it ought to be the only barometer as to how we 
condition U.S. foreign aid.
    I would point out that as a firm believer of 
conditionality, when it comes to human rights benchmarks in 
trafficking, the Trafficking Victims Protection Act clearly 
annunciates a number of minimum standards as we call them. The 
same way with the Religious Freedom Act and some of the other 
human rights laws that does exactly--or moves in the direction 
that Mr. Duncan, I think, is trying to take us.
    One cautionary note, that from session to session at the 
U.N., we don't get to pick the issue mix that is debated there. 
Very often the United Nations General Assembly, unfortunately, 
is a debating society with very little relevance. The Security 
Council is where the real action is, although they do have some 
relevance, and we ought to take seriously what they do.
    So again, I cannot thank him enough for raising this issue 
so that we begin to take more seriously what happens at the 
United Nations, because that does reflect the foreign capitals, 
that is what those Ambassadors are there to do.
    One cautionary note really. I don't agree with this 
administration on a whole lot of issue, so when they actually 
take a position at the United Nations contrary to my own or 
perhaps some of my colleagues, I am glad the developing world--
Latin Americans and perhaps some of our friends in Africa or 
elsewhere or in Ireland, or you name the country--takes a 
contrarian view. Let them push back, because I don't agree with 
what the White House is doing.
    So I just throw that out, you know. Some of the issues that 
we care so deeply about, the culture of life issues which we 
will be debating very shortly, this administration has pushed 
the culture of death like no other administration ever, 
everywhere, in every one of the venues where it is applicable. 
This administration is pushing abortion on demand, and I hope 
and pray, frankly, that those countries will push back out of a 
great sense of protection for their own individual babies and 
mothers and all those who are at risk from the U.S. position.
    So I would just say to my friend, it is very important that 
he raises it. It is a barometer. It ought to maybe be seen with 
other barometers as to how well or poorly a country is doing. 
But again, I think the issues need to be delineated just so we 
know what it is that this administration, which is really the 
U.S. position--it is not the congressional position--it is the 
U.S. position as articulated by the executive branch.
    Mr. Johnson. Will the gentleman yield?
    Mr. Smith. Yes, sir.
    Mr. Johnson. Thank you for yielding.
    I am not sure I understand the Obama administration, the 
Presidential analogy that was used just a little bit ago. I 
would daresay that right now most American people are 
struggling to relate to this administration in any way. We have 
clearly indicated that we have got an amendment here that has 
got--it does not apply to security assistance. It has got 
waiver capability. It does not bar trade agreements, as I 
understand it.
    What we are trying to do here is change the conduct of 
those nations that deal with the United States and benefit from 
our pocketbooks. We are trying to promote democracy and freedom 
around the world. Now, how do you do that in an environment 
where there is just an endless flow of money? It is a cause-
and-effect kind of thing.
    And I don't believe Americans can relate to the Obama 
administration analogy, but I bet you they can relate to this. 
If you live in a neighborhood where you are the only family 
that has got vital resources that the neighborhood needs, and 
you set a rule that you have got to cut your grass every 
Thursday and keep the neighborhood looking right, I bet you 
most people that want that resource are going to cut their 
grass. If we want to encourage pro-U.S. relationships, there 
ought to be some buy-in to the process.
    And with that, I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Smith, yields back. And I have on my dance card Mr. 
Payne, Mr. Meeks, Mr. Deutch, Mr. Keating, and maybe we could 
have a vote.
    So Mr. Payne is recognized.
    Mr. Payne. Thank you very much.
    I think this is a very interesting debate, and I do want to 
just mention that the four Americans who were tragically 
killed, it was a sad situation when Cuba brought a plane down. 
However, to correct the gentleman, it was wrong wherever it 
was, but it was not in international space, it was in Cuba 
airspace, and that is when the plane was brought down. Wrong 
whether it was in Cuba's airspace or wrong whether it was in 
international airspace. However, it happened. Just to correct 
the record.
    We look at votes in the U.N. You take South Africa. South 
Africa voted against us. They were on the list. They had 
elections in South Africa. The leadership that voted against 
us, Thabo Mbeki, the country said there is a vote of no 
confidence, and 1 year before his term was over, he was ousted 
from government. They had a new election. A man named Jacob 
Zuma became the President. I talked to him 2 weeks ago in South 
Sudan at the independence celebration. He said they want to 
really get more engaged with the U.S.; have gone into Zimbabwe 
and told Mugabe he had to cut out the stuff, and now they are 
going to have elections. He said that if you continue to do 
this, we, South Africa, the strong guys on the block, will have 
to look at our policy toward you, Mr. Mugabe. Mugabe didn't 
like it, but he is working in the right direction.
    This would be unbelievable for us to turn around and tell 
South Africa, who now has a new President moving in the same 
direction--you see, it is great to have an infusion of new 
people, and it brings a lot of new attention to it. However, we 
do have to understand that we have to learn the issues, and you 
have governments that change. The South African position is 
going to be very much different. And here we will come out and 
say, let me cut you guys off because this sounds good, and you 
shouldn't have done what you did 3 years ago.
    So a lot of this really does not make sense. You take 
Turkey. A year or 2 ago, Turkey allowed the flotilla to go into 
Gaza, and nine people were killed, and it was a big thing. This 
year Turkey destroyed one boat and stopped the other from going 
to Gaza to have the flotilla. Now we would tell Turkey, you are 
out. Let us take you out. You know, the world moves in a way 
that can't be done in, like, 24 hours or 48 hours. Turkey has 
told Syria, stop the killing. And they are now saying that we 
don't want you to keep having refugees come into our country. 
So Turkey is on the list. So this is really going totally in 
the wrong direction.
    I think that we need to rethink things that we do. There 
are things that Mr. Smith mentioned that happened in the U.N. 
that--this current administration that he opposes and some of 
the countries support Mr. Smith's position. I certainly had a 
different position of going to war with Iraq because it was--
because Saddam Hussein had supposedly done 9/11, and then they 
changed it and said, no, no weapons of mass destruction, it 
wasn't there, but we went in anyway. It was Osama bin Laden, 
and he is out in Afghanistan somewhere then, and then end up in 
Pakistan.
    So I was in support of some of the countries who voted 
against us going into Iraq because I didn't think that there 
was--the reason that was put forward for us to go into Iraq was 
correct at the time. I think to question Mr. Berman and Mr. 
Ackerman's position on Israel is like somebody questioning my 
position on the NAACP. I mean, it really makes no sense at all 
that they have to be thrown into some mix which makes no sense 
at all.
    So I think that this is another ill-conceived notion. I 
think that people really mean well. I remember when I was a 
freshman, I meant well, too, and stepped in it a bunch of 
times. It is a part of maturing and growing, especially on 
something like Foreign Affairs, which is extremely, extremely--
as a matter of fact, President Bush, $50 billion. I remember 
when my friends from the other side almost fell off their seat, 
and we are going to stop the program that people all around the 
world are saying that President Bush was a great guy.
    One last thing. I would like to ask the chairlady that on 
the vote on the food amendment, there was a mistake. 
Congressman Meeks----
    Chairman Ros-Lehtinen. The gentleman's time has expired, 
and I have a little sheet when this is over about that. Thank 
you so much.
    Mr. Mack is recognized.
    Mr. Mack. Thank you, Madam Chair. And I do--this debate is, 
I think, quite telling about where we are headed and how we all 
look at the world. On one side you have apparently a side that 
just can't say no. And if you have in any relationship, whether 
it is with family or with--in business, in your friendships, if 
you can't stand for something, you stand for nothing. So you 
have to be--you have to--people have to know what it is you 
stand for.
    You know, leadership isn't continued--just continue to 
spend more money. Leadership is recognizing--having strength in 
one's character, recognizing what it is that you are trying to 
accomplish, and standing by your principles. If we started to 
stand by our principles, the rest of the world would recognize 
that we are leading again. They would recognize that we can 
look to the United States and that that friendship matters.
    Right now there are a lot of--there are a lot of countries 
who just as soon take advantage of us because there are no 
consequences. You can't do that in--every relationship has 
consequences. You can't just be afraid to not spend money or to 
send money to, in this case, a government when the government 
doesn't support anything that we are doing.
    I mean, I think people back home, they are going to boil it 
down this way. On one side all they are hearing is that we need 
to continue to fund everything and have no kind of barometer or 
standard or measure of where that money goes. But just keep 
spending money, because if you don't, we are going to send a 
bad message. And I think what you are hearing over here is we 
want to support our friends, we want to support our allies, we 
want to reward people who believe in the same things we believe 
in, but we can't continue to just spend money with countries, 
governments that don't have the same desires as we do.
    With that, I would like to yield to the gentleman from--Mr. 
Rivera.
    Chairman Ros-Lehtinen. Mr. Rivera.
    Mr. Rivera. Thank you very much for yielding.
    With respect to the comments about where American citizens 
were shot down by the Castro government, once again folks are 
entitled to their own opinion, but not their own facts. And the 
fact of the matter is that not only our own FAA, the Coast 
Guard, satellite evidence, the International Civil Aviation 
Organization all brought forward evidence, facts that those 
four Americans were murdered over international airspace.
    But besides all of that, we have the actual murderer 
confessing it. I have a videotape of Raul Castro on camera 
saying he ordered the murder of the four Americans in 
international airspace because he wanted to hide--they didn't 
want evidence of the body part--of the plane, parts from the 
plane over Cuban territory on videotape. And I will get that 
videotape to anyone who wants it, the actual murderer admitting 
he ordered the shootdown and the murder of four Americans.
    Besides all of that, our own Justice Department indicted 
the MIG pilots, MIG fighter pilots, fighter airplanes shooting 
down two Cessnas, unarmed, with American citizens, civilians 
over international airspace. They were indicted by our 
Government for murder. And the reason they were able to be 
indicted was because of the evidence, the facts, data, 
satellite imagery, eyewitness from people that were on cruise 
ships in the Caribbean that saw the shootdown.
    So it is amazing to me that anyone would even try to 
rationalize anybody being murdered in a civilian aircraft. But 
let us stick to the facts. They were murdered over 
international airspace by a terrorist government. And I have a 
videotape--some people may have seen it already on this 
committee--of Raul Castro admitting, saying very proudly that 
he ordered the pilots to shoot them down----
    Ms. Bass. Would the gentleman yield?
    Mr. Rivera [continuing]. In international airspace.
    Certainly.
    Ms. Bass. We provide no money, no foreign aid to Cuba, and 
we were talking about an amendment. So I am just a little 
confused about----
    Mr. Mack. Reclaiming my time on this.
    Chairman Ros-Lehtinen. Mr. Mack's time.
    Mr. Mack. I want to thank the gentleman from Florida for 
his comments and just again remind this committee that from our 
friends on the other side, you tell us don't do it--don't cut 
in a blanket way, specifically name the countries that you want 
to do. Then we put forward an amendment to specifically name 
countries, and you say, no, don't do that, you are going after 
a few. So you have got to come up with--you have got to come up 
with some standards. You have got to come up with what it is 
that you really stand for and not just to say no.
    We will continue over here to offer ideas to set a path for 
this Congress on the values that we stand for, the idea of 
freedom, the idea of security, the idea of prosperity. We are 
going to continue to fight for those principles, even though 
you are going to say no to this one or no to that one, or now 
is not the right time, or maybe tomorrow would be better, or 
maybe if you wrote it a little this way or maybe a little bit 
that way. But right now you have argued out of both sides, and 
you haven't had a clear--I mean, I don't think--you are sure 
what it is that you are trying to accomplish other than to 
stand up and say that amendment wasn't written right. And then 
when we are done with that one, and there is another one 
written the way that you just said it should be written, that 
one is not written right.
    I mean, at some point maybe figure out what it is you think 
the foreign policy should be, and let us have a real debate. 
But right now we are going to continue to move with those 
ideals, freedom, security and prosperity.
    With that I yield back.
    Chairman Ros-Lehtinen. The gentleman yields back.
    I have Mr. Meeks, Mr. Deutch, Mr. Keating and Mr. 
Faleomavaega.
    Mr. Meeks. Let me go back to what I said earlier, what 
Henry Hyde said in here. Massively engaging the world while 
living on an autonomous island in the global sea breeds 
arrogance and self-delusion. And that is where we are headed 
here. We are self-delusioning ourselves to think that if 
somebody disagrees with us, that our principles are the only 
principles that are right.
    I love this country. This is the greatest country on the 
planet, the greatest country this planet has ever seen, but 
this country is not always right. It hasn't always been right. 
And we should not be going after someone else when we look at 
them and they may not be right.
    We have had the ability to change. Others have had the 
ability to change. This country was not right when we enslaved 
individuals. This country was not right when we put indigenous 
on reservations and the Trail of Tears. This country was not 
right when we had Jim Crow. This country was not right when 
there was Plessy v. Ferguson and separate but equal. This 
country was not right when we called Nelson Mandela a 
terrorist. This country was not right when we continued to 
allow apartheid to go on in South Africa, the last one to join 
on board. This country was not right when we were late getting 
in to stop the Holocaust. This country was not right when we 
supported dictators in our hemisphere when it was convenient. 
And this country was not right when we went into Iraq under the 
alleged guise of weapons of mass destruction, and there were no 
weapons of mass destruction.
    So we have got to make sure we have a standard of 
understanding and working collectively together and 
understanding that we can't just say that we--it is our way or 
the highway. We have got to make sure that--otherwise we will 
be the individuals that are stuck on an island thinking that 
the Pacific Ocean and the Atlantic Ocean can protect us. Those 
oceans can no longer protect us. We are in a different world. 
And if we are not cooperating with folks, if we are not working 
with folks and working with the United Nations, we are 
imperiling ourselves and making us--and isolating ourselves on 
an island by ourselves, and that indeed could be our own 
destruction.
    Chairman Ros-Lehtinen. Does the gentleman yield back?
    Mr. Meeks. I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Gallegly. Madam Chairman?
    Chairman Ros-Lehtinen. Yes. Mr. Gallegly is recognized.
    Mr. Gallegly. I move the previous question. Point of order, 
Madam Chairman. You had previously recognized additional 
speakers before this motion.
    Mr. Berman. Point of parliamentary inquiry, Madam Chair.
    Chairman Ros-Lehtinen. Mr. Berman is recognized.
    Mr. Berman. Is this a debatable motion? I want to repeat 
what--I do think you recognized the following individuals in 
the following order, and then recognized Mr. Gallegly ahead of 
you, and I have got to say the day we start moving the previous 
question is the day I object to the waiving of reading of the 
amendments. We add amendments----
    Chairman Ros-Lehtinen. Mr. Gallegly, we will----
    Mr. Berman. It is a very big mistake for you to offer that 
motion.
    Chairman Ros-Lehtinen. Yes.
    Mr. Berman. I just want you to understand that.
    Chairman Ros-Lehtinen. Mr. Gallegly, if I may, it is my 
fault, and we will do that at the proper time.
    Mr. Deutch, Mr. Keating and Mr. Faleomavaega are the people 
who are seeking recognition--yes, sir.
    Mr. Gallegly. I ask that I be added to the list.
    Chairman Ros-Lehtinen. Yes, sir. Absolutely, sir. Thank 
you.
    Mr. Deutch is recognized.
    Mr. Deutch. Thank you, Madam Chair.
    Madam Chairman, I am tired of being told that the folks on 
our side don't have principles, that we don't stand for 
anything, all we are doing is opposing anything that comes 
forward. Let me be very clear about my principles as it relates 
to foreign aid. My principles are that it is in this Nation's 
best interest to spend considerably less than 1 percent of our 
Federal budget, considerably less, on the type of bilateral 
economic assistance that this amendment speaks to. And I think 
it is high time that we disabuse ourselves of this notion that 
what we are talking about is the cutting of checks to 
governments that we don't agree with. That is not how we do 
foreign aid in America.
    The bilateral assistance, I would encourage everyone to 
flip through the 35 pages in the Secretary of State's foreign 
operations description of bilateral economic assistance. And I 
would suggest that as we look to these countries that we 
disagree with, that we bear in mind that ultimately what we are 
trying to do is move their position, is to change their 
position, and I would suggest that this is not, we are not 
offering candy to these countries. We are offering $846 million 
for maternal health and child health programs because every 
year in the developing world, 358,000 mothers die from 
complications related to pregnancy and childbirth; and $691 
million for malaria programs because 800,000 people every year 
die of malaria, and 250 million people are infected. And we can 
go through on and on through the fight against global HIV/AIDS 
epidemic, $150 million for nutrition, $236 million to fight 
tuberculosis.
    I would go back to the point raised earlier comparing the 
world to a neighborhood and what we do in our neighborhood if 
someone didn't cut the yard. I would respectfully suggest that 
if any of us lived in a neighborhood where there was a malaria 
outbreak, it wouldn't matter how much we despised the people 
who contract malaria, if we sit back and do nothing, then it 
could well spread to our friends in our neighborhood and to us. 
That is what foreign aid is.
    The money that we spend on foreign aid isn't a gift and it 
is in our self interest. It is in our self interest to promote 
freedom and to promote security and to promote prosperity. And 
we do it by making investments to prevent people from dying, to 
help people gain education, to help countries deal with 
disasters, even countries that we don't agree with. And we do 
all of this with dramatically, dramatically less than 1 percent 
of our Federal budget.
    There are countries who benefit from the dollars that we 
spend, that have been the topic of conversation, $5 million, to 
help strengthen and support Venezuelan civil society. We spoke 
earlier of $20 million to support humanitarian assistance for 
prisoners of conscience in Cuba. We could go on and on, and the 
dollars that we spend in places where we despise the 
government, and not just because of their votes at the U.N., 
but we make these investments because ultimately it is in our 
own interest. It is about American values. That is why we have 
foreign aid.
    We don't write checks to governments. We support efforts to 
save lives, to promote democracy, to promote freedom, all of 
the things that every member on this committee supports.
    So I am not sure if we went through the list, the list of 
all the countries who receive this bilateral economic 
assistance. I am not sure if we went through this list, which 
countries that we dislike the most receive the aid to do the 
things that we all believe need to be done the most, but I know 
ultimately that it is in our Nation's best interest. I will 
yield for a question.
    Mrs. Ellmers. Where does the money come from, sir? Where 
does the money come from?
    Mr. Deutch. Reclaiming my time.
    Mrs. Ellmers. Not one time have you mentioned in all of 
your high ideals that you have outlined that we are spending 
taxpayer's dollars.
    Chairman Ros-Lehtinen. Mr. Deutch's time. We have 15 
seconds.
    Mr. Deutch. And I will conclude with this. I know exactly 
where the dollars come from. And it is a worthy investment of 
our Nation's tax dollars to promote freedom, to promote 
democracy, and to do it in a way that simultaneously saves 
lives, improves lives for people in countries that we respect 
and support and even in those countries that we want to change. 
That is how we accomplish it.
    Chairman Ros-Lehtinen. Thank you, Mr. Deutch.
    The gentleman's time has expired.
    Mr. Keating is recognized.
    Mr. Keating. Thank you, Madam Chair.
    And I yield my time to the gentleman from Virginia, Mr. 
Connolly.
    Chairman Ros-Lehtinen. Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman, I thank my 
colleague.
    I wanted to respond to a few things that have been said. I 
marveled, frankly, at some of the comments made by Mr. Pence, 
our friend the Indiana. He used the word ``enemy'' in 
describing how people vote at the United Nations, and then took 
umbrage at the description of the Republican approach as 
binary.
    Mr. Pence. Will the gentleman yield?
    Mr. Connolly. No, sir, I will not I will give you the same 
courtesy you gave my colleague. So----
    Mr. Pence. I think I gave your colleague plenty of 
courtesy.
    Mr. Connolly. No, sir, you did not.
    Mr. Pence. The gentleman is misstating my statement on the 
record. Madam Chairman, I would like to have the opportunity to 
have my record read.
    Mr. Keating. Madam Chairman, I reclaim my time.
    Chairman Ros-Lehtinen. Mr. Keating has the time. And he 
gave it to Mr. Connolly.
    Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman.
    So you described the world as enemies or friends; that is a 
binary world. And it is a very simplistic view.
    Mr. Pence. Gentleman yield?
    Mr. Connolly. It is one that does not serve U.S. interest, 
Madam Chairman. And that was the point that was being made.
    And to Mr. Rohrabacher's credit, he confirmed it. He said, 
yes, that is our world view. We do see the world in black and 
white. And what is wrong with that? He even said, I leave it to 
the taxpayers to decide which world view they want to support. 
That was an honest statement, and I thank the gentleman for 
making it. I happen to disagree with him.
    I happen to believe actually, upon reflection, most 
Americans will not accept that simplistic view of the world, 
but fair enough that you assert it.
    Mr. Ackerman referred to this bill as tantamount to being a 
bully. Teddy Roosevelt talked about; speak softly but carry a 
big stick. But he also went on to say, hopefully, don't need to 
use that stick very often, nor should you.
    This amendment is nothing but stick. And I use the word 
``crude'' not so much to apply to the amendment as to the tool 
it creates. If you vote against us, you are our enemy, and we 
are going to punish you. That is the action of a schoolyard 
bully. It is not the action of a mature great power.
    And in my view, it will backfire. Mr. Mack indicated that 
this was leadership; this is how you affect leadership. Not in 
my experience. You are going to get people's backs up. You are 
actually going to hurt U.S. influence and the ability to engage 
and persuade with this kind of crude tool. And that is why I 
think it is unwise. I don't know what the motivation is. In 
some ways it is irrelevant. Its effect will be very damaging to 
U.S. interests and U.S. foreign policy. And that is why I 
oppose it.
    With that, Madam Chairman, I yield back my time to Mr. 
Keating.
    Chairman Ros-Lehtinen. Mr. Keating has the time.
    Mr. Keating. Madam chairman, I yield back the remaining 
portion of my time.
    Chairman Ros-Lehtinen. Thank you so much, sir.
    Mr. Faleomavaega--I am sorry, I didn't--I had not seen that 
you wanted recognition. So we are going to take turns.
    Mr. Chabot is recognized. Then Mr. Faleomavaega.
    Mr. Chabot. I yield my time to the gentleman from Indiana.
    Mr. Pence. I thank the gentleman for yielding. And I thank 
him for the courtesy.
    And I won't take the whole 5 minutes, Madam Chairman.
    I just wanted to correct the gentleman from Virginia, who, 
to his benefit, misstated and mischaracterized my statement 
before the committee. I am happy to have the record read back. 
I did not say the world was divided between our friends and our 
enemies.
    I believe the record will reflect that I said that we have 
friends, and we have--I think I used the term, we have 
countries that are not our allies; we have countries that 
oppose us; and we even have enemies in the world.
    Now that didn't strike me as a binary world view.
    And let me just say that, the gentleman from Virginia knows 
that I respect his passion. I don't respect the way he has 
treated my freshman colleague in his thoughtful legislation, 
but I respect him personally.
    And I just, my view of this, as someone that supports 
foreign aid--and I thought Mr. Deutsch's remarks were very well 
taken. I believe the record of this committee will reflect I 
was one of the strongest advocates of the PEPFAR program. I 
worked very closely with the former chairman of this committee 
to ensure a thoughtful bipartisan accomplishment during the 
last administration and during the last Congress to ensure that 
that extraordinary commitment to arrest the crisis of AIDS in 
Africa was met with the resources and the compassion of the 
American people.
    I believe in foreign aid. I just think, I think when you 
look at the type of recorded votes that this amendment 
addresses and you recognize the substantial portion of those 
votes are actually votes that have been taken against what I 
think is our most cherished ally, Israel, then there ought to 
be some consequences to that. What you subsidize, you get more 
of. And I think the gentleman's amendment is an attempt to 
simply say, let us not subsidize those that are more than half 
of the time voting against consistently against the United 
States and our ally, Israel and other interests.
    And that is it. I am not advocating a binary view of the 
world. I don't see the world in black and white. I am from 
south of Highway 40. I know the stereotypes. I know if you are 
conservative, you know, the liberal political class thinks you 
are either evil or stupid. I get accused of being both. I have 
a much more nuanced view of the world, and my colleagues on the 
committee who have known me for a few years know that. And I 
just I want to rise in strong support of this amendment.
    Mr. Berman. Would the gentleman from Ohio yield?
    Mr. Chabot. It is my time, and I have several colleagues 
over here.
    Mr. Pence. I yield back to the gentleman from Ohio.
    Chairman Ros-Lehtinen. The gentleman from Ohio.
    Mr. Chabot. Thank you. Just one quick point, with all the 
discussion here this evening, I don't want to lose track of 
what this amendment is, and that is basically those countries 
that vote against us time and time again at the U.N. ought not 
to be getting assistance from the United States. The tax 
dollars shouldn't go to countries that oppose us over and over 
and over again at the U.N.
    It seems eminently sensible to me, and I will yield to the 
gentleman from California.
    Mr. Rohrabacher. And that, of course, has been labeled as 
bullying. You are bullying someone if you say I am not going to 
give up my scarce resources that I could spend on my family or 
help other people who are in need overseas who are our friends; 
we are not going to give it to people who don't like us and 
vote against us in the United Nations.
    I needed to clarify my words as well because I believe that 
my position was also mischaracterized, although it sounds good 
to say that we are all a bunch of simpletons over here and 
believe in bullying.
    But let me note, you can believe that there is black and 
white in the world without having to believe that everything is 
black and white. And there are lots of nuances in the world. 
And the same mistake that you are making in analyzing Mr. 
Pence, you made in analyzing Mr. Rohrabacher. The fact is there 
are some people who are evil in this world, there are people 
who are very good in this world, and there are in-betweens.
    Black and white does exist. And I don't mind at all saying 
America should not be on the side and try our very best to be 
in the light rather than in the darkness with those people who 
stand for the good things that we believe in as a people, 
rather than those governments that are controlled by bullies 
and by sadistic gangsters, and just not because we are not 
going to give money to their governments doesn't mean that we 
are bullying the gangster.
    I yield back.
    Chairman Ros-Lehtinen. Gentleman from Ohio.
    Mr. Chabot. I would like to yield, but I am out of time.
    Chairman Ros-Lehtinen. Mr. Faleomavaega is now recognized.
    Mr. Faleomavaega. Thank you, Madam Chair.
    I thank the gentleman from South Carolina for introducing 
this legislation. I think it has merit. But there are some 
questions, and I want to share with the gentleman. I note with 
interest that you had mentioned four of those countries that 
probably vote the most with us in the United Nations, and they 
are the Federated States of Micronesia, the Republic of the 
Marshall Islands the Republic of Palau and Australia.
    I note with interest if my good friend would also note 
that, yes, we ought to look at some--very suspicious of those 
who don't support us, but then even those who are very 
supportive of us in the United Nations, we have not honored our 
obligations.
    And let me just share this one instance with my good 
friend. We conducted 67 nuclear testings in the Republic of the 
Marshall Islands. We exploded the first hydrogen bomb in the 
Marshall Islands. And as a result of these testings, some 400 
Marshallese were subjected to very serious nuclear radiation. 
And I say to my good friend from South Carolina, to this day, 
our government has not honored not only giving proper medical 
treatment to these Marshallese people. To this day, they are 
still struggling and wanting to figure, when is my government 
going to honor those commitments in taking care of these people 
whom, frankly, destroyed their lives, their properties, their 
islands, simply because of what we did in the time that we 
conducted these nuclear tests?
    I might also add the fact it is very interesting that the 
reason why we stopped testing in the Marshall Islands, it 
wasn't because we wanted to desist from testing, it is because 
they found strontium-90 in milk products coming out of 
Wisconsin and Minnesota when this nuclear cloud went all the 
way from the Marshall Islands up to the continental United 
States.
    So I just wanted to share that little bit of history with 
my friend from South Carolina. It is good that we look at 
people who don't support us, but even those who are very 
supportive of us, we have not honored these commitments to 
these people.
    And I will yield to my good friend from New York.
    Chairman Ros-Lehtinen. Mr. Ackerman.
    Mr. Ackerman. I thank the gentleman very much.
    I just wanted to respond to my good friend, Mr. Pence, and 
agree with him and add my fond recollection of the time that we 
shared the leadership of the Subcommittee on the Middle East 
and worked so closely together.
    We on this side surely do not question the intelligence or 
the evilness of our friends on the other side. We do question 
your judgment on some of the legislation that you have 
supported.
    We find it rather shocking when you question our devotion 
to liberty and our patriotism because that is your program and 
imply that it is your exclusive province.
    Let's start with that as a baseline. My good friend from 
Indiana cited Israel. And I don't want to put Israel in the 
middle of this debate because they don't deserve that. But 
certainly he is right in that a great number of the votes taken 
at the United Nations are anti-Israel, and sometimes there are 
some countries that aren't really anti-Israel but have to vote 
that way because of their circumstances.
    I think that if your intent is to look at what Israel would 
do on this vote, citing them as evidence, I think you might 
best be served by talking to the Israelis.
    I would suspect, and I have not consulted them on this, but 
I would strongly suspect that they would be absolutely aghast, 
aghast if we stopped our assistance to Jordan, which has the 
longest border with Israel and usually has their back, and even 
our aid to Egypt, who has a good part of the other border. That 
would be a disaster in my view. Check with them to see what 
theirs is. I don't think it is much different.
    Those are countries that don't vote with us 50 percent of 
the time and are very, very important to our interests and to 
what you cite as a motivation for some of your support for the 
measure, Israel's interest.
    Again, we really have to think about the consequences of 
what we are doing here and to whom the damage is done. It is 
certainly not in our American interest.
    And Madam Chair, if you would note my time has expired.
    Chairman Ros-Lehtinen. I am so sorry. I am kvetching here 
with Mr. Berman. I apologize. Thank you.
    And now Mr. Gallegly is recognized--no. Definitely not. 
With him. With him.
    Mr. Gallegly, you have a brilliant motion I think.
    Mr. Gallegly. Thank you, Madam Chairwoman.
    We have had a lot of debate on this issue in the past 2 
hours plus, and I would respectfully request that we move the 
previous question.
    Chairman Ros-Lehtinen. Thank you.
    I don't think that is open for debate so a recorded vote 
has been requested.
    The clerk will call the roll.
    Ms. Carroll. Madam Chairman?
    Chairman Ros-Lehtinen. Yes.
    Ms. Carroll. The chairman votes aye.
    Mr. Smith?
    [No response.]
    Ms. Carroll. Mr. Burton?
    Mr. Burton. Aye.
    Ms. Carroll. Mr. Burton votes aye.
    Mr. Gallegly?
    Mr. Gallegly. Aye.
    Ms. Carroll. Mr. Gallegly votes aye.
    Mr. Rohrabacher?
    Mr. Rohrabacher. Aye.
    Ms. Carroll. Mr. Rohrabacher votes aye.
    Mr. Manzullo?
    Mr. Manzullo. Yes.
    Ms. Carroll. Mr. Manzullo votes aye.
    Mr. Royce?
    [No response.]
    Ms. Carroll. Mr. Chabot?
    Mr. Chabot. Aye.
    Ms. Carroll. Mr. Chabot votes aye.
    Mr. Paul?
    [No response.]
    Ms. Carroll. Mr. Pence?
    Mr. Pence. Aye.
    Ms. Carroll. Mr. Pence votes aye.
    Mr. Wilson?
    [No response.]
    Ms. Carroll. Mr. Mack?
    Mr. Mack. Yes.
    Ms. Carroll. Mr. Mack votes aye.
    Mr. Fortenberry?
    Mr. Fortenberry. Yes.
    Ms. Carroll. Mr. Fortenberry votes aye.
    Mr. McCaul?
    Mr. McCaul. Aye.
    Ms. Carroll. Mr. McCaul votes aye.
    Mr. Poe?
    [No response.]
    Ms. Carroll. Mr. Bilirakis?
    Mr. Bilirakis. Yes.
    Ms. Carroll. Mr. Bilirakis votes aye.
    Ms. Schmidt?
    Mrs. Schmidt. Aye.
    Ms. Carroll. Ms. Schmidt votes aye.
    Mr. Johnson?
    Mr. Johnson. Aye.
    Ms. Carroll. Mr. Johnson votes aye.
    Mr. Rivera?
    Mr. Rivera. Aye.
    Ms. Carroll. Mr. Rivera votes aye.
    Mr. Kelly?
    Mr. Kelly. Aye.
    Ms. Carroll. Mr. Kelly votes aye.
    Mr. Griffin?
    Mr. Griffin. Aye.
    Ms. Carroll. Mr. Griffin votes aye.
    Mr. Marino?
    Mr. Marino. Yes.
    Ms. Carroll. Mr. Marino votes aye.
    Mr. Duncan?
    Mr. Duncan. Aye.
    Ms. Carroll. Mr. Duncan votes aye.
    Ms. Buerkle?
    Ms. Buerkle. Aye.
    Ms. Carroll. Ms. Buerkle votes aye.
    Ms. Ellmers?
    Mrs. Ellmers. Aye.
    Ms. Carroll. Ms. Ellmers votes aye.
    Mr. Berman?
    Mr. Berman. No.
    Ms. Carroll. Mr. Berman votes no.
    Mr. Ackerman?
    Mr. Ackerman. No.
    Ms. Carroll. Mr. Ackerman votes no.
    Mr. Faleomavaega?
    Mr. Faleomavaega. No.
    Ms. Carroll. Mr. Faleomavaega votes no.
    Mr. Payne?
    Mr. Payne. No.
    Ms. Carroll. Mr. Payne votes no.
    Mr. Sherman?
    [No response.]
    Ms. Carroll. Mr. Engel?
    [No response.]
    Ms. Carroll. Mr. Meeks?
    Mr. Meeks. No.
    Ms. Carroll. Mr. Meeks votes no.
    Mr. Carnahan?
    Mr. Carnahan. No.
    Ms. Carroll. Mr. Carnahan votes no.
    Mr. Sires?
    Mr. Sires. No.
    Ms. Carroll. Mr. Sires votes no.
    Mr. Connolly?
    Mr. Connolly. No.
    Ms. Carroll. Mr. Connolly votes no.
    Mr. Deutch?
    Mr. Deutch. No.
    Ms. Carroll. Mr. Deutch votes no.
    Mr. Cardoza?
    [No response.]
    Ms. Carroll. Mr. Chandler?
    [No response.]
    Ms. Carroll. Mr. Higgins?
    Mr. Higgins. No.
    Ms. Carroll. Mr. Higgins votes no.
    Ms. Schwartz?
    Ms. Schwartz. No.
    Ms. Carroll. Ms. Schwartz votes no.
    Mr. Murphy?
    Mr. Murphy. No.
    Ms. Carroll. Mr. Murphy votes no.
    Ms. Wilson?
    Ms. Wilson of Florida. No.
    Ms. Carroll. Ms. Wilson votes no.
    Ms. Bass?
    Ms. Bass. No.
    Ms. Carroll. Ms. Bass votes no.
    Mr. Keating?
    Mr. Keating. No.
    Ms. Carroll. Mr. Keating votes no.
    Mr. Cicilline?
    Mr. Cicilline. No.
    Ms. Carroll. Mr. Cicilline votes no.
    Chairman Ros-Lehtinen. Have all members been recorded?
    Mr. Wilson?
    Mr. Wilson of South Carolina. I vote yes.
    Ms. Carroll. Mr. Wilson votes aye.
    Chairman Ros-Lehtinen. Mr. Engel?
    Mr. Engle. No.
    Ms. Carroll. Mr. Engle votes no.
    Chairman Ros-Lehtinen. Mr. Royce.
    Mr. Royce. Aye.
    Ms. Carroll. Mr. Royce votes aye.
    Chairman Ros-Lehtinen. Mr. McCaul?
    Ms. Carroll. Mr. McCaul is recorded as aye.
    Chairman Ros-Lehtinen. Mr. Sherman?
    Mr. Sherman. No.
    Ms. Carroll. Mr. Sherman votes no.
    Chairman Ros-Lehtinen. The clerk will report the vote.
    Ms. Carroll. Madam Chairman, on that vote there are 22 ayes 
and 18 noes.
    Chairman Ros-Lehtinen. The ayes have it, and the question 
is agreed to.
    Mr. Berman. Madam Speaker.
    Chairman Ros-Lehtinen. The Chair recognizes herself for a 
clarification on a previous vote. It has come to my attention 
that Mr. Meeks was not reported by all the staff at the clerk's 
table as having voted on the recent--well it was recent at the 
time I wrote this--at the recent amendment by Mr. Payne. So, 
without objection, Mr. Meeks' vote, which does not affect the 
outcome of that amendment, shall be recorded as aye.
    Thank you to the clerks. And before recognizing Mr. Berman 
to offer an amendment, I recognize him for a unanimous consent 
request regarding the agreed text that we worked out on his 
previous prior amendment.
    Mr. Berman.
    Mr. Berman. Madam Chairman, I seek unanimous consent that 
the amendment----
    Chairman Ros-Lehtinen. Without objection.
    Mr. Berman. That was previously offered and then withdrawn 
in order to revise and based on the agreement reached be 
considered as adopted by unanimous consent.
    Chairman Ros-Lehtinen. Without objection and in order to 
refresh everyone's mind----
    Mr. Berman. That was the repeal of the global gag rule. No. 
No.
    Chairman Ros-Lehtinen. Now you are being stupidly evil. So 
binary.
    Mr. Berman. And everything is black and white.
    Chairman Ros-Lehtinen. So Mr. Berman is recognized for an 
amendment.
    Mr. Berman. Madam Speaker, I would like to ask you if I 
could use my position as ranking member before I offer the 
amendment to take about 2 minutes to review the bidding.
    Chairman Ros-Lehtinen. Yes, sir.
    Mr. Berman is recognized. Don't let the clock start, 
please.
    Mr. Berman. We spent a very long time on an amendment just 
now. The gentleman from California, my good friend, moved the 
previous question. I am not aware of whether there were 
speakers who sought to have recognition so I am not going to 
operate that that motion was made and thereby shut off people 
who wanted to speak on a very, very large and important 
amendment that was, this was not $1.5 million. This was a very 
different kind of an amendment.
    We did not see this title, which is taking so much time and 
will continue to take time, until Saturday night. If the 
majority is going to use its authority to close off debate when 
there are still members who are wanting to speak, not to stall 
or delay but simply on an important issue to express heartfelt 
views, then the minority is going to have to use the privileges 
at its disposal under the rules to retaliate. I hate getting 
into that kind of game. I think it is not productive.
    I had hoped last week, I met with my own Democrats in the 
caucus, I hoped we could work things out where we will have 
some issues we will agree on, and in the base text, we could 
work out some number of amendments and have a very quick 
markup. That was not to be the case. So be it. So all I want to 
say is I ask the chair and the members of the majority not to 
use that tactic again because the next time, we will then as 
fast as we dispose of amendments, we will think of amendments.
    Right now, we hear that there are approximately 30 
amendments proposed on our side, 35 on the majority side. My 
guess is in a spirit of trying to work things out, get 
reasonable times, and I have to say, allow the chair to finish 
this markup certainly before we leave here this week because 
she needs to and tomorrow, in fact, we are open to negotiating 
time limits, try to get understandings about how many of the 
amendments people are planning to offer can be dropped, or 
dealt with en bloc, look for all kinds of ways to accelerate 
this.
    So two things I would ask is, one, no more motions to close 
debate when there are people who want to speak, and secondly, 
that we think about a time we are going to recess tonight in 
order to come back tomorrow morning and finish up.
    I say this in the spirit of not wanting to take--we are not 
going to, in the end, you are going to get your bill out of 
this committee.
    Chairman Ros-Lehtinen. If the gentleman would yield 
whenever?
    Mr. Berman. I certainly will yield.
    Chairman Ros-Lehtinen. It is the intention of the Chair if 
we can get an agreement that we complete consideration of title 
IV tonight to adjourn until 9 o'clock a.m. tomorrow, at which 
point we would resume consideration of title V. Would that be 
agreeable to everyone?
    Mr. Ackerman. If we could roll votes.
    Chairman Ros-Lehtinen. If we can roll votes.
    Mr. Manzullo. Yes, let's roll the votes now.
    Chairman Ros-Lehtinen. Then shall I make that as a motion? 
What is the proper mumbo jumbo?
    I ask unanimous consent that we complete consideration of 
title IV tonight, debate and voice vote--is that a problem? We 
will roll the votes until tomorrow, and we will adjourn until 9 
o'clock a.m. tomorrow, at which point we would then vote on the 
amendments that we have debated and resume consideration with 
title V.
    And what is the proper mumbo jumbo? That was unanimous 
consent?
    Mr. Berman. Can I make a suggestion of adding something 
that will expedite the process----
    Chairman Ros-Lehtinen. Yes. The gentleman is recognized.
    Mr. Berman. And work out time agreements on the remaining 
amendments----
    Chairman Ros-Lehtinen. Perfect.
    Mr. Berman. To titles V through XI.
    Chairman Ros-Lehtinen. Reserving the right to object, Mrs. 
Schmidt.
    Why don't you get on the microphone so we can all hear you.
    Mrs. Schmidt. I may have to object, depending on what time 
we are going to roll those votes.
    Chairman Ros-Lehtinen. Do you have a marathon?
    Mrs. Schmidt. No, I have a committee that I am chairing at 
10 o'clock a.m. tomorrow, so I would hate to miss votes. So can 
we roll the votes tonight until tomorrow morning at 9?
    Chairman Ros-Lehtinen. Tomorrow morning at 9, would that--
is that good?
    Mr. Gallegly. Roll the votes at 9 o'clock.
    Chairman Ros-Lehtinen. 9 a.m. manana. Yippee, yippee, 
yippee. So without objection?
    Mr. Connolly. I have to object to 9 o'clock. I have got 
another commitment. I can be here shortly after that, but I 
can't be here at 9. And I don't want to miss votes; 9:15 would 
work.
    Chairman Ros-Lehtinen. 9:15. Yes. Who would like to be--I 
would like to recognize, Mr. Gallegly is recognized.
    Mr. Gallegly. Madam Chairman, I want to respond to my good 
friend and neighbor from California on the motion to move the 
previous question. And I understand and respect that. I 
personally thought that all the speakers that were in the queue 
had been asked. I would not have done that had I not. And as 
soon as I found that out I believe the gentleman would concede 
that I immediately withdrew and asked that I be placed in the 
queue for the purpose of making that motion. I have never ever 
tried to circumvent the process.
    However, I think that there was, in my opinion, adequate 
debate, particularly since there was no one else asking for, 
and I yield back.
    Chairman Ros-Lehtinen. The gentleman is correct.
    So without objection, has that motion been agreed to? So we 
will reconvene tomorrow. The time was 9:15.
    Oh, Mr. Pence.
    Mr. Pence. Madam Chairman, reserving the right to object, 
if by tomorrow morning, the committee could clarify the meaning 
of the term ``mumbo jumbo'' for me. I have been here 11 years. 
I am not familiar with that in the rules, but I would withdraw.
    Chairman Ros-Lehtinen. Without objection, we will reconvene 
at 9:15 to have the votes.
    Mr. McCaul. Madam Chairman, how many votes will there be? 
Because I am managing a bill from 10 to 12 o'clock. How many 
votes are there going to be at 9:15?
    Chairman Ros-Lehtinen. Well, we are going to continue on to 
finish title IV. And I think maybe seven tops; three from Mr. 
Berman, two from Mr. Rohrabacher and two from Mr. Fortenberry.
    Mr. Gallegly. Madam Chairman.
    Chairman Ros-Lehtinen. Yes, sir. Wait let me see, Mr. 
McCaul, are you done?
    Mr. McCaul. 9 o'clock. Would you object to 9 o'clock?
    Chairman Ros-Lehtinen. That is not good for Mr. Connolly. I 
have got a dentist appointment. I have to floss--no, I am 
kidding.
    Mr. Gallegly.
    Mr. Gallegly. One other suggestion I think would help the 
members, would also help expedite the process and be fair to 
everyone is if we have the vote at 9 o'clock or 9:15, whenever 
we agree on, but then we would do debate and schedule the next 
round for 12 o'clock or 12:30----
    Chairman Ros-Lehtinen. Absolutely, we would do that. Yes, 
sir.
    Mr. Gallegly. So we could flush the votes at that point and 
anyone who was concerned about being a part of the debate----
    Chairman Ros-Lehtinen. We will consult the House schedule.
    Mr. Gallegly. [continuing]. Can physically be here and that 
may move things along.
    Chairman Ros-Lehtinen. We will certainly try for that, 
depending on the House schedule and then--hold on, let me go to 
Mr. Ackerman and then Mr. Smith.
    Mr. Ackerman. I think you might want to alert the members 
that those who intend to offer those amendments on those 
sections have to be here to be in the queue, otherwise, they 
would lose the opportunity to make them.
    Chairman Ros-Lehtinen. I so agree.
    Thank you, Mr. Ackerman. Excellent suggestion.
    Mr. Smith.
    Mr. Smith. Just reserving the right to object, I would like 
to know, this is important. We will be debating the Mexico City 
Policy and if members are here, I think we can probably safely 
assume what the result will be. But if attendance were to 
result in the loss----
    Chairman Ros-Lehtinen. No we are going to----
    Mr. Smith. I am saying tomorrow, so I would ask my 
colleagues on the Republican side, and perhaps any friends on 
the Democrat side----
    Chairman Ros-Lehtinen. Let's not yell, yell, yell.
    Mr. Smith. So, please, assure us that you will be here 
because otherwise a vote in favor of abortion could occur.
    Chairman Ros-Lehtinen. That is okay--oh, right now.
    Mr. Berman. Are you trying to fix the outcome?
    Chairman Ros-Lehtinen. Mr. Connolly says yes, 9:15. Mr. 
Smith says yes; 9 o'clock? Mr. Connolly or----
    How about 8:30?
    Mrs. Schmidt. Madam Chair, if we are going to be voting, we 
are not going to be debating the votes, we are just going to be 
casting the votes.
    Chairman Ros-Lehtinen. Voting. Voting. I will say call the 
roll, boom, and we will do it.
    Mr. Connolly. Madam Chairman, I just point out both Mrs. 
Schmidt and I agreed 9:15 would work.
    Chairman Ros-Lehtinen. 9:15. We have got a deal.
    Mrs. Schmidt. But we start at 9:15.
    Chairman Ros-Lehtinen. We are very confident we can be 
done, if people would be here at 9, we will have the glazed 
doughnuts, 9:15 we start rolling, and Mr. Berman is recognized 
because that motion has been adopted.
    All right. Mr. Berman.
    And Mr. Berman, if I could, I keep yapping, I am sorry, the 
floor tomorrow will have votes from starting at 2:15. Does that 
mean that we can have a hearing until that vote? We don't have 
to break until then. And I will shut up. Mr. Berman is actually 
recognized.
    Mr. Berman. Madam Chairman, I have an amendment at the 
desk.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Mr. Berman. Amendment 036.
    Ms. Carroll. Mr. Berman, would you mind repeating the 
number please?
    Mr. Berman. Zero--no. No. It wasn't that one.
    I have got a lot of papers. It is amendment 613.
    Mr. Rohrabacher. Madam Chairman, while they are looking for 
the paperwork, I would make a----
    Chairman Ros-Lehtinen. Excuse me just 1 second.
    Let me just make sure that they start distributing the 
amendment. And is it proper for me while the amendment is 
brought up to recognize someone else?
    Mr. Rohrabacher. Just a point of personal privilege.
    Chairman Ros-Lehtinen. Mr. Rohrabacher.
    Mr. Rohrabacher. Very quickly, I want to remind those 
members who are leaving that I have two amendments, one would 
eliminate all aid to Pakistan. Another would eliminate all aid 
to Iraq. They might be important enough for your interest. I 
just want to make sure you knew it was going to be on tonight.
    Chairman Ros-Lehtinen. Thank you, sir.
    And the amendment of Mr. Berman is being distributed.
    Mr. Berman. Madam Chairman, I just, before I speak to my 
amendment, I just point out that since we just passed an 
amendment to knock out all aid to countries that didn't vote 
with us 50 percent of the time, we have already eliminated all 
aid to Pakistan and Iraq. As well as----
    Chairman Ros-Lehtinen. And now the----
    Mr. Berman. How many times do you want to do it?
    Chairman Ros-Lehtinen. Can the clerk report the amendment?
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Berman. 
Strike section 412----
    Chairman Ros-Lehtinen. And hold on 1 second because I want 
to give Mr. Berman the attention that he deserves.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Berman. I hope I get better than that.
    Thank you.
    Chairman Ros-Lehtinen. Thank you. There was just a question 
about maybe if everyone is here before 9:15, we could start a 
little bit on the roll call votes without having anyone skip 
because of that, if everyone happens to be at Dunkin Donuts 
right here next to us in the side room, some people were 
wondering if we can start the roll call votes before 9:15 if 
there is a whole lot. They have already left. So sorry. My job 
was to relay that, votes begin at 9:15.
    Mr. Berman is recognized.
    Mr. Berman. Madam Chairman, this amendment would strike 
section 412 of the bill, which reinstates and, by the way and 
very importantly, expands the Mexico City Policy or the global 
gag rule as it is appropriately known.
    Madam Chairman, I want to be clear. For almost four 
decades, U.S. law has prohibited the use of U.S. Government 
foreign assistance to fund abortion as a method of family 
planning. The language in the bill represents a cruel and 
harmful policy that prevents poor women and families around the 
world from gaining access to essential information and health 
care services.
    This provision is far more extreme than any policy that was 
implemented under the Executive Orders of President Reagan, 
Bush 41 or Bush 43. Why? Why does it go further? Because it not 
only prohibits family planning assistance to local health care 
providers in poor countries, it bars all forms of assistance to 
such organizations, including funding for HIV/AIDS, water and 
sanitation, child survival and education.
    Even President George Bush insisted on exempting HIV/AIDS 
assistance from the global gag rule restrictions.
    I do find, we all have very strong feelings on the 
fundamental issue that is raised by this language and by my 
amendment, but I find it very, very ironic that in the name of 
right to life, we would be cutting off funds that are saving 
tens of thousands, hundreds of thousands of lives right now, 
because these organizations are giving the medications, the 
counseling and the education to the people who either are or 
very likely to be in a population that will be, could be 
inflicted with AIDS and HIV. Let's not make it more difficult 
for poor women to access quality care. Let's support programs 
that enable women and families to make decisions to ensure 
their health and the health of their families.
    The language in this bill is a dramatic expansion of 
restrictions previously in place.
    I urge my colleagues to support this amendment to strike 
this offensive and expanded global gag rule, and I yield back 
the balance of my time.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman.
    Mr. Smith is recognized.
    Mr. Smith. Thank you, Madam Chair.
    Could you reset the clock? Thank you.
    Thank you, Madam Chair.
    Today most African and Latin American countries protect the 
lives of women and children from abortion. Indeed, prior to 
January 2009, the pro-life Mexico City Policy guaranteed that 
unborn children in Asia, Africa, Latin America and elsewhere 
not be put at risk of death by the nongovernmental 
organizations we fund. The U.S. funded family planning and did 
so robustly, but not those foreign nongovernmental 
organizations that perform or actively promote abortion.
    Every human life, Madam Chair, is precious and sacred and 
worthy of respect. No one--and I say again--no one is 
expendable. Thus family planning funds, and the NGOs that they 
empower, cannot be allowed to be the Trojan horse for the 
global abortion industry.
    Americans agree with our efforts to reinstate Mexico City 
Policy. Indeed, the Gallup Poll, by a margin of 2 to 1, 65 to 
35 percent say they oppose President Obama's Executive Order 
reversing the Mexico City Policy.
    Madam Chair, stripped of its many euphemisms, abortion is 
violence against children and often harms women emotionally, 
psychologically and physically. Abortion methods either 
dismember the fragile body of a baby to death or poison the 
infant, or chemically induce premature labor, leaving the 
immature child unable to cope with his or her new environment.
    The opponents of the Mexico City Policy love to denigrate 
the policy by dismissing it as the gag rule. Respectfully, we 
are talking about lobbying for abortions in foreign capitals, 
and we are also talking about gagging babies. Many of the 
poisons actually cause the child to suffocate and to die. So 
the real gagging that occurs actually occurs as a result of an 
abortion.
    The U.N. Millennium Development Goals, number 4, calls for 
reducing child mortality rates by two-thirds from 1990 levels. 
It is clear that numerous cost-effective interventions need to 
be expanded to save children's lives. These include treatment 
and prevention of disease as well as vaccinations, clean water, 
food and nutrition and oral rehydration, antibiotics and drugs 
to inhibit mother-to-child HIV transmission.
    Abortion, on the other hand, is by definition child 
mortality and it undermines the achievement of the fourth 
Millennium Development Goal. There is nothing benign or 
compassionate about procedures that dismember, poison, induce 
premature labor or starve to death a child. RU-46 widely used 
by pro-abortion NGOs has two effects on the child. First the 
baby is starved; he or she cannot get nutrition inside the 
womb. And the second chemical induces labor, delivering what is 
usually a dead baby.
    Indeed, the misleading term ``safe abortion'' misses the 
point that no abortion, legal or illegal, is safe for the child 
and that all can be fraught with negative health consequences, 
including physical, emotional, and psychological damage to the 
mother.
    Talk of unwanted children reduces children to mere objects 
without inherent human dignity and whose worth depends on their 
perceived utility or how much they happen to be wanted. Let me 
just remind my colleagues that the studies, and there are mega 
analysis studies that show this, that there is a significant 
risk of psychological harm, major depression and elevated 
suicide risk to women who resort to abortion.
    The Times of London reported, and I quote them, senior 
psychiatrists say that new evidence has uncovered a clear link 
between abortion and mental illness in women with no previous 
history of psychological problems. They found that women who 
have had abortions have twice the level of psychological 
problems and three times the level of depression as women who 
have given birth or have never been pregnant; 102 studies have 
shown those kinds of outcomes, including elevated suicide risk.
    Abortion is also harmful to children born subsequently to 
women who have had an abortion. At least 113 studies show a 
significant association between abortion and subsequent 
premature births, including one study by Shah and Zhao, they 
found a 36 percent increased risk for preterm birth and a 
staggering 93 percent after two abortions--36 was after one.
    What does that mean for the children? Preterm birth is the 
leading cause of infant mortality in the industrialized world 
after congenital anomalies. Preterm infants have a greater risk 
of suffering a myriad of problems from chronic lung disease, 
sensory deficits and cerebral palsy.
    Chairman Ros-Lehtinen. Thank you, Mr. Smith.
    The time has expired.
    Mr. Cicilline is recognized.
    Mr. Cicilline. Thank you, Madam Chairman.
    I rise in strong support of Mr. Berman's amendment. I think 
the important point to begin with is that no taxpayer dollars 
since 1973 have been spent to provide or promote abortion 
services.
    And the global gag rule, the claim that has often be made 
in support of this, is that it will reduce the number of 
abortions. It does not. In fact, access to international family 
planning services is one of the most effective ways to reduce 
the need for abortions. It will lead to an increase in the 
number of unsafe abortions.
    In addition to that, family planning can also prevent 
maternal and child deaths, unintended pregnancies, unsafe 
abortions and, of course, the spread of HIV and AIDS and other 
sexually transmitted disease. The World Health Organization 
estimates that more than half a million women, more than one 
woman every minute, die each year from pregnancy or childbirth-
related causes, and 99 percent of those women live in 
developing countries.
    There was a report done in 2004 that found that 
complications for pregnancy and childbirth are the leading 
cause of death for teenaged girls in the developing world. This 
gag rule would be unconstitutional if it were applied here in 
the United States. It forbids countries from engaging in 
activities that are legal in their own countries. Family 
planning providers that don't sign the global gag rule not only 
lose funds, they also lose donated contraceptives, including 
condoms, and the United States is responsible for 37 percent of 
all donated supplies of contraceptions. Clinics that are 
declined funding because of the gag rule cut services, close 
clinics and increase fees, making access to health care 
nonexistent for some women and more expensive for others.
    Mr. Berman's amendment will save the lives of countless 
women by ensuring they have access to quality reproductive 
health care, have important information about family planning 
and, in fact, will ultimately lead to a reduction in number of 
abortions.
    There will be an increase of unsafe abortion procedures if 
the global gag rule is put into place.
    I urge all of my colleagues to support Mr. Berman's 
amendment.
    And I yield back the balance of my time.
    Chairman Ros-Lehtinen. Mrs. Schmidt is recognized.
    Mrs. Schmidt. Thank you, Madam Chair.
    And I oppose this amendment.
    First off, I do want to read section 412 because it is six, 
little lines. It says none of the funds authorized to be 
appropriated by this act or any amendment made by this act may 
be made available to foreign nongovernment organizations, that 
is, NGOs, that promote or perform abortion, except in the cases 
of rape or incest or when the life of the mother would be 
endangered if the fetus were carried to term.
    So Mr. Cicilline's concern that the life of the mother 
would not be recognized if there was an abortion that was 
needed has been handled in this amendment.
    And this isn't going to cut off foreign aid to countries, 
but to NGOs within the countries. And quite frankly, what I 
have been saying all night is this: The American public doesn't 
want us to give out foreign aid, period, case closed, as my 
wonderful father would say. But we have to consider foreign aid 
in a responsible way.
    Americans have also said time and time again, they don't 
want public dollars spent on abortion. When the President, in 
January 2009, lifted the Mexico City Policy, which is basically 
what we are talking about, the American public responded and 
overwhelmingly said they disagreed with the President.
    Now they didn't say they disagreed with abortion. They just 
disagreed with the Federal funding of abortion. But you know 
the latest poll in May of this year shows that the American 
public is even conflicted on abortion because, really, when you 
read this Gallup Poll, they are really pro-life. But in 
addition to whether you want to argue whether they are pro-life 
or they are not, they clearly don't want their tax dollars 
spent to fund abortions, either here or abroad. But let's go 
beyond that. You know there is----
    Mr. Cicilline. Will the gentlelady yield?
    Mrs. Schmidt. No, I will not. So exceptions for rape and 
incest are in here. So when we think, oh my gosh, what is going 
to happen to a mother that is in one of those situations?, that 
exception is there.
    We talk about family planning, and while we may have 
different views on family planning, I don't think any of us 
really want to say that the ending of the life of a child is 
part of family planning. And that is really what abortion is. 
It is not about terminating a fetus. It is about ending an 
innocent life.
    And we all know that.
    Now you might think that is okay, but that is really what 
abortion is all about.
    When we talk about maternal morbidity, it is not reduced 
because you take away--it is not increased because you take 
away the Mexico City Policy. In 1984, when Reagan really 
implemented the Mexico City Policy, maternal morbidity rates 
didn't go up. They actually stayed the same and in some cases 
have gone down, because we actually have the exception for the 
life of the mother if an abortion--if the child is causing the 
mother to have her life compromised. So the Mexico City Policy 
really does not increase morbidity. It doesn't increase the 
death rate for women.
    The final thing is that it really doesn't hurt the women, 
period, because when you ask a mother, whether they are 
starving here or they are starving abroad, what they want is 
clean water, food, shelter and clothing. They are not saying, 
give me an abortion. And so for NGOs that want to help women, 
we are saying, we will give you the money to help you. You can 
help women. You can get them a condom. You can get them 
contraceptives. But if you are going to also allow them to have 
an abortion, we are not going to give you the taxpayer dollars 
for any of it, because money is fungible. And the American 
public expects their taxpaying dollars to be used in the way 
that they believe is justifiable.
    And quite frankly, if you took a poll today, Madam Chair, 
people would be against foreign aid. So we have got to be 
careful about how we spend it. Because when I go back home and 
I have to argue why I am going to vote for this bill, I better 
be armed with the facts that I haven't misspent the public 
dollars and I haven't misspent their trust. And with that, I 
yield back the balance of my time and urge my folks to vote no 
on this amendment. Thank you.
    Chairman Ros-Lehtinen. Thank you, Mrs. Schmidt.
    Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman.
    And I want to say, I certainly can appreciate the sincerity 
on both sides of this debate. It is never an easy one. But 
there are several real troubling aspects of the text in the 
bill in front of us that make this different.
    For one thing, Mexico City has always been, the Mexico City 
Policy has always been an Executive Order started under Ronald 
Reagan. I worked here in the Capitol in the United States 
Senate in the Foreign Relations Committee when it was first 
adopted as an Executive Order of then-President Ronald Reagan. 
It was subsequently overturned with another Executive Order by 
President Clinton. Reinstated under the second President Bush 
in an Executive Order, and now, once again, overturned by this 
President, President Obama.
    What we are doing in the bill in front of us is changing 
that. We are codifying the Mexico City Policy in law, and that 
is crossing a threshold that I think is significant. Because it 
would preclude the free debate about this very difficult topic. 
And frankly, as our colleague from Ohio was sort of noting, 
public opinion, depending on what question you ask, can be very 
volatile on the subject and, frankly, can be even contradictory 
on the subject.
    Secondly, in codifying Mexico City, this bill would 
actually significantly broaden its reach and implications. It 
would silence organizations on providing abortion counseling, 
even with their own segregated private funds, and it would 
overturn a policy exception even George W. Bush, arguably the 
single most conservative pro-life President we have ever had, 
in his Executive Order regarding this policy, he said this 
policy shall not apply to foreign assistance, furnished 
pursuant to the United States leadership against HIV/AIDS, 
Tuberculosis and Malaria Act of 2003.
    He understood that there were some other health issues that 
had to be carved out over and above the health and life of the 
mother. So that if an NGO was engaged in those activities, they 
got a carve out because he recognized, George W. Bush 
recognized how important, what a primacy, in terms of health 
policy had to be put on those activities. We are undoing that 
exception with this statutory language. So we are not just 
codifying his Executive Order, we are actually changing it and 
significantly restricting a woman's right to exercise control 
of her body and her choice.
    My colleague from Rhode Island rightfully pointed out the 
other side of the coin of those who would draw a dramatic 
picture about the exercise of abortion. And that other side of 
the coin is damage done to young lives by not having a choice, 
by not even being made aware of the choice because we put a gag 
rule on international NGOs if they wish to be the recipients of 
any U.S. money. And I think that is unfortunate. Frankly, I 
think it is un-American.
    We may not like the policy, but to gag it, to prohibit it, 
to again sequester any funding should you in fact dare to have 
an opinion different than ours I think does damage to U.S. 
interests. And I think more importantly, it actually affects 
lives, the lives of women all around the world.
    So while I respect both sides of this debate, I must 
support enthusiastically Mr. Berman's amendment. This language 
goes way too far and does way too much damage in codifying for 
the first time a policy that in my view was unwise to begin 
with.
    Mr. Smith. Would my friend yield?
    Mr. Connolly. I certainly will with 26 seconds.
    Mr. Smith. I think as the gentleman knows, since you worked 
here in the late 1990s, under the Clinton administration we 
codified a major portion of the Mexico City Policy. It was a 
compromise, but it did get codified in law. This is a 1-year 
proposal we have pending before us. So there is no precedent in 
the codification of the Mexico City Policy.
    Mr. Connolly. I have 1 second, and I gladly give it back to 
the chairman. It is just the kind of guy I am.
    Chairman Ros-Lehtinen. Thank you so much.
    So generous. I am overwhelmed. Mr. Fortenberry is 
recognized.
    Mr. Fortenberry. Thank you, Madam Chair.
    The hour is late, I am tired. All of you I am sure are 
tired as well, so it is a difficult moment to talk about such a 
serious issue. Because this issue has left a deep wound, I 
believe, in the soul of this country. To correct something that 
was suggested earlier, the number of abortions since its 
legalization has skyrocketed in this country. And since the 
widespread introduction of government involvement in providing 
contraception as well, the number of abortions has skyrocketed. 
So, so much for safe, legal, and rare.
    Let's just take a hard look at what this is. Abortion is so 
often the result of abandonment of someone in need. A woman 
left scarred, lonely, may turn to that as an option. And I just 
think that is a failure on the part of our society to be big 
enough and bold enough to say as a community that we love and 
care and will provide the resources enough to help get you 
through no matter how difficult.
    On top of that now, as official U.S. policy, we want to 
export this woundedness. It is a form of neocolonialization by 
the West of the worst aspects, the most divisive aspects of 
what has afflicted us as a people. But really, beyond that, 
what is at issue here is whether or not the taxpayers should 
pay for it, whether the taxpayer of the United States should be 
complicit in the act of abortion by providing money to 
organizations who are entangled with it. That is the core issue 
here.
    So I want to commend my colleague from New Jersey for 
suggesting that this language be put back in, that we move in a 
direction of hope and healing, that we conform our foreign 
affairs assistance to that which is life-affirming, that we do 
not undermine familial and tribal and cultural norms in other 
places with our own deep despair and woundedness because we 
have not resolved this in the right way in our own country.
    I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. 
Fortenberry.
    Ms. Schwartz is recognized.
    Ms. Schwartz. Thank you, Madam Chairman.
    This is always a difficult issue, and I certainly want to 
give some allowance or understanding for the strength of 
feeling on the other side, not universal on the other side of 
the aisle, but strong feelings about this. But just as we have 
had this discussion about access to family planning and women's 
health services in this country, and the importance of 
understanding that as family planning services are a part of 
that women's health services, that to deny services to women 
here, the access to vital women's health services because of 
access to abortion in a separate way is coercive in its own 
way, and obviously something we feel very strongly about. And 
fortunately, the other side of the aisle was not successful 
here.
    But to do this same thing, to try and do the same thing 
internationally, particularly in countries that are much poorer 
and without access to health services really just compounds the 
issues, poverty, poor sanitation, scarcity of health services, 
scarcity of health professionals, distance, lack of 
transportation, you name it. It just makes it even that much 
more difficult for women to access the full range of women's 
health services that they want and they have a right to in 
their own countries. And I just want to give some statistics, 
because this is not just a small thing to say to women in these 
other countries that because some people in this country feel 
so strongly about abortion, we are going to deny women who we 
are giving aid to, to have access to the very vital health 
services that they need to be healthy, to be healthy mothers, 
and to be healthy in their own lives, and to be able to live 
full and fulfilling lives themselves.
    Every day, thousands of women die in pregnancy and 
childbirth. Out of 215 million women who want to delay or cease 
child bearing, one in six women of reproductive age are in need 
of effective contraceptive methods. That is what we are talking 
about, is access to family planning and contraceptive methods. 
AIDS is the leading cause of death among women of reproductive 
age. This is in many of the 150 countries that are served by 
this funding. We know that women who are served also get help 
in childbirth and clean birthing kits and the provision of 
midwives and skilled birthing attendants.
    The effectiveness of the family planning funding and the 
women's health programs that we have around the world have made 
such a difference in women's lives. And to deny them access is 
really going to have dramatic effect on, again, their ability 
to live full and active lives, the ability for them to be able 
to have healthy children, and to be strong and healthy mothers 
as well.
    So what we do through the family planning programs 
internationally is to help women to be able to be successful. 
And understand, too, some of these programs are provided in 
post-conflict and disaster situations. These same hospitals, 
the same providers may be providing a full range of services. 
But what we are talking about is providing money for family 
planning.
    To deny these funds, and I do support Mr. Berman's 
amendment in striking this language, is so important again for 
the health of women around the world in order for them to be 
able to make these decisions. To be able to strike this 
language will save women's lives. It will ensure healthier 
mothers, and healthier babies, and healthier families, and more 
successful women in these countries. And to deny them, to turn 
back the clock for women around the world, as has been the 
attempt to turn back the clock for women in this country, does 
not promote women's health or women's success or women's 
ability to be all they could be.
    I feel strongly about that for American women. I think we 
should not try and do the same thing. I am strongly against 
doing the same thing, to denying to access to family planning 
and critical women's health services through our aid programs 
around the world.
    With that, I actually do have a few seconds. You will take 
your own time. So I will yield my few seconds to Mr. Cicilline 
to add some words to my thoughts.
    Chairman Ros-Lehtinen. Mr. Cicilline is recognized.
    Mr. Cicilline. Thank you. And I thank the gentlelady for 
yielding.
    I just want to respond to the gentleman who raised the 
concern about taxpayer funding. Since at least 1973, no 
taxpayer dollars have been spent to provide or promote abortion 
services. That is the Helms amendment to the Foreign Operations 
Appropriations bill. Again, I think we have to be very clear 
about that: Nothing in this proposed amendment would provide 
funding to promote or provide abortion services. That remains 
unchanged. I disagree with that policy, but that remains 
unchanged. And I wanted to just respond to the gentleman.
    Chairman Ros-Lehtinen. Thank you, Mr. Cicilline.
    And thank you, Ms. Schwartz, for the time.
    Ms. Buerkle is recognized.
    Ms. Buerkle. Thank you, Madam Chairman.
    And I rise in strong opposition to this amendment offered 
by Mr. Berman.
    I am really uncertain as to where to start this discussion 
because I am so offended as a woman, a mother of six, a 
grandmother of soon to be 11, a registered nurse, and someone 
who has been involved in health care my entire adult life. The 
words I hear from the other side, it begins by calling it a 
global gag rule. Say it what it is. You want to fund abortion 
with taxpayer dollars. That is a much--you know, it is much 
more palatable when you can talk about a global gag rule.
    Ms. Schwartz, you talk about helping women be all they can 
be by paying for their abortions with American taxpayer 
dollars. That is an insult to women, to say that they cannot 
function and be all they can be without paying for abortions. 
This is--and it is late--this debate----
    Ms. Schwartz. Would the gentlewoman yield? This is about 
women having access to health services.
    Ms. Buerkle. I am sorry. I did not yield my time. This is 
not about whether or not we are in favor of abortion. This is 
about using taxpayer dollars for abortions. But we have got to 
tell the truth here. And referring to this as a global gag 
rule, talking about every day, thousands of women die from 
childbirth, one in six women is in need of contraception. If 
you read section 412, all it talks about is providing taxpayer 
money for abortions. It doesn't talk about HIV/AIDS. It doesn't 
talk about contraceptives. It doesn't talk about any of the 
other health issues that we are happy to provide funding for. 
This 412 talks about taxpayer dollars being used for abortions.
    And if we are going to have a debate about this issue and 
wiping out this section of this piece of legislation, then we 
have got to be honest. And we have got to be honest with the 
American people. You are proposing to use their tax dollars to 
fund abortions worldwide, to push this culture of pro-abortion, 
anti-life agenda throughout the world in countries where 
abortions may be illegal.
    We are still pushing this, as my colleague, Mr. Fortenberry 
said, this culture that we have embraced in this country, in 
countries where they have decided that all life is valuable, 
and it should be protected.
    So I rise in strong opposition to this. And I ask the other 
side to please be honest about what we are talking about here. 
Don't couch these terms in a language such as global gag rules. 
Talk about using taxpayer dollars to fund abortions worldwide. 
And we know, the polls show it clearly, the American people, 
whether they are for or against abortion, they do not want 
their tax dollars to be used for abortion.
    Mrs. Schmidt. Ms. Buerkle, may I have the rest of your 
time?
    Mr. Buerkle. You may. Thank you.
    Chairman Ros-Lehtinen. Mrs. Schmidt is recognized.
    Mrs. Schmidt. I would like to clarify something that Mr. 
Cicilline said. Yes, the Helms amendment, which has been 
reauthorized by Congress since its inception in 1973, prohibits 
the use of Federal tax funds for abortion as a method of family 
planning overseas. The Helms amendment is a good standard, but 
it should be made into permanent law. And the Mexico City 
Policy takes the necessary step. President Reagan realized that 
taxpayer money was supporting NGOs overseas that promoted and 
performed abortions as a part of family planning and issued a 
memo during a population conference in Mexico City to halt that 
practice. That is how the Mexico City Policy got its name, from 
Ronald Reagan.
    And it has been kept in place through the Presidency of 
George H. Bush, rescinded by Clinton in 1993, reinstated by 
George W. Bush in 2001, and was rescinded again by President 
Obama in 2009, which is why we want to codify it into law 
today. So all we are doing is taking what Reagan wanted to 
clarify with Helms and put it into law today.
    And as far as Mrs. Schwartz's concern with family planning, 
and I do agree that we do need to help these women overseas, as 
long as the NGOs aren't providing abortion or funneling these 
people to an abortion clinic, they can keep the money. But the 
minute they provide abortion or talk about giving these women 
access to abortion, the money is cut off. And that is not 
something that is just the will of this Congress, that is 
really the overwhelming will of the American people in this 
country. I yield back.
    Chairman Ros-Lehtinen. Thank you, Mrs. Schmidt.
    And thank you, Ms. Buerkle, for your statement.
    Mr. Engel is recognized at this time.
    Mr. Engel. Yes. Thank you, Madam Chairman.
    This is a very sensitive issue. And I have friends on both 
sides of this issue. And I know the heartfelt feelings on both 
sides of this issue. This is something that I never point 
fingers at anybody, because things are very heartfelt. I know 
Mr. Smith and Mrs. Schmidt are two of my best friends here in 
Congress. And I know how heartfelt they feel about this.
    I would ask unanimous consent that my statement go into the 
record.
    Chairman Ros-Lehtinen. Without objection.
    Mr. Engel. Thank you.
    And I just want to read two paragraphs of what the effect 
of this rule is: In Zambia, the Family Life Movement of Zambia, 
which is a faith-based anti-abortion organization, was stymied 
in efforts to expand programs because the global gag rule 
disqualified Planned Parenthood Association of Zambia, a 
partner organization. The Family Life Movement of Zambia 
promotes abstinence among young people in Zambia and did not 
provide contraceptives of any kind.
    For those young people who were sexually active, the Family 
Life Movement of Zambia would refer them to the Planned 
Parenthood Association of Zambia, where they could receive 
information about condoms and other contraceptives.
    But the global gag rule has forced the Planned Parenthood 
Association of Zambia to close three of its nine rural outreach 
programs and cost them more than $100,000 worth of condoms and 
other contraceptives.
    I mean, I happen to believe, heartfelt my belief, that 
contraception leads to less abortions, not to more abortions. I 
respect people's religious views about it, but it seems to me 
that if you are providing people with family planning, they are 
less likely to want an abortion or need an abortion because 
they would not become pregnant.
    Let me read this second example. In Kenya, the Family 
Planning Association of Kenya, which did not provide abortion, 
had to cut its outreach staff in half, close three clinics that 
served 56,000 clients in traditionally underserved communities, 
and raise fees at the remaining clinics. One of the clinics 
that closed housed the unique well baby center, that provided 
comprehensive infant and postpartum care, making it easier for 
women to receive critical follow-up care. That well baby center 
is now lost to the community.
    So what I want to say to my colleagues is there are really 
two sides of a coin. Many of us who, frankly, struggle with 
this issue feel very strongly that people have a right to make 
a personal choice and that things should be available to women, 
particularly poor women, particularly women all around the 
world who don't have access to contraception, they should be 
allowed to be provided with the tools necessary to make these 
very personal decisions.
    And so I think that the global gag rule, and I don't mean 
any disrespect for my New York colleague, I think that that is 
not something that should be codified. I think that is 
something that is very important to have these women provided 
with the services.
    If you don't want them to have abortion services, surely 
there cannot be objection to contraception or to condoms or 
things that can prevent AIDS and disease. I think it is just 
putting our head in the sand and pretending that these problems 
don't exist. So, again, this is a very, very difficult issue, 
and I certainly respect everyone's views, but my view is that I 
will support the Berman amendment because I don't think that 
these restrictions ought to be put on these women.
    I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Engel.
    Ms. Ellmers is recognized.
    Mrs. Ellmers. To my friend, Mr. Engel, your points, I 
understand where you are coming from, but you know, the point 
is that this particular section of this bill deals with 
abortion and abortion only. And I am going to read it: Section 
412, Preventing Taxpayer Funding of Foreign Organizations That 
Promote Or Perform Abortions. None of the funds authorized to 
be appropriated by this act, or any amendment made by this act, 
may be made available to any foreign nongovernmental 
organization that promotes or performs abortion, except in the 
cases of rape or incest or when the life of the mother would be 
endangered if the fetus were carried to term.
    This is not talking about contraception. This is not 
talking about other forms of women's health issues. I am a 
nurse. I don't read that here. This has to do with abortion and 
abortion only.
    Mr. Engel. Would the gentlewoman yield?
    Mrs. Ellmers. I will yield at the end of my time--I don't 
believe the clock was started, Madam Chairman.
    Chairman Ros-Lehtinen. I am so sorry.
    Mrs. Ellmers. To the point of the feelings of the American 
people, when President Obama put back the provisions for 
funding for family planning--and let me clarify, family 
planning, which would include all of the things that you said--
family planning providers may be at the least popular thing he 
has done so far. This was an Executive Order that forbade 
Federal Government money from going to overseas family planning 
groups that provide abortions or offer abortion counseling. 
Fifty-eight percent of Americans opposed it, 35 percent 
supported it.
    Chairman Ros-Lehtinen. Thank you, Mrs. Ellmers.
    Thank you so much. The time has expired. I think that we 
might have messed up on the clock for you, because it doesn't 
seem like you were there for 5 minutes.
    Mrs. Ellmers. No, I don't think so.
    Chairman Ros-Lehtinen. May I ask unanimous consent that she 
be given 2 more minutes? Because I know that that wasn't 5.
    Mrs. Ellmers. Thank you. My point, again, is very simple. I 
understand the position that my friends have on this issue.
    But this particular section of the bill has nothing to do 
with family planning other than the thought that abortion would 
be part of family planning. And this is against family 
planning. I completely and totally am against this amendment 
put forward by Mr. Berman. And if I do have time left, I would 
like to yield to my colleague from Ohio.
    Chairman Ros-Lehtinen. Mrs. Schmidt is recognized.
    Mrs. Schmidt. Thank you.
    And I just want to echo that what this says is as long as 
these NGOs are doing family planning other than abortion, they 
get money. But the minute they include abortion as part of 
family planning, which I believe all of us here will agree that 
the ending of a life should not be part of family planning--I 
think it is counterintuitive to the whole nature of family 
planning--that then those moneys would not be given because 
moneys are fungible.
    Mr. Cicilline. Will the gentlelady yield to a question?
    Mrs. Schmidt. The Helms amendment, which has been in place 
since 1973, had to be resupported by Reagan with the Mexico 
City Policy because money was being used for abortions. Nobody 
is against family planning. But the public in the United States 
is against using our taxpayer dollars to pay for abortions, 
whether it is here or it is abroad. And all this amendment does 
is codify something that Ronald Reagan did in 1984, which was 
continued, except under the Clinton administration and the 
Obama administration. And all it does is codify a standing 
position of the Helms amendment that had wiggle room, that 
Ronald Reagan took the wiggle room out of with abortion. I 
yield back my time.
    Chairman Ros-Lehtinen. Thank you so much, Mrs. Schmidt.
    And Mrs. Ellmers' time has run out.
    I would like to recognize Mr. Murphy for 5 minutes.
    Mr. Murphy. Thank you very much, Madam Chair.
    Listen, I think it is clear we are not going to bridge some 
pretty substantial divides of opinion on the underlying 
question. But I think what you hear from our side is a very 
sincere concern for the unintended consequences of the 
underlying policy.
    I accept the Hyde provision, and yet I have a lot of 
trouble with the Mexico City Policy because of the underlying 
facts here. And the facts are this: Within months of the Mexico 
City Policy being reinstituted in 2001, 16 different African 
countries immediately had shipments of contraception from the 
United States ceased. Millions of African women lost access to 
basic contraception. That is the reality of what happened. That 
is not in the United States' interests. The reality is that 
71,000 women in this world die from unsafe abortions. And 
though the Mexico City Policy doesn't specifically prohibit 
care for post-abortion treatment, it essentially prohibits 
providers from having the equipment necessary to deal with that 
care. So you are putting at risk tens of thousands of women who 
have unsafe abortions because they don't have providers who can 
deal with it because of the Mexico City Policy.
    And while my colleagues keep on talking about this just 
being about prohibiting funding to providers that provide 
abortion, that is not what the policy says. It says provide or 
promote. And that is why it is called a gag policy. Because you 
could be a family planning provider who has never performed an 
abortion, who has never referred anyone to an abortion 
provider, and all you want to do is advocate on that issue, and 
you are shut down under this policy.
    Mr. Fortenberry. Will the gentleman yield?
    Mr. Murphy. I will finish, and then I know Mr. Cicilline 
wants some time as well. So when you say provide and promote, 
that is why this becomes called the gag policy. And as we spend 
billions of dollars as a Nation trying to promote democracy, 
trying to tell other nations that they should have vigorous, 
open debates about policy, it seems pretty inconsistent to then 
say that the one issue that is off limits is abortion; that we 
want you to openly debate everything, but we are going to cut 
off funding to anybody that wants to debate this particular 
subject on one side of the subject. And that is why it is 
called a gag rule, because it seems to run contrary to decades 
of investment in open conversation and open democracy.
    Let me yield to Representative Cicilline.
    Chairman Ros-Lehtinen. Mr. Cicilline.
    Mr. Cicilline. I thank the gentleman for yielding. I just 
wanted to underscore the point that my friend from Connecticut 
just made with respect to the performance requirement, that 
this actually prevents family health agencies from making 
either a referral, someone who doesn't perform an abortion, but 
it really interferes with the ability of a physician or health 
care provider to have a candid and full conversation with a 
woman about a whole range of health care choices. And we ought 
not be interfering with the relationship between a woman and 
her physician and the ability of a physician to share in a 
complete and professional way all of the options available to a 
woman as she makes important health care decisions. It 
undermines that relationship as well. So I think that is one of 
the other dangers of this. I yield back.
    Chairman Ros-Lehtinen. Thank you, Mr. Cicilline.
    I am pretty sure that the time has run out.
    Mr. Murphy. I miraculously got 4 more minutes.
    I yield back.
    Chairman Ros-Lehtinen. Thank you for understanding, Mr. 
Murphy and Mr. Cicilline. I would like to yield now to Mr. 
Burton. Let's look at that clock.
    Mr. Burton. Madam Speaker, I yield my time to the gentleman 
New Jersey.
    Mr. Smith. I thank my friend for yielding.
    Let me just say to my colleagues on both sides of this 
issue, I certainly respect each and every one of you, but I do 
believe that we are forgetting someone, a child who is growing, 
developing, maturing each and every minute of every day, who, 
when abortion is performed, is decimated. It is an act of 
violence. If you did the exact same thing to a newly born child 
or a 1-year-old child, or even as we saw during the partial 
birth abortion debates, where the scissors were literally 
thrust into the brain of a child and then the brain sucked out, 
simply because that was done while the child was almost in 
utero, abortion proponents defended it and did so. Bill Clinton 
vetoed the bill twice; it finally was approved and signed into 
law by George Bush. It is violence. Why is that so hard to 
understand? The methods, the act is an act of violence.
    Whether it be legal or illegal, abortion is violence 
against children. It also is highly injurious to women's 
health. I mentioned earlier the numbers of women who suffer 
chronic deleterious effects to their psychological health. The 
studies couldn't be more clear. Read them. Over 100 studies 
show it, no matter where the studies are undertaken. Whether it 
be in the Nordic countries, New Zealand, or anywhere else, 
including the United States, the women suffer. Not immediately, 
but it has a lag time. It is an intermediate and a longer-term 
terrible psychological impact that is largely disregarded by 
the abortion rights proponents.
    Let me also say to my colleagues that in 1984, I offered 
the first amendment on the Mexico City Policy and frankly, the 
U.N. population fund ban because of forced abortion in China. 
And opponents got up, including Olympia Snowe, now over in the 
Senate, and others, Sam Gejdenson, who used to be a member from 
Connecticut, said no one will accept these safeguards, so the 
money will lie fallow; it will not go to family planning 
organizations.
    After that year was over, with the Mexico City Policy the 
law of the land, virtually every dollar was allocated, either 
obligated or spent, by a family planning organization. And just 
like any grant money, there are always more grant requests than 
we have money to fund, whether it be in our own districts for 
name the issue or name the project. So all the money was 
accounted for. So when I hear how family planning dollars were 
reduced or restricted, nothing could be further from the truth.
    During the Bush era, 2002 to 2007, this is USAID numbers, 
Ethiopia, family planning went up from $5 million to $19.5 
million, a 300 percent increase; Haiti, a 144 percent increase; 
Pakistan, a 1,100 percent increase; D.R. Congo, 800 percent 
increase. This is family planning money going to organizations 
that accepted the safeguards and provided family planning, and 
not the demise and the wounding of a baby and the wounding of 
their mothers. This is all about who we fund.
    My colleague from Ohio talked about the Helms amendment. We 
found in the early 1980s that the Helms amendment was infirm 
because money is fungible. The organizations figured it out. 
They simply do a little bit of bookkeeping and segregation of 
funds, and if they did that--assuming they did, they were 
unfettered in their ability to promote abortion and to 
perform--and again when you talk gag rule, a very, very poor 
choice. Maybe the news media will amplify it, and you think you 
have a public relations coup on your hands, but frankly, it is 
such a misleading term. We are talking about lobbying in 
capitals all over the world. And the people we give this money 
to, frankly, are our surrogates. They are ambassadors, in a 
way. They are doing things that we hope they will do, whether 
it be family planning or other kinds of health care 
interventions. But they set up shop in country after country, 
and they try to topple the pro-life laws.
    But they also, and this is where the gag rule language 
falls totally flat, what about the child? The language is, 
promote and perform, except in cases of rape and incest and 
life of the mother. And you know, the debate that now has been 
engaged on Planned Parenthood domestically; I love the way 
Planned Parenthood domestically is going into overdrive trying 
to suggest that only 3 percent of what they do actually is 
about abortion. That 3 percent is over 900 abortions every 
single day in Planned Parenthood clinics around this country. 
That is the kind of movement that will follow if IPPF and the 
other pro-abortion groups are not inhibited in their promotion 
of performance of abortions. Nine hundred a day is a lot of 
dead children and wounded mothers.
    Chairman Ros-Lehtinen. The gentleman's time has expired.
    Mr. Deutch is recognized.
    Mr. Deutch. Thank you, Madam Chairman.
    This is a very personal issue for all of us. I am sensitive 
to that. But really what is at stake here is whether our 
taxpayer dollars are going to fund abortions. That is what we 
should be debating.
    I understand that it is the goal of some of my friends to 
outlaw abortion all together. I understand it is the goal to 
stop all abortions from being performed. I understand that. And 
they are entitled to that view.
    But what we are talking about here is whether taxpayer 
dollars should be funded. And for almost four decades, for 
almost four decades, no taxpayer dollars have been spent to 
provide or promote abortion services overseas. The Helms 
amendment, renewed annually by Congress, forbids these 
activities. It is not happening. The gag rule has failed. And 
it is a gag rule. It gags overseas counseling. It gags overseas 
community groups, health experts, and prevents them from 
discussing access to safe and legal abortion--legal abortion--
even when this needed counseling is funded with their own 
money, kept separate from Federal dollars.
    This is not a debate about Planned Parenthood, but I can't 
help, since the point has been raised, to point out that it is 
the same debate that takes place domestically, and we had this 
debate before, and I trust we will have it again. I understand 
the efforts, the goals of some of my colleagues to stop all 
abortions. But as long as abortion is legal, then I believe 
that while we ensure that there are no taxpayer dollars going 
to it as required by law, that we don't turn around and 
penalize those groups who are helping to ensure that of the 
more than 46,000 women around the world who die annually, that 
other families won't face that same fate. Millions more suffer 
debilitating injuries and disabilities.
    And if we impose this global gag rule again, we will only 
exacerbate the situation. The level of harm from unsafe 
abortions is quite high. Twenty one million unsafe abortions 
every year. Nearly all of them in low-income countries. More 
than 95 percent of abortions in Africa and Latin America are 
performed under unsafe conditions.
    And while it may be the goal to end all abortions for some 
of my colleagues, the fact is this gag rule is unnecessary. It 
shuts down debate. It will force clinics to close. It will make 
outreach efforts to try to reduce the number of unsafe 
abortions to cease. That is what is at stake here. I will 
finish where I started. I know how difficult an issue this is. 
But the law as it currently exists is quite clear that taxpayer 
dollars cannot be funded.
    Mr. Fortenberry. Would the gentleman yield? Would the 
gentleman yield? Right here. I am right here.
    Mr. Deutch. I will yield.
    Mr. Fortenberry. So let me try to clarify what you are 
saying. You support the Helms law, and you believe taxpayer 
dollars should not be going toward abortion. Are you saying 
that?
    Mr. Deutch. No. What I am saying is that the Helms law has 
been renewed----
    Mr. Fortenberry. Because I thought you might be able to 
accept our position on this if you were saying that. But you 
are not.
    Mr. Deutch. What I am say is that the Helms law, because it 
has now been almost 40 years, it has been renewed, that this 
gag rule is unnecessary and is damaging. And what we are 
ultimately striving for, those who put forth the Helms 
amendment, which is preventing taxpayer funding of abortions, 
is already the law. This will result in changes that will be 
damaging to women, that will yield only more abortions, unsafe 
abortions. So I support this amendment, and urge others to do 
so as well. I yield back.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Deutch.
    Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you, Madam Chairman.
    I would certainly agree with my colleague as he began his 
statement when he talked about one's belief in abortion is a 
very personal, very, very personal issue. And let me just note 
that I wasn't always opposed to abortion, and I didn't really 
start thinking about it until later on. But once I started 
thinking about it, and once I came to the conclusion that we 
are talking about the life of a child, at that point, there was 
just no other direction.
    Let me note that God blessed my family with triplets 7 
years ago. And I will tell you we struggled to have children. 
And we followed those children as little babies from very early 
on in their development. And you could see that beep beep beep 
on the screen. And it really, once you have gone through that, 
it is very difficult to think that we are not really talking 
about a baby after that. Because we know that that early stage 
led to these wonderful children that I have in my life right 
now.
    And I think that these medical steps taken to snuff out the 
potential for life while in the mother's body was the taking of 
a human life. And I think that that is something that when 
someone actually comes to that conclusion, that we are talking 
about human life, we are talking--that then there is just no 
choice. And I think that maybe when I am talking to my 
colleagues, I am just hoping that their eyes will be opened, as 
mine were, to the fact that we can't let some baby be killed 
with some central planning or some idea about health care, 
general health care in mind.
    Now, let me just note that, again, we are not talking 
necessarily just about abortion. Here the only thing we are 
really talking about today is the taxpayer dollars being used 
to sponsor abortion. So even if you don't agree that life, as I 
saw it, and inside my wife after 2 or 3 months appeared, that 
that was life, even if you disagree with that, you would 
probably--you should be able to agree that taxpayer money 
shouldn't be used if there is that type of question. And so 
many wonderful people are on both sides of the argument. But if 
someone who you know is honest believes it could be a baby, you 
don't want their money to be taken from them in the name of 
killing a baby. So it is not about abortion; it is whether or 
not the government is going to be paying for abortions, and in 
this case, whether or not we are going to be permitting U.S. 
dollars that are sent overseas to help with family planning for 
poor women overseas, whether or not that money can be used for 
abortion. And to show you how, and I think just how obsessed 
the other side is with making sure that there can be abortions, 
that they are insisting so much that abortion not be excluded, 
that they are willing to give up all of the money that is going 
into these clinics in order for them to have the right to 
advise a woman or provide a woman with abortion.
    There are no restrictions that anyone is considering on 
family planning. The only restrictions are being placed on 
abortion. So if someone says that they would rather just not 
have family planning at all unless I can advocate abortions 
because it is not complete family planning unless you can 
actually recommend that, I don't buy that. I don't buy that at 
all.
    And I would yield my remaining time to Mrs. Schmidt.
    Chairman Ros-Lehtinen. Mrs. Schmidt is recognized for 50 
seconds.
    Mrs. Schmidt. Thank you.
    Some people have been saying the Helms amendment is enough. 
But I would like to remind them why we got the Mexico City 
Policy in the first place. It was when President Ronald Reagan 
realized that taxpayer money, under the Helms amendment, was 
supporting NGOs overseas that promoted and performed abortions. 
Money is fungible. We know that. And so he, at a population 
conference in Mexico City, he put a halt to the practice, hence 
the term Mexico City Policy. We want to keep that in place. We 
don't want to give Presidents the opportunity to allow it to go 
back to a loosey-goosey Helms amendment that allows it to be 
fungible money. We want to codify the intent of Helms. Mexico 
City codifies the intent of Helms. And that is all this is 
about.
    And I yield back.
    Chairman Ros-Lehtinen. Thank you so much.
    I believe that the time is done.
    Mr. Connolly. Madam Chairman?
    Chairman Ros-Lehtinen. Who is asking?
    Oh, Mr. Connolly, yes.
    Mr. Connolly. Just a quick, funny observation. When I 
worked with and for Senator Jesse Helms, the idea that----
    Chairman Ros-Lehtinen. I don't know under whose time, but I 
will be glad to----
    Mr. Connolly. Well, just I find it funny that anyone would 
refer to him as loosey-goosey on any subject, let alone this 
one.
    Chairman Ros-Lehtinen. Thank you, Mr. Connolly.
    And Mr. Poe is recognized.
    Mr. Poe. Thank you, Madam Chair.
    I yield my time to Mr. Smith.
    Mr. Smith. Thank you.
    I will be very brief. I just want to remind my colleagues 
that we really have known for more than 60 years what actually 
saves women's lives. It is skilled attendants at birth, 
treatment to stop hemorrhages, access to safe blood. I actually 
held a hearing in this room, and a World Health Organization 
physician told us that if women had access to safe blood in 
sub-Saharan Africa, some 44 percent of maternal mortality 
disappears. They don't have access to it. And I work with a lot 
of NGOs, including one that pushes safe passages to ensure that 
women are well-resourced as they approach the time of the 
birthing of their child in order to preclude either a dead baby 
and/or a dead mother. It is all about how we respond to both.
    Abortion, I do believe, needs to be looked at as an 
abandonment of both, certainly of the child, and I would argue 
equally the mother. A landmark study by the Bill and Melinda 
Gates Foundation and published in the British journal Lancet in 
2010, backed up by a WHO report about maternal mortality, shows 
that we are making progress, not as much as all of us would 
like, but it is some 40 percent lower than in 1980. But 
contrary to prevailing myth, the study underscored that many 
nations that have laws prohibiting abortion also have some of 
the lowest maternal mortality rates in the world, including 
Ireland, Chile, and Poland among them.
    Let me also point out to my colleagues that, you know, 
Bernard Nathanson founded NARAL, Betty Friedan, Lawrence Lader, 
and Bernard Nathanson, the leading abortionists in the 1960s 
and the 1970s. He actually ran the largest abortion clinic in 
New York City. Dr. Nathanson quit doing abortions and wrote in 
the New England Journal of Medicine, ``I have come to the 
agonizing conclusion that I have presided over 60,000 deaths.'' 
And he said what brought him to that conclusion. He was working 
in St. Luke's Hospital on prenatal interventions, blood 
transfusions, prenatal surgeries, which then were really in 
their infancy, but have now blossomed to the point where 
children can be treated for all kinds of diseases and anomalies 
while still in utero. But he came to the conclusion that it was 
schizophrenic to, in one operating room to be treating that 
child as an unborn patient, one of his patients, and then in 
another operating room to be dismembering, or chemically 
poisoning, or in some other way committing an act of violence 
against that child.
    You know, we have seen breathtaking breakthroughs in the 
area of fetal surgeries over the last decades, ever since 
Nathanson made that discovery in his own heart and mind. We 
need to look at the unborn child as a patient who may be in 
great, desperate need of intervention. Abortion is antithetical 
to that. It kills. And not all the babies die, especially when 
there are twins involved. And I have actually met some abortion 
survivors. One woman, who was the object of a chemical 
abortion, saline amniocentesis, that didn't work all the way, 
and she now has cerebral palsy as a direct result of that. So 
some of these children do survive. The reason for partial birth 
abortion, according to the originator of that terrible method, 
he has said is that it is one way of precluding a live birth, 
in other words, an abortion where the child is a survivor.
    Years ago, CDC used to note that some 500 children per year 
would survive later-term abortions. Now the abortionists try to 
ensure that that possibility is precluded by using the most 
lethal means possible to kill the baby. The Mexico City is all 
about holding harmless the child, as I said earlier, equally 
the mother. Abortion is not health care. We provide three 
exceptions in the language. The three exceptions were in the 
original Mexico City promulgated by Ronald Reagan by regulation 
back in 1984. And that would be rape, incest, and life of the 
mother. But after that--and that is a very, very small number 
of abortions. And we recognize a child dies there as well. So I 
would urge my colleagues to at least give this some additional 
thought.
    These children need your help. You need to be an advocate, 
or at least consider being an advocate for them. Why does 
wantedness dictate whether or not you have a right to live? 
Birth is an event that happens to each and every one of us; it 
is the beginning of a life. I yield back.
    Chairman Ros-Lehtinen. Thank you, Mr. Smith.
    Mr. Poe, do you yield back?
    Mr. Poe. I yield back.
    Chairman Ros-Lehtinen. Thank you very much.
    Hearing no further speakers, pursuant to committee rule 4 
and the prior announcement of the Chair, the recorded vote on 
this measure, Mr. Berman's amendment, is postponed until 9:15 
a.m. today, Thursday.
    Such a sad statement, today, Thursday.
    We have Mr. Berman, I know that we have other members who 
have amendments as well. Mr. Rohrabacher has two amendments, I 
believe, and Mr. Fortenberry has two amendments.
    Mr. Rohrabacher, may we go to one of your amendments?
    Mr. Rohrabacher. I would be very happy to, but I was asked 
by your staff to perhaps allow Mr. Berman 5 minutes if he 
wanted to present something.
    Chairman Ros-Lehtinen. All right.
    Thank you, Mr. Berman.
    Mr. Berman has an amendment on the desk.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Berman 
of California. Strike section 411 and insert the following: 
Section 411. Quadrennial diplomacy and development review. (a) 
Review of diplomacy and development. (1) In General. Not later 
than December 15, 2014, and every 4 years thereafter, the 
Secretary of State (in this section referred to as the 
``Secretary'') and the Administrator of the United States 
Agency for International Development (in this section referred 
to as the ``Administrator'') shall complete a comprehensive 
examination----
    Mr. Berman. Madam Chair, I ask unanimous consent that the 
reading be dispensed with.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Correct. That is true. And the Chair 
reserves a point of order, recognizes the author for 5 minutes 
to explain his amendment.
    Mr. Berman. Thank you, Madam Chairman.
    The last time we marked up a State Department authorization 
bill in this committee, in June 2009, we included a requirement 
for the administration to undertake a quadrennial review of 
diplomacy and development.
    The idea was a bipartisan one. In addition to the provision 
in our bill, there was a bill introduced by a Republican, Mac 
Thornberry, requiring a quadrennial review of foreign affairs. 
At the time our bill was under consideration, the State 
Department was strongly opposed to that provision. However, 
shortly after it passed the House, they decided to do the 
review anyway. Just like the State Department.
    The initial review was completed in the middle of December 
2010. And one of the things they found was that in order for 
our development assistance to become more efficient and more 
effective, and I repeat it, in order for the development 
assistance to become more efficient and more effective, USAID 
needed to have control of its own budget. And I quote from the 
QDDR that I made reference to,

        ``Effective development depends on the strategic 
        deployment of resources that advance particular 
        programs and align with overall policy goals. USAID 
        must have sufficient control of its budget to 
        systematically deploy its resources where they will 
        have the greatest impact. To ensure this essential role 
        in budget preparation and funding requests, USAID has 
        created a new Office of Budget and Resource Management 
        (BRM), charged with developing USAID's annual budget 
        proposal and overseeing budget execution.''

To alleviate any concerns that this office would be 
duplicative, the QDDR explains that the Deputy Secretary of 
State will consolidate and review the USAID and State budget 
components, and the Director of foreign assistance resources, 
who is located at State, will analyze and integrate all foreign 
assistance budgets. The F bureau at State and USAID's new 
budget office are currently working together on finalizing the 
Fiscal Year 2011 foreign assistance allocations.
    Yet without a single word of explanation, section 411 of 
this bill specifically prohibits and repeals the new USAID 
budget office. I assume this is nothing more than a political 
stab at the administration. There is no foreign policy 
objective to be advanced by this, no budgetary savings to be 
accomplished. USAID's budget office costs no extra money. The 
16 total staff positions now assigned to that office were 
funded by reallocating funding and positions from other bureaus 
and offices at USAID.
    If anything, the new office will result in significant 
budget savings, as USAID is finally allowed to start matching 
resources with results, instead of being told what to fund, 
regardless of whether the program works or not. My amendment 
would replace section 411 with a statutory mandate to continue 
doing the QDDR every 4 years like the Defense Department does 
in its Quadrennial Defense Review. Just as there was no special 
authorization or appropriation of funds for the first QDDR 
process, the State Department and USAID managed to do it within 
their regular budgets. This amendment does not require or 
authorize any additional funds.
    I really urge the committee to consider the mistake in 
knocking out this USAID budget office. If you want to abolish 
USAID, consolidate with the State Department, have all the 
foreign development assistance going from the State Department, 
I understand that. If you want to separate USAID completely 
from the State Department and give them all the authorities, I 
understand that. But what I don't understand is having USAID 
separate from the State Department, although under the 
Secretary's direction, but not having the ability to budget 
their own operations or determine the extent to which their 
programs are meeting their goals. This is a fundamental 
capacity of reforming and making foreign assistance more 
efficient.
    I urge adoption of the amendment, and I yield back my 7 
seconds.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman.
    And I apologize for going to you right away. I thought this 
was an amendment that you were going to offer and take out, 
whatever, withdraw.
    Mr. Berman. I could find one to do that with.
    Chairman Ros-Lehtinen. No. I apologize.
    Mr. Rivera is recognized.
    Mr. Rivera. Thank you, Madam Chair.
    My understanding of the Quadrennial Diplomacy and 
Development Review, or the QDDR, is that it was an attempt to 
advertise the elevation of civilian power and aimed to set out 
a new blueprint for U.S. foreign assistance, with the objective 
of making foreign assistance more effective and accountable.
    In trying to achieve those objectives, it failed in 
achieving its goal. It not only failed to adequately address 
the underlying fundamental issues, such as distinguishing clear 
lines of authority and accountability between the Department of 
State and USAID, but more importantly, failed to provide a 
meaningful assessment of overall U.S. assistance efforts abroad 
and the effectiveness of such spending.
    Instead, the QDDR suggested an actual expansion and growth 
of government, recommending the additional hiring of Federal 
employees, the establishment of more bureaucracy, the 
establishment of more offices, and the call for ongoing 
assistance programs without evaluating their actual 
effectiveness. So, in other words, the QDDR's recommendations 
have done little to change the business as usual attitude that 
has characterized our failed strategies for the past 50 years 
within U.S. assistance efforts. So, for all those reasons, I am 
going to oppose this amendment and encourage my colleagues to 
do as well.
    I yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you, Mr. Rivera. Do any 
members seek recognition? Hearing no further speakers, pursuant 
to committee rule 4 and the prior announcement of the Chair, 
the recorded vote on this amendment is postponed until 9:15 
a.m. today, Thursday.
    Again, so cruel.
    Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. I have an amendment at the desk, No. 33.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. 
Rohrabacher of California. At the end of title IV of the bill, 
add the following: Section 4xx. Limitation on assistance to 
Pakistan. Notwithstanding any other provision of this act, no 
funds made available to carry out this act or any amendment 
made by this act may be used to provide assistance to Pakistan. 
Strike part V of subtitle B of title IX of the bill (relating 
to security assistance to Pakistan).
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Thank you very much.
    And the amendment is being distributed, so we will give it 
just a few seconds.
    Mr. Connolly. Madam Chair, would you entertain a question 
while we are waiting?
    Chairman Ros-Lehtinen. Yes, sir.
    Mr. Connolly. You may recall that I have written you and 
the ranking member on what I think are the need for 
comprehensive, in-depth hearings on U.S.-Pakistan relationship. 
I am just wondering if you have had a chance to review that 
request and what, if any, position you have on it.
    Chairman Ros-Lehtinen. Yes. I think if the gentleman would 
yield, I believe that we want Secretary of State Hillary 
Clinton to be present for that. So I am sure that she will get 
back to us soon. We will do so.
    And with that, Mr. Rohrabacher is recognized to explain his 
amendment.
    Mr. Rohrabacher. Okay. Thank you very much. My amendment 
takes Pakistan off the list of countries for which we will 
borrow money from China to support, then stick our children and 
grandchildren with the responsibility of paying off the debt.
    In other words, my amendment eliminates our aid going to 
Pakistan. The Pakistani ISI, their equivalent of the CIA, 
through its long support of Osama bin Laden in the years 
leading to 9/11, is directly responsible for the violent death 
of thousands of our people. To this day, they still support the 
Taliban, which of course the ISI, the Pakistani CIA, created, 
as well as they support other terrorist organizations who are 
killing U.S. soldiers, U.S. military personnel as we speak.
    So what good has all of our aid to Pakistan done? We have 
given out since 9/11 over $18 billion to Pakistan since 9/11. 
Our billions of dollars in aid have not pulled Pakistan away 
from China, nor ended Pakistan's support for terrorists 
operating in Afghanistan and India. Osama bin Laden, who was 
the one who personally organized the slaughter of those 3,000 
Americans on 9/11, was given refuge in Pakistan for 5 years. 
And when our Special Forces killed him, Pakistan arrested those 
who helped us find him. Making matters worse, Pakistan is in an 
alliance with China, and has been for a number of decades. It 
is actively pursuing a China-backed alignment with Iran against 
the United States. And Pakistan is actively engaged in trying 
to convince other governments to ditch the United States and 
cast their lot with China. They obviously consider the United 
States a strategic enemy. Yet they keep taking our money, and 
we don't fault them for that. We should fault ourselves. They 
are treating us like fools because we are acting like fools. 
The Obama administration has already cut some aid to Pakistan, 
a third of it in fact. So why play games? Let's make our intent 
clear. No more American money should go to a regime that 
actively participates in the murder of American civilians and 
soldiers. We have been playing the sucker for too long.
    It is time to stop. We should cut off the billions of 
dollars we have been giving to Pakistan. And we should 
energetically seek a new strategic relationship in South Asia 
which puts us on the side of India, a democratic government, 
rather than the side of a government which is aligned with 
radical Islam and Communist China.
    Well, I ask my colleagues to support this effort. We should 
have the courage to say, now is the time to recognize the Cold 
War is over. That is what started our relationship with 
Pakistan to begin with. And we should now, instead of hanging 
on to that relationship in a way that is proving detrimental to 
us because Pakistan, itself, is allied with our enemies, move 
to try to set a new strategic relationship with India. And the 
first step to doing that and creating a more peaceful world is 
to quit giving support to a country that is engaged in anti-
American activity and undermines our national security.
    So I would ask my----
    Mr. Connolly. Would my colleague yield for a question?
    Mr. Rohrabacher. I certainly would.
    Chairman Ros-Lehtinen. Mr. Connolly?
    Mr. Connolly. Just a question. Has my colleague given 
thought to the unintended consequence that, by doing this, what 
we risk is destabilizing an already-rickety Pakistan and 
leading to a far worse outcome in terms of----
    Mr. Rohrabacher. Yeah, we have been hearing that for years. 
And it is not an unintended consequence; it is something that 
you--it is a risk. It is risk that you take. Every time you 
take a step forward to try to create a better world, you are 
taking a risk that something may go wrong. And, in this case, 
that is a risk that--I think it is riskier to continue in the 
relationship that we have had with Pakistan than it is to try 
to demand a change in the status quo.
    Chairman Ros-Lehtinen. Thank you. The gentleman's time has 
expired.
    Do any other members seek recognition?
    Mr. Berman is recognized.
    Mr. Berman. Thank you, Madam Chairman.
    My friend from California says this is a matter of courage. 
Do we have the courage, can we summon up the courage to cut it 
off? The aid to Pakistan, that is. I say it is question of 
wisdom. It is not about courage.
    Congress is correct to conduct additional scrutiny over the 
assistance to Pakistan. We in the United States are very 
rightfully skeptical of Pakistan's commitment to fighting 
extremism following the many incidents that have come to light 
in the weeks following the killing of bin Laden. I even have 
some problems with the base bill in terms of what it does with 
Pakistan, which I will address not in an amendment but in a 
motion to strike the last word later in this markup.
    But cutting off all assistance to punish Pakistan, without 
proper consideration of the national security ramifications of 
doing so, is lazy, it is shortsighted, and it is quite 
irresponsible.
    I meet with Indian Government officials all the time about 
this issue, and I have never heard one of them suggest that 
they thought it was in their interest for us to cut off every 
aspect of our economic assistance to Pakistan. To the contrary, 
they want to see civilian institutions built. They know that 
the direction that Pakistan could be headed leads to chaos and 
massive instability, implied in the question from my friend of 
Virginia to the author of this amendment.
    And the other thing that should be part of this amendment, 
if it makes sense, is, if you are going to cut off all 
assistance here to Pakistan, decide that Pakistan is the enemy, 
this is one of those rare issues that are black and white, and 
align ourselves with India. You ought to at least, on behalf of 
our troops in Afghanistan, call for the immediate withdrawal of 
all our troops in Afghanistan. Because what you are proposing, 
without withdrawing our troops in Afghanistan, puts them in so 
much greater jeopardy than they are even now. Our effort in 
Afghanistan, supplying our troops there, remains highly reliant 
upon continued Pakistani cooperation, both in terms of access 
to Pakistani territory but also with regard to Pakistani 
intelligence and counterterrorism cooperation.
    Is it as good as I would want? Absolutely not. Are they not 
doing things they should be doing? You are absolutely right. 
But Pakistan's strategic location, the possession of nuclear 
weapons, the ongoing insurgency along the country's border with 
Afghanistan makes it imperative for the U.S. to keep the lines 
of communication with Pakistan open.
    It is in our national security interest--not an entitlement 
program, not some obligation, but our national security 
interest to ensure we have a productive relationship with 
Pakistan, both for the short-term gains in Afghanistan and for 
long-term regional stability. Unless we are able to find a path 
toward that stability in South Asia, we could potentially find 
ourselves in a similar situation years from now.
    This becomes all the more difficult if we were to 
significantly cut--to abolish all security and economic 
assistance to the country. And I point out, the amendment is 
drafted not to the Government of Pakistan, not simply to 
economic assistance, but all assistance of any kind to the 
people of Pakistan, through NGOs, through any other mechanism.
    I urge my colleagues to oppose this well-intended but 
wrong-headed amendment.
    Chairman Ros-Lehtinen. The gentleman yields back.
    Mr. Smith is recognized.
    Mr. Smith. Thank you, Madam Chair. And I yield my time to 
Mr. Rohrabacher.
    Chairman Ros-Lehtinen. Mr. Rohrabacher?
    Mr. Rohrabacher. I don't know how much more Pakistan has to 
do to prove to us that they are not our friend and, in fact, 
are our enemy and that if we rely on them for our security, we 
are going to get hurt, as we have been hurt.
    Let's just--again, our relationship with Pakistan started 
during the Cold War. When I came here 22 years ago, let me note 
that I was Pakistan's best friend in Congress, because I had 
been working in the Reagan administration in the Cold War, 
during the Cold War.
    And times have changed. The Soviet Union has disintegrated. 
India, which was in a positive relationship with the Soviet 
Union, is no longer an ally to our adversary. Instead, what we 
have now is a former ally, Pakistan, who has gone its way and 
has allied itself, now, in this world, with America's worst 
enemies. Radical Islam is Pakistan's ally, if not their brother 
and sister. The Pakistani Government, and especially their ISI, 
helped create the radical Islamic threat that threatens us 
today.
    Who is our--okay, what is the second threat that we face? 
China. We have a looming China. And guess what? Pakistan is 
China's best friend. So Pakistan is best friend to the two 
forces in the world that most threaten the United States.
    For us to continue giving them billions of dollars is 
insane. Let's just recognize the world is different, and try to 
establish a new status quo which will, indeed, create a more 
stable world.
    We can't just create an illusion that the Pakistanis are so 
important to us because they cooperate with us in intelligence. 
Intelligence? The ISI is the focal point of their intelligence, 
and we rely on the ISI for guidance? I think that most people 
understand that the ISI has been lying to us and has been 
responsible for supporting radical Islam and creating that 
threat to the world all of these years.
    Let's admit that times have changed and try to create a 
better future, not trying to keep ahold of an illusion that the 
Pakistanis are still our friends. We can make a more peaceful 
world by making sure that India is our friend.
    And I would disagree with my colleague totally, when he 
suggests that India wouldn't want us to move closer to India 
and eliminate this alliance that we have had with the Pakistani 
Government? No. I think that India understands that Pakistan 
has allied with China.
    And let's get back down it. The Chinese, through Pakistan, 
have what? Have been engaged in one of the worst proliferations 
of nuclear technology in recent--actually, in the history of 
the nuclear problems. The fact is that China has worked through 
Pakistan to provide nuclear material and know-how to North 
Korea, to Iran.
    And if there is a threat in the world today, yes, Pakistan 
is that threat. But that is not any reason that we should 
continue giving them money. Talk about bribe money. No, we 
should be trying our very best to develop a new system of 
alliances that will help create the world that is a more 
peaceful world. And that does not include living in a dream 
world, that Pakistan can be relied upon.
    And I do agree--and I will end with this. My colleague has 
made me a challenge, and the challenge is, you can't be in 
favor of eliminating this aid to Pakistan unless you are 
calling for an immediate withdrawal of American troops from 
Afghanistan. Well, let me make it very clear: I think there 
should be an immediate withdrawal of all American troops from 
Pakistan. This is a no--or, from Afghanistan. This is a no-win 
situation, no matter what is going on, but especially when we 
are living in a dream world and giving money to Pakistan while 
it conspires----
    Chairman Ros-Lehtinen. The gentleman's time----
    Mr. Rohrabacher [continuing]. To kill American troops.
    Chairman Ros-Lehtinen [continuing]. Has expired.
    Mr. Faleomavaega is recognized.
    Mr. Faleomavaega. Thank you, Madam Chair. I would like to 
give my time over to our ranking member.
    Chairman Ros-Lehtinen. Mr. Berman?
    Mr. Berman. I don't want to dwell on this too much, but I 
wonder, do we think about what we have done and what we say and 
see if there is any relationship between the two?
    The gentleman talks about the flowering of a new strategic 
relationship with India, an alliance deep--the world's 
greatest, the world's oldest democracies coming together. I 
love the idea. And about 1\1/2\ hours ago, the gentleman voted 
to eliminate that very little economic assistance we give to 
India because they don't vote with us 50 percent of the time at 
the U.N.
    At what point do we have to be accountable for what we do 
and square it with what we say? Give me a break.
    Again, I repeat that I spend a great deal of time with 
Indian officials; I have not only never heard them suggest that 
we cut off all economic assistance to Pakistan, I have, to the 
contrary, heard them suggest that they want a stable Pakistan. 
What they don't want is a Pakistan that is taking our military 
assistance to use it in some military confrontation with India. 
They want it to be focused on counterterrorism, not on the 
India-Pakistan conflict.
    So this ally you want us to join up with--and I want us to 
join up with them, as well--number one, I don't think the best 
way to start that alliance is by saying, we are prohibited from 
any more PEPFAR cooperation because they don't vote with us at 
the U.N.; and, secondly, when we hear what they want, they 
aren't suggesting what this amendment does, they are opposing 
what this amendment does.
    Mr. Rohrabacher. Would the gentleman yield?
    Mr. Faleomavaega. Reclaiming my time, I just want----
    Chairman Ros-Lehtinen. Mr. Faleomavaega?
    Mr. Faleomavaega. I just want to add on to what the 
gentleman from California was saying. And I submit to my 
friend, Mr. Rohrabacher, the situation in Pakistan is not a 
simple one. In fact, it is a very complicated issue, sometimes, 
historically, on issues that have come about not necessarily 
because of our doing, but that is just the way it is. Just as 
we understand on the border line between Afghanistan and 
Pakistan there are 12 million Pashtuns living in Afghanistan, 
where all the Taliban are, and then just across the border are 
27 million Pashtuns living in Pakistan.
    And I can appreciate my good friend's concerns, but I think 
it is not as simple as----
    Mr. Rohrabacher. If the gentleman would remember----
    Mr. Faleomavaega. We are talking about a nuclear power. And 
when you add in the nuclear issues, that changes the whole 
landscape on how we deal.
    My hope and desire, hopefully, that part of our national 
policy is that we should establish friendships with both 
Pakistan and India.
    And I yield to Mr. Rohrabacher.
    Mr. Rohrabacher. I hope the gentleman remembers that, about 
20 years ago, the two of us----
    Mr. Faleomavaega. Oh, I----
    Mr. Rohrabacher [continuing]. Were on the Afghan-Pakistan 
border----
    Mr. Faleomavaega. Of course.
    Mr. Rohrabacher [continuing]. Sleeping in a fortress. And I 
think you got the shotgun and I got the pistol. Or it was one 
way or the other.
    Mr. Faleomavaega. Reclaiming my time, I can say to the good 
gentleman, I still remember that day. We were in Peshawar.
    Mr. Rohrabacher. Yep.
    Mr. Faleomavaega. And we met with a lot of the tribal 
chiefs there in Pakistan. We went to Afghanistan.
    But what I just wanted to share with my good friend is that 
I think denying this funding, which I think is--I thought it 
was only $8 billion, and now I realize it is $18 billion since 
we have established this relationship.
    Mr. Rohrabacher. Right.
    Mr. Faleomavaega. But then to understand, too, we have to 
give Pakistan some credit when the Soviet Union decided to 
invade Afghanistan, for which Pakistan played a very critical 
role----
    Mr. Rohrabacher. That is right.
    Mr. Faleomavaega [continuing]. In terms of how we were 
trying to be helpful.
    Mr. Rohrabacher. And those days are over.
    Mr. Faleomavaega. And I just wanted to share that with my 
good friend.
    Mr. Rohrabacher. Thank you.
    Mr. Faleomavaega. Thank you.
    Chairman Ros-Lehtinen. Thank you very much. Thank you.
    Hearing no further speakers, pursuant to--oh, Mr. Connolly. 
I am sorry.
    Mr. Connolly. I am sorry, Madam Chairman, but I----
    Chairman Ros-Lehtinen. Usually, you are more aggressive in 
seeking time. Have we mellowed you?
    Mr. Connolly. Yes, you have. You really have.
    Chairman Ros-Lehtinen. That is how you get after 1 o'clock 
in the morning.
    Mr. Connolly is recognized.
    Mr. Connolly. Thank you, Madam Chairman.
    And I want to say that, in listening to my friend from 
California, my heart wants to go where he goes. My head, 
however, says, as Mr. Faleomavaega said, it is more complicated 
than that.
    I think his critique of Pakistan's behavior is 
devastatingly on point. And I think we have to acknowledge 
that. This has gone beyond the realm of a troubled 
relationship. And the behavior across a broad spectrum--nuclear 
behavior, new reports about collaboration, allowing North Korea 
to develop a nuclear capability; actual hostile firing on the 
border against U.S. allies, if not U.S. troops; the compromise 
of intelligence on very important missions within Pakistan, 
aimed at what is ostensibly a joint goal of putting out of 
business insurgents and terrorists; of course, the obvious one 
with respect to bin Laden's location for 6 or 7 years in the 
middle of a military retirement community--who knew?--stretches 
credulity and strains the relationship.
    Having said that, it is a nuclear power. And for good or 
real, we need each other at some level. We can't simply walk 
away and abandon the relationship.
    And I listened carefully to my friend's answer. I don't 
know the answer, but I do think this: We, as policymakers, 
cannot afford to simply say, I am willing to roll the dice on 
the unraveling of Pakistan and the outcomes that may flow from 
that.
    So, for all of these reasons, I would be troubled by simply 
precipitously ending any and all aid right now to Pakistan, 
though I am tempted.
    And I would suggest to my friend from California that he 
may want to think about joining me in the request I have put 
before the chairman and the ranking member. I think this is--
and it is going to sound strange--but I almost think this is a 
Vietnam hearing moment for this committee. You know, J.W. 
Fulbright, the then-chairman of the Senate Foreign Relations 
Committee, actually helped change the course of U.S. policy by 
having an in-depth series of hearings covering Vietnam rather 
exhaustively. And I think the time has come for some, at least, 
mini-version, frankly, that covers all aspects of the U.S.-
Pakistan relationship to help air these issues and these 
problems and, hopefully, to help us find some common ground 
with what next steps are.
    And I would renew that request and urge my colleague to 
think about joining, on a bipartisan basis, in making--not to 
even imply there is any resistance. I just think that moment 
has come.
    But, at this time, I would have a lot of trouble crossing 
the precipice and pulling the plug entirely on aid to Pakistan. 
But I must confess I am not unsympathetic with the motivation 
and the analysis our good friend from California has put behind 
us. And----
    Mr. Fortenberry. Would the gentleman yield?
    Mr. Connolly. I would yield, certainly.
    Chairman Ros-Lehtinen. Mr. Fortenberry?
    Mr. Fortenberry. Just to note on your point as to how we 
properly think through the dynamics you well outlaid, our 
colleague Frank Wolf has proposed the formation of an Afghan-
Pakistan study group. Now, I believe before you came to 
Congress, the Iraq Study Group was formulated, and it made a 
significant impact on policy, I believe, and I think made a 
significant contribution in turning that situation around.
    I would just submit that for your consideration because 
that is out there, and I would like to see that actually gain 
some momentum.
    Mr. Connolly. I thank my colleague.
    Mr. Faleomavaega?
    Mr. Faleomavaega. I just wanted to add also to the 
gentleman's comment about Senator Fulbright and the Vietnam 
war. I recall Senator Byrd, throughout the whole time when we 
were going through the Iraq crisis, he singlehandedly, again, 
on every point of contention in terms of whether or not the 
policy was really sound before we committed our troops--and, of 
course, I don't need to say what happened.
    But I just wanted to say that, of interest, that is 
something that we should all learn from what Senator Byrd had 
warned us against, and the very things that he said. It is 
almost like saying, ``See? I told you so.'' But anyway----
    Chairman Ros-Lehtinen. The gentleman's time has expired.
    ``I left my heart in Islamabad.'' It doesn't have the same 
ring.
    So, hearing no further speakers, pursuant to committee rule 
4--oh, Mr. Rivera. Thank you. I would not want to jump ahead of 
you. Of course you are recognized.
    Mr. Rivera. Thank you, Madam Chair. Actually, with your 
permission, I respectfully request to yield to Mr. Rohrabacher.
    Chairman Ros-Lehtinen. Mr. Rohrabacher is recognized.
    Mr. Rohrabacher. I will try not to take the entire 5 
minutes.
    So we got $18 billion that we have provided for Pakistan 
since 9/11--$18 billion. And from all the intelligence reports 
that we have been privately briefed on, we know full well that, 
as we have been handing them that $18 billion, they have been 
supporting elements in Afghanistan who are killing American 
troops. We know that.
    And we now know that Osama bin Laden, who was the 
mastermind behind slaughtering 3,000 American civilians, that 
they were hiding him the whole time. I guess they didn't really 
notice he was, as you say, in the middle of that city with all 
those other military people around him. No, we know they knew 
that.
    So I guess now we just want to continue along; we don't 
want to really try to create a new status quo in South Asia. 
No, we have to do that. We have to do that or we can expect 
even more problems, more killing of our people. Because the 
people who run the Pakistani Government, especially their 
military and their ISI, obviously look at the United States as 
their enemy. Perhaps it is because of cultural differences. 
Whatever reason, they think that they need to be against the 
United States, even as we give them billions of dollars and 
they plot to murder Americans.
    I wonder if giving them money, does anyone think that 
generates a respect or is going to make the relationship 
better? It is going to make it worse. They think we are fools, 
because we are fools. Nobody in their right mind gives money to 
someone who is killing their civilians and being involved with 
an organized, worldwide movement to kill Westerners, to kill 
people of another religious faith. Nobody in their right mind 
does that.
    And we also know that we are borrowing money to give to 
them. Every penny that we give to them, yes, I am afraid every 
penny of that money is being borrowed, because, you know, that 
60 percent of the budget that we aren't borrowing is going to 
take care of the needs of the American people. These things are 
being borrowed. And we are borrowing money from China in order 
to give to Pakistan, which is China's ally, which is China, 
which is doing China's bidding. And I guess China must think we 
are stupid, too.
    So now we are going to borrow that money, and who is going 
to pay for it? Our children and our grandchildren. They are 
going to pay it back because we are acting stupid today. Not 
just stupid, we are acting irresponsibly and we are acting in a 
cowardly way, because we are afraid of what is going to happen 
if we change the way we do things with Pakistan.
    The future belongs to people with courage and insight and, 
yes, wisdom. It is not wise to give money to people who are 
engaged in killing your population. It is not wise to give 
money to someone who has allied themselves with Communist 
China, which is the world's worst human rights abuser and sees 
itself as a global adversary of the United States.
    While we have India next-door, who would like to be part--
and I reject the notion that they don't want to be part of a 
new strategic relationship with the United States. Okay? And I 
believe that India would--and, by the way, I would say, 
probably India will vote with us more in the United Nations if 
we quit financing the terrorists who are going into their 
country and murdering their civilians. Because the attack in 
Mumbai that represented the slaughter of their civilians 
started out in Pakistan, and we know that. And we know the ISI 
was involved.
    Let's face reality. Let's have the courage to face reality 
and start building a new world.
    Chairman Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    Mr. Rohrabacher. And that is what this is. We can start by 
defunding Pakistan.
    Chairman Ros-Lehtinen. And now I am not going to jump the 
gun and say, ``Hearing no further speakers.'' Does any member 
wish to be recognized?
    Hearing no further speakers, pursuant to committee rule 4 
and the prior announcement of the Chair, the recorded vote on 
this amendment is postponed until 9:15 a.m. today, Thursday. 
Yes.
    Mr. Rohrabacher, would you like to have your other 
amendment?
    Mr. Rohrabacher. I have an amendment at the desk.
    Chairman Ros-Lehtinen. Mr. Rohrabacher has an amendment at 
the desk. The clerk--sorry, sorry. I forgot that, Mr. Deutch, 
that you were not on the list. I forgot.
    Mr. Rohrabacher, would you hold it a second?
    Mr. Rohrabacher. As a matter of courtesy and seeing that it 
is so late anyway, yes, I would be----
    Chairman Ros-Lehtinen. Thank you. Thank you.
    Mr. Deutch has an amendment at the desk. The clerk will 
report the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. Deutch 
of Florida. At the end of title IV, insert the following: 
Section 4 [blank]. International narcotics control and law 
enforcement. For international narcotics control and law 
enforcement programs, not more than $1,597,000,000 is 
authorized to be appropriated to the President for Fiscal Year 
2012.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Thank you.
    The amendment is being given out, and Mr. Deutch is 
recognized to explain his amendment.
    Mr. Deutch. Thank you, Madam Chairman.
    In the spirit of my previous amendment, offered some 12 or 
13 days ago, I would like to highlight another critical area of 
assistance beyond development that was omitted from the base 
text. The international narcotics control and law enforcement 
account funds the State Department's counternarcotics, 
transnational crime, and police training programs.
    These programs are focused where security situations are 
the most precarious. Funding in Fiscal Year 2012 will support 
Liberia's transition to peace through funding of police 
training and justice institutions. It will strengthen law 
enforcement and judicial institutions in Latin America and 
Mexico. It will train judges in Afghanistan and fortify 
criminal justice sectors in West Africa.
    We talk a lot, Madam Chairman, in Congress about fighting 
terrorism and crime. We all agree that we need to reduce 
violence in Mexico and safeguard our borders. This account, the 
international narcotics control and law enforcement account, is 
a key way to do that, and we should acknowledge so by 
authorizing it.
    I would point out, Madam Chairman, that my amendment 
authorizes this account at the Fiscal Year 2011 budget amount. 
My previous amendment, if you recall, by unanimous consent, we 
adopted the President's budget, which seemed preferable. I 
would accept that amendment, in which case we would be funding 
this, rather than the $1,597,000,000, the President had 
requested $2,511,000,000. If you wanted to entertain that, I 
would gladly accept that amendment.
    And I yield back.
    Chairman Ros-Lehtinen. Mr. Deutch, will you be willing to 
accept victory?
    Is this higher, or is this lower? Let me have that number 
again, the 2012 and your amendment.
    Mr. Deutch. The Fiscal Year 2011 number that is in here is 
$1,597,000,000. The President's requested amount, which is the 
number that we used for nonproliferation and antiterrorism, 
that number is $2,511,838,000.
    Chairman Ros-Lehtinen. Oh, sorry. We are just looking at 
the President's request, and apparently we have a different 
number that says--$1,511,838,000.
    Sorry. We were looking at different numbers--wrong numbers, 
incorrect numbers.
    So what we are doing is that we are looking at the 
President's number, which is Fiscal Year 2012, which is 
$1,511,838,000.
    Mr. Deutch. So I will look forward to claiming victory at 
the earliest possible moment.
    Chairman Ros-Lehtinen. Yes. Sorry for the victory tease. 
That is not right. So if we could just suspend for a few 
moments.
    So, Mr. Deutch, since the numbers that we had had are 
different--and I apologize--you still have time to continue to 
speak on your amendment. Would you like more time on your 
amendment, Mr. Deutch? Sorry for the fuss. No?
    Then we are once again teasing you with victory. Yes, we 
are teasing you again with victory. They are saying that we 
will accept the amendment.
    Stalling works with us every time.
    Mr. Deutch. I yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you very much.
    So that amendment has been accepted. Thank you. I am glad 
we went to you, Mr. Deutch.
    Now, I have----
    Mr. Rohrabacher. Madam Chairman?
    Chairman Ros-Lehtinen [continuing]. Mr. Rohrabacher.
    Mr. Rohrabacher. I have an amendment at the desk.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. 
Rohrabacher of California. At the end of title IV, add the 
following: Section 4xx. Limitation on assistance to Iraq. None 
of the funds authorized to be appropriated by this act or any 
amendment made by this act may be used to provide assistance to 
Iraq unless the President certifies to the appropriate 
congressional----
    Chairman Ros-Lehtinen. Thank you. We will consider the 
amendment as having been read. And Mr. Rohrabacher is 
recognized.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Rohrabacher. Thank you very much, Madam Chairman.
    The current government, under Prime Minister Maliki, in 
Iraq is realigning Iraq with Iran. That is a reality that we 
have to face. And, of course, my amendment would recognize that 
reality and say, well, let us not fund this transition, and 
let's basically get our troops out and end our involvement in 
that country, rather than not admitting reality.
    So, Prime Minister Maliki's ruling coalition is dependent 
on a Shiite radical, Mr. al-Sadr, who is very well-known. And 
while he is an important part of their coalition, we know he is 
also an open agent of Iran.
    Prime Minister Maliki has been and continues to be 
unresponsive to American requests to keep even a minimal 
detachment of American troops in Iraq. Why? Because the mullahs 
in Iran want all U.S. forces out of Iraq, and Prime Minister 
Maliki is doing their bidding. That was made clear when, under 
his authority, Iraqi troops invaded Camp Ashraf, a refugee camp 
for Iranian dissidents, and massacred unarmed residents, 
leaving 35 dead and hundreds more wounded.
    The United States has already spent $1 trillion and nearly 
4,500 lives, not to mention the tens of thousands who have been 
wounded, trying to liberate and rebuild Iraq, only to have a 
government come to power that is in league with the Iran 
mullah's regime, who is our worst enemy in the region and 
perhaps in the world. The mullah dictatorship in Tehran is the 
most dangerous and violent terrorist state in the Middle East, 
and Maliki is buddy-buddy with them.
    Well, enough is enough. American troops won the war, but 
U.S. State Department bureaucrats have lost the peace. Only a 
new government in Baghdad, one that is grateful for our 
liberation of the Iraqi people from the monstrous Saddam 
Hussein dictatorship and which will be willing to repay, 
perhaps, when they are prosperous, repay the United States for 
what we have expended on their behalf and the behalf of the 
Iraqi people, only then would it be worth for the United States 
to continue aid and support for Iraq.
    Such a government does not exist, however, and it is not in 
the offing as we consider this bill. The ingratitude of the 
current Iraqi Government for all of the sacrifice by Americans 
on their behalf is overwhelming and should dictate that no more 
American blood, nor money, should be expended on their behalf, 
especially when we have to borrow the money in order to provide 
it for them.
    My amendment would shut off the spigot. Those who thumb 
their noses at us after the expenditure of blood and treasure 
that we have given to the people of Iraq do not deserve more of 
that treasure and certainly not more of our people's blood. 
They deserve not one more red cent from the United States.
    And, in that, I am quoting a spokesman from the Maliki 
government, who, after a recent codel where it was requested 
that they might consider the fact that once Iraq is wealthy--
because it has greater oil and gas reserves than Saudi Arabia--
that they might consider paying back a little bit to the United 
States because we are entering a financial crisis, responded, 
``Not one red cent.''
    Well, with that in mind, why do we continue to give money 
to them, millions of dollars to them, at a time when we have to 
borrow the money to give it to them? So I would suggest that 
the State Department funds for Fiscal Year 2012, that is $2.36 
billion, that we decide not to send that to them, and instead--
we should not be giving them----
    Chairman Ros-Lehtinen. The gentleman's time has expired.
    Mr. Rohrabacher [continuing]. Money at a time when we are 
broke and they don't have gratitude.
    Chairman Ros-Lehtinen. Thank you.
    Do members seek recognition?
    Mr. Berman is recognized.
    Mr. Berman. Yes, Madam Chairman. I think I am going to 
oppose this amendment.
    So let me just go through this again. We authorized the 
war. The gentleman voted aye. We spent, by his terms, $1 
trillion on the costs of defense and economic. And for the last 
$1 billion, if they give us back $999 billion, we will give 
them another $1 billion. I don't think they are going to take 
that deal.
    Where was the gentleman on this issue when the 
administration was talking about, this war will pay for itself 
with reimbursements? Where were the conditions on the money 
then? Where were the conditions on all those appropriation 
fights in the 2003 and 2004 and 2005 and 2006 period of time 
when we were asked to spend more and more to deal with all of 
the problems we were confronting? There was never a suggestion 
that those appropriations would be limited. We are going to do 
it on the last $1 billion?
    The issue of whether or not to provide any more assistance 
to Iraq should be decided on its own merits, not on a condition 
they pay us back the $999 billion that we have already spent 
trying to bring freedom and democracy there, to a greater or 
lesser extent successful, depending on where you are coming 
from on that issue. And I don't think this amendment is worthy 
of support.
    And I yield back.
    Chairman Ros-Lehtinen. The gentleman yields back.
    Mr. Smith is recognized.
    Mr. Smith. Thank you, Madam Chair. I yield my time to Mr. 
Rohrabacher, Chairman Rohrabacher.
    Chairman Ros-Lehtinen. Mr. Rohrabacher?
    Mr. Rohrabacher. Yes, thank you very much.
    Let me just note that when we--I think one of the biggest 
mistakes that I have made as a Member of Congress was believing 
the Bush administration when they told us we had to go into 
Iraq to eliminate Saddam Hussein. I admit it, I made a mistake. 
And I think it is important that we do admit our mistakes and 
make up for it and not just continue down with policies that 
are taking our country into bankruptcy and continuing leaving 
our people in harm's way.
    Yes, I voted--but let me note that when my Democrat 
colleagues suggested an amendment, early on, that would have 
required the Iraqis to repay the money that we were spending to 
liberate them, I was one of the few Republicans, Mr. Berman, I 
was one of the few Republicans that sided with the Democrats 
when that amendment was proposed. I think there were three of 
us. And so I am not Johnny-come-lately to the idea that they 
should have been required to pay the price that we were putting 
out to liberate them from Saddam Hussein's vicious and 
monstrous dictatorship.
    Let me also note that the Kuwaitis repaid us when we 
liberated Kuwait from Saddam Hussein's troops. There is no 
reason in the world why we couldn't expect that same position 
from the Iraqis.
    And let us note that your party actually proposed that 
early on. I know because I sided with you and supported it. 
Well, now that they have committed that expenditure, I don't 
think it is wrong, the fact that we are going into a financial 
crisis, to ask them to repay some of that money.
    And maybe we could also ask them--maybe it would be a good 
idea for them not to ally themselves with America's worst enemy 
and the worst enemy of freedom and security and stability in 
that region. They are allying themselves with the mullah 
dictatorship in Iran. There is no reason why we shouldn't ask 
that they not do that and use our influence and, if they decide 
that they are going to do it, pull our support for them. Let 
them know there are consequences if they ally themselves with 
people who are dedicated to the destruction of Israel and the 
instability of the region and enemies of the United States.
    Let me also note, I don't think there is anything wrong 
with holding a government accountable for massacring civilians, 
massacring unarmed people at a refugee camp, doing the dirty 
work for the mullah regime. And if there was anything that 
indicated that these people--that the current Government of 
Iraq are going to be doing the bidding of the ayatollahs and 
the mullah regime, it was this massacre that happened of 
unarmed people at Camp Ashraf.
    So, considering all of those details and the points that I 
have made--number one, the Kuwaitis repaid us; number two, it 
was the position of your party, Mr. Berman, that suggested 
repayment early on, which I supported; and the current trend 
among the leadership of Iraq today is to head toward making an 
alliance with our enemies, the mullahs in Iran--all of that 
suggests to me that we should cut off spending any more of our 
limited money to support that regime.
    And we should get our troops out of that country as soon as 
possible, as well. So whether it is Afghanistan or Iraq, it is 
time for us to start building a better future and having the 
courage to leave behind policies that are counterproductive and 
helping our enemies.
    And so that is why I would suggest it is time to stop 
acting like fools and financing our enemies and financing 
people who are making themselves allies of our enemies. I would 
ask my colleagues to support my amendment to defund the foreign 
aid that is going to Iraq.
    Chairman Ros-Lehtinen. Do any members seek recognition on 
the Rohrabacher amendment?
    Thank you.
    Hearing no further speakers, pursuant to committee rule 4 
and the prior announcement of the Chair, the recorded vote on 
this amendment is postponed until 9:15 a.m. today, Thursday. 
Thank you.
    And just for clarity--I am not good with the mumbo jumbo--
without objection, the amendment offered by Mr. Deutch on 
international narcotics control and law enforcement is adopted. 
Because I said it is ``accepted,'' and that is not the right 
phrase. So, just to be clear.
    And now we have Mr. Fortenberry's amendment.
    Mr. Fortenberry. Madam Chair, I have an amendment at the 
desk.
    Chairman Ros-Lehtinen. The clerk will report the amendment.
    Mr. Fortenberry. No. 66.
    Chairman Ros-Lehtinen. Which one, sir?
    Mr. Fortenberry. 66. Oh, I am being told no. I don't know 
why.
    Chairman Ros-Lehtinen. I think it is--she has the right one 
for you. You can trust her. I don't know about that one on your 
right, but the one in front of you.
    Mr. Fortenberry. Can I ask unanimous consent to hear that 
one right now, even though it has been moved to----
    Chairman Ros-Lehtinen. It has to be on this title, as we 
had discussed.
    Mr. Fortenberry. I know, but I have sat here for----
    Chairman Ros-Lehtinen. No. We were pretty clear. I am 
sorry. We are on title IV, and that is the one that we will be 
debating. And we will be debating it until it ends. So whatever 
you have for title IV, we will take.
    Mr. Fortenberry. Well, let's move to the first one we have. 
I think we have two.
    Well, Madam Chair, while we straighten out the other issue, 
No. 64.
    Chairman Ros-Lehtinen. The clerk will let us know if that 
is on title IV?
    Ms. Carroll. Yes, ma'am.
    Chairman Ros-Lehtinen. Great. The clerk will report the 
amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. 
Fortenberry of Nebraska and Mr. Payne of New Jersey. At the end 
of title IV, add the following: Section 4xx. Sense of Congress 
regarding reducing malaria prevalence and----
    Chairman Ros-Lehtinen. Thank you. With unanimous consent, 
we will dispense with the reading. And Mr. Fortenberry is 
recognized for 5 minutes to explain his amendment. And I think 
that we are on our road to victory.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Fortenberry. Thank you, Madam Chair.
    I should say from the outset, I am pleased to join my 
colleague, Mr. Payne, in this amendment, who co-chairs the 
Congressional Malaria and Neglected Tropical Diseases Caucus, 
in sponsoring this amendment related to U.S. global leadership 
on malaria.
    For members who are not a part of the caucus, you might ask 
why the United States leads the world in this particular 
disease. Simply because it is hard for Americans to sit idly by 
while the vulnerable are afflicted by a treatable and 
preventable disease. Our leadership on this is good for 
humanity. It also builds good relationships in some of the most 
troubled countries across the world. And like much of our 
humanitarian assistance, it aids in global stabilization and, 
therefore, national security.
    Malaria is a life-threatening but preventable disease that 
the U.S. defeated in the 1950s, but other nations are still 
struggling to eradicate it. The majority of those killed are 
pregnant women and children under 5 years old. A child dies 
every 45 seconds from malaria in Africa alone. And 98 percent 
of all malaria deaths occur in just 35 countries, the majority 
of which are in sub-Saharan Africa.
    But we can end this disease. America has asserted strong 
global leadership to help vulnerable persons, particularly 
children. We have seen that investments in malaria and 
neglected tropical diseases control efforts reap significant 
success, but the serious work does also remain. This amendment 
simply reaffirms our commitment to global leadership on working 
to end malaria deaths by 2013, and I urge my colleagues to 
support this essential----
    Mr. Berman. Will the gentleman yield?
    Chairman Ros-Lehtinen. Yes, Mr. Fortenberry, if you will 
yield to Mr. Berman.
    Mr. Berman. Yes. I thank the gentleman for yielding. It is 
a very good amendment and I intend to support it. But I do have 
to say that none of the goals that you want to see achieved, 
and they are very important, and I am very glad you are doing 
this--but none of them can be achieved when you don't allow 
assistance to countries that are below the median in the 
Millennium Challenge's corruption index, or didn't vote with us 
more than 50 percent of the time.
    All I ask is somewhere we square what we want to see happen 
with what we do on these other amendments and rationalize the 
two together because you outlined a whole series of things we 
want to accomplish and you can't do it----
    Chairman Ros-Lehtinen. Reclaiming his time, Mr. 
Fortenberry.
    Mr. Fortenberry. I know it is late. Am I dreaming or have I 
heard this before?
    Mr. Berman. You mean the notion that we should be 
accountable for how amendments relate to each other?
    Mr. Fortenberry. It was an attempt at levity, but clearly 
it was missed.
    Mr. Berman. It was definitely missed, but I am not sure any 
level of levity would have been caught.
    It was not an attack on your levity.
    Mr. Fortenberry. I understand. All right. I still control 
the time. Do you have anything else to say? Or I will yield 
back. I yield back.
    Chairman Ros-Lehtinen. Thank you. I believe that we like 
the amendment and we are ready to accept it. And before I call 
for the vote, I would like to tell you, Mr. Fortenberry, that 
if we just change the title in your next amendment, it will be 
kosher.
    Mr. Fortenberry. How do I do that, Madam Chair?
    Chairman Ros-Lehtinen. We will show you magically. And 
hearing no further speakers--oh, yes, Mr. Berman.
    Mr. Berman. I would like to think about that amendment the 
gentleman wanted to offer, was supposed to come in title VIII. 
Why not let that come in title VIII so we can learn a little 
more about this amendment which I have never seen until a 
couple of minutes ago, rather than--was it in title VIII?
    Chairman Ros-Lehtinen. I think he misclassified and it--and 
I won't get in the way of this, Mr. Fortenberry. Let's just end 
with this amendment.
    Mr. Fortenberry. Are we still in the malaria amendment?
    Chairman Ros-Lehtinen. We would like to pass your amendment 
and--no? We would like to consider it, of course. But hearing 
no further speakers, pursuant to committee rule 4 and the prior 
announcement of the Chair, the recorded vote on the Fortenberry 
amendment on malaria with Mr. Payne is postponed until 9:15 
a.m. today, Thursday.
    Now, we will start the discussion on Mr. Fortenberry's 
other amendment. And let's get in the proper posture and then 
you will make your suggestion of having it be at the proper 
place.
    We have not called it up. Would you like to be in a 
colloquy with Mr. Fortenberry before we call up that amendment? 
Mr. Fortenberry?
    Mr. Fortenberry. Are you recognizing me, Madam Chair?
    Yes.
    Chairman Ros-Lehtinen. Before I call up your amendment, 
Mr.--what is your name? Berman--has a question and he is 
wondering about the proper title.
    Mr. Berman. All amendments that are, with the exception of 
this amendment, have been for title IV have been completed. 
There are no outstanding amendments. My preference if we--there 
is no amendment ready to be offered at this time because there 
is no amendment at the desk, as far as I understand it, that 
amends title IV. I prefer, but that point may no longer be 
correct. Is there an amendment at the desk on title IV?
    Ms. Carroll. Yes, sir.
    Mr. Berman. And is it stapled? I'm just kidding.
    Ms. Carroll. No, it is not.
    Chairman Ros-Lehtinen. Mr. Fortenberry has an amendment at 
the desk. The clerk will report the amendment.
    Ms. Carroll. Amendment to H.R. 2583 offered by Mr. 
Fortenberry of Nebraska. At the end of title IV, add the 
following: Section [blank]. Statement of policy and report on 
sex-selection abortion.----
    Chairman Ros-Lehtinen. We need to have a copy of that 
amendment. While that is handed out, Mr. Fortenberry is 
recognized for 5 minutes to explain his amendment.
    [The information referred to follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Fortenberry. Thank you, Madam Chair.
    I apologize for the confusion here.
    It was my intent to offer this in section 4 all day. But I 
do offer this amendment to draw attention to an abhorrent human 
rights violation that the United States has not yet officially 
acknowledged in its annual human rights report, namely the 
practice of targeting unborn girls for abortion simply because 
they are girls.
    The United States Congress has condemned China for this 
practice, but I believe it is time to elevate international 
scrutiny of this new human rights effrontery. The tragic 
practice known as gendercide, the intentional infanticide of 
baby girls, which reports indicate has claimed the lives of 
over 100 million girls in China and is responsible for a 
staggering demographic imbalance in that nation will also drive 
the pernicious practice of human trafficking in the future.
    According to a 2006 Zogby poll, 86 percent of Americans 
think that discriminatory practice of sex selected abortion 
should be illegal. And across the political spectrum, this 
serious issue is being given much more attention. The U.N. 
population fund, for instance, found that 50 million are girls 
missing in India because of gendercide. A recent survey by 
TrustLaw, a project through Reuters, ranked India as one of the 
worst countries for women in the world because of this plight.
    Amnesty International as well has shed light on this 
problem recently.
    Madam Chairman, I think as a government, we also need to 
shed light on the issue of sex-selection abortion, which has 
been widely denounced by the U.S. medical community.
    One way to do that effectively is to call it out for what 
it is, and make sure that the United States is on record in 
opposition to this egregious human rights violation.
    Chairman Ros-Lehtinen. Hearing no further requests for 
recognition, the question occurs on the amendment----
    Mr. Smith. I will be brief.
    Chairman Ros-Lehtinen. All those in favor, signify by 
saying----
    Oh, Mr. Smith.
    Mr. Smith. I know it is late, but this is an 
extraordinarily important human rights issue, and I do thank 
the chair for yielding. Where are China's missing girls? By the 
tens of millions, they are gone, victims of the earliest form 
of discrimination against the girl child, sex-selective 
abortion. Ten years ago--ten years ago--the U.S. Department of 
State reported in the Country Reports of Human Rights Practices 
that there may be as many as 100 million girls missing. And 
they cited Chinese demographers in stating that.
    China's forced abortion policy, and, as a direct 
consequence, its missing girls, constitutes a massive crime 
against women and the girl child. And as my colleague, Mr. 
Fortenberry, pointed out, it is also creating a huge magnet for 
sex trafficking.
    Finally, everyone remembers Chai Ling, that great leader of 
China human rights at Tiananmen Square, and combating human 
rights and pushing for freedom. She now heads up a group called 
All Girls Allowed. And what they are trying to do at All Girls 
Allowed is to make the world aware of this horrible crime of 
gendercide, especially as it relates to sex-selective abortions 
where ultrasounds are used to find, discover the sex of the 
baby, and when the girl is discovered, she is decimated. She is 
destroyed.
    She said at a press conference that I was a part of just 
the other day that the three most dangerous words today in both 
China and in India are: ``It's a girl.''
    I yield back.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Smith.
    Hearing no further requests for recognition, the question 
occurs on the amendment.
    All those in favor, signify by saying aye.
    Aye.
    Opposed, no.
    In the opinion of the Chair the ayes have it, and the 
amendment is agreed to.
    And with that, I believe that we, our committee is recessed 
until 9:15, will be the first vote as agreed upon.
    So come early.
    Grab a good seat. Thank you. Thank you, Mr. Berman. Thank 
you, Mr. Fortenberry. Thank you, Mr. Smith. Thank you Mr. 
Rohrabacher. Hardy ones until the end.
    [Whereupon, at 2:15 a.m., the committee was adjourned, to 
be reconvened at 9:15 a.m., Thursday, July 21, 2011.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
